<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                  DEPARTMENTS OF LABOR, HEALTH AND HUMAN
                SERVICES, EDUCATION, AND RELATED AGENCIES
                         APPROPRIATIONS FOR 2018
_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                                 ________

    SUBCOMMITTEE ON LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND 
                            RELATED AGENCIES

                       TOM COLE, Oklahoma, Chairman

  MICHAEL K. SIMPSON, Idaho            ROSA L. DeLAURO, Connecticut
  STEVE WOMACK, Arkansas               LUCILLE ROYBAL-ALLARD, California
  CHARLES J. FLEISCHMANN, Tennessee    BARBARA LEE, California
  ANDY HARRIS, Maryland                MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                 KATHERINE CLARK, Massachusetts
  JAIME HERRERA BEUTLER, Washington
  JOHN R. MOOLENAAR, Michigan

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                        Susan Ross, Jennifer Cama,
              Justin Gibbons, Kathryn Salmon, and Lori Bias
                            Subcommittee Staff

                                _________

                                  PART 5

                                                                     Page
Management Challenges at Depts. of Labor, Health and Human 
  Services, Education, and Social Security Administration......         1
Early Childhood Education Programs at Dept. of Health and Human 
Services.......................................................       127
Corporation for Public Broadcasting............................       181
Department of Health and Human Services........................       225
Examining Federal Support for Job Training Programs............       337
                                        
                                        
                                        
                    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ________

          Printed for the use of the Committee on Appropriations
                                 ________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-208                         WASHINGTON : 2017 













                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\               NITA M. LOWEY, New York 
  ROBERT B. ADERHOLT, Alabama               MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                        PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                 JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas               ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                     DAVID E. PRICE, North Carolina
  KEN CALVERT, California                   LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                        SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania             BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                       TIM RYAN, Ohio
  KEVIN YODER, Kansas                       C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                    DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                HENRY CUELLAR, Texas  
  THOMAS J. ROONEY, Florida                 CHELLIE PINGREE, Maine 
  CHARLES J. FLEISCHMANN, Tennessee         MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington         DEREK KILMER, Washington   
  DAVID P. JOYCE, Ohio                      MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California              GRACE MENG, New York
  ANDY HARRIS, Maryland                     MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                      KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                    PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  \1\ Chairman Emeritus

                   Nancy Fox, Clerk and Staff Director

                                   (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2018

                              ----------    
                              
                              
                                           Thursday, March 9, 2017.

  MANAGEMENT CHALLENGES AT THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN 
 SERVICES, AND EDUCATION AND THE SOCIAL SECURITY ADMINISTRATION: VIEWS 
                      FROM THE INSPECTORS GENERAL

                               WITNESSES

SCOTT S. DAHL, INSPECTOR GENERAL, U.S. DEPARTMENT OF LABOR
DANIEL R. LEVINSON, INSPECTOR GENERAL, U.S. DEPARTMENT OF HEALTH AND 
    HUMAN SERVICES
KATHLEEN TIGHE, INSPECTOR GENERAL, U.S. DEPARTMENT OF EDUCATION
GALE STALLWORTH STONE, ACTING INSPECTOR GENERAL, SOCIAL SECURITY 
    ADMINISTRATION
    Mr. Cole. I open the hearing, and good morning. It is my 
pleasure to welcome everybody to the Subcommittee on Labor, 
Health and Human Services, and Education for a hearing this 
subcommittee has not had for a few years, and that is to hear 
from our inspectors general about some of the most pressing 
management and fiscal challenges facing the agencies under our 
purview.
    Programs administered by these three Cabinet agencies as 
well as the Social Security Administration touch the lives of 
every American. Many people rely on programs they oversee to 
see them through tough times in the case of unemployment 
insurance, to go to school in the case of Pell Grants, and to 
obtain medical care in the case of the Indian Health Services 
and Medicare, and to do something as simple as legally changing 
their name on their Social Security card.
    It is, therefore, crucially important that these agencies 
maintain strict security over personally identifiable 
information, that they ensure payments are made properly, in 
the correct amounts, and to the person to whom they are 
intended. It is critical that the agencies modernize their 
internal system to keep one step ahead of criminals and cyber 
terrorists, and to maintain the trust the public places in them 
both in terms of finances as well as information, and, in some 
cases, people's very lives.
    The inspectors general have each outlined some of the most 
pressing challenges confronting each agency, and I look forward 
to hearing their testimony.
    Before we begin, though, I would like to turn to my ranking 
member, my good friend, the gentlelady from Connecticut, for 
any remarks that she would care to make. And, please, the 
gentlelady is recognized.
    Ms. DeLauro. Thank you very much, Mr. Chairman. Let me say 
thank you to our four inspectors general who have joined us 
today: Department of Education, Department of Health and Human 
Services, Social Security Administration, Department of Labor.
    Today both trust in government and confidence in public 
institutions are at record lows, and to restore that trust, we 
need to insist on a strong ethical framework and invest in 
robust oversight of our Federal Government. The work that is 
carried out every day by the OIG agencies is fundamental for 
maintaining the integrity and the efficiency of our government 
programs.
    At a time when resources are limited, there are significant 
management challenges that require the IGs to identify and 
address the most pressing issues facing our agencies. So, it is 
imperative that our public resources are used effectively, and 
that fraud, waste, and abuse are addressed or eliminated.
    I want to focus specifically on the ways in which the 
taxpayers are victims of fraud and abuse. As inspector general 
reports highlight, we have problems with the skyrocketing cost 
of prescription drugs, the predatory practices of low-quality, 
for-profit education institutions targeting vulnerable 
students, and we need to uphold our obligation to ensure that 
American workers have a safe and healthy workplace, and to 
protect the Social Security Program, the most successful social 
program in our Nation's history.
    With regard to the Department of Health and Human 
Services--thank you--I am concerned about funding for program 
integrity activities. In 2016, the Budget Control Act allowed 
for a cap adjustment of $395,000,000 for healthcare, fraud, and 
abuse control, which acts as a deterrent against fraud and 
overbilling in our Medicare system. It saves billions of 
taxpayers' dollars and ensures that our seniors receive the 
benefits that they have earned. Unfortunately, the majority did 
not allow for full funding of this program, leaving us 
$25,000,000 short.
    HICVAC has returned $18,000,000,0000 to the Medicare Trust 
Fund since 2009. That is an average of more than $2,000,000,000 
per year in 2016, and I quote, ``Over $3,300,000,000 was 
deposited with the Departments of Treasury, CMS, transferred to 
other Federal agencies administering healthcare programs, or 
paid to private individuals.'' If we are truly concerned about 
stopping healthcare fraud and reducing the deficit, we need to 
fund the programs that work to do so. And I hope together with 
my colleagues we can commit to fully funding this program this 
year.
    The pattern repeats itself when we looked at the Social 
Security Administration's cap adjustment. The Budget Control 
Act allowed for $1,170,000,000. We fell $13,000,000 short. We 
should talk about curtailing waste, fraud, and abuse, but we 
need to fully fund the prevention efforts in order to make this 
happen.
    Fraud, waste, and abuse do not just manifest itself in one 
form. We have the obligation to root it out when it is carried 
out by large corporations just as we do with individuals. We 
cannot pick and choose where we want to apply program 
integrity.
    I would note that in 2017, the Budget Control Act allows a 
cap adjustment of $725,000,000 for healthcare, fraud, and abuse 
control. However, it allows a cap adjustment of more than 
$1,500,000,000 for efforts to identify fraud and disability in 
SSI benefits. While I fully support ensuring that disability 
and SSI are reserved for their intended recipients, I cannot 
help but notice that we spend twice as much locking 
predominantly low-income Americans from receiving modest 
benefits than we spend investigating fraud and overbilling by 
large healthcare providers.
    Education. We have an obligation to protect students at 
risk from low-quality, high-debt for-profit programs that hurt 
students and veterans. These programs prey on vulnerable 
students and men and women who serve our country. This is 
unacceptable.
    Students at for-profit colleges represent only 10 percent 
of the total higher education population, yet they represent 35 
percent of all Federal student loan defaults. Over the past few 
years, we have seen the collapse of two publicly-traded for-
profit colleges, Corinthian and ITT Technical Institute. The 
Department of Education IG recently issued an audit report that 
evaluated the ways in which the Department is monitoring these 
institutions. It concluded that the new borrower defense 
regulation will help the Department better mitigate potential 
harm to students and taxpayers. So, it is critical that we heed 
the information and the recommendations that come from your 
reports because we need to protect the integrity of the 
borrower defense rule.
    I am interested in your views on our Reemployment Services 
and Eligibility Assessment Program. This is an evidence-based 
program that has shown unemployment insurance claimants return 
to work sooner and save $3 for every dollar spent.
    Look, I will conclude. Our inspectors general take on 
management challenges that are sometimes herculean, but they 
are essential for ethical and effective governance. These 
challenges become all the more difficult when budgets are cut. 
The fewer resources, we have fewer staff to thoroughly review 
activities in our agencies, and fewer opportunities to pursue 
the very actions that the inspectors general recommend. The 
chairman and I have talked about this. We have heard that the 
Administration wants to cut non-defense spending by 
$54,000,000,000, a profound negative impact, in my view, on 
Labor, HHS, Education programs, and for the OIGs. Our bill 
comprises nearly one-third of non-defense discretionary 
spending.
    So, the Administration's proposed reduction would result in 
a cut of nearly $18,000,000,000. The cuts may be even higher 
since he would not be likely to cut veterans or homeland 
security. So, I agree, and the chairman and I have agreed, and 
we have spoken about this, is you cannot balance the budget on 
the back of non-defense discretionary funding.
    A lot to cover in today's hearing, and I thank the four of 
you for the great work that you do, and I look forward to this 
discussion. Thank you very much.
    Mr. Cole. I thank the gentlelady, and I want to begin with 
an assurance to every member of the committee and certainly to 
our witnesses. We are not going to try and compete with Energy 
and Commerce with the length of our hearing today. [Laughter.]
    Ms. DeLauro. Thank you.
    Mr. Cole. You will be out at a reasonable time. I expect 
you to be in your beds tonight, and we will handle this 
expeditiously. But I want to begin, obviously we want to hear 
from our witnesses first, so if we can we will recognize you, 
Mr. Dahl, for your opening statement.
    Mr. Dahl. Let me begin by highlighting one of the 
Department's most serious challenges. In 2015, two students 
were killed at Jobs Corps in different Job Corps centers 
allegedly by fellow students. We found Job Corps had problems 
with centers reporting serious incidents to law enforcement. We 
also found that Job Corps required centers to run background 
checks for a very limited number of positions. To better 
protect the students and staff, Job Corps needs to update its 
policies on interactions with law enforcement and expand the 
use of background checks.
    The next challenge is managing the astronomical increase in 
compounded drugs in the Federal Employee's Compensation 
Program. Over 5 years, the reported costs of compounded drugs 
skyrocketed from $2,000,000 a year to $263,000,000, more than 
the cost of all the other drugs combined. With the exorbitant 
reimbursement rates, these drugs pose a high risk of fraud, 
including collusion between pharmacies and physicians.
    In one case alone, we uncovered potential fraud for nearly 
$100,000,000. The Department needs to ensure that any 
compounded drugs that are reimbursed are medically necessary, 
effective, safe, and reasonably priced.
    Another challenge is reducing improper payments in the 
Unemployment Insurance Program. In 2016, the UI Program had 
$3,900,000,000 in improper payments. That was the 7th highest 
among all Federal programs. The Department needs to evaluate 
the impact of its strategies to reduce improper payments. The 
Department should also address the systemic weaknesses that 
make the program more susceptible to fraud. Many of our 
criminal investigations around the country involve identity 
theft by criminal groups that have found ways to exploit these 
program weaknesses.
    Furthermore, for many years we have reported on recurring 
information security deficiencies that create unnecessary risk 
to DOL systems, as the chairman pointed out. The Department 
needs to place greater emphasis on and prioritize available 
resources to address these deficiencies.
    Finally, Mr. Chairman, we remain concerned about fraud in 
the Foreign Labor Certification Programs, including H-1B. We 
have investigated many criminal schemes involving fictitious 
employers filing fraudulent applications. We have recommended 
that the Department report suspensions and debarments on the 
government-wide exclusion list. We have also partnered with DOJ 
and other law enforcement to combat human trafficking where 
workers are often exploited for economic gain.
    I want to thank you for your continued support of our work. 
That support has helped us identify nearly $4,000,000,000 in 
recoveries and savings over the past 5 years, representing a 
return on investment of 9 to 1. As the subcommittee has 
recognized, the work of the OIG offers a solid investment for 
taxpayers.
    That concludes my statement, and I would be pleased to 
answer any questions.
    [The prepared statement and biography of Mr. Dahl follow:]
    
    
                                           
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Cole. And we will certainly return for questions. We 
are going to obviously move through and give everybody a chance 
to testify.
    Mr. Levinson, delighted to have you here. You are 
recognized for 5 minutes for any remarks you care to make.
    Mr. Levinson. Good morning, and thank you for the 
opportunity to testify about top management challenges facing 
the Department of Health and Human Services.
    HHS programs touch the lives of virtually every American. 
Sound stewardship of these programs depends on strong 
partnerships within HHS as well as with external organizations, 
including other Federal, State, and local government agencies 
and with the private sector.
    My testimony today focuses on three key management 
challenges. One, is strengthening the use and security of data 
and technology. The right data managed and used effectively can 
help to ensure the efficient operation of HHS programs, as well 
as support proactive management oversight fueled by data 
modeling.
    To capitalize on growing amounts of data in healthcare, 
complete, accurate, and timely data must be available, subject 
to security and privacy protections. For example, my office has 
long raised concerns that neither HHS nor the States have 
complete and accurate national data needed for effective 
oversight of Medicaid.
    Two, is effectively administering grants and contracts. HHS 
has opportunities to improve its oversight of grants and 
contracts management working with its State partners. For 
example, HHS lacks effective mechanisms to share information 
among its awarding agencies about problematic grantees, making 
it difficult to assess new grant applicants.
    Third, is maintaining focus on safety and quality of care. 
My office had recommended stronger quality and safety 
protections for people receiving services in a variety of 
settings. For example, HHS should harness expertise from across 
its agencies and from stakeholders to address serious and 
longstanding challenges at Indian Health Service hospitals.
    HHS also has opportunities to reduce patient harm through 
better detection and prevention of adverse events occurring in 
institutional settings. In addition, fraud, abuse, and neglect 
in home- and community-based settings have resulted in deaths, 
hospitalizations, and patient harm.
    Finally, OIG management reviews of HHS' implementation of 
new programs offer lessons for the efficient management of 
large and complex government programs. These include having 
clear project leadership, rigorous contract oversight, close 
coordination of policy and technical work, and effective 
planning and prioritization to achieve program goals. One key 
step HHS can take is to redouble its effort to implement 
pending OIG recommendations.
    I thank the committee for its commitment to program 
integrity, and look forward to continued collaboration with HHS 
and Congress to safeguard taxpayer dollars and promote the 
welfare of the people served by HHS programs. I look forward to 
responding to your questions.
    [The prepared statement and biography of Daniel R. Levinson 
follows:]



        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cole. Thank you very much. And is it Ms. Tighe? I wish 
I could take credit for that. Fortunately, the clerk here 
corrected me immediately. So, Ms. Tighe, you are recognized for 
5 minutes for whatever remarks you care to deliver to the 
committee.
    Ms. Tighe. Good morning. I am pleased to be invited here 
today to discuss the most significant management challenges 
facing the Department of Education. In my written testimony, I 
provide information on all five of the challenges we identified 
this year. In the time I have this morning, I would like to 
focus on one of them as well as highlight an emerging fiscal 
challenge.
    The Department must be able to ensure that the billions of 
dollars entrusted to it are reaching the intended recipients. 
However, our work has identified weaknesses in the Department's 
ability to do so. One of those areas is improper payments.
    In May 2016, we reported that the Department's improper 
payment estimates for both the Direct Loan and Pell Grant 
Programs were inaccurate and unreliable because the Department 
used estimation methodologies that did not include all program 
reviews that could identify improper payments, and did not 
include improper payments from ineligible programs or locations 
or other sources.
    In response to our recommendations, the Department revised 
its estimates for fiscal year 2016. This resulted in an 
increase in the improper payment rate for the Direct Loan 
Program from $1,280,000,000 to $3,860,000,000, and for the Pell 
Program from $560,000,000 to $2,200,000,000.
    Although my office believes that the revised rates are more 
realistic, the significant increases in improper payment rates 
emphasize for the need for the Department to more aggressively 
address this challenge by using a more stable estimation and 
methodology in intensifying its efforts to address root causes 
of improper payments.
    Now, I would like to talk to you a little bit this morning 
about an emerging fiscal challenge. The Department has 
developed a set of complex financial and economic models to 
estimate the cost of its student loan programs. The audits of 
the Department's and FSA's financial statements this past year, 
however, determined that the Department did not have fully-
developed modeling activities, and particularly those involving 
the new income-driven repayment plans.
    Given the size, growth, and changes to this program, 
ineffective controls over the design of the new models can 
impact the reliability of any data, but particularly the 
overall cost to the Federal government. As an example, the 
Direct Loan Program loan cost, called the subsidy cost, was 
adjusted upward nearly $22,000,000,000 in fiscal year 2016 
based on a number of factors, including program changes in the 
percentage of discretionary income to be paid under the income-
driven repayment options, lower than anticipated collection 
rates, and the fact that a greater percentage of borrowers 
chose these costlier programs.
    My office is currently conducting an audit of the 
Department's disclosures of costs related to these programs. We 
will share the findings of that audit once it is completed.
    And this concludes my statement this morning.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Mr. Cole. Thank you very much for your testimony.
    And, Ms. Stone, we will turn to you now, and you have 5 
minutes to deliver any remarks you care to to the committee.
    Ms. Stone. Thank you. Good morning. Chairman Cole, Ranking 
Member DeLauro, members of the subcommittee, thank you for the 
invitation to testify. Today I will highlight three challenges 
that Social Security needs to prioritize in these times of 
limited resources.
    First, SSA must modernize its IT infrastructure. The Agency 
relies on old programming code and applications to process core 
workloads. Modernization is critical to meet current and future 
workloads. By effectively implementing new technologies, SSA 
could improve efficiency, customer service, and program 
integrity.
    In the past, SSA has outlined general multiyear goals to 
modernize specific applications and databases. While the Agency 
does have some modernization efforts under way now, the Agency 
still needs to develop a comprehensive IT plan with specific 
objectives and deliverables.
    Second, SSA must address service delivery challenges. In 
2015, the average wait time in SSA field offices was 26 
minutes, and this was an increase of about 37 percent since 
2010. To reduce office visits, SSA plans to offer more of its 
services online. However, the Agency must ensure that these 
services are secure and that customers understand how to use 
them.
    With regard to the disability process, SSA had made 
progress in completing more initial claims. However, SSA must 
reduce the average time for a hearing decision as well as 
reduce the number of hearings that are pending. At the end of 
2016, it took 543 days for a claimant to receive a hearing 
decision, and SSA had 1.1 million hearings pending.
    Third, SSA must strengthen program integrity. Given the 
overall dollars in SSA's program, a slight error can result in 
significant losses. For that reason, we have encouraged SSA to 
prioritize integrity workloads that prevent and identify 
improper payments and fraud.
    Recent legislation, such as the Bipartisan Budget Act of 
2015, authorized SSA to access wage data for disability 
applicants. It also mandated that SSA expand the successful 
Cooperative Disability Investigations Program. Additionally, I 
want to thank Congress for the IG Empowerment Act, which will 
help us to pursue timely data matches with other agencies so 
that we may identify potential fraud and waste.
    In conclusion, these challenges are complex and 
interrelated. However, SSA must address them in order to serve 
its customers effectively and promote program integrity. We 
will work with both SSA and this Subcommittee to address these 
challenges.
    Thank you, and I would be happy to answer any of your 
questions.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Mr. Cole. You all four are remarkable because you are well 
under 5 minutes. We are not used to that around here, so thank 
you for that, allowing us to get to the questions even more 
quickly.
    I am going to ask you something that is probably not a fair 
question. I am going to ask you each in turn because it is 
really not your purview, and it is a question I will, frankly, 
be putting to the respective secretaries and administrator when 
they come before us in the future. But you know these 
departments intimately.
    If we really did have a 15 to 20 percent cut in the funding 
level for each of your respective agencies, how would they 
respond, and would they be able to meet their missions and 
commitments in your view? We will start with you, Mr. Dahl, if 
we may.
    Ms. DeLauro. He is shy. [Laughter.]
    Mr. Dahl. As the chairman and members know, we use an 
evidence-based approach in our work, and the methodologies that 
we use would lend themselves to making the findings that we do 
and recommendations that we do. So, it is difficult to come at 
this from a theoretical perspective.
    I think the challenges that I identified this morning will 
only be compounded by fewer resources. And I think that it 
would be difficult for them to address many of them, and many 
of them where additional resources are required. But what we do 
identify in our work is recommendations that are resource 
neutral that would allow them to make improvements in the 
program with existing resources.
    So, you know, not to dodge the question, but it is 
difficult for us to answer that in a theoretical manner.
    Mr. Cole. It is difficult to answer. I am going to just 
move down the line because time is limited. Mr. Levinson, what 
would be your response to a question like that?
    Mr. Levinson. I think one of the key complications, Mr. 
Chairman, for HHS in responding to that question would be that 
80 percent or 90 percent of the money is on the non-
discretionary side, so we are dealing with Medicare and----
    Mr. Cole. And let me be clear. I am not talking about the 
non-discretionary side.
    Mr. Levinson. We are not talking about that, so we are in a 
much smaller percentage, but nonetheless we are talking about 
in excess of $100,000,000,000 covering a vast range of human 
services research and so forth. So, while we work daily to find 
where the efficiencies could be had and to uncover dollars 
wrongly or unnecessarily spent, it would be an enormous 
challenge at this point, I think, for each of those components 
represented on the discretionary side to be able to do their 
jobs effectively.
    Mr. Cole. Ms. Tighe.
    Ms. Tighe. Well, I would point out first that the 
Department of Education already has the smallest staff of any 
Cabinet-level department, but the third largest discretionary 
amount of money it has to disburse. It is also the third 
largest grant making agency, the third largest portfolio of 
grant making agencies.
    It is already challenged to meet some of the things we 
point out through our management challenges work, such as 
oversight and monitoring of the money that goes out, the 
billions that go out. It has a few large pots of money, the 
Title I money, IDEA, the special education money, and Pell 
Grants. And it is hard to think about cutting and what that 
mean for students.
    Mr. Cole. It would be pretty dramatic on just IDEA. That is 
almost a $12,000,000,000 program. So, if we cut----
    Ms. Tighe. As a mother of a son, a special needs child, 
that is a hard one. It is a hard one to think about. But I 
think that a lot would depend on how those cuts are made. Are 
they across the board? Are you going to take away programs?
    Mr. Cole. You know, if we ended up, that is what you would 
have to do.
    Ms. Tighe. Yes.
    Mr. Cole. I mean, you would not just do it across the 
board. This committee would be called upon to make an 
extraordinary range of difficult decisions about letting whole 
programs go in some cases. I do not see how you could manage 
cuts like that in any other way.
    Ms. Tighe. The one area I would really worry about for the 
Department in particular is IT security. It has been a 
management challenge since 2006. You cannot fix that on the 
cheap. Money has to be put in, and it is a never-ending keeping 
one step ahead of technology and of the bad guys who find new 
ways into our systems. I think it is a hard one to do without 
sufficient resources.
    Mr. Cole. Thank you. Ms. Stone, and obviously this would 
not apply to Social Security payments, but to the 
administrative apparatus that we appropriate money for here.
    Ms. Stone. As I have highlighted in both the oral and 
written testimony, modernizing IT is a huge challenge for the 
Agency, and any reduction would force the Agency to have to 
make some very tough decisions about do we modernize so that we 
can sustain our business process and service to the community 
in the future, or do we just try to do the next step. So, those 
will be some pretty tough management challenges.
    Mr. Cole. I assume that this will probably compound our 
problem with wait lists, and backlogs, and cases pretty 
dramatically.
    Ms. Stone. That would be a good assumption considering that 
we had wait times go up by about 37 percent, as I indicated, 
and we have also seen the number of individuals coming into our 
field offices increase over the past year.
    Mr. Cole. I appreciate that. With that, let me turn to my 
good friend, the ranking member, for any questions she cares to 
ask.
    Ms. DeLauro. Thank you very much, Mr. Chairman. Let me just 
make a very quick point that in the present 2017 budget, each 
of these departments would have an increase, some pretty 
substantially for the inspectors general, HHS, Social Security 
now already, and the 2017 has not been passed yet. But already 
there is a cut in some instances, fairly significant in the 
terms of the work that you do. So, if you compound that with 
what could potentially happen in 2018, you need to think very 
carefully about what you can and what you cannot do.
    To my question. The White House does not have an inspector 
general. In my view, this is a serious concern given the 
avalanche of questions about unethical relationships, 
investments, and activities in this Administration that have 
gone unanswered.
    I have introduced a bill to create an IG in the White House 
to ensure the executive office of the President acts in the 
public interest. Similar legislation did pass the House in a 
landslide in the 104th Congress. On a similar note, many of the 
Cabinet appointments have been plagued by ethical conflicts, so 
I expect that many of future political appointments may be 
trailed by complicated financial arrangements that could lead 
to personal conflicts of interest.
    The question is this. What will you do to raise and uncover 
any conflicts of interest or other unethical activities? Let us 
go for it, guys.
    Mr. Levinson. Well, I think it would be useful to keep in 
mind that there are agencies within the executive branch, 
especially the Office of Government Ethics, that serve as a 
government wide----
    Ms. DeLauro. I am reminded that that was one that we wanted 
to have eliminated at the outset of this Congress. Fortunately, 
that did not happen, but go ahead.
    Mr. Levinson. It is a very important part of the 
infrastructure, if you will, of the executive branch.
    Ms. DeLauro. Right.
    Mr. Levinson. And Congress crafts these so that there is 
maximum coverage of the executive branch, notwithstanding that 
there are certain things that are carved out----
    Ms. DeLauro. What about agency secretaries?
    Mr. Levinson. Well, as IGs, we are embedded in our 
departments and agencies. So, our jurisdiction generally stops 
at the door.
    Ms. DeLauro. At the secretary level?
    Mr. Levinson. Well, and it includes everyone up to the 
secretarial level.
    Ms. DeLauro. But it excludes the secretary.
    Mr. Levinson. No, no. It would include the secretary.
    Ms. DeLauro. Oh.
    Mr. Levinson. Everyone who works at the Department. Again, 
there are some exceptions in areas like national security and 
so forth, so I am speaking far more general than may be the 
case comprehensively. But, no, it includes everybody within the 
Department. But because we stop with the Department, when there 
are issues that, in effect, transcend the Department or that 
connect with other players, that is where sometimes IGs face 
difficulties in being able to really get a full handle on a 
particular investigation or review.
    Ms. DeLauro. Ms. Tighe.
    Ms. Tighe. Well, I think, you know, strong ethics is 
important for our agencies. I do believe it is a partnership, 
though. Mr. Levinson mentioned the Office of Government Ethics, 
but also our in-house ethics groups that are responsible for 
doing the training, the mandatory training, that should go on 
every year. That is an important part, I think, of achieving 
good ethics because you need to make sure there is awareness of 
the rules of the road that we all have to abide by.
    And then the responsibility really of the IG's offices is 
when we have complaints is that we go investigate those.
    Ms. DeLauro. And conflict of interest?
    Ms. Tighe. Including conflicts of interest.
    Ms. DeLauro. And that is all the way up to the top.
    Ms. Tighe. Yes, our jurisdiction, as Mr. Levinson said, 
is----
    Ms. DeLauro. I am not going to have much time, so let me 
get to Mr. Dahl.
    Mr. Dahl. Like Kathy and Dan mentioned, we would have a 
vigorous, as we do now, a vigorous conflict of interest 
approach to any allegation that we would get, no matter what 
level that we pursue it.
    Ms. DeLauro. I am going to hold on Social Security for a 
second. Each of you has asked for a funding increase: 10 
percent DOL, 13 percent HHS, 5 percent Education, 2 percent 
SSA. You have got a hiring freeze, which was established on 
January 23, 2017. That has got to, well, you tell me, impacting 
the vital mission and the work of the OIG. Have you enforced 
and scaled back your oversight work based on the hiring freeze, 
yes or no. And I am going to ask you to get to me in writing.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Tighe. Yes.
    Ms. DeLauro. Yes.
    Mr. Levinson. Yes.
    Ms. DeLauro. Yes.
    Mr. Dahl. Yes.
    Ms. DeLauro. Yes. OK, in writing I would like to know, and 
I think this committee would like to know, what is it that you 
are not now able to do, each of these departments, because of a 
hiring freeze, which can only be compounded by a cut in 2017 
and a potential cut in 2018.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you. I thank the gentlelady. That is a 
great question, and that would help the committee to know that.
    With that, let me turn to my good friend, the gentleman 
from Idaho, and recognize him for 5 minutes for any questions 
he cares to ask.
    Mr. Simpson. Thank you, Mr. Chairman, and thank all of you 
for being here today, and thanks for the work that you do. We 
appreciate it very much.
    Just to set the record straight, there was no effort to 
eliminate the Ethics Office earlier in this Congress. Some 
changes, some reforms maybe, but there was no effort, just so 
that we have that on the record. [Laughter.]
    But I do want to thank you for the work you do. And I do 
not really have any questions specifically for you, but as I 
read these reports, we are in kind of a strange state in that 
we have a new Administration coming in that has said they are 
going to make significant changes in the direction of a lot of 
these things. And a lot of the recommendations that you make 
will probably still be valid when new secretaries do new 
programs and those kinds of things.
    But I suspect that even with the requests that you have 
made for increases with the inspector general that your job is 
going to become significantly more difficult as we change 
programs, change directions, and change the way we do things. 
Would you say that is true?
    Ms. Tighe. Yes, I mean, I think it will. Every time sort of 
new programs come in, we have to sort of shift gears, right? 
And it entails learning about those new programs, and planning 
audit work, and anticipating potential fraud and things that 
may be associated with the program. So, I think we can really 
expect some challenges for our work.
    Mr. Levinson. And I think one of the overarching challenges 
in this, what you call strange times, and I think that that is 
accurate, is the technology transformation that we are not at 
the beginning of, and absolutely not at the end of. We are 
truly in the middle of, and it affects a variety, perhaps in 
one form or another, virtually all public programs. But 
certainly at HHS we feel it enormously, and it holds great 
threat, and it holds great promise.
    So, it requires a very dedicated and sophisticated approach 
to being able to handle the challenge of technology in a way 
that actually creates the efficiencies ultimately that will 
allow programs to be delivered in a very cost-effective way. We 
are not there, although in many respects we can kind of see it. 
We just cannot get there yet because we simply do not have the 
infrastructure in place.
    And I think that is really the challenge of the 21st 
century, at least this period of it. And I think it does make 
it difficult for those who try to administer and oversee 
programs like us and for policymakers like you who are trying 
to make the most of what we have right now.
    Mr. Simpson. I suspect with the Social Security 
Administration, IT security and cybersecurity is a huge issue 
because, you know, every time that any release goes out, 
whether it is with some department store or whatever, everybody 
says they have got your Social Security number now. That has 
got to be huge within the Department.
    Ms. Stone. It is, and, in fact, each year when we do our 
financial statement audit, at least for the last 3 years, we 
have noted deficiencies in the IT infrastructure or IT security 
infrastructure. And it can range from making sure that the 
right people have access to certain systems or to a more global 
practice of how the Agency monitors its network to identify 
vulnerabilities and to remediate those vulnerabilities 
immediately, and, if you can, prevent them from happening again 
in the future.
    So yes, and that is why even with IT modernization, 
security has to be a part of the development. It cannot be an 
afterthought.
    Mr. Simpson. Well, again, thank you all for being here and 
testifying on this. It is going to be, as I said, challenging 
in the future, particularly for all of you. I would hope that 
the slowdown in the Senate of getting the nominees and the 
undersecretaries and stuff to do so much of the work halts, and 
that we can get the Administration in place so that they can 
address these issues as well as the ones that are going to be 
coming up as we make probably significant changes in the 
direction that a lot of these departments are going. So, thank 
you.
    Mr. Cole. I thank the gentleman. Again, just reminding 
members, obviously we move according to who was here at the 
beginning of the hearing. So, Mr. Pocan, you are actually next 
up.
    Mr. Pocan. Well, thank you, Mr. Chairman. Thanks for being 
here today. So, I am new to the subcommittee, new to the 
committee, so if I ask something you have maybe done a previous 
review on, just, you know, please give me a quick update on 
where that is at.
    The first question I just have on the management side is to 
Ms. Tighe. In the Department of Education, you know, Wisconsin 
is one of these States that was early on putting public dollars 
into private schools through voucher programs. I was in the 
legislature in the very, very beginning, now, like, 18 years 
ago, on this, and it has not been the smoothest ride. We had 
the GAO do a study, I believe it was last year. I do not know 
if you have had a chance to see the GAO review. It is the first 
part of it.
    But one of the things they found is that in the four States 
they visited with these programs, that the administrators said 
they are having a problem getting resources for educational 
services, like speech therapy and reading tutors. Specifically, 
a lot of these schools do not take children with disabilities, 
and yet the funds that we have specifically for disabilities 
are going to these schools.
    So, is there anything that we are doing to kind of ensure 
that the dollars that are supposed to go to these programs, to 
students with disabilities, are actually getting there given 
that a lot of these dollars are siphoning off to programs that 
are not taking the children with disabilities, but it is still 
the same dollars?
    Ms. Tighe. Well, the special education money is done under 
a formula for each State every year, and it goes, you know, 
based on anticipated numbers of needed students to service. And 
I do recall reading that GAO report, and I think it pointed out 
some, you know, very good issues.
    But I think that, and there is oversight by the Department 
on ensuring that the special education requirements are met. 
There is no sort of Federal voucher program that is being, you 
know, administered in any fashion by the Department of 
Education currently, so.
    Mr. Pocan. Just ensuring that because the schools are not 
taking it. That is what the report said, and it is true in my 
State, children with disabilities, but they are still getting 
the public dollars. What is happening is the public school 
system is left then with more children that have higher costs.
    Ms. Tighe. Yeah, I think the issue relates to the, and I 
forget what it is called, but it is sort of like sort of 
services like speech therapy and other things that a school 
district will agree to give students. So, when they go to do it 
in other schools, then the real practical sort of implications 
are that, say a speech therapist there may serve, like, the 
main high school. And maybe, you know, have a full day of 
students to see there, all of a sudden then has to spend some 
time going to other parts of the district covering the other 
students.
    And I think those things need to be thought through. But I 
thought the GAO had brought out some really good issues on 
that.
    Mr. Pocan. And I know they are doing a second part two on 
outcomes, which I am really looking forward to seeing on that. 
But we did have recently a lawsuit in Milwaukee against one of 
the schools, and what they found, they were going after abusive 
practices of the children. But when they studied the children, 
7 percent of the students at the school tested at proficient or 
above in English and language arts, and zero percent tested at 
being proficient in math.
    So, one of the problems, again, is, you know, how do we 
ensure that the kids who are going to these schools are still 
getting the educational quality services? They are getting 
taxpayer dollars, but by things like this, they are clearly not 
getting the education they expected.
    Ms. Tighe. I mean, I think those are good issues for the 
Department to be focusing on.
    Mr. Pocan. OK, so they could possibly. All right, great. 
And then a question for Inspector General Dahl at the 
Department of Labor. I had sent a letter a while back on some 
Davis-Bacon issues. And one of the issues that we are seeing, 
and I just talked to Darren Soto from Central Florida, and they 
are having some issues where they are having some depression of 
the prevailing wages.
    But the question I had that we have seen in Wisconsin is on 
the form, and I am going to have to read this form because I do 
not have this memory. WH-347 Form, but it is a form where they 
report the wages in areas for prevailing wages has not been 
updated really since 1968. And there have been some areas where 
people are kind of artificially exaggerating fringe benefit 
claims in order to affect what they are really not paying in 
wages. And some States have changed forms to adjust this, but I 
do think there is adjustment of the Federal form.
    Have you looked at this at all, because, again, 1968, there 
really have not been any major, significant changes, but some 
States have noticed this as an error.
    Mr. Dahl. Yeah, my recollection is that we are looking at 
the fact that the Department is referring back to fairly 
ancient data in determining the prevailing wage. And we will 
get back to your office on exactly what is going on on that.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Pocan. Great, thank you. And at this point I will yield 
back. I got 6 seconds. [Laughter.]
    Mr. Cole. I appreciate the extra time. [Laughter.]
    The gentleman from Arkansas is recognized for 5 minutes.
    Mr. Womack. Thank you, Mr. Chairman. My appreciation to the 
inspectors general that are before us this morning.
    I know my friend, Mike Simpson, has already corrected the 
record in part, but I want to further perfect the record, if 
you will, regarding the discussion about ethics from my friend 
from Connecticut. And that had nothing to do with government 
ethics, which has been discussed here. It has everything to do 
with Office of Congressional Ethics, and that system or that 
change was abandoned obviously. But I wanted to make sure that 
we are talking about the right ethics organization so that 
there will be no misunderstandings.
    Acting Inspector General Stone, I appreciate your comments 
about IT. We hear this in every hearing. We need to spend more 
money on IT. I hear it every year. I am an old mayor, and I 
heard it from my staff. I know it is an ever-changing technical 
world out there and that we need to spend money on IT, and I 
can certainly see where we need to do some things within the 
Social Security system.
    But one of my real concerns is that it takes place when a 
government entity abandons a commercial off-the-shelf type 
product in order to do something specific to their particular 
needs. So, I want to talk a bit just about the Disability Case 
Processing System, and I appreciate your office's effort to 
monitor the program. This poorly-operated project demonstrates 
the value of an inspector general.
    In 2016, just a few months ago, the OIG released an updated 
report pointing out that the Case Processing System is again 
behind schedule, expecting to spend nearly $50,000,000 more on 
the system in 2017 prior to the 2016 setback, for a running 
total now of over $427,000,000 spent from 2008 to 2017, again, 
prior to the setback. It still admitted it had years of 
development before it could be completed.
    So, more direct to my question, are you aware a current 
commercial vendor completed an upgraded system that apparently 
could achieve most of what SSA is working to achieve?
    Ms. Stone. I do know that there are some commercial or at 
least one commercial entity that has proposed a possible 
solution. I am not aware of the details. But our recommendation 
to the Agency is that you have to compare the alternatives. You 
have to have good cost information so that you can determine 
which is going to be the best bang for your bucks.
    Mr. Womack. Are there any new revelations about this, I 
call it a failed IT project, but has it revealed any additional 
information useful in the discussion?
    Ms. Stone. I will say this. This is a huge complex 
modernization effort that they are taking on. They are using a 
strategy that is not commonly used in the Federal realm. They 
are using Agile. In the private sector, it may be more common 
to do that. In government, we are more accustomed to what is 
called the waterfall effect where you identify specific 
milestones and estimated costs. You either meet it or you do 
not.
    Agile is a little more iterative, and there is a lot of 
ambiguity around that. So, when you try to marry those two 
environments that do not necessarily match well together, there 
was a huge learning curve for the Agency in trying to adopt 
that. So, in December, they did not release the anticipated, I 
guess they call it Release 1, and there was supposed to be more 
functionality by December. They did not have that.
    The three States that are using this model are processing 
about 1 percent of that workload. Now, is that enough 
information to tell you that it is worth going forward? I do 
not know that, but our recommendation continues to be you 
really need to closely monitor this. And I have said this 
before other committees, I really do not want to be sitting in 
front of someone 6 months from now and them asking me the same 
question about did you get your money's worth after expending a 
serious amount of money.
    Mr. Womack. Well, I know I am out of time, and I cannot get 
to the second part of my question. I will just say for the 
record that every dime that we spend trying to modernize with a 
lot of failure is money that cannot be paid on paying claims. 
And I think this is a case that continues to need some direct 
supervision and some tough choices, some tough decisions in the 
near term.
    Thank you. I yield back my time.
    Mr. Cole. Thank you. We will go next to my good friend. The 
gentlelady from California is recognized for 5 minutes.
    Ms. Roybal-Allard. Thank you, Mr. Chairman, and welcome.
    Inspector General Levinson, your 2016 report states that 
oversight of programs for children as one of HHS' top 
management challenges, and uses one example, the difficulty of 
preventing grant fraud in the custody care of unaccompanied 
minor children.
    For example, I was appalled by the findings of last year's 
Senate investigation, which reported that unaccompanied minors 
who were ordered released from ORR and placed with distant 
relatives ended up being trafficked to eight farms and forced 
to work 12 hours a day. Your 2017 OIG work plan for HHS 
recommends that ORR develop a formal agreement with DHS to 
delineate each Department's specific responsibilities for 
gathering and exchanging information about children after 
placement.
    As ranking member of the Homeland Security Subcommittee, I 
am particularly concerned that this recommendation be carried 
out in a way that ensures the ongoing safety of these most 
vulnerable children.
    I have a three-part question. What improvements have been 
made since the Senate investigation? Do you think the 
responsibility of ensuring child safety should reside with HHS 
or DHS? And do you believe this formal agreement between ORR 
and HHS will be sufficient to ensure child safety post-
placement? And if not, what other recommendations would you 
have?
    Mr. Levinson. I will need to get back to you on where 
things stand since the Senate investigation, and we will be 
sure to give you a current status of where things are.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Mr. Levinson. We certainly do oversight of whatever 
programs HHS is responsible for, and there are, in fact, a 
variety of different programs that feature safety and quality 
of care concerns with respect to children. Obviously, Medicaid 
and the Children's Health Insurance Program are an important 
part of our responsibilities to oversee, the Foster Care 
Program under ACF as well as the Child Care Development Fund. 
All of these programs during the course of our work, we have 
uncovered vulnerabilities in how those programs are actually 
administered.
    So, there are millions of children who are, in terms of 
quality and safety, are HHS' responsibility, and this is an 
important element of that variety. We certainly assume that HHS 
has a lot of expertise that would be important in being able to 
protect children in these kinds of circumstances. But when it 
comes to who decides about jurisdiction, who should be the 
primary agency, that really is a policy matter that 
policymakers need to make in the first instance.
    And we will work and we do work in coordination with our 
colleagues in the Department of Homeland Security Office of 
Inspector General to make sure that we are coordinating our 
oversight work to give maximum effect to the activities that we 
do engage in to protect children.
    Ms. Roybal-Allard. HHS has more of the experience in terms 
of dealing with children directly.
    Mr. Levinson. Well, there is certainly a long, extensive 
record with respect to children, and it is not surprising that 
HHS was given the responsibility, I will say that. But 
ultimately, it is a matter for others to make that decision 
based on----
    Ms. Roybal-Allard. I understand that.
    Mr. Levinson [continuing]. Expertise and resources.
    Ms. Roybal-Allard. And just with regard to the agreement 
between DHS and HHS, do you think that that in itself is 
sufficient to ensure the child safety post-placement, or do you 
have other ideas or recommendations that might strengthen that 
agreement?
    Mr. Levinson. There is ongoing work here, so I think this 
is a matter in which we need to just keep you informed in a 
timely way about how things are moving along and, you know, 
where we see a need for immediate action to let you know.
    Ms. Roybal-Allard. I have several other questions, but I am 
out of time, so I will do it in a second round.
    Mr. Cole. Let me move next to the gentlelady from 
Washington, Ms. Herrera Beutler, for 5 minutes for any 
questions she cares to ask.
    Ms. Herrera Beutler. Thank you, and I will try and make 
this as quick as I can. Thank you all for your testimony. This 
is really helpful for me.
    This was not one of the ones I had prepared, but I wanted 
to just clarify. In talking, Ms. Tighe, about the payments, I 
do not know if I totally understood that. Improper payment 
rates, those are huge numbers with regard to Direct Loans and 
Pell, and there was so much controversy in the last decade 
about Pell loans or direct lending, and that is a ton of money. 
Can you clarify that, the improper payments rates, what that 
means?
    Ms. Tighe. Yeah. Well, it is the rate that the Department 
has estimated, of course, that payments within the Direct Loans 
and Pell Programs are being paid improperly. Sometimes that can 
be underpayments as well as overpayments. Particularly in the 
Pell Program, I think that when you are talking about the area 
of misreported income, that it is, like, a 2 to 1 ratio of 
overpayments to underpayments.
    But the sources that caused the increase, which were mainly 
the fact that in previous years, or at least in the last couple 
of years, the Federal Student Aid Organization had used 
primarily a number of program reviews. They go out to 
institutions of higher education and do reviews, so those would 
then inform the proper or improper payment methodologies. But 
they----
    Ms. Herrera Beutler. So----
    Ms. Tighe. There were problems in how they executed them.
    Ms. Herrera Beutler. So, on the Pell Program, between 
$560,000,000 and $2,200,000,000----
    Ms. Tighe. That was the increase this past year.
    Ms. Herrera Beutler [continuing]. In terms of what was 
improperly paid. And you're----
    Ms. Tighe. Yes, and the two things that caused it to jump 
were that the Department went back to including an IRS 
statistical study, which basically looks at improper payments 
related to filling out the FAFSA and the income levels with 
the----
    Ms. Herrera Beutler. So, OK. So, they are using improper 
input for these algorithms?
    Ms. Tighe. Well, I mean, improper payments, so let us just 
take an easy one like income levels.
    Ms. Herrera Beutler. I apologize. I am halfway through.
    Ms. Tighe. Yes, go ahead.
    Ms. Herrera Beutler. And on direct lending, $1,200,000,000 
to $3,600,000,000, meaning we actually could have overpaid 
$3,600,000,000 in the direct lending program in the last year?
    Ms. Tighe. Yes.
    Ms. Herrera Beutler. OK. I just wanted to clarify that 
because that is a really big number.
    Ms. Tighe. It is.
    Ms. Herrera Beutler. And that is part of the big 
controversy why we went from Pell indirect lending to just 
direct lending. That was part of the argument, to eliminate 
problems in overpayments. So, I just wanted to make sure I had 
that number on the record.
    And I apologize, I need to move over to Social Security. 
So, this has to do with field offices, and how they are chosen, 
and how GSA handles it. So, we just had a field office move in 
my biggest county and biggest city from one location to the 
next, and this was during the recession. Everybody was trying 
to lease land at this point. I mean, there was vacant 
properties all over the place. We were particularly hard hit by 
the housing crisis.
    But GSA managed to find the one location that went from a 
level round place to up 5 floors with no parking, and parking 
across the street in a lot that you have to pay in the rain 
because it rains a lot in western Washington State. And then, 
or you could park on the street and plug. But you can imagine 
seniors going up and down these stairs, and we have had people 
who have fallen, who have had problems.
    And I was baffled that in the middle of a time when there 
were all these vacant leases all over the place, we managed to 
find the one that was the most difficult. And I wanted to ask 
does the IG review complaints that beneficiaries make on these 
field offices, and in terms of the lease locations that GSA in 
their process of renewal? I have heard it, you know, in talking 
with SSA, it is pretty difficult.
    So, I guess I am saying, and maybe more you, Ms. Stone, 
than HHS, but I am thinking through how GSA does this. How can 
we affect this problem to where they are choosing locations 
that it is not just somebody checking a box, but the 
inspections, so to speak, before these take place? I apologize. 
I think it is much more Ms. Stone. I was thinking Medicaid, 
Medicare, and then I totally switched over. That is why you 
gave me that funny look. OK, go ahead. [Laughter.]
    You could have taken a swing at it. It would have been a 
while before I figured it out, but----
    Ms. Stone. And I think since neither one of us really have 
oversight of GSA, that is probably the IG Office that would 
have more insight on GSA's process for selecting real estate 
locations for agencies.
    Now, this is not done in isolation. I do know that the 
Agency is involved in that process at least. But if I recall 
correctly, I do believe we did some work probably about 4 years 
ago looking at the decision making for field office locations.
    Ms. Herrera Beutler. And that is what----
    Mr. Cole. The gentlelady's time----
    Ms. Herrera Beutler. Oh, am I over already?
    Mr. Cole. Yes. As a gentle reminder to the members, please 
do not pose your question 2 seconds before the end of your time 
because it puts the----
    Ms. Herrera Beutler. I am sorry.
    Mr. Cole. No, it is quite all right. It puts obviously our 
witnesses in a difficult spot. Let us just try to keep moving 
on, but we will be back for a second round, so do not worry.
    Ms. Herrera Beutler. Thank you.
    Mr. Cole. There will be plenty of time. And with that, I 
recognize my good friend from Massachusetts, the gentlelady, 
Ms. Clark.
    Ms. Clark. Thank you so much, Mr. Chairman, and thank you 
to all the inspectors general who joined us today for your work 
and your testimony.
    First, I have a question really for Mr. Dahl and Mr. 
Levinson. Mr. Dahl, you raised concerns about compounding 
pharmacies, and I know that, Mr. Levinson, you have ongoing 
concerns about misuse and diversion.
    I would be interested in both of your takes on electronic 
prescribing, and do you see that as part of the solution for 
the problems that you have identified in your testimony.
    Mr. Levinson. Electronic prescribing, I think, does offer 
opportunities for better controls. The important thing is that 
you make sure that those controls are in place as you roll out 
that kind of program.
    I think cases have been made by policymakers that it is a 
way of being able to control better the issues of diversion. If 
you can come up with a system that is far less likely to leak 
or to bleed than you have with a paper record with pharmacies, 
that sounds attractive, and it is not something that I think 
should be dismissed. I think it has the potential, but the 
question is whether it can really be done.
    On compound drugs especially, the numbers really have shot 
up so enormously over the last few years, especially with 
topical drugs. And for reasons that I cannot fathom, the 
numbers are especially high in New York, for example, where New 
York has about 6 percent of the Part D population, but uses an 
enormous percentage of compound drugs.
    So, there are some distortions going on nationally that we 
need to continue to dig deep into to understand what is really 
going on.
    Ms. Clark. Thank you. Mr. Dahl, do you have anything to 
add?
    Mr. Dahl. As Dan mentioned, you know, this is an area that 
agencies are trying to move towards to manage prescriptions 
better. I do not know how effective it would be on compounded 
drugs, however, because of the vulnerabilities in terms of the 
collusion between the pharmacies and the medical providers that 
are occurring, and whether electronic prescription would reduce 
that. It is unclear to me.
    It could be one of the techniques that they could use to 
better manage it and to use data analytics to monitor those. 
But I think the critical aspect is to figure out a way of 
making sure that in prescribing these medications, like 
compounded drugs, that they are medically necessary. And that 
is where we are having problems.
    Ms. Clark. Thank you. My time is already running out. Ms. 
Tighe, you talked about the small staff for the third largest 
grant making agency, the oversight and management challenges. 
How do you feel? Do you feel that this point we have the 
oversight, we have the staff if we were to see a dramatic 
expansion of charter schools, voucher programs, and for-profit 
institutions?
    Ms. Tighe. Well, one of our identified management 
challenges is, in fact, oversight and monitoring already.
    Ms. Clark. Yeah.
    Ms. Tighe. And we cover both the student, the Federal 
student aid programs and grantees. So, I think it is fair to 
say that cuts to the Department in those areas will reduce 
staff available who are already challenged to do the job they 
need to make sure money is going to the intended recipients.
    Ms. Clark. Thank you. Back to you, Mr. Dahl, very briefly. 
I was very alarmed to read your testimony that we are seeing 
human trafficking in some of the foreign labor certifications, 
that we are seeing that abuse go on. Can you say specifically 
anything that is happening with DOJ? Are you seeing those 
programs continue to combat this?
    Mr. Dahl. Yes, there have been additional cities that have 
been identified as ACT, where ACT teams are, the anti-
trafficking teams that have been placed. And we are working 
with DOJ and DHS and others in trying to combat those, and 
there have been greater successes in coordinating among those 
agencies to combat this. It still unfortunately is occurring in 
greater and greater numbers, and not just in the visa programs 
that we oversee, but beyond those.
    Ms. Clark. Thank you. Thank you, Mr. Chairman.
    Mr. Cole. I thank the gentlelady. The gentleman from 
Michigan is recognized for 5 minutes for whatever questions he 
cares to pose.
    Mr. Moolenaar. Thank you, Mr. Chairman, and thank you all 
for being here today. And just a follow-up on some of the 
questions Ms. Clark was raising about the trafficking.
    You know, it kind of raises this question, when we have 
citizens or, you know, undocumented individuals in our country, 
I am just curious as to what each of your particular agencies' 
role is in terms of trying to have integrity in this system.
    For instance, you know, when I talk to employers, 
especially in the agriculture industry, you know, they rely on, 
you know, workers who are here from other countries, and, you 
know, the visa process. And, you know, there needs to be some 
policy reforms. But what they would say is, you know, they have 
Social Security numbers and information, but, you know, this 
whole E-Verify has not really been implemented, I do not think, 
across the board.
    But it just seems that each of you has a role in sort of 
the integrity of the Agency in ensuring that it is doing 
everything it can to have integrity in this area. And I just 
wondered if you would comment, each of you, on that.
    Mr. Dahl. With the Department of Labor, particularly in the 
H-2A and the agricultural area, one of the biggest challenges 
is that many employers do not elect to use the visa program 
that provides that verification and circumvent that program. 
And so, that makes this integrity issue much more difficult.
    Mr. Moolenaar. Can I interrupt you for one second? Is it 
your understanding that it is because the program is designed 
with kind of a lot of hoops to go through, or is it because 
they are deliberately just trying to avoid, you know, some 
legality?
    Mr. Dahl. Well, it is difficult to identify the root cause, 
but what we are finding is that there are very few employers 
who are utilizing the program based on the numbers of 
agricultural workers that exist around the country. And, in 
fact, one of the reports that we did focused on certain 
employers in a certain region. And they pointed out unfair it 
was that they were being singled out because they were 
complying with the program, whereas many employers are not.
    And that is something that we have pointed out to the 
Department, and they need to take steps to encourage employers 
to utilize the program where they can have those verification 
steps and preserve integrity, as you mentioned.
    Mr. Moolenaar. And then, I guess, in terms of the Social 
Security aspect, how does it work when someone can be in this 
country with another Social Security number, I mean, they can 
be getting on the payroll, you know, paying taxes even. Is it 
just that they assume someone else's identity and we cannot 
somehow track that?
    Ms. Stone. Well, that would be a logical conclusion, but 
that is not the only reason that you may have a Social Security 
number being used by someone other than the person to whom the 
original number was issued.
    From an SSA perspective, when there are wages reported to 
SSA and the identifying information for the wage earner does 
not match the information in SSA's system, they do have an 
earnings suspense file where they maintain that information 
where there is, as we call it, a mismatch.
    Mr. Moolenaar. And then, where does it go from there?
    Ms. Stone. I believe there is a process between SSA and IRS 
where if it matches in SSA and does not match in IRS, there is 
a back and forth to try to reconcile that. But the issue is 
that particular file still contains a substantial number of 
records.
    We have done work in the past where we have tried to 
identify the root causes of why we have all this information in 
the suspense file. And quite frankly, we do find 
inconsistencies, i.e., why do you have a child under the age of 
9 who has substantial wages. So, those are the kinds of things 
that from a program integrity standpoint, you could data mine 
that information to look for anomalies, and you could better 
identify suspect earnings.
    Mr. Moolenaar. OK, thank you. Thank you, Mr. Chairman.
    Mr. Cole. Thank you. The gentlelady from Alabama is 
recognized for 5 minutes.
    Mrs. Roby. Thank you, Chairman, and thank you for all being 
here. Ms. Stone, good to see you. Yes, ma'am.
    I wanted to ask you, you submitted in your testimony, you 
spoke about Social Security Administration's drive to reduce 
wait times with your self-service options on the 
mysocialsecurity web account. Can you explain to me a little 
bit more about how you think that the Social Security offices 
can help alleviate wait times? I think I could probably speak 
for everybody here, although I will not, I will only speak for 
myself, that a large majority of the casework that we do is 
because of wait times.
    And so, I thought that there were decreasing visitors to 
the office, but I understand in my absence you testified that 
you are seeing an uptick in----
    Ms. Stone. Especially between 2015 to 2016 we have an 
increase in the number of visitors to field offices.
    Mrs. Roby. So, help us understand, you know, with the self-
service options and other things, what are you guys doing to 
help decrease the wait times?
    Ms. Stone. Well, I cannot specifically speak to what the 
Agency is doing to reduce wait times. What I can say is even 
when there are efforts to put more services online, what we are 
seeing is that people still either want to call that 1-800 
number or they want to go into a field office. And it really 
comes down to the Agency's senior management making a decision 
about where they want to allocate their resources. Do you put 
them on the front line or is it another place where those 
resources are needed?
    Mrs. Roby. So, what are the recommendations that we can do 
here in order to help alleviate those wait times?
    Ms. Stone. Would it be ok if I answer that for the record 
for you?
    Mrs. Roby. Sure. Sure.
    [The information follows:]

    Mrs. ROBY. So, help us understand, you know, with the self-
service options and other things, what are you guys doing to 
help decrease the [field office] waiting times?
    Ms. STONE. Well, I specifically could not speak to what the 
Agency is doing to reduce wait times. What I can say is even 
where there are efforts to put more services online, what we 
are seeing is that people still either want to call that 1-800 
number or that want to go into the field office. And it really 
comes down to the Agency's senior management making a decision 
about where they want to allocate their resources. Do you put 
them on the front line or is it another place where those 
resources are needed?

    Ms. Stone. I do not want to misspeak because we have done 
some work to look at field office performance. And what we have 
asked or recommended in the past is that the Agency needs to 
make data-driven decisions. That is the simplest way to put it, 
to look at the performance of field offices of varying sizes, 
find out what works and try to replicate that in other offices.
    Mrs. Roby. Well, I feel very strongly that we need to work 
together to try to figure out, you know, be solution driven on 
this point. And, again, I can only speak for the work we do in 
Alabama's Second District, but I suspect that it is the same 
throughout the country. So, thank you. Thank you for being here 
today.
    Mr. Dahl, I am glad to see in your testimony that you are 
committed to protecting our students at Job Corps sites around 
our country. Students at all levels, and ages, and programs 
must have safe and secure environments in order to learn and 
grow. And so, I appreciate you making this a very important 
point in your report.
    But another point I want to discuss with you is the 
training and employment outcomes with programs from the 
Department of Labor. Authorizing programs and then this 
committee funding them must happen in order for them to exist. 
But it is your Department's oversight and execution process to 
know whether or not these various programs are actually putting 
people into employable status and full-time jobs.
    So, can you explain your recommendation on this and how you 
feel we as a committee can help make these programs be more 
efficient when it comes to actual outcomes?
    Mr. Dahl. Thank you, Congresswoman. That is precisely the 
gravamen of most of our recommendations in the training and 
employment area is to have the Department look at what the 
outcome is, what was intended, and going in and spending money 
on the grants or the training programs, and what comes out.
    And so, most of our recommendations are coming up with ways 
of measuring those outcomes to determine if there is a return 
on investment and what that return on investment is, so that we 
can see whether someone is better off at the end of the program 
than at the beginning.
    What the committee can do is to continue to have hearings 
like this, to press the Department with appropriation language, 
and report language, and requests, and implementing our 
recommendations in a timely manner, and doing those so they can 
come up with good performance metrics for you to answer those 
questions.
    Mrs. Roby. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Cole. Thank you. I remain deeply concerned with the 
events we saw last year in the Great Plains when three Indian 
Health Service facilities lost CMS certification, closed 
emergency rooms, and delivered substandard--I do not know what 
is wrong with the sound system--substandard care. In addition, 
just last month, the General Accountability Office added the 
Indian Health Service to its high-risk list, and then called 
the IHS ``ineffectively administered.''
    I think it is a little better. Thank you. You can always 
count on [Audio malfunction in the hearing room]. [Laughter.]
    Mr. Levinson, could you tell us to the best of your 
knowledge, and you may have to answer this for the record, I do 
not know, but what happened in the Great Plains facilities that 
led to the problems reported? What is the status of those 
facilities today? Have those problems been resolved, and at 
what cost? And in light of the GAO status report and seeming 
endemic mismanagement in Indian Health Service, what are some 
of the long-term issues we need to be aware? Do you have any 
potential suggestions to help us ensure that incidents like 
that do not happen again?
    Mr. Levinson. Thank you, Mr. Chairman. As far as where 
things stand now, I will need to get back to you for the record 
on our work.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Levinson. But having actually visited Indian Country a 
few years ago and going through the Dakotas, it certainly 
brought home to me personally what a remarkable challenge it is 
to be able to provide the kinds of services that are really 
needed in those places under those conditions. I came away 
impressed about how beautiful the area was and how wonderful 
the people were, but how remote these locations are.
    And I was not traveling alone. I was accompanied by a 
couple of our terrific criminal investigators, who devote a lot 
of time to visiting the reservations, doing both proactive 
information education and also investigating serious healthcare 
fraud issues with the Indian Health Service. I was also with my 
chief medical officer and the acting chief medical officer of 
the Indian Health Service.
    The Indian Health Service is a very small part of HHS. It 
could easily be lost in such a large trillion-dollar plus 
department, but OIG does not lose it. We actually devote a 
considerable amount of time to looking at the grant and 
contract fraud issues that are constantly arising within the 
Health Service. And we have done important work within the OIG 
community with the Interior OIG and the Justice OIG to try to 
root out as much contract and grant fraud as possible. And that 
is an ongoing effort that I would like to keep you apprised of 
because it is important.
    The things that really hit me a few years ago when I 
visited was the challenge of behavioral health. There was a 
serious suicide issue in one of the reservations, and how 
difficult it is to be able to get the right expertise on the 
ground for that, the difficulty of dental services, of being 
able to provide dentists out there, and oral health is a very 
serious, compelling issue that needs to be addressed better.
    Although there are good people within the Service that 
really believe in the programs and are doing what they can, 
there is a lot that still needs to happen. And some of it may 
really benefit from technology, from telemedicine, from being 
able to, even if you cannot get the expertise there on the 
ground, being able to provide it. But you still need people who 
are familiar culturally with what is going on on these 
reservations. And there is a gap that really needs to be 
filled.
    So, it is resources certainly, but it is also the right and 
smart kinds of resources that really need to be devoted to it.
    Mr. Cole. Well, you are absolutely right. Having visited 2 
of the 3 facilities actually before they were closed down on 
trips for the Interior Committee, you know, just finding places 
for professionals to live. They are so incredibly remote, and, 
frankly, so incredibly poor. It is extremely difficult to get 
the personnel that you need, so it is a challenge. But, yeah, 
anything that you could send us on that--conclusions, 
suggestions--would be gratefully appreciated.
    And you might think, too, as you put that together, it has 
always been a question to me, and I'm not asking you to respond 
too much to this, you know, why we are appropriating out of the 
Interior Subcommittee for this particular agency of HHS while 
we have got most of it over here. Actually, to be honest, it 
would be much easier for us to put additional resources there 
given the size of our prospective jurisdiction than it is for 
Interior which has, you know, to look after all the national 
parks and lands and all that. And they have got about a 
$30,000,000,000 budget. We have got about $163,000,000,000.
    So, I just wondered structurally if that is something we 
should think of sometime so that we actually match this up 
where we do the primary funding for HHS, except in this 
particular category. That seems to me very inefficient. So, 
with that, again, any suggestions you have, I would gratefully 
receive.
    And I want to go next to our ranking member. You are 
recognized for 5 minutes.
    Ms. DeLauro. Thank you, Mr. Chairman. I want to for the 
record say that I did misspeak. It was the House Office of 
Ethics that we tried to remove. I also want to let people know, 
though, that the Office of Government Ethics has about a 
$16,000,000 budget, which is not a terrible lot, a lot of this 
then focuses on what you all do in terms of ethics and 
conflicts of interest. So, with that I really have a couple of 
questions.
    One is, Ms. Tighe, this is the borrower defense regulation. 
Corinthian, ITT, they collapsed. And for-profits can receive up 
to 90 percent of their revenue from Federal student loans and 
grants. They receive above the threshold if they are dealing 
with vets and job training programs. The problem is these 
schools have shown consistently to fail our students.
    You have written about the importance of the integrity of 
higher ed programs and regulations to safeguard with the 
Federal student aid processes for identifying at-risk Title IV 
schools and mitigating potential harm to students and 
taxpayers. The report concludes that the Department has 
improved its financial oversight.
    You praised the borrower defense regulation. If enforced, 
will this help identify schools that are at risk of closing 
abruptly or unexpectedly? And can you comment briefly on other 
integrity regulations, like gainful employment, and how that 
protects students and taxpayers?
    Ms. Tighe. Sure, I am happy to. The gainful employment 
regulation, or the requirement in the Higher Education Act for 
vocational schools and for-profits, has been around a long 
time.
    Ms. DeLauro. Right.
    Ms. Tighe. The Office of Inspector General since 1998 has 
pushed to have some criteria for which gainful employment can 
be judged and some accountability structure for schools, or 
institutions, and for-profit schools, and vocational schools.
    You know, essentially, gainful employment's purpose is to 
find programs that are not, you know, good programs for 
schools. It is poor performing sort of programs. And it really 
is designed to protect students.
    Ms. DeLauro. Right.
    Ms. Tighe. But also to protect, you know, taxpayers' 
investment. The amount we spend in Federal education money is 
enormous, and we want that money to be well spent.
    Ms. DeLauro. Let me just ask you this question. So, the 
gainful employment rule is a good rule in terms of protecting 
kids and protecting taxpayers' dollars in your view.
    Ms. Tighe. Yes.
    Ms. DeLauro. Thank you. If I can move to another area. I am 
just going to presume on the Borrower Defense Program, you 
believe that is solid. It is good. We should hang in there with 
it.
    Ms. Tighe. Well, yes. I mean, our report that you mentioned 
does----
    Ms. DeLauro. Yes.
    Ms. Tighe [continuing]. Specifically say, you know, that 
the amount of information that FSA can get is going to protect 
students because it is going to give better oversight over 
schools.
    Ms. DeLauro. Right.
    Ms. Tighe. I think the caution I would put out there is the 
criteria, which it did a good job in putting criteria in which 
the borrower defense loans can be--I am sorry, I am losing my 
vocabulary here. The thing that we have to watch out for is how 
that is implemented because if you went to a school that had 
misrepresentations, let us take that, for example, and but you 
succeeded. You got your certificate and you have a job, should 
you be allowed to have your loan discharged? I have questions 
for sort of taxpayer implications on that.
    Ms. DeLauro. Thank you. Mr. Levinson, let me try to move 
quickly to food recalls. In 2016, your office did an early 
alert, ongoing audit of the FDA, their recall program. This is 
what you said: ``FDA does not have an efficient and effective 
food recall initiation process that helps ensure the safety of 
the Nation's food supply, policies, and procedures. They do not 
have policies and procedures to ensure that firms initiate 
voluntary food recalls promptly, which have real health 
implications.''
    Eleven of the 12 illnesses that were reported in children 
under the age of 18, this was recent outbreaks that we have 
seen. The early alert, can you give an update on when you 
expect a final report? Did the FDA make any changes to their 
policy and procedures? If so, can you elaborate? And the 
question is, is it not in the jurisdiction of FSMA to be able 
to deal with a mandatory recall? And do you think that we ought 
to deal with mandatory recall in these instances?
    Mr. Levinson. I do not have actually current information on 
where we stand with our food safety issues, so I will have to 
get back to you, and I would have to reserve opinion on the 
impact of FSMA. It is not something that I was prepared to talk 
about this morning.
    [The information follows:]
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. DeLauro. OK, both of those are very critically 
important to what you have already done in terms of an early 
alert, and your comments about FDA not having in place proper 
kinds of requirements in order to ensure food safety. Thank 
you. Thank you, Mr. Chairman.
    Mr. Cole. We will next go to the gentleman from Maryland. 
He is recognized for 5 minutes for whatever questions he cares 
to ask.
    Mr. Harris. Thank you very much, Mr. Chairman. Let me start 
with Mr. Levinson. Let me ask you. It is not mentioned in your 
testimony here, but what is the last time that your office 
looked at Medicaid fraud, and what is the estimate, the current 
estimate, of what percent of Medicaid payments are fraudulent? 
Waste, fraud, and abuse.
    Mr. Levinson. Yes, we are looking at Medicaid fraud issues 
all the time. That portfolio, when it comes to Medicaid fraud 
in particular, the frontline troops in many cases are the 
Medicaid Fraud Control Units. These are units in virtually 
every State where they are looking both to protect the State 
share as well as the Federal share. And we certainly work with 
them as well as with other enforcement partners.
    There is a rather high improper payment rate we fear with 
it. That is not necessarily a fraud rate. It is not possible 
really to provide accurate fraud rate figures because 
fraudsters do not let you know what they are going to do. So, 
given the clandestine nature of fraud, one can hear a lot of 
estimates, and there unquestionably exists serious fraud 
issues, particularly on particular subjects in particular parts 
of the country. And we devote a lot of effort with the Justice 
Department and with State and local partners to create special 
teams to be able to handle that effectively.
    Mr. Harris. Let me just ask, these units in various States, 
are some better than others in your experience?
    Mr. Levinson. Well, we do oversight of those units.
    Mr. Harris. OK.
    Mr. Levinson. And it is true that you really cannot speak 
in a general term about the units because they do, to a certain 
degree, reflect the particular environment that they are 
dealing with in those States as well as the personnel, the 
support of the attorney general's office in the State. We would 
like to see maximum resources for the Medicaid Fraud Control 
Units, but very often States do not give enough money for the 
Federal share to kick in at an optimal level.
    Mr. Harris. Sure. You know, with the Medicaid expansions, 
the fact of the matter is that the State, to borrow an 
expression, has little skin in the game. Do you worry that they 
may not be willing to look at fraud as much when, you know, the 
U.S. taxpayer is paying 95 percent of the bill?
    Mr. Levinson. Well, it is a concern for us to make sure 
that the Federal share is going to be protected, and it was 
Congress that sought to use the Medical Fraud Control Units as 
a first line. And it is true that it is really helpful to have 
people who know that environment who are able to operate full 
time with it.
    That said, I think what has become difficult for both the 
State enforcement folks as well as for us is the enormous 
increase in managed care that makes a lot of this opaque. It 
just makes it difficult for us not having the encounter data, 
not being able to really know what is going on, to be able to 
give you any sense of confidence in large respect.
    What we need to make sure is that there are controls in 
place so that--even if we are not doing the work, which we 
really cannot (we are not that large)--you, who are actually 
appropriating north of $350,000,000,000 to the Federal share of 
Medicaid have assurances that the money is being spent for the 
purposes intended.
    Mr. Harris. Thank you. Mr. Dahl, let me just ask a couple 
of brief questions about your testimony here. Is this right? I 
mean, the improper payments on the Unemployment Insurance 
Program in fiscal year 2016 is $3,900,000,000? When we mean 
improper payments, we mean payments that basically just should 
not have been made?
    Mr. Dahl. That is correct. I mean, as Dan pointed out, you 
know, most of them are process issues in terms of eligibility 
issues and that kind of thing.
    Mr. Harris. No, I fully understand that, but that is 
$3,900,000,000. That is just the Federal dollars, 
$3,900,000,000 of Federal taxpayer dollars.
    Mr. Dahl. That is the estimate that was provided by the 
Department of Labor. That is correct.
    Mr. Harris. Wow.
    Mr. Dahl. And that is an 11 percent improper rate, which is 
one of the highest----
    Mr. Harris. Yes, that is pretty amazing, I mean, 11 percent 
improper. I mean, look, we all want unemployment insurance, but 
that is pretty amazing. Let me just ask you about a chronic 
issue over at the Department of Labor and see if you have dealt 
with it, which are the chronic delays in processing of H-2B 
visas.
    I mean, I could send you reams of letters. You know, the 
law says it is supposed to be done in a certain amount of time. 
It never gets done in that time, and the Department just throws 
up its hands, well, it is Congress' fault. It is everybody's 
fault but the Department of Labor.
    Have you looked and audited how long it takes to process 
these applications because these are important? In my district, 
these are critical jobs. Our economy depends on these. Our 
American jobs depend on those temporary farm workers, and this 
greatly impairs our ability to staff those positions. Has your 
office looked at these delays?
    Mr. Dahl. I have heard of these delays, and we will get 
back to you on what we are doing in our work.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Harris. Thank you. I can help you hear more about them 
if you want. [Laughter.]
    Mr. Dahl. We do hear it.
    Mr. Harris. Thank you very much.
    Mr. Cole. Thank you. My friend, the gentlelady from 
California, Ms. Lee, is recognized for 5 minutes.
    Ms. Lee. Thank you very much. I apologize for being late, 
and hopefully my questions are not redundant. But I would like 
to ask, Mr. Levinson, about the----
    Mr. Cole. One moment. Would the gentlelady just bring the 
microphone a little closer?
    Ms. Lee. Oh, sure. The PEPFAR funding.
    Mr. Cole. Thank you.
    Ms. Lee. Mr. Levinson, excuse me. In the report to Congress 
covering, I think it was April 1st, 2016 to September 30th, 
2016, that report reported that the Centers for Disease Control 
and Prevention did not award PEPFAR funds in compliance with 
applicable HHS policies. It noted that for all 30 funding 
opportunity announcements in your example, CDC did not comply 
with one or more of the internal policies as it relates to HHS.
    So, it seems like that there is poor documentation, and I 
think, what, we spent about $1,900,000,000 over the 5-year 
period. Some applications maybe should have been considered 
which were not considered and were considered which probably 
should not have been considered.
    So, I wanted to find out, do you have an update on how CDC 
is addressing these issues that were found in the audit 
because, you know, our resources as it relates to HIV and AIDS 
are very limited, and we want to make sure they are being spent 
wisely, and that people are benefitting from it.
    Mr. Levinson. Thank you, Ms. Lee. These are very, very 
precious funds indeed, and I will have to get back to you 
specifically on an update of where we stand.
    [The information follows:]
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Levinson. But our auditors have actually been visiting. 
They have done audits in South and East Africa and in Asia as a 
follow-up to that PEPFAR funding in conjunction with the State 
Department and USAID OIG. And there have been some 
irregularities uncovered, but those audits have also brought 
back very encouraging news about how much money actually is 
being spent for the purposes intended.
    So, without providing any specifics right now about those 
dollars that need to be addressed better, I think it has by and 
large been a program that has been running rather well, and has 
really been extremely effective for many, many people in these 
regions of the world.
    Ms. Lee. Yes, and, you know, some of us have actually 
visited PEPFAR programs throughout the world and have talked to 
people. We are saving a lot of lives, and we are moving towards 
an AIDS-free generation.
    Mr. Levinson. Exactly.
    Ms. Lee. So, we have got to keep the funding. Well, we are 
trying to increase the funding, of course, that is what I want 
to do, so we can achieve our goals.
    Mr. Levinson. Yes.
    Ms. Lee. And so, wherever there are any difficulties, we 
need to get them corrected very quickly.
    Mr. Levinson. I will give you an update.
    Ms. Lee. OK, thank you. And also, Mr. Dahl, let me ask you. 
In terms of the Department of Labor, in terms of challenges to 
job training programs that place participants in jobs that 
exist, what are you seeing in terms of the training programs? 
This goes back to the day in the 70s, I had established a 
community mental health center, and I had CEDA funds. We were 
required for trainees to have positive job placements as a 
condition of receiving the funds.
    What is going on now with the Department of Labor as it 
relates to job training funds and positive, permanent 
placements in industries and in jobs that exist?
    Mr. Dahl. As I said a few minutes ago, Congresswoman, that 
is a very big concern for us, and it has been the basis of many 
of our recommendations is to ensure that there are meaningful 
job placement outcomes for these job programs. And one facet 
could be to put a requirement in there for the grants, as you 
point out, that there be some type of outcome that is required. 
But the Department has declined to place those types of 
requirements in the grants.
    Ms. Lee. But you do sector analysis, right, for the 
Department of Labor? I mean, you have your job sector analysis 
that identify industries where there are openings and where, 
you know, jobs exist.
    Mr. Dahl. Yes, the Department does. They do job sector 
analysis, and they should be using those as a form of where 
they would give grants out and in what circumstances they would 
provide those grants.
    Ms. Lee. But they don't use them?
    Mr. Dahl. Well, you know, some of our recommendations do go 
to, as I said, coming up with better metrics for determining 
what the outcomes are going to be. But I can follow up with 
your office to find out what they are doing with those sector 
analyses.
    [The information follows:]
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lee. OK. Thank you very much, Mr. Chair. I would like 
to follow up with this so we can get our hands around it.
    Mr. Cole. I thank the gentlelady. The gentleman from 
Wisconsin is recognized for 5 minutes.
    Mr. Pocan. Great. Thank you, Mr. Chairman. So, I do have a 
few questions for Mr. Levinson on prescription drugs, but first 
I just want to do one follow up with Ms. Tighe on the 
conversation we had on Pell Grants.
    So, as someone who was a recipient of Pell Grants in order 
to go to college, I want to make sure we have got clarity here, 
because as I understand it, it is not like the money is a loss 
to the government, the dollars you are talking about. In some 
cases, it is, like, eight institutions that were responsible 
for a couple hundred million of that.
    Can you just talk a little bit more about that because I 
just want to make sure people understand the numbers and what 
you are saying about the Pell Grant.
    Ms. Tighe. Well, the Pell Grant improper payment estimate 
is based on a number of things, and there are sources for that. 
It is including now program reviews where Federal student aid 
may go out to over 300 different schools and gather information 
that may inform that estimate. They also now rely on a 
statistical study done that is a blind study done with IRS that 
will figure out if there is mis-reporting of income.
    And I do not know how many people or how many students that 
would cover, and I can find that out. But, you know, it is an 
estimate. I mean, that is what they are, but they are doing 
better now I think this year. That does not mean the Pell Grant 
Program is a bad program. It just means I think they need to 
focus on areas of reducing the improper payments.
    And I think the estimates just give you visibility into the 
depth of the problem. What the Department really needs to do is 
focus on root cause.
    Mr. Pocan. And it is a relatively small sample, if I 
understand, right, of how they are doing these estimates?
    Ms. Tighe. You know, and I do not know, and I would have to 
get back to you on that.
    [The information follows:]

 Kathleen S. Tighe, Inspector General, U.S. Department of Education to 
 the Subcommittee on Labor, Health and Human Services, Education, and 
      Related Agencies Committee on Appropriations, U.S. House of 
                     Representatives, March 9, 2017

    Question from Representative Pocan to Inspector General Tighe: And 
it is a relatively small sample [Pell Grant improper payments] if I 
understand, right, of how they are doing these estimates?
    Ms. Tighe: Yes, the Department reported 5,435 schools that 
participated in the Pell Grant program and the FY 2016 Pell grant 
improper payment estimate was based on 400 program reviews conducted 
over a 3 year period covering Pell grant program disbursements made to 
6,782 students for the 2013-2014 award year.

    Mr. Pocan. If you could. I would not mind having a little 
more clarity on that.
    Ms. Tighe. Absolutely.
    Mr. Pocan. Because what I do not want to happen is people 
to think that somehow the program is being used improperly 
because, you know, there are too many people like me that would 
not have had a chance to go college if it was not for that Pell 
Grant. So, I am just really cautious.
    Ms. Tighe. I understand. Well, if you look, the dollars are 
large. The rate is 7 percent or 7.85 percent, so.
    Mr. Pocan. Yes, if you could get us more information.
    Ms. Tighe. Absolutely.
    Mr. Pocan. Mr. Levinson, I have a question. There was a 
report I think in January 2017 about they concluded that high 
drug costs were largely responsible for the huge jump in 
Medicare D catastrophic spending over the last 5 years, which 
puts the program's future at risk. I guess the question I have 
is what solutions does your office propose to address 
skyrocketing drug prices within Medicare Part D?
    Mr. Levinson. Well, this is something that we----
    Voice. Microphone.
    Mr. Levinson [continuing]. We are certainly encouraging CMS 
to come up with solutions because we are able to see the 
numbers. Everyone, if they look are able to see the numbers 
nearly triple from the time the program was implemented in 2006 
to now. And that kind of an increase, we need to understand how 
we can get better control of those dollars, notwithstanding 
that to a certain degree the increase in spending hopefully 
represents some savings and other kinds of health expenses that 
would be triggered. So, we need to continue to press and 
understand why that increase is occurring at such a rapid rate.
    We are involved specifically in trying to get a better 
handle with our law enforcement partners on the opioid 
epidemic, and the fact that we have so many painkillers being 
prescribed. We know the impact that that is having nationally. 
And so, we are encouraging better controls on both controlled 
as well as non-controlled substances, which oftentimes can be 
used in conjunction to create the kinds of powerful highs that 
you wind up with a lot of deaths on the streets as a result.
    So, we are focusing our fraud, waste, and abuse efforts 
primarily in that respect on our investigations and making sure 
that we are able to----
    Mr. Pocan. And do you focus at all or do you recommend 
focusing at all on things like, you know, we talk about the 
non-transparency around research and development costs for 
pharmaceutical companies and then the prices that are getting 
translated.
    I mean, do you address those issues or the fact that, I 
think according to Public Citizen, between, what is it, 1991 
and 2015, about $36,000,000,000 in criminal and civil penalties 
were taken on by pharmaceutical companies, and yet, you know, 
wondering what measures that we could help do to help keep 
those companies more accountable given these increases. Do you 
address any of those issues?
    Mr. Levinson. Well, we certainly do pricing work with 
respect to helping to make sure that the programs get the 
benefit of the reimbursement and the rebates that they are 
entitled to. And we have done a considerable amount of work 
there to recover money that should have been brought back to 
the Treasury.
    Mr. Pocan. All right. Thank you.
    Mr. Cole. Thank you. The gentlelady from California, Ms. 
Roybal-Allard, is recognized for 5 minutes.
    Ms. Roybal-Allard. Mr. Dahl, before I ask my question to 
Inspector General Levinson, I would just like some 
clarification on what you said to Congressman Harris. You said 
that it was around 11 percent of incorrect unemployment 
insurance that is being paid out right now?
    Mr. Dahl. That is correct.
    Ms. Roybal-Allard. OK.
    Mr. Dahl. That is the improper payment rate.
    Ms. Roybal-Allard. OK. So, my question is, is it that we 
are paying too much, or does it also include underpayments, you 
know, various types of mistakes?
    Mr. Dahl. That is a very good question. It is similar to 
what Kathy Tighe had said. There is a portion of it that could 
be underpayment, but it is fairly small.
    Ms. Roybal-Allard. OK. I just needed the clarification on 
that. Inspector General Levinson, due to our concern about the 
use of psychotropic drugs to treat foster youth with behavioral 
problems, my colleague, Rosa DeLauro, and I asked GAO to look 
into this issue. And GAO found that children on Medicaid are 
prescribed psychotropic drugs at twice the rate of privately 
insured children, and that 18 percent of foster children were 
prescribed psychotropic medications often in amounts that 
exceed FDA guidelines.
    And more recently, a February 2017 CRS report cited that on 
any given day, 16 to 33 percent of children in out-of-home care 
are on psychotropic medication compared to 6 percent of 
children in the general population. And then, in January 2017, 
a GAO study that looked at the monitoring and oversight of 
psychotropic drugs among foster care youth in 7 States 
recommended that HHS convene child welfare, Medicaid, and other 
stakeholders to promote collaboration and information sharing 
on psychotropic drug oversight.
    I was pleased that your 2017 work plan calls for States to 
develop a plan for oversight and coordination of how services 
for children in foster care, including oversight of 
prescription medicines. Your plan also states that ACF will 
provide oversight to State plans to ensure children in foster 
care receive psychotropic drugs in accordance with States' 
proposals.
    My question is that if Medicaid expansion is eliminated as 
part of repealing the ACA, how will this impact states' ability 
to develop plans and monitor the protocol of prescribing 
psychotropic medications to foster youth?
    Mr. Levinson. Our resources are extended so far at this 
point, that in all honesty we really do not try to predict what 
the consequences are for a variety of particular drugs and, for 
that matter, particular programs might be depending upon what 
might happen with respect to something like expansion or a 
diminished expansion of Medicaid.
    So, it is really not possible to provide an answer to a 
hypothetical like that, but what we have identified in our 
work, as you have explained, is a very alarming use of 
psychotropic drugs for a population where serious questions 
have to be raised about such extensive usage. And we are 
continuing to do work on that, and we do work in coordination 
with GAO so that we can really complement each other's work. 
And our office will keep you apprised of our work in this area 
as well.
    Ms. Roybal-Allard. Well, if our subcommittee is forced to 
absorb part of the $54,000,000,000 non-defense discretionary 
cuts that President Trump is calling for, will ACF have the 
resources needed to complete the analysis and oversight of 
State plans for addressing the psychotropic drug crisis that is 
impacting our foster care children?
    Mr. Levinson. And I think that is an important question to 
pose to ACF.
    Ms. Roybal-Allard. But you do not have an opinion.
    Mr. Levinson. I try to avoid answering hypotheticals 
because my auditors get very angry with me when I look ahead 
instead of look back.
    Ms. Roybal-Allard. OK. All right.
    Mr. Cole. You are allowed to dodge, but we will keep 
asking. [Laughter.]
    Ms. DeLauro. It is not going away.
    Mr. Cole. The gentlelady from Massachusetts is recognized 
for 5 minutes.
    Ms. Clark. Thank you, Mr. Chairman. Mr. Levinson, I wanted 
to go back to some of your testimony. And you referred to an 
ongoing focus on increasing the security of health information 
and what we can do around health information technology. I 
wonder if you could elaborate a little bit on the progress that 
has been made and how we can best support those efforts in 
Congress.
    Mr. Levinson. Well, as I said earlier, we really are in the 
midst of this transformation on health information technology. 
And a critical key, of course, is making sure we have 
interoperability so that information, this is really a 
transportation of information problem, that we make sure that 
healthcare information is passed promptly and accurately in a 
secure and safe way to the right people.
    And the Congress has invested billions of dollars over the 
last decade in modernizing our healthcare system, and we are 
seeing in some of the demonstration projects under Title III of 
the Affordable Care Act, we are seeing efforts to move to value 
as opposed to volume. So much of it really does depend on the 
effective use of information technology to make it happen, to 
get away from the fee-for-service, volume practices, and the 
paper record.
    We are on that track, and Congress through the IMPACT Act 
and its use with MACRA, we are moving towards an effective use 
of information technology, but as I say, we are really not 
there. That kind of support is important. It probably would be 
helpful more and more to think outside the box of the Federal 
healthcare programs per se and really think of them as a 
collection of important healthcare vehicles that ultimately 
need a national platform for information technology.
    HHS has what I call four of the big seven: Medicare and 
Medicaid and the Health Insurance Program in the IHS, the 
others being the Veterans Health Administration, TRICARE, and 
OPM has FEHBP. All of these obviously serve different 
populations, and then there are different issues involved with 
each one. But the more and more we can focus on how 
interoperability with healthcare information can happen, I 
think we can accelerate this move down the road towards really 
effective and efficient use of healthcare resources. So much 
depends on it.
    We cannot go back, even when we have problems, and we 
certainly have our share. We have to continue to move towards 
that paperless record in which we can really share it 
effectively.
    We are continuing as an office to monitor the investments 
that are made by HHS, and depending on the program changes that 
might be made by Congress we will need to move accordingly. But 
I think that we are moving in the right direction. Any effort 
to think in a more coordinated fashion about all of these major 
Federal healthcare programs, because the Federal government has 
more than $1,000,000,000,000 in the $3,100,000,000,000, 
$3,200,000,000,000 healthcare economy of the Nation.
    So, if we to a certain degree think outside of a particular 
healthcare program about what that means, because the private 
sector is doing it as well. This is something that really is 
about the $3,000,000,000,000 ultimately. If we can start to 
think more and more about how we use interoperability to create 
a national platform like we did with the railroads in the 19th 
century, coming up with a standard gauge, and the Federal 
highways coming up with a standard way of being able to drive, 
you know, 60 miles an hour safely, reasonably safely.
    Ms. Clark. Right. So, when I hear about this and I think, 
you know, we would agree we are on the right track. Hearing 
about the cut, like, is there the capacity within our existing 
budgets to look at this kind of technology to really establish 
that?
    Mr. Levinson. From an inspector general's standpoint, the 
thing that I would stress is not so much what dollar figure I 
can come up with because as policymakers, you are the ones who 
need to come up with the dollar figures, but to make sure that 
we coordinate the policy people and the technical people. And 
that was a critical problem with the flawed launch of the 
marketplaces, is that the tech people were down one hole, and 
the policy people were down another hole.
    Ms. Clark. Right.
    Mr. Levinson. You really cannot do that effectively. Health 
information technology requires you get the technical expertise 
and the policy expertise in the same room.
    Ms. Clark. Thank you.
    Mr. Cole. Thank you. Just for informal purposes, I am going 
to call on my friend, Ms. Lee, so she gets a second round of 
questions. And then we will close out with the ranking member, 
and that will conclude the hearing.
    So, the gentlelady from California is recognized for 5 
minutes.
    Ms. Lee. Thank you very much, Mr. Chair. Let me go back to 
the issue of HIV and AIDS and global health more generally. You 
know that President Trump issued this executive order 
reinstating the Mexico City policy. Now, generally, and it is 
called the Global Gag Rule. While this policy has been in place 
under prior Republican presidents, it traditionally has only 
been applied to family planning and reproductive health funds 
under USAID and State Department. This new executive order 
proposes expanding the Global Gag Rule to include all global 
health funds furnished by all departments and agencies, which 
includes HHS.
    So, I wanted to find out from you, Mr. Levinson, have you 
looked at this, and how dramatically you will have to expand 
your oversight and audit activities to ensure that grantees, 
sub-grantees, and local organizations around the world are in 
compliance with this policy. I would like to know, and you 
probably do not have it here, but an estimate of the costs, 
including staff time and the cost to update the contract 
clauses with this new executive order.
    Mr. Levinson. Ms. Lee, I think in the first instance, we 
need to be in contact with the Department to see what the 
Department plans because these are the kinds of things that 
were issued to the programs to administer. And at this early 
date, I doubt quite frankly that we have had an opportunity to 
even interact at the very beginning with the Department.
    But as we interact with the Department as it seeks to 
implement whatever executive orders are issued that require 
implementation, we will certainly be actively involved with the 
Department on the oversight.
    Ms. Lee. And once you get that feedback and have your 
costs, could you let us know what those cost estimates will be 
with regard to the audit requirement staff time and what have 
you?
    [The information follows:]

                       Representative Barbara Lee

                       topic: mexico city policy
    Q: And you get that feedback and have your costs, could you let us 
know what those cost estimates will be with regard to the audit 
requirement staff time and what have you?
    A: Regarding an ``. . . estimate of the costs, including staff time 
and the cost to update the contract clauses with this new executive 
order,'' I defer to the Department of Health and Human Services, as the 
program official administering the funds. On the basis of the 
President's January 23, 2017, Executive Order, the Office of Inspector 
General's (OIG) Office of Audit Services has updated its audit 
guidelines. For future oversight work regarding the Mexico City Policy, 
and where funds are spent on or after the date of the Executive Order, 
as part of the scope of its work, OIG will audit for compliance with 
these additional requirements.

    Ms. Lee. Thank you. And, Mr. Dahl, let me go back to the 
issue of Job Corps. I think in your testimony you mentioned the 
really terrible murders of two students, I think it was 2015--
--
    Mr. Dahl. Yes.
    Ms. Lee [continuing]. In terms of misconduct. It is really 
alarming, and I hope that the safety issues at Job Corps 
centers are being addressed. So far, I do not believe we have 
had any safety issues at my local Job Corps center at Treasure 
Island, but I wanted to hear some of your immediate steps that 
you are taking to ensure that students and employees at Job 
Corps programs are safe.
    And then secondly, if Job Corps funds were cut 
significantly, have you looked at that in terms of what that 
means in terms of the IG's ability to address some of these 
pressing issues at the Job Corps if your funds were cut?
    Mr. Dahl. In answer to your first question, there are a 
couple of things that Job Corps needs to do very quickly and 
that we have recommended to them. The first is that for the 
safety and protection of the students and staff, to issue clear 
guidance on when a center should be calling law enforcement, 
and reporting those serious incidents to law enforcement in a 
timely manner. The second thing that they need to do is expand 
background checks beyond the limited positions that it applies 
to now. We are concerned about that. And the third thing is to 
focus attention, and some of this may be resources which gets 
to your second question, on making sure that the physical 
premises are safe for the students. The Department has moved 
out on some of these already and has made some progress, but 
they need to remain focused on it and be proactive about it.
    In terms of the impact of any cuts to the Job Corps 
Program, as I said, it is going to compound these challenges 
and make it much more difficult for them to address some of 
these issues. But the ones that I identified, the two do not 
require any resources. And so, we want them to focus on those 
that they can to help the students, and then try to make it, 
still a priority even with cuts to make sure that the students 
and staff are safe.
    Ms. Lee. Thank you very much. Thank you, Mr. Chairman, very 
much.
    Mr. Cole. Thank you. Before I call on the ranking member to 
close us out, I just want to make a quick point myself in 
response to one of the questions you raised and some of your 
remarks. If we had cuts of the magnitude that I asked you about 
in the opening round, I can just assure you that we would be 
talking about reducing centers, you know. You cannot run this 
number of centers that we have on 80 percent of the money we 
have.
    You would have to literally start picking sides, and that 
is an expensive process in itself. I have lived through one of 
those in my own district when our Job Corps center was shut 
down. You do not even get all the savings right up front 
because there is a lot of costs associated with the close down.
    But we would be in the difficult position of deciding, and 
probably after obviously asking for recommendations from the 
Department, how many centers do you want to close if you have 
only got 80 percent of the amount of money we have, because I 
just do not see how you could run them at 80 percent. So, I 
mean, this committee would be involved in some really difficult 
choices, and it would be painful for a lot of members beyond 
this committee because, again, they would see a dramatic 
decline in services in their districts or facilities in their 
districts. So, I thank my friend for raising her question.
    Now, with that, I am going to recognize the gentlelady from 
Connecticut to close out the hearing in terms of questions or 
points she cares to make.
    Ms. DeLauro. Thank you very much, Mr. Chairman, and I 
associate myself with those remarks. We have a great Job Corps 
center in New Haven, Connecticut, and we would be in the 
business----
    Mr. Cole. As the gentlelady would know, that one probably 
would survive. [Laughter.]
    Ms. DeLauro. But you never know, Mr. Chairman, you never 
know. Like I referred to it once, what is going to happen with 
Medicaid with B rationing, this would be rationing as well.
    I want to, first of all, say thank you to all of you. I 
said in my opening remarks, you have a herculean task, and I 
think you understand that this committee appreciates that.
    Mr. Levinson, I am going to ask you to just give us answers 
to this in writing. There are three pieces of this. This is on 
prescription drug prices. And the first is about have you done 
any work on whether Medicare could save money by negotiating 
directly with drug companies. And if that is the case, do you 
believe that using Medicare's substantial buying power to 
negotiate lower prices could save taxpayer dollars? And when 
you get back to us, if yes, how much money we would save with 
that.
    Secondly, how much taxpayer dollars could we save if 
inflation indexed rebates were required under Medicare Part B, 
and what would be the potential savings there? And the last 
piece of this one is, potential savings to Medicare of 
extending the Medicaid drug price rebate to low-income Medicare 
Part D enrollees. There is lots of discussion about saving 
Medicare dollars and a lot of issues with regard to how we 
might be able to do that.
    [The information follows:] 
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. DeLauro. Mr. Dahl, because you talked about the issue 
on unemployment, what I wanted to do is to ask you to get to us 
the Reemployment Services and Eligibility Assessment Program, 
RESEA. It would appear that it has saved us money in the past, 
and it also looks at those folks who would be not eligible, if 
you will, for these benefits to deal with your error rate or 
your overpayment rate, et cetera.
    Now, the President's 2017 budget would have taken us to 
$186,000,000. The House and the Senate for 2017 have gone well 
below that amount of money. What the President was suggesting, 
and it started back in 2013, that the Congress do a cap 
adjustment so that could deal with the RESEA in looking at 
improper payments because we found that this was the way in 
which we could look at who was eligible and who was not 
eligible, thereby saving what was concluded, every dollar spent 
produced $3 in savings.
    If you can get back to us in terms of the benefits of RESEA 
and are doing something with regard to that cap adjustment, 
which could help us to lower the 11 percent that you were 
talking about.
    [The information follows:] 
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    Ms. DeLauro. My final comment, Mr. Chairman, and this is 
about the Office of Government Ethics, which I have said 2015, 
$15,400,000, 2016, $15,700,000 to deal with a very large area. 
Also, you should understand that with regard to their nominee 
reports, the financials, under the Obama Administration, OGE 
had received 140 nominee reports by February 5th, 2009. Under 
the Trump Administration, only about 30 had been received by 
February 5th, 2017, and many more are considered ``complex 
reports.''
    The completion of these financial reviews are critical for 
Senate confirmation. I mention that because that is the work of 
that effort. I asked the original question about your efforts 
in looking at conflicts of interest in your agencies, which 
coincide with what is done with the Office of Government 
Ethics.
    Mr. Chairman, again, thank you very, very much for your 
indulgence. But, again, to all of you, thank you for the great 
service that you perform for our government. Thank you.
    Mr. Cole. I actually thank the gentlelady. As always, she 
asks good questions and has good points to make.
    Just for context and not for debate, when we look at the 
2017 budget, remember we do not have a 2017 bill yet, which I 
know both you and I would love to see happen, and I am sure 
would make your work a little bit easier as well.
    And second, remember when we talk about we are below the 
President's numbers, we were above his numbers in things like 
NIH and what happened? And the third point on that, the 
President did--this is former President Obama--did use 
mandatory money to plus up some of the agencies, and, frankly, 
we do not have the authority to expend that money on this 
subcommittee. So, that sometimes can lead you into apples and 
oranges comparisons if you are not careful.
    I want to close by echoing my good friend, the ranking 
member's, remark about how much we appreciate you. We 
appreciate very much your time today obviously. But more 
profoundly, we appreciate very much your service, your service 
to the American people, your service certainly to this 
committee in helping us get at some of the knotty issues, and 
the service to your respective agencies and departments.
    You are all to be commended. You have all been 
extraordinarily helpful to this committee over the years, and 
we continue to look forward to working with you. And, again, 
thank you for appearing here. Thank you for what you do each 
and every day on behalf of the American people and the American 
taxpayer. We are very grateful. Thank you.
    With that, the hearing is closed.
    Ms. DeLauro. Thank you, Mr. Chairman.
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    

                                          Thursday, March 16, 2017.

  INVESTING IN THE FUTURE: EARLY CHILDHOOD EDUCATION PROGRAMS AT THE 
                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                               WITNESSES

JENNIFER GARNER, TRUSTEE, SAVE THE CHILDREN, FAIRFIELD, CT
DON MILLICAN, SPOKESMAN, GEORGE KAISER FAMILY FOUNDATION, TULSA, OK
JEANNE BROOKS-GUNN, PROFESSOR, CHILD DEVELOPMENT AND EDUCATION, 
    COLUMBIA UNIVERSITY, NEW YORK, NY
STEVEN DOW, EXECUTIVE DIRECTOR, CAP TULSA, TULSA, OK
    Mr. Cole [presiding]. Good morning. It is a pleasure to 
welcome our witnesses today to the Subcommittee on Labor, 
Health and Human Services, and Education to discuss early 
childhood education programs in the Department of Health and 
Human Services. I am looking forward to hearing from all of you 
later this morning.
    And just in full disclosure, I will have to depart at some 
point here because I have a Budget Committee hearing, and my 
good friend, Chairman Simpson, will take over the gavel. He 
said he was here for me, but, Jennifer, he is really here for 
you, so. [Laughter.]
    Ms. Garner. Thank you.
    Mr. Cole. You bet. Abraham Lincoln said, ``Teach the 
children so it will not be necessary to teach the adults.'' 
Children with strong foundations have the best chance of 
becoming successful adults. Unfortunately, for some families 
and some communities, pressures in the home or environment can 
hinder a child's ability to reach their full potential.
    Federal investments in early childhood help alleviate these 
pressures, ensuring children in underserved communities have 
the same opportunity to succeed as children from more 
advantaged backgrounds. Our Nation's future workforce depends 
on investments we choose to make in these children today.
    Early childhood education programs not only help children 
socially and cognitively. Research has also linked high-quality 
early childhood programs savings to K through 12 education from 
lower grade retention; lower rates of special education youth; 
higher high school graduation rates; increased lifetime 
earnings, and, consequently, increased Federal, State, and 
local tax revenue; reduced costs to the criminal justice system 
from reductions in crime; reduced child abuse and neglect; 
improved health and health behaviors, such as lower rates of 
smoking and substance use; and reduced depression.
    High-quality early childhood programs are the starting 
point to closing the achievement gap. These critical programs, 
combined with high-performing K through 12 schools and college 
preparation programs, like TRIO and GEAR UP, can provide the 
foundation for students to become successful leaders of the 
next generation.
    The availability of early childhood programs has grown 
significantly in the past decade with States leading the 
efforts. Currently, 45 States and the District of Columbia have 
at least one publicly-funded preschool program. In the last 
school year, State funding for preschool programs totaled 
nearly $7,000,000,000.
    Yet despite the large increases by States, publicly-funded 
preschool programs enrolled just 6 out of 10 children. 
Significantly fewer children are enrolled in high-quality 
programs, which have the strongest evidence of resulting in 
positive, long-lasting outcomes. Federal investments continue 
to help support the work being done in the States.
    The Head Start Program enrolls nearly a million children 
from low-income families. The newly authorized Preschool 
Development Grants Program will soon begin its second grant 
cycle, awarding competitive grants to States for establishing 
or expanding preschool programs for children from low- and 
moderate-income families.
    Knowing high-quality programs yield the greatest return on 
investments, we must look closely at the results of our Federal 
investments so that we can make wise choices moving forward 
about how to maximize the effectiveness of limited taxpayer 
resources.
    Today we look forward to hearing from our witnesses about 
what works in early childhood education and what barriers exist 
in providing quality programs for children. We hope to learn 
more about how we can improve and better target our Federal 
investments in this area to help children who can most benefit 
from these services.
    Today I am pleased to welcome the following witnesses. 
Jennifer Garner is an award-winning actress who has enjoyed a 
successful career at the top of her field in both film and 
television, and for the past 7 years, she has held the position 
as artist ambassador for Save the Children. As artist 
ambassador, Ms. Garner has advocated on behalf of her 
organization's work in the United States, traveling to 
California's Central Valley, Kentucky, Mississippi, West 
Virginia, and Washington to see the effects of poverty 
firsthand.
    I also want to thank Ms. Garner for generously sharing with 
our associate staff her experiences as artist ambassador. And 
also, just a shout out. Mark Shriver, who is president of Save 
the Children, is here, and nobody has done more in advocating 
for America's neediest than my friend, Mark. So, good to have 
you here.
    Don Millican serves as chief financial officer for the 
Kaiser-Francis Oil Company, also a friend--good to have you--
from Oklahoma, as well as other interests of George B. Kaiser. 
Mr. Millican serves on the board of Tulsa Educare, the Oklahoma 
Policy Institute, and the Tulsa Neighborhood Networks. He also 
serves as chairman of the board of trustees of Oklahoma 
Christian University. Don understands firsthand the value and 
business sense of building public/private partnerships to 
improve the lives of children born in poverty.
    Dr. Jeanne Brooks-Gunn is a leader in policy-oriented 
research focusing on family and community influences upon the 
development of children and youth. She also designs and 
evaluates interventions aimed at enhancing the lives of 
children and youth, including home visiting programs for 
pregnant women and new mothers, early childhood programs for 
toddlers and preschoolers, Two-Generation programs for young 
adults and their parents, and after school programs for older 
children, the author of over 600 publications, 7 books, and 16 
edited volumes.
    Steven Dow, another good friend from Tulsa, Oklahoma--I 
sort of packed the panel a little bit, you know. [Laughter.]
    Ms. DeLauro. It seems that way.
    Mr. Cole. But I knew you would like these people. Steven is 
the executive director of Community Action Project of Tulsa. In 
the 20 years he has been leading the Agency, it has grown from 
a small agency with a staff of 2 and a budget of $165,000 to 
one with an annual operating budget of $53,000,000 and a staff 
of nearly 600. He also serves as one of the 9 commissioners 
overseeing the Oklahoma Department of Human Services.
    As a reminder to the subcommittee members and our 
witnesses, we will abide by the 5-minute rule so that everyone 
will have a chance to present their testimony and ask 
questions. I look forward to hearing from each of our 
witnesses.
    But I now want to turn to my good friend, the ranking 
member, the gentlelady from Connecticut.
    Ms. DeLauro. Thank you very much, Mr. Chairman. Let me 
first say thank you to our witnesses for being here today. The 
work that you do for all of our kids is awesome because it is 
what you do with making an investment in the lives of our 
children, and it is an investment in the future of this 
country. So, we are very, very grateful for what you do with 
your professional lives in terms of helping our children.
    Steven Dow, we thank you for sharing your experience about 
Federal funding has helped expand high-quality early learning 
opportunities in Tulsa. Dr. Brooks-Gunn, I look forward to 
hearing about your research at Columbia and at the National 
Center for Children and Families, Teachers College on high-
quality interventions for young, low-income children.
    Jennifer Garner, we are honored to have you here to discuss 
the very impactful work of Save the Children also that you have 
taken on this issue. With your high profile, you may know, but 
you may not know, what focus you bring to these issues, which 
is so critically important to all of us to get the attention of 
people.
    And I just might add that Save the Children is 
headquartered in the State of Connecticut, Mr. Chairman. 
[Laughter.]
    Headquarters in the State of Connecticut.
    Mr. Cole. Gee, I had missed that. [Laughter.]
    Ms. DeLauro. Yes. I thought you did. Last but not least, 
Don Millican. I am interested to hear from you about the role 
of public/private partnerships to expand early learning. The 
work of the Kaiser Family Foundation in this area is second to 
none, so I laud your efforts. I must say, though, I only wish 
there was the opportunity in every one of our communities 
across this country. Mr. Chairman, I am excited for Tulsa. I am 
excited for Oklahoma City, but I want to be excited for every 
community in this country with regard to early childhood 
education.
    We are here to talk about the importance of early childhood 
development, the role that government can play in delivering 
high-quality programs to young children and their families. We 
will consider the investment made through 4 crucial Federal 
programs. The Childcare and Development Block Grant helps 
working parents balance jobs with family life. Preschool 
Development Grants help States make strides to our universal 
pre-K. Head Start, Early Head Start bring together all of the 
services that matter most to young children and their families: 
education, health, emotional well-being, nutrition, and social 
services.
    There is a growing mountain of evidence that early 
childhood interventions like these work. They reduce 
inequality, and they narrow the achievement gaps. Overall, 
these programs have fared relatively well in recent years. 
Since 2010, we have grown Head Start's budget by 
$1,900,000,000, or 27 percent, although unfortunately inflation 
has eroded 40 percent of that increase.
    Similarly, we have increased the Childcare and Development 
Block Grant by $634,000,000, which is about $497,000,000 in 
real terms. And, of course, we have created and funded 
Preschool Development Grants, but we have work to do.
    We voted overwhelmingly to improve quality standards for 
CCBDG grants, but we neglected to provide the necessary funding 
for implementation, causing many States to lose slots as a 
result. In addition, only 41 percent of eligible children are 
served through Head Start. Just 4 percent of those eligible are 
served by Early Head Start. And with 42 percent of 3-year-olds 
and 68 percent of 4-year-olds in early childhood or primary 
education in 2014, the United States has one of the lowest 
enrollment rates among Organization for Economic Cooperation 
and Development countries, the OECD countries, far below the 
OECD average of 71 percent of 3-year-olds and 86 percent for 4-
year-olds.
    The latest research from Nobel winning economist, James 
Heckman, has found that high-quality education delivers a 13 
percent return on investment through better outcomes in 
education, health, employment, and social behavior. This 
reduces taxpayer costs in the decades that follow.
    Heckman writes, and I quote, ``Investing in the continuum 
of learning from birth to age 5 not only impacts each child. It 
also strengthens our country's workforce today, prepares future 
generations to be competitive in the global economy tomorrow.'' 
That is why these programs have long enjoyed support from both 
sides of the aisle, as I know as the co-chair of the bipartisan 
Congressional Baby Caucus. We connect practitioners to members 
of Congress, keep them updated on the very latest research on 
early interventions, children's health, and education. We need 
to do more as a Congress.
    The previous administration's 2017 request for Head Start 
and Early Head Start was an increase of $434,000,000. The House 
only gave a $142,000,000 increase, and the Senate only a 
$35,000,000 increase. And while the 2017 request included an 
increase of $100,000,000 for preschool development grants, the 
House and the Senate appropriated no new funding. The pattern 
repeats itself with CCDBG. The President asked for $200,000,000 
more, but the House and the Senate appropriated only 
$40,000,000 and $25,000,000, respectively. I do not believe 
that this is serious. I believe these numbers can be 
categorized as budget dust. I apologize if I offend anyone with 
that term.
    But the Trump budget released today is even worse than we 
expected. The President proposes a cut of $25 to 
$30,000,000,000 for the Labor, Health and Human Services, and 
Education Committees. It is surreal. The Administration, this 
Administration, will decimate and eliminate some of our 
Nation's most critical programs that serve hardworking American 
families.
    I believe that the President, and, again, I am sorry if 
this is offensive, continues to work for millionaires and 
billionaires, not everyday Americans, and his cuts for programs 
that serve America's middle and working class are an assault on 
our values. With this proposal, the early education programs we 
are here to discuss today could be ravaged. It makes you wonder 
what we are talking about here today.
    I listened to the OMB director this morning on MSNBC, Mr. 
Mulvaney, who said, and he did not specify a program, so it was 
not directed to early childhood. But he said many of the 
programs cut do not work. I want to say to the panelists, tell 
us about how your programs work and what their benefits are. 
Early childhood programs have overwhelming bipartisan support. 
This is a critical moment for us to break through the gridlock 
to fund our priorities. I understand that the President wants 
to increase defense spending, but if we do not invest in our 
children, we will have no future to defend.
    To our panelists, I have read your testimony, and I know 
you are calling for greater Federal investment, and I agree 
wholeheartedly. If we were serious about Federal investment in 
early childhood programs, we would fund them so that every 
single eligible child had access. We choose to only deal with a 
fraction of the problem when it comes to these programs. Some 
choose to hold steadfast to self-imposed budget restraints 
where we do not make the same choice when it comes to other 
areas of the budget.
    I thank you very, very much for being here, and I look 
forward to your testimony. Thank you, Mr. Chairman.
    Mr. Cole. Thank you very much. Always good to hear from my 
friend.
    Before I leave, if Mr. Millican seems a little nervous, you 
should know he is testifying in front of his most critical 
audience. His two grandchildren, George and Isaac are back 
here, so.
    Ms. DeLauro. Oh my.
    Mr. Cole. They have come a long way to, you know, cheer 
their grandfather on.
    And with that, I am going to turn the chair over, if I may, 
to my good friend, Mr. Simpson, and give you the honor of 
calling on our first witness. And I am off to the Budget 
Committee where I am going to fight the appropriators' wars, 
so. [Laughter.]
    Ms. DeLauro. Thank you.
    Mr. Simpson [presiding]. I thank the chairman for that. I 
was sentenced to the Budget Committee for 8 years, and have----
    Mr. Cole. This is year 7 for me.
    Mr. Simpson. Yes, so he has only got 1 more year. Anyway, 
it is good to have all of you here today, and we are ready for 
your testimony. Ms. Garner, you are first.
    Ms. Garner. Thank you so much. Thank you to Chairman Cole, 
Ranking Member DeLauro, members of the subcommittee, for 
inviting me to testify on the importance of early childhood 
education.
    Poverty is silent. I mean that quite literally. If you had 
come along with me to a family I visited in the Central Valley 
of California a while back, you would know. Their home had all 
the classic signifiers of poverty: trash in the yard, concrete 
walls, plastic sheets for windows. The right time of year, it 
might have had an open door open, an oven door for heat or fly 
paper covered in flies.
    But that is not what I notice first in homes like this, not 
anymore. Listen for the sound of adult conversation. There is 
none. Listen for the sound of children babbling, laughing, or 
crying. It does not exist. Poverty is silent.
    In this particular home, there was an 11-month-old boy. He 
was sitting on the floor staring dully at a television as it 
droned on. When I walked through the door with the Save the 
Children coordinator, the boy did not even look up. But we had 
brought with us, among other things, a ball, and this boy had 
never seen a ball. He was nearly a year old, and he had never 
seen a ball.
    The coordinator told his mother to sit on the ground and 
roll the ball to him. She did, and the boy looked at the ball, 
this new thing, not quite sure what to do with it at first. And 
then he imitated, he rolled it back, and his mom rolled it to 
him again, and this time the boy made a noise. ``He is talking 
to you,'' our coordinator told the mother. ``No,'' said the 
mom, ``my baby does not talk.'' ``He is talking to you,'' said 
the coordinator. ``Say something back to him,'' and the mother 
made babbling sounds back to her boy, baby noise, and all of a 
sudden, there was a conversation in the air. Mother and the 
baby, there was a connection, and a light went on in the little 
boy's eyes.
    That story is the whole game right there. It contains the 
problem plain and simple. A brain in poverty is up against it, 
I am telling you. A child who is not touched, who is not spoken 
to, who is not read to or sung to in the first 5 years of his 
or her life will not fully recover. Neglect can be every bit as 
harmful as abuse.
    When many of these children enter kindergarten, they do not 
know their letters and numbers. They do not know how to sit in 
a circle or listen to a story. They do not know how to hold a 
book. They may have never even seen a book. That is shocking, 
isn't it, that 1 in 5 children in this country live in the kind 
of poverty that they could enter kindergarten never having seen 
a book.
    It is easy to escape responsibility for a disgrace like 
that by blaming the parents. Who does not talk to a child? Who 
does not sing to their child? I will tell you who: parents who 
have lived their whole lives with the stresses that comes with 
food scarcity, with lack of adequate shelter, with drug 
addiction and abuse, parents who were left on the floor when 
they were children, ignored by their parents who had to choose, 
as 1 out of 3 mothers in this country, between providing food 
or a clean diaper for their children.
    Poverty dulls the senses. It saps hope. It destroys the 
will. So, I never look at these people and ask how could you, 
how could you not. I say there but for the grace of God go I.
    Here is the good news. That story of the little boy also 
contains the seeds of a solution. It takes so little--a ball, a 
book, a parent who is given the encouragement to read, or talk, 
or sing to their child. That mother from the Central Valley of 
California said to me no one ever read me a book in my whole 
life, but she is reading to her little boy now.
    With a significant investment in high-quality early 
childhood education, proven, effective programs like Early Head 
Start, Head Start, Child Care and Development Block Grants, 
Preschool Development Grants, and home visitation models, such 
as Save the Children's Early Steps to School Success, we can 
intervene in these children's lives in time to make a 
difference.
    Give those children one responsive, responsible adult, and 
you can actually protect them from the stressors of poverty. 
That is how resilient a child's brain is. It takes so little, 
and it does so much. As Frederick Douglass said, ``It's easier 
to build strong children than to repair broken men.'' Cheaper, 
too.
    So, why do we not take care of our poorest children more 
willingly? Well, poverty is silent, and I mean that entirely 
metaphorically. These children do not vote. They do not make 
political contributions, neither do their parents. Somebody has 
to tell their story above all the noise. Poverty is silent, but 
I can't be.
    I grew up, as I have often told people, one generation and 
one holler removed from poverty. I knew children in my own 
school in West Virginia who had to cut holes in the toes of 
their shoes because they could not afford to buy new ones, 
children who did not move from 1st grade to 2nd when I did, 
children who eventually disappeared altogether. I could not 
stand up for them back them, but I can stand up for their 
families now. With Save the Children, I have been for 9 years.
    Every day, 2,723 babies are born into poverty in this 
country. That is almost 994,000 each year, 25 percent of all 
births. Those children can't wait for the next Congress or the 
Congress after that for us to intervene. We have just a few 
years, and then it is all but too late.
    I was thinking about that great quote from the late Stephen 
J. Gould, the evolutionary biologist, who said, ``I am somehow 
less interested in the weight and convolutions of Einstein's 
brain than in the near certainty that people of equal talent 
have lived and died in cotton fields and sweatshops.'' In an 
age when we wonder how we might best compete with the rest of 
the world, how many Einsteins, F. Scott Fitzgeralds, how many 
Amelia Earharts, Katherine Johnsons, Bill Gateses, how many 
people could have changed this country if only they had the 
opportunity we are talking about this morning for want of a 
book?
    I am asking you to support early childhood education, 
please. Thank you.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Mr. Simpson. Thank you. Mr. Millican.
    Mr. Millican. Mr. Chairman, Ms. DeLauro, ranking member, 
members of the committee, I am Don Millican, and I have the 
privilege of representing the George Kaiser Family Foundation 
in Tulsa, Oklahoma. And I want to acknowledge, first of all, 
Emily Kaiser behind me, who is a member of the board of the 
foundation.
    The Book of Isaiah, chapter 58, tells me that all of my 
religious practices are worthless if I do not break the yoke of 
oppression. In my opinion, there is no greater yoke of 
oppression than that which is laid upon a child born into 
intergenerational poverty, a child that did not choose the 
circumstances of his or her birth.
    The problem of intergenerational poverty is high and 
complex, and over the past decades, if nothing else, we have 
discovered that there is no silver bullet or a solution. But we 
do know that education is foundational to a child's ability to 
break the chains of poverty.
    I have two of my grandsons here today from Edmond, 
Oklahoma. I hope they are behaving themselves behind me.
    Voice. They are doing great.
    Mr. Millican. Great, thank you. They were born into 
affluence and have had every benefit afforded to them to give 
them a path to a successful life. Those benefits began the day 
they were born. From their first days of life, they have had 
twice as many words spoken to them as compared to a child 
raised in poverty. And the resulting additional brain 
stimulation that they have received from reading, singing, and 
talking, particularly in the first 3 years of life, has created 
a brain development gap between them and a child raised in 
poverty, which is extremely difficult to ever bridge.
    For the child in poverty, that gap will lead, as many will 
speak about and have already, to lower achievement, lower 
earnings, higher incarceration rates, a greater likelihood of 
teen pregnancy, all at a great cost to our society.
    The best course to reducing the societal cost is to address 
the brain development gap before it is ever created, by 
investing in high-quality very early childhood education, 
together with parental training, particularly in teaching 
parents, as Jennifer said, the value of talking, reading, and 
singing to their infants and toddlers. Such is the mission of 
the George Kaiser Family Foundation. And not to speak for Mr. 
Dow, but I will anyway, and Community Action Project also in 
Tulsa, which Mr. Dow has so faithfully dedicated himself.
    However, we also believe strongly in the value of public/
private partnerships in addressing the issue. In Tulsa, we have 
combined Federal childcare, Head Start, Early Head Start 
grants, State of Oklahoma grants, and private philanthropy to 
develop a robust and growing system of high-quality early 
childhood centers. The State of Oklahoma grants were structured 
as matching grants with the State matching philanthropy dollars 
contributed. We believe this committee should consider a 
similar structure for Federal grants.
    The value of public/private partnerships is somewhat 
obvious as government dollars are stretched further through 
private philanthropy. But further, we believe that these 
partnerships add an element of local accountability as donors 
expect a return on their philanthropic investment and the 
reporting to prove it. But as a businessman, I also understand 
there are times we must do more with less, and I believe there 
are decisions and reforms that can be made within Head Start 
and Early Head Start which can increase impact without outlays 
of additional funding.
    First, I believe we should encourage the Department of 
Health and Human Services to strengthen its re-compete process. 
It is always hard reallocating funding, but being good stewards 
of these resources requires poor agencies to lose funds and 
strong agencies to gain added funds, and these reallocations 
should take place even across State borders. We owe that to the 
children and to the taxpayers to reward excellence and remove 
poor performers.
    Second, given the fact that about 50 percent of eligible 
children are served in Head Start, but only about 5 percent of 
eligible children are served in Early Head Start, and 
considering that brain research tells us the most crucial time 
for brain development is birth to 3 years of age, we must 
encourage incremental available dollars, whether through 
appropriations or re-competition, to be awarded to the youngest 
children; that is, to Early Head Start. To give children born 
into poverty a fighting chance to succeed, we simply must 
address the brain development gap before the age of 4.
    In closing, I return to Isaiah 58. We are told that if do 
away with the yoke of oppression and satisfy the needs of the 
oppressed, our light will rise in the darkness and our night 
will become like the noon day. May we be lights shining in the 
darkness.
    Thank you.
    [The information follows:]
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Simpson. Thank you. Professor Brooks-Gunn.
    Ms. Brooks-Gunn. It is an honor to be here today testifying 
to your committee.
    I am Jeanne Brooks-Gunn. I am a developmental psychologist 
at Columbia University, and I have spent my career focusing on 
ensuring that all children have high-quality childcare, and, at 
the same time, making sure that working parents have the 
supports they need to go back to work. And I think it is very 
important not to separate out the two. I will give you one 
example why that is important.
    Often when people talk about poor families, as we have 
heard, we are talking or thinking about mothers who are not 
working. That is not the case. In our longitudinal study of 
5,000 families and in 20 different cities in the United States, 
and this is an urban sample, so they are primarily poor and 
what people may have used to call working class. But in a way 
that does not really fit. I call them ``near poor.'' 70 percent 
of these mothers were working when their babies were under a 
year of life. That is 70 percent. The number climbed to 85 
percent in the second and third year.
    What this is telling us is that poor and near poor 
families, again, what you guys might call working poor, mothers 
need the support of childcare. Not only do we want early 
childhood education to develop the children, and the brain 
research that's been discussed is very important, but we need 
to provide supports to the parents. So, I would like you guys 
to think about it that way.
    In terms of this testimony, what is important or what I am 
going to talk about are Early Head Start, Head Start, and the 
Development Block Grants because they do slightly different 
things. I quickly will talk about Early Head Start. It has been 
mentioned already that less than 5 percent of our birth to 
three children who are eligible, eligibility for Head Start, 
for those who do not know, you have to be poor under the 
poverty threshold. We are serving 5 percent. In my view, that 
is, I don't know if I want to say ``travesty.'' I will say 
``travesty.''
    Five percent is not enough. Early Head Start, I was part of 
the national evaluation team that did the original evaluation, 
now 15 years ago. We found sustained effects in all areas of 
development when the babies were 3. By 5, we continued to see 
sustained effects in things that are related to learning in 
school.
    In addition, which is very important, those children in our 
17 sites that went from Early Head Start to Head Start, not all 
of them did, but those that did continued, so we had a 
continuity of care. Those children showed higher achievement at 
age 5 than did those children who after Early Head Start did 
not go onto Head Start.
    So, I would like to make a plea when we think about 
designing programs and allocating funds that we do more for 
this continuity of care for the Early Head Start children. I am 
happy to answer other questions about Early Head Start later if 
you want to ask me.
    Second, Head Start. Since I do not have a lot of time, what 
I would like to say about Head Start is that we have long-term 
follow-ups that show the kind of effects that have been talked 
about, that Jim Heckman talks about, in terms of doing better, 
in terms of employment and educational attainment. So, that is 
very important for Head Start.
    My concern right now is that we fund more slots for 3-year-
olds. Again, think about my continuity issue, and think about 
the fact that you want more than 1 year of programming to help 
children overcome a lifetime of poverty. So, that is all I'm 
going to say on that.
    For childcare development block grants, what I would like 
to say is that these block grants, the grants can serve mothers 
who are up to 200 percent of the poverty threshold. That would 
include my near-poor group, poor, first 20 percent, near poor 
second 20 percent.
    Of the mothers who are eligible for these subsidies, and 
you have to be working to get them, fully 38 percent are not 
receiving any public subsidies at all. We really have to do 
something to change the fact that we have many mothers who are 
eligible who are not receiving the subsidies.
    Part of the problem is that the States who have flexibility 
in funding Federal money have chosen not to fund the subsidies 
at what is called market rate. So, in other words, if you are a 
mother in a certain State, you may get 40 percent of what the 
market rate is for childcare. So, I think that is a real 
disincentive for mothers to sign up for the childcare subsidy.
    We do find in the research that our group has done that 
mothers who have the subsidy and put their kids in care are in 
higher quality care, their children, than the mothers whose 
kids were eligible, but did not get the subsidy. So, we have 
evidence now suggesting that the subsidies do enhance quality 
care, in large part because the kids are going to center-based 
care. So, I really think that if we want to get kids into 
center-based care, and we are using the subsidies as the way to 
do it, we have to have the subsidies closer to the market rate.
    Please remember that childcare costs per year, and these 
are estimates, $4,000 in Mississippi, actually maybe less than 
$4,000, and over $12,000 a year in other States. Think about 
being a poor family where you have maybe for a family of 4, 
$2,000; $12,000 for care for one child. We need to be 
subsidizing this care for our poor and near poor mothers. They 
cannot do it. And if we believe that we want to have the 
effects that we have seen that Jim Heckman talks about, we need 
to be subsidizing care for these families.
    I would like to make just one comment here as a note of 
caution. And my note of caution, I had mentioned before, 1 year 
of programming is not going to make a difference. We have to 
think about serving our birth to 5's for more than 1 year. I 
testified 15 years ago to this committee actually, and I 
entitled my testimony ``Do You Believe in Magic,'' for all of 
you that are old enough to remember that song by the Loving 
Spoonful.
    And why did I do this? Because at that point we were 
pushing just to fund childcare for 4-year-olds. And I tried to 
argue expecting 9 months or 11 months, 6 hours a day of Head 
Start, no matter how good that Head Start is, is not going to 
overcome a life of poverty.
    So, I want to end with my ``Do You Believe in Magic'' 
point. Think about funding for our children more than 1 year. 
Thank you.
    [The information follows:]
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mr. Simpson. Thank you, Professor. Mr. Dow.
    Mr. Dow. Thank you for having this hearing on early 
childhood education, for giving me the opportunity to appear in 
front of you, and for your strong support of investing Federal 
funds in our Nation's youngest and most vulnerable children.
    Dishon Lairmore is a high school sophomore with a 3.7 grade 
point average, takes AP classes, is class president, starts on 
his varsity basketball team, is active in his church and the 
Boys and Girls Club, and helps his mother, Jessica, who has 
returned to school to earn her associate's degree, with her 
math homework. Jessica plans to teach young children, hoping to 
repay forward to others what she believes propelled her and her 
son onto a different life trajectory as a result of her having 
enrolled Dishon in CAP Tulsa's Head Start Program in 2004.
    For the last 25 years, I have served as the executive 
director of CAP Tulsa, a community action agency focused on 
interrupting the cycle of poverty by providing high-quality 
early education services to young children and a range of 
family supports aimed at improving the economic condition of 
their parents.
    I have the good fortune of doing my work in Oklahoma, a 
fiscally and socially conservative State which has been at the 
forefront of States acting to expand and improve education 
during the birth to age 5 years, the most critical period of 
children's development. With strong bipartisan support, we have 
enacted State-funded universal pre-K for 4-year-olds, 
incentivized improvements in the quality of childcare, and 
created a public/private partnership to expand the supply of 
high-quality infant and toddler care.
    We have had the unique opportunity to design, operate, 
evaluate, and continuously improve a scaled system of 
exceptionally high-quality early education for Tulsa's 
youngest, most vulnerable children starting at birth and 
continuing through preschool.
    So, what are our lessons learned? Perhaps most crucially, 
our experience validates that that benefits of early childhood 
education are twofold. They both prepare at-risk children to 
enter the public school system ready for kindergarten, and they 
support their parents in the low-wage labor market.
    Numerous studies by Georgetown University researchers have 
documented the substantial gains that children make during our 
Tulsa Head Start Program. Their most recent published research 
found that children participating in the Head Start Program for 
only 1 year had positive results persisting through middle 
school. They scored higher on State math tests, and were 
significantly less likely to repeat a grade or be chronically 
absent from school than similar students who did not attend 
Head Start.
    A Northwestern University led research team evaluating our 
Career Advance Program, which prepares the parents of children 
enrolled in our Head Start Program for employment in the 
healthcare sector, has found strong evidence that pairing high-
quality Head Start services with job training for parents 
produces positive outcomes for parents and children beyond the 
benefits of providing either Head Start or job training alone.
    Beyond that, five lessons from our experience can help 
inform this committee's work. First, to produce strong 
outcomes, providers must be able to hire and retain skilled 
teachers and staff. Yet due to inadequate Federal funding, the 
prevailing wages in the field are far too low to attract and 
retain quality teachers.
    In Tulsa, we compensate Head Start and Early Head Start 
teachers with salaries commensurate with those of public school 
teachers. To mirror the Tulsa success, significant Federal 
investment in building the early childhood workforce is 
essential and urgently needed.
    Second, early childhood operators, like CAP, are improving 
results and access for children by combining existing State and 
local funding streams to leverage Federal resources. By working 
closely with State and local policymakers, we increase the 
impact of Federal funds and influence State and local policies 
to support children and families.
    When the base of Federal funds is strong, and increases 
with rising needs, and includes quality standards, like those 
in Head Start and Early Head Start, it supports our local 
efforts. By contrast, when Federal funding streams are limited 
or declining, it hinders and undermines them.
    Third, existing levels of Federal funding provided by Head 
Start, Early Head Start, the Child Care Development Block 
Grant, and Home Visiting Programs are crucial, yet not 
sufficient on their own to cover the costs of high-quality 
services, nor to reach the long waiting lists of unserved 
children and parents who need them.
    Tulsa is an anomaly with the exceptional generosity of the 
George Kaiser Foundation. But the fate of low-income children 
and families across the country ought not depend on the 
largesse of private philanthropy. Additional Federal funds are 
desperately needed to provide adequately for the full needs of 
existing children and parents already enrolled in the programs, 
and to reach long waiting lists of unserved children and 
parents.
    Fourth, despite these successes, it is important to 
highlight that early childhood education alone is not a silver 
bullet. To achieve its full potential, it must be followed by 
high-quality early elementary school. In addition, investments 
in such areas as post-secondary education and workforce 
training, along with help for parents to meet their basic 
needs, such as health, housing, and nutrition, are key to 
children's long-term success.
    Fifth and finally, early care and education is a 
commonsense, fiscally conservative, high-leverage and high 
return investment embraced across party lines and among people 
with diverse perspectives. It is hard to find any other area of 
public policy in which such widespread agreement exists about 
the value and importance of Federal government funding, 
leadership, and support.
    With more Federal funding, we can help stimulate additional 
State, local, and private investment to help millions of 
children and families across our country reach their full 
potential, just as we have done for Jessica and Dishon in 
Tulsa.
    Thank you.
    [The information follows:] 
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. I thank all of you for your testimony and for 
being here today to talk about this important subject. 
Obviously, it is of importance to our chairman, Mr. Cole, who 
had to leave, because he is the one that called this hearing. 
And it is important, I think to the members of this committee.
    About 22 years ago, 24 years ago, something like that, when 
I was speaker of the house in Idaho, I became interested in 
early childhood education. And we had conversations among 
members about developing a pre-K program and so forth, but at 
the time we were just trying to get daycare licensed. And that 
took us a while to do.
    But let me give you some statistics. Since we kind of 
loaded up with Oklahoma here, I will talk a little bit about 
Idaho. [Laughter.]
    And these are not things that I am proud of, but this is 
the reality. Idaho has 111,707 children between the ages of 0 
to 4 years old. Idaho is only 1 of 6, and now I understand 
reading this article, 1 of only 4 States that does not invest 
State dollars in pre-K.
    Fifty-seven percent of all children in Idaho under the age 
of 6 have both parents in the workforce. Only one-third of 
Idaho's 3- to 4-year-olds are enrolled in preschool. Because 
Idaho does not have the State funded preschool, these programs 
include private preschool, special education preschool, Head 
Start, or childcare. Childcare and early learning teachers earn 
on average $18,280.
    There are a couple of Idaho legislators--Christy Perry, a 
conservative Republican in the Boise area, and Hy Kloc, a 
Democrat--that are working together to try to get early 
preschool, pre-K education in Idaho. They could not get a bill 
introduced this year, but they had a hearing yesterday just to 
talk about preschool and the benefits of preschool.
    The arguments against it that I hear from some of my 
colleagues in Idaho are, one, we are trying to improve K 
through 12, and that is where our dollars are going, and we do 
not have money left over to do preschool. The other one is that 
parents should take care of children until they are ready to go 
to kindergarten.
    What would you, and I will ask this to any of you that 
would like to answer. What would you say to the Idaho 
legislature that is considering investing State dollars in 
preschool programs about the importance and what it can do for 
improving not only these children's lives, but what they are 
going to be spending later years on K through 12 and other 
programs in the State? What would you say to them if you were 
testifying before the Idaho legislature? Who would like to go 
first?
    Ms. Brooks-Gunn. Well, first, well, I would say 3 things in 
terms of pre-K. First, I would say that 80 to 85 percent of the 
public across the United States is in favor of pre-K. 
Consequently, the argument that parents feel that pre-K is 
encroaching on their rights as parents does not seem to be true 
given the overwhelming support for pre-K in this country. I am 
assuming Idaho would show the same 80 to 85 percent. That is 
the first thing I would say.
    The second thing I would say is our mothers are poor, and 
those poor mothers are all working. They have to have 
childcare. If 80 percent are working, we have to have some sort 
of system to help these mothers when they go to work. If we are 
going to do that, which we have to do, we ought to do high-
quality care for the children.
    So, those would be the first 2 things I would say, but let 
us see what Don would say.
    Mr. Simpson. Don.
    Mr. Millican. Well, we had these conversations in Oklahoma 
with the legislature when the Oklahoma Early Childhood Program 
was developed and the Matching Program was developed where the 
State puts out $10 million, and we match it with $15. And the 
comments you said were the very comments that we encountered, 
and I said to them very much the same.
    These children are in daycare somewhere already. Their 
mothers are working or you want them to be working because they 
are by and large going to be single parents. And so, do you 
want them in high-quality early childhood or do you want them 
maybe basically just being babysat without any kind of 
intellectual stimulation going on in a substandard daycare 
center?
    And that resonated with the conservative legislators and 
brought about their support.
    Mr. Simpson. Steve.
    Mr. Dow. Our State in 1998 enacted universal pre-K, and we 
did that not because we had not invested enough in K-12 
education, but because of the fact that decades of research has 
demonstrated that the gap that exists at the time of school 
entry is not narrowed. It only widens as kids go through the K-
12 system.
    And so, our strategy in Oklahoma was to attempt to narrow, 
if not eliminate, that gap before the time kids entered school. 
And I think much of our historical underinvestment in early 
childhood has been predicated on the fact that we did not fully 
understand how much learning goes on during those crucial early 
years, and how important it is to invest public dollars in the 
education of young children during the most formative time of 
their development.
    And the evidence now is so strong on the science, and we 
also now have evidence and examples of what results we can get 
when high-quality programs deliver the extended services that 
children and families need in order to make sure that they 
enter school systems ready.
    Mr. Simpson. Ms. Garner.
    Ms. Garner. Thank you so much. The families that we serve 
in rural America with Save the Children, often there is a 
mother at home. There is a grandmother at home. Somebody is at 
home with the children. And so, I would like to speak to the 
idea that the child should be with the mother until they start 
kindergarten.
    Now, my mom grew up 1 of 10 kids in Dust Bowl Depression 
Locust Grove, Oklahoma, and she is the only one in her family 
to have gone on to college. And my mom always talks about she 
had such a lively house that was absolutely the perfect 
environment for early childhood brain growth. They played 
jacks. They sang songs. They recited Bible verses. They all 
could recite poetry at the drop of a hat. So, her brain had 
exploded. She knew how to work in a group. She had seen books. 
She knew how to color and sit still and listen to a story.
    That is kindergarten readiness. She was ready when she went 
to kindergarten, and she thrived and identified herself as a 
smart girl, and went on. And thank goodness she did because it 
really changed my sister's and my chances in the world.
    But these moms that we are serving, they do not have that 
environment for their children. The stressors are so 
overwhelming to them. The isolation is so overwhelming that it 
takes us going to their house week after week, brick by brick, 
and building a community for that mother, being the community 
for that young mom, and showing her you can do it, you can do 
it, you can do it with encouragement, with bringing books, with 
bringing toys, and bringing that life in that family and that 
house to life. Thank you.
    Mr. Simpson. Thank you, and I appreciate those answers. 
With the help of this committee, frankly, in the past back when 
we did those nasty things called earmarks, we actually 
earmarked some funds for a program in Boise called the Lee 
Pesky Center for early childhood development and early 
childhood learning. It is the Early Child Ready to Read 
Program, and they have done some fantastic work, and that is 
great for Boise.
    But Boise is, like, half the population of Idaho, and what 
do you do when you get to Salmon, Idaho and there are no 
programs for that type of thing? But your story about the child 
and rolling the ball, I do not think a lot of people understand 
the importance in those first development years of 0 to 3 of 
the brain development, and how you treat a child, interact with 
a child, you know, all of that kind of stuff, how important 
that is in the development of that child. So, thank you for 
being here today.
    Ms. DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman. Just a 
couple of points before I ask my questions. Mr. Millican, you 
talked about evaluating programs. That is laudable, and I 
concur, except that you should know that the evaluation funding 
in 2016 for Head Start is $20,000,000. For preschool 
development grants, it is $1,800,000.
    I will make reference to the comment I made in my opening 
remarks. This is budget dust. If you really want to evaluate 
programs, then we shut down those that are bad, and move 
forward with good ones, and put more efforts in there.
    I also wanted to call attention to, a recent Health and 
Human Services study finds that tripling the Child Care and 
Development Block Grant funding could result in the employment 
of more than 652,000 low-income mothers. This investment 
promotes social mobility within and across generations so that 
the link between childcare and employment is critical.
    But, Mr. Millican, Oklahoma has been the leader, and really 
it is very exciting. Mr. Dow pointed out Georgetown Center for 
Research on Children has found tremendous gains in school 
readiness, particularly for kids from low-income families, 
limited English proficiency. Impressive finding, proof that 
Federal dollars being used effectively.
    Part of the success comes from the partnership with Educare 
learning. I know the history of Educare Chicago, the Beethoven 
Program, the amount of funding that went into making this 
really a first-rate education effort: emotional skill 
development, services are provided, access to social workers, 
speech pathologists, nurses. The list goes on. Oklahoma has 
gotten it right, they really have. You have combined Federal, 
State, philanthropic resources with outstanding results.
    A State investing $10,000,000 per year matched by 
$50,000,000 in private money. This is the largest public/
private partnership in the country for birth to 3 childhood 
education. Oklahoma is so fortunate to have a foundation that 
is committed to providing necessary resources that support 
high-quality early learning opportunities for its youngest 
children and their families.
    My question to you, Mr. Millican, is what about those 
communities that do not have generous philanthropies supporting 
this endeavor? We agree early childhood is one of the best 
investments. So, what I would like to know is how do we 
replicate your State's success in the places where private 
dollars may not be available?
    Mr. Millican. Well, I think you have to divide it into 2 
categories. There are communities in which there is great 
wealth, but that great wealth is not being pulled into the 
process, and that is where I believe matching programs do very 
well. If you are able to say to the wealth in a community if 
the government gives this much, we will match you to the extent 
you give this much, that pulls in private philanthropy.
    Obviously, there are communities that do not have that kind 
of wealth, and you have to deal with them differently. You 
cannot put----
    Ms. DeLauro. How?
    Mr. Millican. Well, your grants have to be sufficient from 
the government to be able to fund it.
    Ms. DeLauro. So, you need a substantial Federal 
investment----
    Mr. Millican. Of course.
    Ms. DeLauro [continuing]. In those efforts. And you need a 
substantial Federal investment pretty much in any community 
that we are talking about, but if you had the adjunct of a 
philanthropic private dollar effort. But talk from a business 
perspective about the Federal investment and what that needs to 
be.
    Mr. Millican. Well, I mean, it is critical obviously. What 
we are doing even through the George Kaiser Family Foundation 
could not be done without the Federal dollars that are coming 
in. As a foundation, we are involved in Educare. We are also 
heavily involved in Mr. Dow's organization, Community Action 
Project. And a substantial portion of the revenues coming to 
both of those organizations is coming from Federal dollars. It 
is also coming from State dollars. It is also coming from 
philanthropy. Each of those three are critical to the process.
    Ms. DeLauro. And let me just see if we are on the same 
wavelength here. Whether it is Federal, private, in a public/
private partnership effort, that, first of all, if you want to 
do early childhood development, early childhood education well, 
the whole childcare piece, it is not on the cheap.
    Mr. Millican. No.
    Ms. DeLauro. Is that right?
    Mr. Millican. That is correct.
    Ms. DeLauro. It is not on the cheap. It is an expensive 
proposition.
    Mr. Millican. Yes, absolutely.
    Ms. DeLauro. And that the commitment, both of the Federal 
dollars and private philanthropies, is critically important. 
But we sit here from the Federal perspective. This is our 
bailiwick. So, will you concur that we cannot do this on the 
cheap?
    Mr. Millican. I agree. It is an expensive program that we 
could each speak to. If you take the public out of it, it is 
only private. I mean, it is a public/private partnership.
    Ms. DeLauro. If we do it on the cheap, what are the 
consequences?
    Mr. Dow. Well, I think the short answer to the consequences 
are that we do not get the results that we do when we do it 
robustly and well.
    Ms. DeLauro. But in terms of our children, what does that 
mean?
    Mr. Dow. Well, it is devastating for the children, and then 
it undermines public confidence that early education works 
because we say, oh, we did it and it did not work, when, in 
fact, we had not done enough to really meet the needs of the 
children in a way that clearly evidence-based programs have 
demonstrated can work.
    Ms. DeLauro. Ms. Brooks-Gunn.
    Ms. Brooks-Gunn. Yes. If our goal is to narrow the 
achievement gap at age 5 and 6, I would say the same thing that 
Steven said. You cannot do it on the cheap. And, in fact, if 
you try to do it on the cheap and you do not narrow that gap, 
then you basically have taken a whole group of kids who have 
not had what they need to succeed, and they are not going to do 
as well in school.
    So, we know enough in terms of what to do. Yes, it is 
expensive, and it needs to be done for more than 1 year. That 
is particularly important.
    Ms. DeLauro. We have heard from Mr. Millican. I do not know 
if Ms. Garner wants to say something about this. I do not know, 
the question being doing this on the cheap and what are the 
consequences.
    Ms. Garner. I think I concur with them.
    Ms. DeLauro. Fine, yeah. Thank you. I would love to share 
with you the Young Child Tax Credit legislation, which would 
provide $3,600 to low-income families, and just get your sense 
if this is a way in which helping to deal with families being 
able to----
    Mr. Dow. Make sure if it is a tax credit for low-income 
families that it is refundable.
    Ms. DeLauro. It is refundable, my friend, and it starts at 
the zero dollars. I will get it to you so you can see it. Thank 
you.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman, and welcome to 
all of the witnesses. I want to thank each and every one of you 
for being here today and for your advocacy. Ms. Garner, I want 
to particularly thank you. You have visited my district, the 
3rd District of Tennessee, and I really appreciate your 
advocacy on behalf of children.
    I wanted to address you today and for our guests and talk a 
little bit about some major issues, especially involving 
computer science literacy, and to impart some of my experiences 
in that regard. But to lay out my district, it is an East 
Tennessee district. My largest city is the greatest mid-sized 
city in America, Chattanooga. There is Oak Ridge, another large 
city, but there is a tremendous rural area as well. It runs 
from the Georgia border in the south to the Kentucky border in 
the north, so it is large geographically.
    Recently, I had the opportunity to go to a school. I went 
to a 2nd grade class. And for the benefit of my colleagues, 
going to a 2nd grade class is truly incredible. 2nd graders 
were teaching me how to code with computer literacy. It was 
outstanding. The optimism, the idealism, and the potential in 
that classroom was truly incredible. We had members of the 
Fourth Estate with us there that day, and we had other civic 
leaders. It was just such a positive, positive experience.
    So, I want to thank you for all you are doing because if 
you get out into the schools and you actually get out and reach 
the children, you will actually see the tremendous potential 
that we have got. So, I know we have some very different ideas 
somehow to get there, but it is important that we get there. 
So, I really appreciate that.
    In Chattanooga in particular, I want to call attention to 
the Enterprise Center. The gentleman, Mr. Millican, referred to 
some of the important public/private partnerships, and 
Chattanooga is a particularly philanthropic community. And what 
we do, we not only leverage public dollars, but we leverage 
private dollars, and we make sure that we get results.
    What the Enterprise Center is actually doing, which is 
incredible, is offering free computer literacy classes to 
children and to parents. It is truly outstanding. And this is 
just one small component of workforce development, which is 
critically important to this very large subcommittee. But this 
experience enhances the lives of the children and the parents 
in many different ways, but it is working. It is working, but 
there are some challenges in the rural areas. We realize that, 
but we are all working in the right direction.
    So, I am very proud of our work, not only on this 
subcommittee and on the full committee. So that you know, we 
handle all of the discretionary spending in Congress, so it is 
critically important. You are talking to the right 
policymakers. But my question would be, as an advocate for 
computer science literacy, do any of you emphasize the use of 
technology and computer science literacy? If so, how, and has 
it been successful? And I will open that up to all the 
witnesses.
    Ms. Garner. Thank you so much. I would say that if you are 
talking about birth to 5, and I am interested to hear if you 
guys agree with me, the learning really takes place with eye-
to-eye contact, and it is all about the serve and return 
relationship.
    And so, I met a young mother once in West Virginia who told 
me that she had been taught to swaddle her baby, and she was so 
proud of it. And she said that she put her baby right in front 
of the TV so that it could hear words and learn how to talk. 
But that baby did not babble, he did not make a noise, because 
what he needed was to be held in his mother's arms and to hear 
the babbling from her.
    So, for us, while I am sure that science and technology can 
play a role, we are trying to get kids ready to enter that 2d 
grade classroom. By 2d grade, you are too late. We are trying 
to get kids so that they can sit still long enough to sit 
through a lesson, and sit through a frustration, and sit 
through groups learning something that might be tricky for 
them.
    And I do not mean to speak for all of you, but that is how 
I see things with Save the Children.
    Mr. Millican. Social-emotional skills are really key in 
that age that need to be developed so that they really can 
function in the future. Obviously, you are right, technology 
skills are crucial for any person to do well in life these 
days. There are a lot of public/private partnerships that do 
that. The KIPP Program, for example, is one that we have in 
Tulsa that is very much into that as well as a very 
concentrated educational effort.
    But when it comes to birth to 3, birth to 5, it is really 
going to be the social-emotional skills that you are really 
trying to focus upon.
    Mr. Fleischmann. Thank you.
    Ms. Brooks-Gunn. I would like to put a plea in for our 
programs for our 3- and 4-year-olds. A lot has been done on 
trying to introduce more math and science. A little different 
than your computers, but it is getting more into the STEM work.
    And some very interesting intervention curricula have been 
developed for our 3- and 4-year-olds that are very effective. 
And when you go into a classroom of 3- and 4-year-olds, 
teachers are not doing much with math and science, so they 
really need the curriculum to get them to do more math and 
science.
    So, I think by the time kids are at 3, we can really think 
about it, and we have some good work being done, so I am happy 
to share what is done. I have a chapter in Our Future of 
Children on STEM and what is being done with the 3- and 4-year-
olds, though I agree with these guys, Don and Jennifer. When we 
are talking about mothers interacting with kids, we are talking 
about talking, not putting them in front of TVs.
    There are some really amazingly clever studies where they 
have tried to have kids learn from little Sesame Street 
vignettes without the mother interacting. The kids do not learn 
unless--if you are doing a Sesame Street or whatever--unless 
the mother is interacting with the child looking at Sesame 
Street. So, that is the piece when the kids are little where 
you have to have the mother involved.
    You can do something with media, but the mother has to be 
involved, not just plopping the child in front of the TV.
    Mr. Fleischmann. Thank you.
    Ms. Brooks-Gunn. If you want more on STEM, some really neat 
stuff is being done and rolled out in preschool classrooms 
across our country.
    Mr. Fleischmann. Thank you.
    Mr. Dow. In addition to the early math work that we have 
done, building on Professor Brooks-Gunn's comments, which we 
have done, implemented in evidence-based building blocks math 
curriculum, again, long-term academic studies have shown that 
children's entering math skills are highly predictive of their 
later school achievement. And historically, early education 
programs have not emphasized and taught enough math skills, so 
that is really a foundational building block to, I think, the 
kinds of uses of technology that you are using.
    I will also note that when we do direct child assessments, 
increasingly for our older children in our centers, they need 
to become proficient with being able to use the technology, 
which often does not exist in their homes, because many of the 
most cutting-edge, online, direct child assessments are done on 
tablets and on computers. So, we are actually having the 
preschool-age kids begin to learn those skills.
    Mr. Fleischmann. Thank you. Mr. Chairman, I yield back.
    Mr. Simpson. Mr. Pocan.
    Mr. Pocan. Thank you, Mr. Chairman. Appreciate it. So, what 
I would like to do, and thank you to all of our guests today, 
is talk a little bit about Wisconsin. Since we had Oklahoma and 
had the Idaho experience, let me share a little bit about my 
district.
    So, I have been to a number of the programs from cities 
like Madison--230, 240,000--to Monroe--13,000--to Beloit, which 
is about 36,000. It is probably one of the more economically 
depressed parts of my district. And, you know, when you talk 
about the silence of poverty, I have done the home visits, too, 
so I know what you are saying. I think you made it very 
illustrative of what I have experienced. I am glad you said it 
the way you did.
    What is interesting about Beloit is not only do you have 
that poverty and the waiting lists they have to get into that 
program, but the day after I visited the Beloit Program, a 
stray bullet went through the window at that school because of 
the very tough neighborhood that it is in. So, this is the 
reality for a lot of the kids who are in Head Start.
    But I want to go back to that waiting list that they had at 
that Beloit school of well over a hundred kids who would like 
to get into that program but cannot. We saw the cuts through 
the sequester and the effects that they had, I think, on all 
the different Head Start programs across the country. And, now, 
you know, we have got a budget that, while it was just showing 
the skinny budget, I guess, from the President this morning, 
and while they show if you spend $54,000,000,000 more on 
defense, you are going to see the cuts of the 10, and 20, and 
30 percent in a lot of other things that, quite honestly, are 
under the jurisdiction of this committee.
    And even the education cut is misleading because there are 
some additional dollars being put in on private vouchers, 
something that I could ad nauseam about because we have that 
terrible experience in Wisconsin. The cuts are actually even 
deeper then. So, what I am worried about is what that means to 
Head Start and Early Head Start because we have had the same 
success results in Wisconsin like you have talked about.
    So, I guess you all approach Head Start from different 
capacities. I was just wondering if you could all discuss a 
little bit about the impact of the cuts we already saw with the 
sequester and what would happen if there were even deeper cuts 
to this budget, what that would mean to the program and to the 
Head Start students across the country. If you could each just 
address that very briefly.
    Mr. Dow. Well, as a director operator, a colleague of ours, 
Solar Learning, operates programs, I think, in your home State 
in Wisconsin, and they do an excellent job.
    I think all of us that are trying to operate high-quality 
programs that would be facing those kind of cuts, would be 
having to make very difficult choices. Already we have very 
long wait lists. We have got 1,300 infants and toddlers who are 
on our wait list waiting for Early Head Start services. To 
imagine not being able to serve kids that are currently 
enrolled and increasing the wait list is just devastating 
knowing what the long-term costs to society are by neglecting 
to invest in children during their earliest years.
    I think that is the part that is often missing is the 
avoidance costs, the costs that we pay later for society by not 
investing in children when they are young.
    Ms. Brooks-Gunn. What you are going to see, I am not 
pretending I am running a Head Start agency. I am not like 
Steven, but let us pretend I am. I mean, what is going to 
happen is I think slots for 3-year-olds will go away if we do 
cuts. We may go back to more part-time programs, half-day 
programs for Head Start. That is a real problem for parents who 
are working. So, to go half-day programs is not going to be 
very useful. Also, half-day programs seem to have less effect 
because the kids are getting less education.
    So, you are going to see Steven and people making very 
difficult decisions. But what is going to happen is probably 
the 3's, and we will go back to more half-day programs. We 
really have gone away from that in the last 15 years, and most 
programs are full day, which is something we advocate from our 
research.
    Ms. Garner. As I visit our programs across the country, 
which I make a point to try to get out and do as many site 
visits as possible. And so, lately I have been to Mississippi, 
Tennessee, West Virginia, Kentucky, South Carolina, and that is 
in the last year or so. And every single place that I go where 
Save the Children has been asked by the Federal government to 
take over some Head Start programs to increase the quality, we 
have had great results.
    But mothers come up to me and say, can you help get my 
child into these programs? Can you just nudge us up on the wait 
list? Is there anything you can do? The thought that I would 
have to go back to these mothers and say, well, no, there is 
nothing that I can do. I am sorry. As a matter of fact, your 
neighbors will no longer have the programs that they have 
relied on and gotten so much from.
    These mothers know, and families, not just mothers, but I 
often see the mothers. But these families know what it is to 
have this intervention, and they know what they are losing when 
it is gone. And I will have to answer to it, so that is what 
matters to me selfishly, sir.
    Mr. Pocan. Thank you.
    Mr. Millican. From a, I guess, just business perspective, 
going back, Ms. DeLauro, to your comment, the worst answer 
would be to do a half job with the same number of kids. The 
right answer would be to do a great job with fewer kids. And 
so, rationally that is the right answer, which means you just 
have fewer kids served.
    Mr. Pocan. Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Moolenaar.
    Mr. Moolenaar. Thank you, Mr. Chairman. And I also want to 
thank our guests for being here today and for your advocacy on 
behalf of our children.
    One of the things you have talked a lot about is the need 
for funding, and you have talked about public/private 
partnerships. And one of the barriers that I see when it comes 
to expanding the Federal role or even government's role is this 
whole idea of sort of religious liberty. And I want to ask you, 
especially Ms. Garner and Mr. Millican.
    Ms. Garner, one of the things you mentioned was your mother 
grew up singing songs, learning Bible verses, kind of the 
values. And then, when you consider that the more you get the 
government involved, the less you are able to do some of those 
kinds of things in terms of instilling values kind of in the 
next generation.
    And I think a lot of people who would support the idea of 
having children in a quality environment, you know, young 
people being with people who care about them, being read to, 
you know, kind of fear the idea that if it is a government-
driven thing, then you lose sort of the religious liberty 
aspect of the training of children. And I am kind of wondering, 
and, Mr. Millican, you quoted Isaiah and talked about the 
oppressor. Some people would say that the government could be 
the oppressor and kind of crowd out the opportunities for 
religious liberty.
    And so, what I am wondering is if you have encountered that 
as you have, you know, worked in Oklahoma, and how you have 
done it. Because I think there is a space where you can have 
the government involved providing leadership, but still have 
the freedom for parents who may want their child in a faith-
based kind of program. But as you get the government funding 
involved, that creates somewhat of a difficulty. [Laughter.]
    Ms. Garner. Thank you so much. My children have gone to a 
wonderful preschool in Santa Monica in California, and they go 
to a wonderful Sunday School at the Methodist church that my 
family attends nearby. And for us, those are separate issues. 
But without the social-emotional component of preschool that 
you get from being part of a group and from having a teacher 
there who is attending to your social-emotional needs and 
growth, then Sunday School cannot have the same efficacy for 
you and cannot have the same kind of meaning.
    So, while, yes, perhaps they do need to be two separate 
things, certainly one can benefit from the other.
    Mr. Millican. You have to remember, Oklahoma, we have no 
blue counties at all. I think we are the only State in the 
Union that had no blue counties.
    So, we are a very conservative State. We are a religiously-
focused State, and yet this kind of emphasis is being done in 
Oklahoma. Part of that is because there is a recognition that 
these children who in poverty are not going to really have a 
lot of options. I mean, they really do not have religious kind 
of preschool options that are going to give them the kind of 
training they need to be able to develop the social-emotional 
language skills that they require to have a chance in life.
    And so, this kind of focus is not for the broad population 
of everyone in Oklahoma. It is for kids who have these specific 
needs, and they need this kind of upbringing within that 
educational system. So, and you look at the communities even 
that are involved, particularly the African-American 
communities, and the robustness of their churches. I mean, they 
have a strong faith community that they are a part of in every 
sense.
    So, this is just really focusing on the specific needs that 
these children who are in poverty must have. And although I 
recognize the view that the government can and sometimes is the 
oppressor, in this case it is poverty that is the oppressor.
    Mr. Moolenaar. Thank you, Mr. Chairman. I yield back.
    Mr. Simpson. Thank you. Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman, Ranking Member DeLauro, 
and thank you to this panel. You are the perfect antidote, as 
we see what I refer to as a starvation budget coming forth from 
this Administration.
    And I remember a few years ago in a Head Start Program in 
my district, I worked in early education on the policy side for 
many, many years, and it was very easy to schedule a visit with 
them, which I thought was unusual. It is usually very 
complicated. And that is because when I got there, because of 
funding cuts from the Federal government, there were no 
children. So, they were ready to go, but they had to close 2 
weeks early and start 2 weeks late in the academic year in 
order to meet the budget that had happened.
    And that is not only catastrophic for the children in the 
program, but for the parents who are trying to put together 
their work schedules and need that reliability. And as you have 
all highlighted, if we have a brain development gap, then we 
have an achievement gap, and then we have a jobs gap, 
immediately for the parents and further on for those children 
as they grow up and enter the workforce. So, I commend you for 
the work you are doing, and thank you for your critical 
testimony today.
    One of the questions I had first for the panel, anyone who 
wanted to take it on, was the citing that you had about 38 
percent of eligible children do not receive the services they 
need. Yet we also have this conundrum in early education where 
I remember the day I realized that my entire salary was going 
to childcare, and that was a discussion my husband and I had to 
have. But it is one of the highest costs for working families, 
and yet we have very low wages for the childcare providers and 
early educators.
    Is there a way to address this 38 percent and this 
conundrum we have without increased funding from the 
government?
    Ms. Brooks-Gunn. No. [Laughter.]
    Ms. Clark. It could be that simple.
    Ms. Brooks-Gunn. Sorry. I had to think. I am thinking about 
the 38 percent of the mothers who are eligible for the 
childcare subsidies, right? We need to get those because they 
are eligible now. We need to get those mothers in so they are 
getting some childcare subsidies. So, I do not see how you 
address that without bringing them into the program since they 
are eligible.
    Again, I think there are many reasons they are not coming 
in, one of which is the subsidy is not enough in most States to 
pay for center-based care. It is enough to pay for kith and kin 
care, ok, so if you have your family helping your child. But it 
is not enough to get kids into more formal educationally-
oriented care.
    And actually, I had a--oops. He is gone. Steven and I were 
talking. We think the Child Care Development Block Grants can 
be used--somebody tell me if this is wrong--for preschools and 
programs that are run by religious institutions.
    Ms. Clark. They can.
    Ms. DeLauro. Yes.
    Ms. Brooks-Gunn. Yes, right. I am right. Yes. So, I had 
meant to say something, but, in fact, you can use those funds 
that way.
    Ms. Clark. That is right, and we do see that. But I have 
also never seen outside of a program that was specifically a 
religious program that parents could choose to match their 
faith, any religious content or curriculum in any early 
education environment that was not specific and upfront about 
that.
    Mr. Dow, I had a question for you. One of my interests is 
trauma-informed care, and I know that you have done some good 
work. And I am hoping you can share with us some of the 
challenges and some of how you have been able to address that 
in your program, because we know it affects suspensions, 
discipline for small children. We have seen over in 
Massachusetts in 2015, I believe, over 650 suspensions and 
expulsions of preschoolers.
    And we know that a lot of this behavior exhibited is 
trauma, and it is also how do we address the trauma within the 
providers and within our professionals who are early educators.
    Mr. Dow. Thank you for the opportunity to respond to that 
question. I think that those are the kids that we worry about 
the most because those are kids that have undergone the 
enormous, what Professor Jack Shonkoff at Harvard's Center for 
the Developing Child, has called toxic stress, are ones who are 
facing the most difficult circumstances.
    And often, the kinds of behaviors where they are 
developmentally really require an additional set of supports 
beyond which are needed by the kids who ``merely'' are coming 
from low-income households. And so, we wrap those children with 
a lot of additional supports, including mental health services, 
to really help get at what the underlying issues are that are 
causing the children's behavior and developmental difficulties.
    And so, those additional services cost more money, and that 
gets exactly to the kind of quandary that we face where in 
order to serve the most at-risk children, the most at-risk 
children require more services, and, thus, costs more per 
child. And so, I think the concern about not having adequate 
funding is that in the tough choices we would need to make, 
that those are the children who would not get the kinds of 
services that they need, and that we know if provided at the 
early stages, really help avoid later problems that they have.
    Ms. Clark. Thank you. My time has expired. Thank you, Mr. 
Chairman.
    Ms. DeLauro. If I can ask the chairman for a second. I do 
not know. I will get this to my colleagues. There is a 
wonderful document, and I am going to presume that the panel 
has this, ``Opportunities to Change the Outcomes of Traumatized 
Children,'' which was distributed in 2015, the childhood 
adversity narratives, put together by Frank Putnam, Alicia 
Lieberman, William Harris, people who are experts in the field, 
like all of you.
    And if you do not have it, I will get it out to the full 
committee because it really addresses the issue of how 
policymakers, teachers, law enforcement people understand what 
these childhood adversity narratives are, and to help 
understand how you can address them and provide a better 
outcome for kids.
    Thank you, Mr. Chairman.
    Mr. Simpson. Ms. Roby.
    Ms. Roby. Good morning. Thank you all for being here. I 
really appreciate your time. I told my husband this morning on 
the way to school, Ms. Garner, that you were coming before our 
committee. And I have to tell you that our 11-year-old daughter 
was flipping out because in her Bible class today they are 
watching Miracles from Heaven, so she thought that was super 
cool. So, thanks for giving me some street cred in what I do. 
[Laughter.]
    Ms. Garner. Thank you.
    Ms. Roby. But I do appreciate all that you do. And before I 
served in Congress, I served on the city council in my 
hometown, and served as an advisory member to the HIPPY Board, 
and got to see firsthand what home instruction for parents of 
preschool youngsters does, and that interaction that you were 
discussing of teaching parents the skills about how to interact 
directly with their youngsters getting ready for preschool and, 
of course, kindergarten readiness.
    So, I have seen that firsthand, and then, of course, just 
being a mom myself and having two children that were exposed to 
a wonderful preschool program that did provide them the 
opportunity to be ready when they went to kindergarten.
    When we talk about Alabama and winning, you often think 
football. In this case, we are actually talking about winning 
in our first-class pre-K program. Alabama for the past decade 
has exceeded the measures required, either met or exceeded the 
measures required by the National Institute for Early Education 
Research. And so, their voluntary first-class pre-K program is 
something that we are really excited about in my home State, 
and something that we are getting right. And I hope that we 
will continue to see those types of priorities at the State 
level of our leaders that we elect locally on that.
    But, Ms. Garner, I wanted to give you an opportunity to 
talk about, because so much of my district is rural. And even 
though we are excelling, there are still challenges. There are 
barriers and difficulties in accessing, some of these families, 
in our rural communities. And so, I wanted to give you an 
opportunity to just talk about some of those barriers and 
difficulties, and then what can we here in this subcommittee 
help do to overcome those.
    Ms. Garner. Thank you so much. I really appreciate the 
chance to talk about this. I met with your governor, Governor 
Bentley, just a couple of weeks ago.
    Ms. Roby. He tweeted about it.
    Ms. Garner. Did he? Oh, good. I love to be in the tweets.
    Ms. Roby. He was very proud, too. [Laughter.]
    Ms. Garner. He is the only, I think, physician governor 
right now, and he was so smart about early childhood, and spoke 
about going in and seeing a child as a physician when they were 
6 months old, and how responsive they would be and excited to 
see him, and giggly, and appropriate. And then seeing that 
child again a couple of years later, the same child, and that 
they had been dulled, that they almost just did not even look 
up or respond at all.
    A couple of things that Governor Bentley said about early 
ed, he said early education money is the only money well spent 
in education. And he said if government is about improving the 
lives of our people, you have to recognize children cannot look 
after themselves, and you have to put something in that little 
brain when it is ready to receive it. So, I am a big fan of his 
and of everything that your State is doing. Thank you.
    Rural poverty is an almost intractable problem. The 
families that I visit, I visited a family who lived on a cow 
farm in a trailer, and they were 20 miles from the nearest 
town. And the father of this child worked at the cow farm at 
night, and so, slept in the trailer during the day, and the 
mother was stuck with her little toddler in this trailer. Her 
surrounding area was not very pleasant. It did not smell good. 
There were a lot of flies. It was not particularly safe. And 
so, she was stuck trying to keep this child quiet in a very 
small area. And I naively asked, ``Why do you not go and see 
other moms,'' and she said, ``We cannot afford the gas. We go 
to town once a month.''
    So, that is quite a problem, but, man, did that little one 
know when it was Tuesday because on Tuesday the home visitor 
showed up. And the home visitor brought bubbles, and the home 
visitor brought books, and the home visitor brought Hot Wheels, 
and helped the mom make out of just old cardboard and paper 
lying around a little garage where they wrote the numbers 1, 2, 
3. And the little boy got to stack the cars, and learn to count 
with them, learned his colors on them, right there in front of 
me.
    And the mother had a blast with that little boy. That was 
not a day where she had a problem keeping him occupied and 
quiet. And she said that they played with that week after week 
after week. They built on it. It gave them a seed to grow from.
    So, certainly the home visitation model is expensive. It is 
brick by brick. It is child by child and family by family, and 
retaining really good home visitors is a huge part of the 
problem. We train them like crazy, and then they have this new 
training, and lucky for them they go on and get other jobs, but 
consistency is key. But it is so incredibly effective. And when 
there is no center-based education possible, and when the 
mother is just stuck somewhere with the child, which I see over 
and over all over this country, there is nothing like just 
going to them.
    Ms. Roby. Well, thank you, and my time has expired. Thank 
you all for your contributions today to this conversation, and 
I will make sure and tell Margaret that I got to tell you she 
said hello. So, thank you all very much.
    Ms. Garner. Thank you so much.
    Ms. Roby. I yield back.
    Mr. Simpson. Ms. Roybal-Allard.
    Ms. Roybal-Allard. OK. Thank you, Mr. Chairman. First of 
all, I want to associate myself with the comments made by my 
colleague, Ms. Clark, about of the value of the work you do, 
and to thank you for that.
    And I have to say that sitting here and listening to you 
talk about the value of early education, about home visiting 
programs, and knowing that we just got a budget that has 
recommended an 18 percent cut to HHS, which is really going to 
devastate the very programs that we are here talking about and 
the important value to our children, is truly heartbreaking. 
And I am hoping that through the work of this committee, 
somehow we can find some way to at least provide some level 
funding for some of these programs that we are talking about.
    You were just talking about the home visiting programs. 
And, you know, as has been stated, they are among the most 
effective social programs at reducing poverty, of strengthening 
parenting practices, and improving school readiness among 
children. And just for the record, I just want to state that as 
a Californian, I am particularly concerned about the impact 
that this budget may have on these home visiting programs 
because California, for example, depends on home visiting 
funding from programs like Early Head Start, Medicaid, and the 
Maternal, Infant, and Early Childhood Home Visiting Program, 
which is also known as MIECHV. And Speaker Ryan's draft bill 
for the ACA replacement reduces Medicaid health coverage, and 
does not extend the funding for MIECHV past fiscal year 2017.
    You have already talked a little bit about the values of 
the visiting home programs and how important they are to the 
development of children. At a minimum, I am hoping that this 
committee will be able to at least level fund the Early Head 
Start Programs in spite of this disturbing budget that we just 
received.
    And I just want to know if any of the panel wants to add 
more with regards to the value of these Home Visiting Programs 
as a way for us to have more ammunition to fight for the level 
funding.
    Ms. Brooks-Gunn. For ammunition, I can certainly send you 
some of the work, if that would be helpful, from the Early Head 
Start national evaluation, as well some work we have done 
looking across home visiting programs to look at the efficacy. 
And that is the kind of thing you might want, and I would be 
happy to send that to you because we have done research. We 
evaluated HIPPY years ago.
    But we can send you what we have, which you could use 
because that is what I think----
    Ms. Roybal-Allard. I would appreciate it. I do not know if 
there is anything that you want to say to this committee that 
has not already been said about them.
    Ms. Brooks-Gunn. It works. I think the points that you guys 
brought up is that Early Head Start is sometimes the Home 
Visiting Program and sometimes center-based care. And I think 
it is very important that we are focusing on the different 
needs of families in rural and urban settings, and that for 
Early Head Start, Home Visiting Programs in the rural setting 
are usually what is initiated for all the reasons that people 
have talked about, and it is very important.
    Also, realize that you guys funded a huge national 
evaluation of four different home visiting programs, and that 
report will be coming out in March of 2018. I think it goes to 
HHS before that. I am part of the group that is doing that. So, 
that will be more evidence coming from this very big HHS 
evaluation.
    Ms. Roybal-Allard. Thank you. I would appreciate it if you 
would send that information.
    Ms. Brooks-Gunn. And it might not be coming fast enough for 
you guys. I am sorry. But it will be done, and in a year from 
now you guys will have it.
    Ms. Roybal-Allard. OK. Thank you very much, and I see my 
time is up.
    Mr. Simpson. Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, and I think I can give this 
to the group. Multiple longitudinal studies and ROI research 
show that investing early can reduce risk factors on social, 
psychological, emotional, cognitive development for kiddos, and 
improve school readiness.
    What I am interested in understanding is, it does not 
matter if we had a money tree in the backyard, money is always 
going to be limited, so we have to be efficient. We have to 
fund what works. And I want to understand how you think we can 
make sure that the funding is directed to programs that support 
those high-quality interventions birth through 5.
    Specifically, with Early Head Start, childcare 
partnerships, and for kids with disabilities, because I have 
seen this visiting program, maybe not as much in like rural 
poverty areas, but for kids who have cognitive challenge or 
even physical challenges. And so, you know, they are targeted 
more at helping those kids get ready in a different way.
    So, I guess I want to hear how you think we can target what 
we have got. We are fighting to make it as much as we can, but 
we do not have a money tree, so we need to make it as effective 
as possible. So, that is to the group.
    Mr. Dow. I will just say from a provider standpoint, the 
most excruciating decision that we make is which children to 
admit into the program. How do we compare the various risk 
factors of a child who is developmentally delayed against the 
needs of a child who is a victim of household of domestic 
violence or is experiencing substance abuse, or is in a 
household of a working mom who is trying to work two or three 
jobs to put bread on the table?
    And those are the kinds of choices that because the Federal 
government's commitment is so miniscule compared to the level 
of need that is required, that is left to program operators 
like ours to have to make.
    Ms. Herrera Beutler. And can I ask, too, what you feel like 
in terms of the State commitments or State shares should be or 
could be? You know, I was a State lawmaker, too, and this was a 
big part of our focus. How does that play in?
    Mr. Dow. Well, I can describe what it is like to be in a 
State that has a boom and bust cycle that, notwithstanding the 
fact that we committed to fully fund universal pre-K back in 
1998, the per pupil expenditures in Oklahoma since 2008 have 
declined the most of every State in the country. We have the 
lowest teacher salary, among the lowest teacher salary levels 
in the country. And it is extraordinarily hard for public 
school systems to find, much less retain, teachers who often 
themselves experience the high cost of early education because 
they have young children of their own.
    Ms. Herrera Beutler. Oh, yeah. So, I think it is terrific 
to imagine that the Federal Government can help stimulate 
additional State and local investment, but I think it is 
dangerous to imagine that State and local governments are going 
to take the place of significant Federal investment.
    Let me switch gears a little bit. I am southwest Washington 
State. Washington State is my district, and we have over a 
thousand Head Start students and 270 Early Head Start students. 
And last September the Department of Ed had a ruling that 
required all Head Start programs to offer full-day and full 
schoolyear services by 2021. In an 8-hour day, the programs 
that we had were offering 2 tranches, 4 hours for each kid, and 
they were doing it well. Now, they are coming to me saying, you 
know, we are going to kick kids off by having to go to a 6-hour 
day, and we are hard pressed for funding and space.
    Do you see, I guess, the flexibility for some of these 
programs? Like you said, you are having to make decisions about 
who gets in and who does not get in. It seems like the 
flexibility to say, well, we are going to be able to serve more 
quality, or maybe we can do 6 hours.
    Mr. Dow. So, the biggest criticism that Head Start has 
received is that its impacts are not strong enough.
    So, in response to those impacts, I think the new 
performance standards suggested that children needed more hours 
of the day and more days of the year.
    Ms. Herrera Beutler. That is interesting.
    Mr. Dow. And that costs more money. And so, I think then 
for Congress not to invest the additional money in order for 
programs to be able----
    Ms. Herrera Beutler. So, I apologize. I have to reclaim my 
time on that. One of the things we have learned to, and 
actually I probably should let it go, is that it is not always 
the quantity of time. It is the quality of time. And, again, 
that comes back to how do we make these hard decisions and get 
it right versus just, oh, let us increase hours. We can throw a 
lot of money at it, but we need to make sure, like you said, 
somebody said it, the trained teachers, and we need to retain 
them and build those programs.
    So, with that, thank you. Thank you all.
    Mr. Simpson. Thank you. I will go to Rosa, second round.
    Ms. DeLauro. Thank you very, very much. Just a couple, 
three things here.
    Dr. Brooks-Gunn, if you could send the work that you have 
done in terms of the maternal employment and child development 
piece. I think that that is very critical and critical to this 
committee.
    Ms. DeLauro. I will make one comment about the HIPPY 
Program. I made this to the chairman. My daughter, Kathryn 
Greenberg, came home to us. She said she was going to work for 
the HIPPY Program, and my husband and I looked at each other 
and said, what is she doing. [Laughter.]
    Home Improvement Program for Preschool Youngsters, I would 
also add founded by Hillary Clinton as the First Lady of the 
State of Arkansas. It is a tremendous program.
    I want to just say, Steven, I want to just say thank you to 
you because the topic here this morning is about the Federal 
role in early childhood education. There is a strong Federal 
role to be played. You commented about that, and that we need 
to increase that Federal role. Otherwise, we do it at our peril 
is what I can understand.
    And I mentioned my State of Connecticut early on. We had to 
throw kids off because there was not Federal money to deal with 
the new requirements that the Department of Education had made 
in terms of quality, in terms of the time there. So, I am 
appreciative of that.
    Ms. Garner, if I can just get from you your Early Steps to 
Success. This is a program that, you know, you are engaged and 
involved with, which is very critically important.
    Ms. DeLauro. Let me get to, if I can quickly, Ms. Brooks-
Gunn, I wanted to just mention non-cognitive skills. And that 
gets to some of the things, Ms. Garner, that you are talking 
about, how comprehensive services are offered by Early Head 
Start, support babies, toddlers who are vulnerable to 
experience trauma in the home, abuse, neglect, poverty, 
homelessness, mental health difficulties.
    What impact does participation have on children exposed to 
trauma and their families? What additional research needs to be 
done? What makes a program successful in fostering emotional 
development in at-risk kids in helping to develop non-cognitive 
skills? Go ahead, yeah. Start, and then anybody else who wants 
to.
    Ms. Brooks-Gunn. Well, there are two things. One really has 
to do with what we would call the nurturing that some kids are 
not getting at home. And so, what you need are caregivers or 
home visitors that are incredibly nurturing. So, that is one 
piece. You might call that attachment, but let us just call it 
nurturing for now.
    The second has to do with new programs that have been 
developed. In fact, Future of Children is doing a whole issue 
on social-emotional programs that seem to be useful in terms of 
helping kids with social-emotional functioning, particularly 
what is called executive function. And I am happy to send you 
guys----
    Ms. DeLauro. Please.
    Ms. Brooks-Gunn [continuing]. Some work on that.
    I think my testimony is too long, so I cannot add any of 
that in it. But these new programs that have been developed 
that get incorporated into ongoing home visiting or early 
childhood education programs are showing effectiveness. So, 
that is the good news.
    We have got more on our plate that we can offer today than 
we could a decade ago. People were not focusing as much on non-
cognitive skills at that time. So, we have made huge progress, 
and some of these programs are terrific, you know. You imbed 
them within an existing, again, home visiting or early 
childhood program.
    So, I can send you stuff on that.
    Ms. DeLauro. Please. Please do. Jennifer.
    Ms. Garner. In West Virginia, my home State, we had 
historic floodings this year.
    Ms. DeLauro. Yes.
    Ms. Garner. I am sure you heard about it. There was a 
year's worth of rain in one day, and Save the Children raised 
money. We raised about $1,500,000 to address the needs of 
children in the State, and, of course, there were a lot of very 
immediate needs.
    But the bulk of our disaster relief funds really ended up 
going to trauma care, and to the social-emotional well-being, 
and training the teachers and parents to recognize children who 
had been traumatized by being displaced from their homes, by 
the fear of rain, by losing a family member, watching their 
sister wash away. I mean, horrible, horrible things happened to 
a lot of children in the State.
    And we found that the money was best spent for the future 
of these kids to go backwards and to, like you are talking 
about, to imbed social-emotional learning, and trauma care, and 
nurturing, and talking about feelings into the programs that we 
already existed.
    And I will mention also that Jack Shonkoff, who is a mentor 
of mine, talks about that there is evidence that one mentor, 
parent, special teacher, someone in a child's life can 
inoculate the child from the stressors in their home. And so, I 
mean, if you think about kids who come from really horrible 
backgrounds, they always say, oh, I had this one teacher, I had 
this one incredible teacher that made such a difference in my 
life.
    So, it is about celebrating those teachers as well, and 
helping the parents become that protector of childhood for the 
kids in their homes. Thank you.
    Ms. DeLauro. We did not get to talk about full-day, full-
year funding of Head Start. If any of you have thoughts on that 
and can get that to us. That is important in terms of the 
equation of Federal dollars and the usefulness there.
    If I can, Mr. Chairman, let me say this because my time is 
up, and I know you want to close. There are a couple of things 
here. Ms. Garner, you talked about poverty being silent. I 
think it was you, Mr. Millican, who talked about poverty is the 
oppressor. And I think that we really have not, and I say ``we, 
and I am talking about at the Federal level, some have not come 
to the realization of the level of poverty.
    And there are those who would say that the poverty has 
continued, you know, for decades upon decades, and refuse to 
believe that any of the programming that has been done probably 
since the 60s, that have lifted people out of poverty through a 
social safety net. Whether we deal with early childhood efforts 
or whether we deal with food stamps, any of those programs 
that, in fact, child tax credits, refundable child tax credits, 
have lifted people out of poverty to a great extent.
    The job is not complete because poverty is oppressive. It 
is silent. And you are focusing and putting a light on it and 
putting sunshine on it is enormously helpful for those of us 
who have to make policy decisions. And the fact is, and I think 
to a person, you have said that really it is our responsibility 
in terms of reviewing that Federal role in early childhood 
education and what role we can play, because it is development, 
childhood development, and what we can do in delivering high-
quality programs for young children and for families.
    That our responsibility is a moral responsibility to 
increase the level of Federal funding that we provide to these 
families and to our kids in order for us to allow them to be 
able to succeed in the way that all of us have had a chance to 
succeed. We cannot deny their chance to succeed or having a 
selfish choice of which children will get an education and 
which children will not have an education, and ration our 
education dollars to the children of this country.
    Thank you enormously for what you are doing. Thank you.
    Mr. Simpson. Ms. Clark.
    Ms. Clark. I do not know if I should really go back to 
questions after that, but I do want to go back briefly. Mr. 
Dow, you had mentioned in your testimony a job training program 
for parents. And part of this is how do we look at kids and 
their healthy development as part of a family, and obviously 
economic success for parents is a huge part of this. How did 
you partner with community leaders to figure out which skills 
were needed, and how did you structure your classes?
    Mr. Dow. I appreciate the opportunity to discuss the 
program. The program actually derived from research that 
Professor Brooks-Gunn and her colleague, Lindsay Chase-Lansdale 
at Northwestern University, started in talking to mothers at 
Educare.
    And separately, we had been looking at the impact of 
additional household income on long-term children's outcomes 
that really come out of some of the longitudinal research of 
the welfare-to-work demonstration programs and some of the 
analysis that showed that a number of the children whose 
parents participated in the welfare-to-work and Earning 
Supplement Demonstration, the New Hope Demonstration, and 
others like it had longer-term academic achievement outcomes as 
a result of what their parents were doing when the children 
were very young.
    And so, there has been an increasing amount of academic 
research really, in many ways pioneered by Professor Greg 
Duncan, that looks at the impact of additional household income 
during the time that children are in their preschool years. And 
so, coupling the body of research around what moms were looking 
for with the research around the impact of additional household 
income for very low-income families, we worked with workforce 
development efforts to do a sector-based workforce development 
effort, which starts with looking at what the available jobs 
are in the community that have both entry-level opportunities 
and advancement opportunities.
    And the only sector in Tulsa that emerged from that was the 
healthcare sector. And so, fortunately we got pilot funding 
from the George Kaiser Family Foundation and established a 
pilot program built on the concept that families going through 
things together as a cohort could help support one another as 
their kids were in a high-quality early learning program, so 
that they did not have to make that kind of difficult choice 
themselves between trying to go back to school and get a better 
job and having their children in a good place.
    Unfortunately, the very act of going back to school means 
that they had to themselves stop working as much, so they 
actually had to experience a decrease in their family household 
income in order to go back and invest in their own future. 
Fortunately, with private funding support and subsequently a 
significant funding from the Health Professional Opportunities 
Grant, also administered by the Office of Family Assistance at 
HHS, we were able to do a scaled effort over what has now been 
6 years of operating. And we are in the stage of a random 
control trial in which those parents who are engaged in the 
sector-based training effort trying to build their skills for 
careers in the healthcare sector and also have their kids 
enrolled in our program, their outcomes both in terms of their 
employment and their education gained outcomes will be compared 
to those parents who are not undergoing that program.
    And the researchers will also be comparing the short-term 
outcomes of the children, and we hope with potentially other 
funding, longer term to be able to watch those children longer 
term.
    Ms. Clark. It reminds me of one of the earlier questions 
from one of my colleagues talking about the need for full-day, 
being pushed to full-day and sort of the Hobson's choice of we 
know we need full-day because parents need to be at school and 
at work. And then you add transportation, which can be very 
difficult in not only our rural, but even in some of our 
suburban areas. There just is not transportation to get there. 
Again, it is going to put you in a very difficult----
    Mr. Dow. Yeah, and on top of that, in many instances, the 
clinicals that the parents have to go through----
    Ms. Clark. Right.
    Mr. Dow [continuing]. In order to be able to get 
credentials to work in the healthcare sector do not operate 
during the hours that our Head Start and Early Head Start 
Program operates. So, they are in need of off-hour childcare--
--
    Ms. Clark. Right.
    Mr. Dow [continuing]. And round-the-clock childcare that is 
over and above what we as a Head Start and Early Head Start 
provider offer. And that dearth of supply in the community 
often undermines their ability to be successful in improving 
their own well-being as they want to get better jobs.
    Ms. Clark. And I have filed legislation and working also to 
get community colleges to get their funding back for the 
childcare that was on site. Recently out at Mass Bay Community 
College, kids are in the library while their parents are trying 
to get an education, you know. We have to do better if we 
really want to give equal economic opportunity.
    Sorry, Mr. Chairman.
    Mr. Simpson. That is ok. Thank you. And let me bring the 
hearing to a close by thanking you all for being here, and 
thank you for the work you do.
    This may actually be the most important hearing this 
committee and maybe even Congress has because the impacts of 
what you are working on are something that, while unfortunately 
are not felt tomorrow like building a new road, or paving a 
road, the impacts are seen down the road by lower poverty 
rates, by lower crime rates. It goes on and on, remedial 
education, and those types of things that we will do less of in 
the future, and we have a better citizenry by doing them.
    Let me just comment for just a second on a couple of other 
things that were said. I was a dentist in the real world before 
I got into the circus. [Laughter.]
    And I can still remember what you mentioned, Jennifer. I 
had more than one patient, Medicare mother brings in her girl 
that is like 4 years old. She is in my chair to get some dental 
work. I can still remember looking in her eyes, and I can tell 
you that there was no hope there. And I could tell you that 16, 
17, 18 years from now, she was going to be bringing her 
children in, and sure enough that is what happened. We have got 
to change that in this country.
    I was also interested in the debate about technology and so 
forth. Sometimes I think we use technology a little too much, 
try to depend on it too much even as adults where we do not 
interact humanly enough. Not to make a comparison, but I just 
got a new puppy, and, you know, every time that puppy comes to 
sit on my lap, you know where it lays? On my heart because it 
needs to feel the heartbeat. That is the same with children. 
That is why the interaction of the parent and that child is so 
much more important than sitting them down in front of a TV.
    So, this is important work. Several people have mentioned 
the budget that has been proposed. I would remind everybody 
that it is a recommendation. It is Congress that puts together 
the budget. And I can remember I, too, heard the comments by 
our budget director that we are trying to get rid of programs 
that do not work, are ineffective, and that kind of stuff.
    And I can still remember several years ago, a previous 
Administration, previous to the previous Administration, tried 
to eliminate the TRIO Program. And we questioned the Secretary 
of Education here, and she said, well, we have got studies that 
just show it is not effective. I said send those studies over. 
I am still waiting. And we reinvested in the TRIO Program, and 
it is more robust today than it was then, and it is doing a 
great job.
    The same with these types of programs. We are the ones that 
decide through our hearings and so forth and testimony of 
whether programs are actually being successful or not. And so, 
I will be interested when we have those individuals come before 
us that say they want to get rid of this or that program 
because it is ineffective, I will be interested in where they 
get their results from and why they are saying that.
    But, again it is Congress that puts the budget together. We 
have the Article I responsibility for funding the Federal 
government, and the President's budget is a recommendation 
only.
    So, I do appreciate all of you being here. As I said, this 
is a very important hearing and a very important subject, and 
thank you for the work that you do on it.
    The hearing has come to a close.

                                           Tuesday, March 28, 2017.

                   CORPORATION FOR PUBLIC BROADCASTING

                                 WITNESS

 PATRICIA DE STACY HARRISON, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
    CORPORATION FOR PUBLIC BROADCASTING
ANNE BRACHMAN, SENIOR VICE PRESIDENT, GOVERNMENT AFFAIRS, CORPORATION 
    FOR PUBLIC BROADCASTING

                        Introduction of Witness

    Mr. Cole. Good morning. It is my pleasure to welcome Ms. 
Patricia Harrison, or my dear friend Pat Harrison--I will 
reveal our sordid past to everybody in a moment--the CEO of the 
Corporation for Public Broadcasting, to the Subcommittee on 
Labor, HHS, and Education to discuss the agency's budget.
    I am looking forward to hearing your testimony, especially 
since it has been quite a while since the subcommittee has held 
a hearing on the Corporation's budget. In fact, my staff tell 
me it has literally been 10 years since we last had you here. 
So welcome back. We will try to make it more than a once-a-
decade appearance.
    I also want to thank you for accommodating some schedule 
changes due to the timing of the budget submission this year. 
We have had a few schedule modifications, and I really 
appreciate very personally--and I know the entire committee 
does--your flexibility and your willingness to work with us. 
And we are really happy that you are here.

                       Chairman Opening Statement

    Congress created the Corporation to give a stronger voice 
to commercial-free educational radio and television programs. 
In addition to providing education, public broadcasters are 
often the only source of content in remote areas of the Nation. 
The high-quality content available through public broadcasting 
continues to receive recognition, just last year receiving more 
than 80 Emmy nominations. Millions of Americans every day tune 
in to public radio stations or television stations for news, 
weather, and entertainment. Thousands of children and teachers 
use the educational programming in classrooms across America.
    The Corporation represents a unique public-private 
partnership with most radio and TV stations leveraging $5 non-
Federal for each $1 made through Federal investment. We look 
forward to hearing about the Corporation's accomplishments over 
the past years and plans for the upcoming fiscal year.
    As a reminder to the subcommittee and our witnesses, we 
will abide by the 5-minute rule so that everybody will have a 
chance to get their questions asked and answered.
    And before I yield, I want to make a couple of personal 
points, if I may, to the ranking member. First of all, just in 
full disclosure, Pat Harrison was co-chairman of the Republican 
National Committee when I was the chief of the staff of the 
Republican National Committee. So we can blackmail one another 
ad infinitum. She has been my dear, dear friend for 16, 17 
years now.
    And I have watched with admiration the job you have done 
over at the Corporation for Public Broadcasting and appreciate 
very much that job.
    Second, I am going to have to excuse myself. Mr. Womack is 
headed to the same meeting. We have a Defense Subcommittee 
members' meeting, but I will be coming back to join you. And, 
again, thank you for accommodating us. It is a delight to have 
you here, and I am looking forward to--I have read your 
testimony. So I can excuse myself for that part. But I am 
looking forward to the panel's--which I know will be a very 
full and robust participation here because this is an agency we 
all admire.
    So, with that, I want to yield to my good friend, the 
ranking member, for her opening statement and excuse myself, if 
I may.
    Ms. DeLauro. Just one second, Mr. Chairman. I was--you 
know, you have talked about a sordid past. So now that you have 
defined your relationship, indeed, a sordid past.
    Mr. Cole. Well, I wanted to be honest with you. I always 
try to be open and honest with my ranking member.
    Ms. DeLauro. Wonderful. Thank you.
    Mr. Cole. By the way, in my absence, Mr. Fleischmann has 
agreed to occupy the chair for us.
    So I thank you very much for that.
    Mr. Fleischmann. My pleasure.

                    Ranking Member Opening Statement

    Ms. DeLauro. Thank you very, very much.
    I am delighted to have this hearing today. It is a long 
time in coming, and I want to just welcome you, Pat Harrison, 
the president and CEO of the Corporation for Public 
Broadcasting. We look forward to your testimony. But I first 
want to say congratulations to you and to everyone at the 
Corporation on the 50th anniversary of the Public Broadcasting 
Act, 1967, signed into law by Lyndon B. Johnson. So there we 
are.
    But it is also interesting to note, when I was reading 
through materials, that President Eisenhower believed that--
because the origins come out of the space race, come out of the 
Cold War--that at the time, President Eisenhower and Congress 
saw the educational programming as a way for the United States 
to compete in science, in technology, and in mathematics as 
part of our national defense. So you stand on solid ground, my 
friend.
    And as we reflect on the last 50 years of evidence-based 
early learning programs, local journalism, public safety 
partnerships, it is a particularly opportune time for our 
committee to discuss the importance of public broadcasting in 
our local communities. And as the Trump administration proposes 
to eliminate Federal support for public television and public 
radio, we need--we need--to consider the profound impact that 
this organization has had in our communities.
    As you noted in your testimony, our appropriation for CPB 
supports approximately 1,500 locally owned and operated public 
television and radio stations. You serve nearly 99 percent of 
American people in rural and urban communities in all 50 
States, the District of Columbia, and 4 commonwealths and 
territories. The vast majority of Federal funds are allocated 
to local stations.
    As Ms. Harrison mentions in her testimony, 95 percent of 
all funding--that is $432,000,000--goes to support programs and 
services. The dollars don't stay in Washington, DC. They are 
directly infused into local communities across this country. 
And, quite frankly, I do have--and I won't go through it--a 
list, and particularly members of this subcommittee, of the 
stations in our areas that are beneficiaries of the grants that 
you distribute. 248 of the 575 station grantees currently 
receiving CPB support are considered rural. The stations 
provide trusted local journalism, high-quality educational 
programming, and they play a crucial role in public safety.
    An example: PBS-affiliated WCTE TV in Cookeville, 
Tennessee, is a perfect example. The station is the only one 
that the majority of residents in upper Cumberland County can 
receive with an over the air antenna. To quote the station 
manager, Becky Magura, quote: ``I know it is hard for people 
who are sitting in Washington and urban areas to comprehend 
that people still need an antenna to be able to receive only 
one station, but it is a fact.''
    Ms. Magura also said, and I quote: ``I really wish I could 
talk to President Trump. I really wish he would let me show him 
where we live. I wish he could see the difference this station 
makes in the lives of the people that we serve. Maybe he would 
see that funding differently.''
    If we cut Federal funding, we are killing stations like 
WCTE. Studies have shown that alternative sources of funding 
are unrealistic. In 2012, Booz & Company, at the request of 
this subcommittee, did an exhaustive study that debunked many 
common myths about financing of public broadcasting. Their 
report found, and I quote: ``There is simply no substitute for 
the Federal investment to accomplish the public service mission 
that Congress has assigned to public broadcasters and that the 
American people overwhelming support,'' end quote.
    They also found that the hardest hit stations would be the 
rural ones where Federal funding accounts for 40 to 50 percent 
of their budget. They write, and I quote: ``In the absence of 
the Federal appropriation, a domino effect will result in the 
loss of those stations most at risk first, then a cascading 
debilitating effect on remaining stations at bottom. The loss 
of Federal support for public broadcasting risks the collapse 
of the system itself.'' We cannot afford to let this happen.
    The Trump administration's proposal to eliminate funding 
for CPB means evidence-based early learning program is on the 
line. According to CPB, PBS is the number-one source of media 
content for a preschool teacher. Public broadcasting is 
responsible for high-quality content that aligns with literacy, 
math, and science, early learning goals, and State standards. 
Evidence-based programs, these programs, are critical when it 
comes to bridging the achievement gap. They educate children at 
home and in school. The content is freely available, and 
parents who use these resources developed with public 
broadcasting funds report that they see increased awareness in 
their child's math learning. A body of more than 100 research 
and evaluation studies completed since 2005 show that public 
media's literacy and math content engages children, enhances 
their early learning skills. CPB, in partnership with PBS, is a 
Ready To Learn grantee. Ready To Learn was established in 1992, 
reauthorized with bipartisan support in the Every Student 
Succeeds Act of 2015. And it makes grants to support 
development of educational television, digital content targeted 
at preschool kids and their families.
    This is what CPB represents: free, accessible goal-aligned 
early learning resources that benefit every family. That is 
what is at stake. And, meanwhile, CPB is requesting flat 
funding--it is flat funding--for the seventh and eighth years 
in a row. The reality: 8 years of flat funding is equivalent to 
a cut of 13 percent after you adjust for inflation. The Trump 
administration is proposing to cut $54,000,000,000 in 
nondefense discretionary spending. That cut includes the 
complete elimination of Federal funding for the Corporation for 
Public Broadcasting. As I have outlined, that would be a 
travesty. If we are serious about supporting high-quality 
educational programs, we should be talking about an increase of 
13 percent for the Corporation for Public Broadcasting, not a 
seventh and eighth straight year of flat funding or certainly 
not a cut nor elimination.
    The border wall is projected to cost $21,600,000,000. I 
suggest that we save that money that we spend on the wall and 
that we use those funds to support public broadcasting for the 
next 50 years.
    We have to support essential programs. You cannot do more 
with less. You can only do less with less.
    So I thank you for everything that you have done, and we 
look forward to hearing your testimony today.
    Ms. Harrison. Thank you.
    Mr. Fleischmann [presiding]. Thank you, Ranking Member 
DeLauro.
    And at this time, I would like to recognize the full 
committee ranking member, Mrs. Lowey, for her opening remarks.
    Mrs. Lowey. Thank you very much.
    And welcome, Pat Harrison.
    Ms. Harrison. Thank you.

                    Ranking Member Opening Statement

    Mrs. Lowey. I do want to thank Chairman Cole, Ranking 
Member DeLauro, for holding this hearing, and I do welcome you 
before this subcommittee.
    Pat Harrison and Anne Brachman, you come before us at a 
critical time following the recent Trump administration budget 
proposal to defund CPB. In Washington, it seems bad ideas never 
die. And in 1995, I brought Bert and Ernie to this 
subcommittee, if you recall, to protest proposed budget cuts by 
then-Speaker Newt Gingrich. I thought I would let them rest in 
the office today and just speak for them.
    The American people and Congress objected to these cuts, 
and here we are, decades later, with the Corporation for Public 
Broadcasting providing even more critical programming, and yet 
another effort to ax it and give Bert and Ernie a pink slip. 
The Trump administration's proposal to eliminate funding for 
CPB would devastate local broadcast stations, which are 
supported by more than 90 percent of CPB funding. Many would be 
forced to make up as much as half of their annual budgets, 
putting at risk the sustainability of local television and 
radio broadcasts in communities throughout the country.
    Sadly, I fear many stations would not survive, particularly 
in rural and underserved areas. In years past, this 
subcommittee, led by Chairman Cole, has not bought into this 
misguided pursuit. It is my sincere hope that this 
subcommittee's commitment to CPB will continue.
    We know why you have fans on this subcommittee and 
throughout the Congress. Every day, you bring world events, the 
arts, high-quality educational programming for all ages into 
households throughout our country.
    The Public Broadcasting Service, which is brought to 
households nationwide by CPB, was rated number one for 13 
consecutive years for public trust among nationally known 
institutions. Eight out of 10 people say it is taxpayer money 
well spent. Eight of 10 Americans trust PBS. At a time when the 
Trump administration delegitimizes any reporting it doesn't 
like as fake news, it is hard not to suspect that its effort to 
undermine public broadcasting is a transparent attempt to keep 
Americans in the dark about their failures and ethical 
improprieties.
    I am particularly inspired by CPB's legacy of early 
childhood programming. From the new PBS KIDS service providing 
24/7 programming to classics such as ``Sesame Street,'' 
``Curious George,'' ``Thomas & Friends,'' CPB has a long 
history of making quality early childhood education available 
for children nationwide, particularly for disadvantaged 
children.
    Studies show these investments produce impressive results, 
including an increase in school readiness. ``Sesame Street,'' 
in particular, has been shown to help children stay at the 
appropriate grade level and decrease by as much as 14 percent 
the likelihood of being behind in school.
    And that is why these proposed budget cuts are so foolish. 
No matter where you live or your income level, public 
broadcasting must be available for every American, and I look 
forward to your testimony. Thank you for being here.
    Thank you, Mr. Chairman.
    Mr. Fleischmann. Thank you, Ranking Member Lowey.
    Ms. Harrison, good morning.
    Ms. Harrison. Good morning.
    Mr. Fleischmann. I am Chuck Fleischmann. I represent the 
people of the great Third District of Tennessee. My local 
public broadcasting station is WTCI in Chattanooga. I want to 
thank you for being here today, and I would like to recognize 
you now for your opening statement.

                       Witness Opening Statement

    Ms. Harrison. Thank you, Chairman Fleischmann, Ranking 
Member DeLauro, and distinguished members of this subcommittee. 
I greatly appreciate the time allotted to me today to talk 
about the Corporation for Public Broadcasting's stewardship of 
the Federal appropriation and really what it means to the 
American people.
    We are keenly aware of the budget constraints facing our 
Nation, and in that regard, we have not asked for an increase 
in our base funding for 8 years.
    Today, CPB is requesting level funding in the amount of 
$445,000,000 for fiscal year 2020; $55,000,000 for an 
interconnection system for public broadcasting, television, and 
radio; and $30,000,000 for the Department of Education's Ready 
To Learn program.
    Although CPB was created 50 years ago, our mission truly is 
more relevant than ever to serve every American with high-
quality, trusted content that really does educate, inform, 
inspire, and entertain free of charge and commercial-free. And 
in order to achieve this mission, we carefully manage these 
taxpayer moneys, 71 percent of which goes directly to nearly 
1,500 local public television and radio stations.
    We support station collaboration and innovation, enabling 
public media to extend its reach and impact, delivering our 
national and local content on all platforms to current and new 
diverse audiences on air, online, and in the community.
    Our mission directs us to help our Nation's children to 
prepare to succeed in school, especially those from low-income 
families living in urban and rural communities, and we do.
    We also serve as a reliable trusted source of indepth 
journalism. And through our award-winning documentaries and 
series, we connect Americans to their history in ways that 
truly matter to our democracy. Through initiatives, such as 
American Graduate, addressing the high school dropout rate, and 
Veterans Coming Home, connecting those who served with the 
resources and the support they deserve, we are telling 
America's story, and we are inspiring civic responsibility.
    But the Federal investment is just the beginning of the 
American public media funding story because, unlike any other 
public media service in the world, American public media is a 
public-private partnership with stations building on this vital 
and essential support and raising non-Federal funds.
    Federal funding represents, on average, 10 to 15 percent of 
a station's budget. But for stations serving rural, minority, 
and other underserved communities, Federal funding can be as 
much as 40 to 80 percent of their budget. Through the 
appropriation, we ensure that these stations, in some cases the 
only local source of vital news, weather, emergency alert 
notifications, in addition to, of course, educational content, 
continue to serve their communities.
    Over the course of 50 years, public media has become an 
important part of the knowledge infrastructure of American 
life, trusted, valued, depended upon by the American people, 
ranging from the youngest to the oldest, living in red and blue 
States, cities, and towns throughout our Nation. And while we 
are so very proud of what we have achieved together, the 
building and strengthening of a civil society is never 
complete. It relies on successive generations equipped with new 
knowledge and information as well as a sense of history to 
contribute to and shape a great civil society.
    The bottom line is our country needs us to keep working for 
that more civil, more informed society, a country in which all 
citizens can learn and thrive.
    Mr. Chairman, only through Congress' financial support can 
public media remain true to its mission and continue to deliver 
value to the American people wherever they live, whatever their 
economic circumstance, free of charge and commercial-free.
    Thank you.
    [The information follows:]
    
    
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                       ALTERNATIVE FINANCING OPTIONS

    Mr. Fleischmann. Ms. Harrison, thank you so much for that 
opening statement.
    And I have a few questions. So I am going to recognize 
myself for 5 minutes.
    In the past, we have had some criticism regarding the role 
of Federal Government in public broadcasting. Several stations, 
through a variety of financing mechanisms, support their 
operating costs, such as private donations and merchandise 
licensing. As a matter of fact, when I was--part of my tenure 
here in Congress, WTCI used to actually have an auction. It was 
wonderful. It was a communitywide auction; we would participate 
and raise funds. It was a really a great thing to do, and I 
enjoyed that immensely.
    Could you please discuss some of the alternative financing 
options stations are now using? And are alternative financing 
options a viable means to support public broadcasting in the 
absence of Federal support?
    Ms. Harrison. I will be happy to. Thank you, Mr. 
Fleischmann.
    And we have, over many, many years, done our due 
diligence--and in many cases, responding to Congress--to look 
at alternative sources of funding for public media. And I 
think, as was mentioned earlier, in 2007, the General 
Accounting Office did a study, an extensive study, and at that 
time, they basically said there wasn't any alternative viable 
source of funding. And I will link that to our 2012 study where 
we hired Booz & Company. And the bottom line from both of these 
studies, which I thought was interesting because they were both 
very independent: it would mean the collapse of public media.

                       PUBLIC PRIVATE PARTNERSHIP

    And what they mean by this is: Congress in its wisdom 50 
years ago created such an amazing construct. It is public, and 
it is private. And everyone has a responsibility. So that 
initial investment by the Federal Government--10 to 15 percent 
and, as I said, for rural stations, much, much more--is then 
matched by the station. And you referred to your station doing 
auctions; they do pledges. What they do, they go into the 
community, and the community--almost in a way, it is a report 
card--they, through their support, say: We really are 
benefiting from the content and services that you are 
providing. And these communities try to meet much more than the 
Federal investment; in some cases, it is six times that amount. 
The problem is, with rural stations, they don't have this 
indepth donor base. They just don't have what some of the other 
stations, the bigger stations, have, and they really depend 
upon the Federal investment.
    So what would happen if the Federal investment, if the 
appropriation would go away, is there would be this domino 
effect, and it would start first with rural stations.
    I have to say--I don't know how much time I am supposed to 
use here, but I grew up in Brooklyn, New York. And I am 
embarrassed to say I didn't know where the States were pretty 
much for a very long time. In my high school, we didn't take a 
school trip because we were already there. We didn't leave. We 
didn't go anywhere. We went to the Wonder Bread Factory. And it 
was only when I got older and started traveling--Chairman Cole 
had mentioned I co-chaired the RNC. I visited every single 
State. And at that point, I had an opportunity to go to a lot 
of public media stations. When I was at the State Department, 
we had international visitors who came in, and they wanted to 
visit these stations. And in my job for the last 11 years, I 
have come up with a statement: If you don't go, you don't know.
    And I have to say: We have mentioned Cookeville, Tennessee, 
and I just wish Becky Magura were here, because I have met the 
people in Cookeville. Frannie and Patricia, who depend on over-
the-air, that antenna content that is coming through, and they 
said: ``This has been our whole life. This is our passport to 
the world. It is our education for our children.''
    So what the stations do raising money is part of that 
public-private partnership.
    Mr. Fleischmann. Well, thank you. And I appreciate the talk 
about Brooklyn. I love Nathan's.
    Ms. DeLauro. Amen.
    Mr. Fleischmann. My mother grew up in the Bronx, and my 
father grew up in Queens.
    Ms. Harrison. Oh, my goodness. All right.

                  PUBLIC BROADCASTING INTERCONNECTION

    Mr. Fleischmann. I have one followup question, if I may. I 
know you touched on the interconnection system upgrade in your 
testimony. Can you provide us with some additional information 
about why the upgrade is needed and how it will contribute to a 
distribution of programming? What will be the total cost? And 
what benefits will this upgrade bring, please?
    Ms. Harrison. Thank you, Mr. Chairman. And this is a story 
I am so proud to tell, because in 2014, OMB--well, first of 
all, the interconnection system is basically the infrastructure 
for the entire system that allows content to go to stations and 
then to be shared by stations each with one another.
    In 2014, OMB provided us with $197,000,000 for 
interconnection. And then Congress appropriated $40,000,000, 
which provided interconnection services for us to look at 
public television and radio. And so we are going back 2014, 
then 2016. We have been focused on doing our due diligence for 
the interconnection system for several years. We hired 
Cognizant Technology Solutions. We worked with engineers from 
PBS, from NPR, and I was very, very proud to report earlier we 
brought that $197,000,000 down to $150,000,000. And we are--how 
can I say? We are the stewards. We oversee this process with 
PBS and with NPR. And it has been an intensive, extensive 
process. And we were told our responsibility is to, at the end 
of the day, be able to report that, for these moneys, we are 
going to have the most cost-effective, most advanced technology 
system for public television and for public radio. And now we 
are looking at public radio as well.
    Mr. Fleischmann. Thank you, Ms. Harrison.
    And I appreciate your testimony.
    At this time, I would like to recognize the ranking member, 
Ms. DeLauro, for 5 minutes to ask questions. Thank you.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And thank you so much for your testimony.
    As you mentioned interconnection, I was, again, reading, at 
the outset, we were just hand delivering content to----
    Ms. Harrison. Bicycles.
    Ms. DeLauro [continuing]. By bicycles, which was really 
pretty extraordinary, but how times have changed, and we need 
to keep up with the times. Hear, hear.

              LOSS OF FUNDING IMPACT ON RURAL COMMUNITIES

    Let me just--a couple of pieces that have to do with 
eliminating funding on underserved and rural communities. I 
understand that the smaller stations, though serving rural, 
minority, and underserved communities, don't have a donor base 
with as much money. Federal funds can be up to about 40 percent 
more of their budget.
    In 2012, reports submitted to this subcommittee found that 
CPB funding was--if it was eliminated, 54 public television 
stations, 19 States, 76 radio stations in 38 States would be at 
risk, no longer operating; 31 television stations, 47 radio 
stations serve predominantly rural areas. That is 12,000,000 
Americans losing access to public television and nearly 
3,500,000 Americans no longer having access to public radio.
    Let me--from your perspective, because you have been there, 
and you mention the personnel in these places--what does this 
mean, this elimination, for those Americans in these 
underserved and rural communities that rely on public 
television and radio?

                  PUBLIC SAFETY AND EMERGENCY ALERTING

    I am going to add an adjunct to that, because you make the 
case--I won't deal with the quotes--on the FEMA Director about 
disasters and public safety and all those issues. But talk to 
us about the examples of lifesaving services that your stations 
offer and what that impact would be if these dollars and the 
Corporation was eliminated.
    Ms. Harrison. Well, thank you, really, for that question, 
because maybe we haven't done a great job in talking about this 
essential part, this essential service that public media 
provides, because we connect to 99 percent of all Americans, in 
terms of public safety and emergency.
    To make it a little more personal, let's just look at West 
Virginia, for example. It is not just an idea, public safety 
and service. Because of what they do and also because of what 
our interconnection system, their emergency alert in terms of 
floods, it is lifesaving. They have documented, without public 
media in West Virginia, the losses are on so many different 
levels: public emergency, safety, letting people know, and what 
is happening in terms of really dire emergencies.
    But even more importantly, the difference with public media 
stations is once the emergency is over, that station, because 
it is still part of the community, they are part--and CPB works 
with them, to help rebuild the community, whether it is helping 
schools, as we did in Louisiana; using them as shelters in 
Boston after Sandy; and in California, we worked with six radio 
stations--it is called the Great California ShakeOut--to really 
help people, as we utilize technology, work with Homeland 
Security and FEMA, making sure that they get this vital 
information in time. PBS Vegas, for example, unfortunately, 
there are a lot of crises connected with schools, and they are 
able to, in an encrypted way with FEMA and Homeland Security, 
provide blueprints of the schools so people know exactly where 
they are going and what they need to do. And sometimes those 
schools are to shelter as well. So it is a domino effect.

                          EDUCATIONAL SERVICES

    If the funding were to go away, this vital service for 
rural communities, in addition to emergency alert and public 
safety--I could just talk all day about education in terms of 
what we do with early learning.
    And I know there's been a lot of talk about coal miners and 
coal miners' kids, and we serve those people. There was--this 
is an anomaly, I realize, but in West Virginia public 
television, there was a story that this man, he had lung 
cancer. He needed a lung transplant. He was a coal miner. And 
no one really knew. He didn't--he didn't have any means to get 
the help he needed. And so the station told his story. This is 
local content that matters to local people. It is local 
culture, pride, connection. And the upshot is he did get that 
transplant. He is now on PBS talking about the value of what 
happened to him. I realize that is an extreme case.
    On a day-to-day case, it is preschool. We reach more 
underserved kids, minority kids. And sometimes we forget, you 
know, Appalachia, opioids--as the general manager of a West 
Virginia station said to me: ``This is an epidemic. And public 
media was there with ``Frontline,'' but we tell the local 
story, because we know these people. But we also don't want to 
just be known for that.'' So sometimes we miss the power of 
what stations do on a local level. And I have seen this.
    People have a great deal of pride. They may be poor, but 
they have pride of their culture. They are proud of where they 
are. And when they can connect to local history, local music--I 
hate to keep bringing up Cookeville. It really made such an 
impression on me. They have this underground cave, and they do 
concerts in the cave, bluegrass. And it is just amazing. So it 
started as local content, and now it is national content.
    And telling these stories in a profound way that start 
locally, it is what connects us to one another as Americans. I 
mean, I think there is going to have to be a point, if we are 
talking about a civil society, we have got to stop identifying 
ourselves as red State or blue State and think of what it means 
to be an American as part of the United States.
    That was a very longwinded----
    Ms. DeLauro. No, you are eloquent, and we are much 
appreciative of what you have done at the Corporation. Thank 
you.
    Sorry, Mr. Chairman. I went over my time, but it is ok.
    Mr. Fleischmann. Thank you, Ms. DeLauro.
    At this time, I would like to recognize my friend and 
colleague from Michigan, Mr. Moolenaar, for 5 minutes.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    And thank you for your testimony today.
    And I appreciate you being here with us to help us 
understand better the work you are doing.
    You know, I wanted to just get your thoughts on how the 
Corporation for Public Broadcasting, PBS, has transitioned over 
50 years?
    Ms. Harrison. Yes. I feel like I have been there for 50.

                      MISSION DRIVEN PUBLIC MEDIA

    Ms. Moolenaar. Well, I don't--because it strikes me that, 
early on, there were really three stations on television. Now 
there are 500. People are getting information in all sorts of 
different ways. So that strikes me that that is a big change.
    I also wanted you to speak--you are doing some innovative 
things with HBO and others. Earlier, it was mentioned Bert and 
Ernie getting a pink slip, but it seems like they have become 
private contractors in some ways, because HBO now, there is a 
contract for five seasons of ``Sesame Street,'' I understand, 
and later episodes would be delayed and on PBS.
    But can you talk about some of the ways you have adapted 
forming partnerships with the private sector and especially 
this whole area of ``Sesame Street''? And I also kind of wonder 
about areas, you know, ``Downton Abbey'' would be an area that 
seems like there would be a commercial success there, and how 
that relates to your overall, kind of, adapting to a new 
environment.
    Ms. Harrison. Yes. Thank you so much for your question.
    I really believe the reason that public media is so vital 
and vibrant today is because we have evolved. We haven't 
embraced the status quo in any way. We have looked for ways to 
be relevant in people's lives. And especially with the 
democratization of technology, we want our content to be 
everywhere Americans are and any way that they want to access 
it. So I think that is one of the reasons we have remained 
vital.

                   RELEVANCE IN 500+ CHANNEL UNIVERSE

    But we all get this question a lot. You know, in an 
environment of 500-plus--and who knows, maybe there will be 
2,000 channels, and we just don't know what the future holds--
why do we still need public media? And there are many, many 
reasons. And this is what I truly believe--and I consume tons 
of commercial media. I have a subscription to Amazon across 
whatever; I have a subscription to Netflix. Everything I have 
is behind a paywall. And my feeling is that there are people 
who can't afford to get on a plane and go to Broadway and get 
that--what is it now? I don't know--$1,000 ticket to Hamilton, 
go to the opera. And there seems to be this feeling that, 
because maybe you live in a rural area, you are not interested 
in those things. In a way, it may not scan completely, but it 
reminds me of what President Bush said, the soft bigotry of low 
expectations. So people of this country yearn for content they 
can trust.
    And what--where are we now, right now? We are living in 
this environment of fake news. I have kids, have grandchildren. 
We are very proud of our commitment through CPB, the 
appropriation, to funding fact-based journalism. We have a 
priority for editorial integrity. Sometimes we mess up, but our 
priority--and I know that is the same for NPR as well.
    So, in terms of a plethora of channels, our mission is very 
different from commercial media. Our mission is to serve the 
people with education that matters to--that really matters in 
their lives. And how do we know? Because we measure and 
evaluate--with things that up lift you, with local content. It 
is the whole menu. It is not one--it is not just ``Downton 
Abbey.'' It is local content. It is bluegrass. It is a story, 
if you can believe, of corn and farming. And it is what we do 
with our kids.
    And so in terms--to get back to what you said about 
``Sesame Street,'' I am not going to minimize our challenge, 
because we are asking for a base funding. And we will be 
grateful and appreciative to get it, but we are competing with 
filmmakers and content producers.
    Netflix has just announced they are going to be paying 10 
times more than HBO for content. So we are competing for the 
best of the best. And we are so grateful for people like Ken 
Burns and Dr. Henry Louis Gates and Hector Galan, who have 
chosen public media.
    In terms of ``Sesame Street,'' what we have is ``Sesame'' 
moving some of their content to HBO, but we didn't lose Sesame. 
Sesame content is still on a very dynamic, innovative PBS 24/7 
KIDS channel, and so we still have it. But we are existing in a 
very commercial world. And the most recent thing that 
happened--I don't know if any of you were--are a fan of ``Mercy 
Street,'' and it was original content focused on the Civil War, 
and there were two seasons. It was so well done, high 
production values. They are not doing a third season. PBS can't 
raise the money.
    And we are very fortunate that we are able to get content 
like ``Victoria'' and even ``Downton Abbey,'' which led to a 
lot of educational modules about World War I and----
    Mr. Cole [presiding]. I am going to have to ask my good 
friend--the gentleman's time has expired, so----
    Ms. Harrison. Oh, I am sorry.
    Mr. Cole. No, that is all right.
    Ms. Harrison. I expired or you expired?
    Mr. Moolenaar. You are doing a great job, but I think I am 
over my limit.
    Ms. Harrison. Oh, I am sorry. OK.
    Mr. Cole. No. Believe me, I let you go on a little longer 
than I normally do because I love all that stuff. And I am 
really disappointed about ``Mercy Street,'' by the way.
    Ms. DeLauro. Love ``Victoria,'' though.
    Mr. Cole. Absolutely. Fabulous.
    Ms. Harrison. Never graduated from high school.
    Mr. Cole. Yes.
    With that, let me go to my good friend, gentlelady from 
California--oh, wait. I am sorry. I thought you had testified. 
I misread the thing. So----
    Mrs. Lowey. No problem.
    Mr. Cole [continuing]. The ranking member of the full 
committee.
    Mrs. Lowey. No problem. And I want to, once again, express 
my appreciation to you. I particularly appreciated your 
reference to an environment of fake news. And even though I 
kind of flick around to hear what everyone's saying, I still 
watch the ''NewsHour'' because I know I am getting the real 
news, and I really, really appreciate it.

                  PUBLIC SAFETY AND EMERGENCY ALERTING

    I also wanted to thank you for the grant that you provided 
to WNYC and WNET for Superstorm Sandy. Those stations were 
really a lifeline to the community. You provided emergency 
updates, information about food, shelter, health care, 
transportation, and other emergency alerts. And I would hate to 
think what would happen if there were budget cuts.
    But one other area I want to mention before my time is 
expired or I expire, something like that----
    Ms. Harrison. I hope not.

                          EDUCATIONAL SERVICES

    Mrs. Lowey [continuing]. I just really appreciate the work 
that you are doing on professional development. It is so 
crucial in supporting and retaining teachers, allowing them to 
refresh skills through the classroom. The Corporation for 
Public Broadcasting has several initiatives to enhance 
professional development and provide teachers with tools and 
training to integrate ever-changing educational media into 
classroom instruction.
    Can you provide some examples of the services that are 
provided through local stations across the country and the 
impact they have on student achievement? Because this is an 
area I don't think many of us are really aware of. Thank you.
    Ms. Harrison. Thank you. Thank you so much.
    PBS LearningMedia, it is an aggregation of content, best of 
the best. There is children's content. There is ``NOVA,'' 
``Nature,'' ``American Experience,'' ``American Masters.'' And 
it is available to teachers, to homeschoolers, to parents. It, 
right now, is being utilized by 1,830,000 people, and a third 
of all American teachers are using this. And every State has 
this available. They work with schools. It supplements what 
teachers do. Teachers are under such pressure in this new 
digital age. And whether it is through PBS LearningMedia or 
even through Ready To Learn, we have training programs that 
enable teachers to become more familiar with how to use digital 
objects and how they use technology in the classroom. And State 
by State, each State has tailored it to their State. It is one 
of the things we should talk much more about.
    In fact, we have affidavits from so many teachers saying 
they are inundated with this thing and that thing, and it is 
all commercial. It is all selling to them. This is free. It is 
available. I don't know--what do we--it is over 1,000,000 
people, almost--I want to say 2--but it is really 1,830,000 
people using it, and we want to increase it because it has been 
tested. It needs to be expanded.
    Mrs. Lowey. Thank you.
    And thank you, Mr. Chairman.

                         ADVANCE APPROPRIATION

    Mr. Cole. I thank the gentlelady.
    I am going to indulge myself, if I may, and take my 
questions now, and then, next, we will go to the gentlelady 
from California.
    I want to begin, and I want to assure you that this is 
asked in a friendly way, but I think it is an important thing: 
You have a very unusual funding stream in that you are forward 
funded by a couple of years, which is very unusual in the 
budget. But--and then so I am often asked about why this 
particular agency gets this particular treatment. So I would 
like you, if you would, just to address that question, kind of 
help inform the committee about that.
    Ms. Harrison. Yes. And we are very, very appreciative of 
our forward funding. There were two reasons. The reasoning 
behind our forward funding was--the first one, I think, was 
extreme--both of them. The first one, really important, and it 
was to provide a firewall of independence for our content 
providers that, no matter who was in leadership, no matter what 
political party, that our content would be removed from that 
pressure. And that has worked over 50 years.
    And the other reason is, in order for us to get to ``go'' 
with a program or do the research, whether it is educational, 
the children's content, or it is documentaries--that is much 
longer time--we enter into contracts. We have to be able to 
make these contracts. And then stations, with the confidence 
that we are going to go ahead, they go out and they are able to 
raise the money. And those are the two primary reasons.
    Mr. Cole. I think it is very important for people to 
understand, because that--I think that--that, frankly, wall of 
independence is really critical to your mission and retaining 
the confidence that you need to retain, frankly, across the 
political spectrum. So I just wanted to get that on the record.

                 ADDRESSING HIGH SCHOOL DROPOUT CRISIS

    We all know, obviously, that public broadcasting has done a 
great job with early childhood education and what a tremendous 
part--role you have played in that. But you have also focused 
on the high school dropout crisis in the country with an 
initiative called American Graduate. Can you tell us what you 
are doing to address high school dropout rates and the impact 
that the program is having?
    Ms. Harrison. Thank you. I am so proud of the work we have 
done with American Graduate. Many of the people responsible for 
it are here. And, again, it gets back to our local caring about 
a community. So these general managers, many of them are in 
communities that had what you call dropout factories or kids at 
risk.
    And after many years of watching a statistic of 1,000,000 
American boys and girls fail to graduate from high school every 
single year, I mean, that is a shameful statistic for us as 
Americans.
    And I remember we met with this small hub of general 
managers, and I said: Why don't we see what we can do? And it 
looked like taking on world peace or world poverty or 
something. And we break it down. And we had the research to 
show that--it is not astounding research--but many of these 
kids didn't even have one significant mentor, adult, caring 
adult, in their lives. Many of them were working two jobs or 
taking care of younger kids. So what we wanted to do on a local 
and a national level was, first of all, who are these dropouts? 
Are they worthless? Are they completely stupid? Can we move 
beyond the stereotype of who they are? And once you started 
hearing these stories on radio, on television--PBS 
``NewsHour,'' ``Frontline'' covered it--you came away thinking: 
My goodness, my children would not be able to make it if they 
had to deal with what these kids are dealing with.
    And then we told the story of the teachers, average 
Americans who just step up to the plate--some of these kids 
were homeless--and what happened? It is a story of our civil 
society that inspires civic responsibility.
    And, now, WNET in New York does American Graduate Day, a 
day-long broadcast, where people decide they are going to be 
mentors. Thousands of people respond. The dropout rate was--I 
can't really take credit for this entirely--it was 73 percent 6 
years ago. It is the highest now at 83 than it has ever been, 
and we have played a part in that story. Stations work with 
1,700 business, faith-based, any kind of civil organization you 
can think of----
    Mr. Cole. I am sure you meant the completion rate, right? 
The graduation rate?
    Ms. Harrison. Yes.
    Mr. Cole. You said the dropout rate.
    Ms. Harrison. Oh, I am sorry. That would have been a bad 
story. No. The high school graduation rate.
    But nothing can remain as a victory because, while we have 
these kids graduating, now what happens? So our next 
iteration--this is what I hope that we can do--is look at high 
school to career, high school to jobs, job training because 
there are a lot of jobs that aren't getting filled because kids 
aren't prepared, when they graduate, to fill them.
    So American Graduate--we have worked with America's Promise 
Alliance, all these good organizations, and what they said 
about their partnership with public media, we gave them the 
megaphone.
    And Alabama, for example, worked with the Birmingham Y. 
They took it beyond the concept, and it is just such a strong 
community program.
    Mr. Cole. Thank you.
    With that, I will go to my good friend from California, Ms. 
Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And welcome, Ms. Harrison.
    Ms. Harrison. Thank you.

                IMPORTANCE OF EARLY CHILDHOOD EDUCATION

    Ms. Roybal-Allard. First of all, I want to begin by 
associating myself with the comments of the chairman and the 
other members of the committee about the tremendous value of 
the Corporation for Public Broadcasting.
    As you know, the achievement gap between low-income and 
minority children and their wealthier counterparts is already 
pronounced by the time they enter kindergarten, and that is 
really not surprising given that a recent survey by the Casey 
Foundation found that 54 percent of America's 3- and 4-year-
olds do not even have the opportunity to attend preschool. And 
for many communities, including my own, the Corporation for 
Public Broadcasting through PBS is a critical resource that 
helps keep this disparity from worsening.
    Nielsen ratings confirm that PBS stations reach more 
children ages 2 through 8 and more children in low-income 
households than any other children's television network.
    My question is, first of all, could you elaborate just a 
little bit more on the impact of eliminating the Federal 
commitment, and how would complete privatization compromise 
program quality?
    Ms. Harrison. Thank you. Thank you for that question.
    Children's content is very, very expensive. And if your 
goal is to treat the child as a consumer, then you can pay for 
that content that is surrounded by commercials.
    If your goal is to build a young citizen, to provide a safe 
place where a child can learn and you are not focused on a 
commercial return on investment but a return on investment for 
that child's entire life, we couldn't do it without the Federal 
appropriation. Ready To Learn would go away. A commercialized 
Ready To Learn would not work. These parents can't afford to 
pay for the money that goes into the research, the evaluation, 
the boots on the ground. And it is another--it is another 
example of understanding at a profound level that no matter 
where these kids come from, how poor their families are, every 
child starts school not saying, ``Gee, I hope I am going to 
drop out 5, 10 years from now.'' They are excited about school. 
We want them to be able to compete with their more affluent 
peers. And this program, it is evaluated; it is measured. And 
that is what it does. It gets these young children ready to get 
to school and not feel almost intellectually intimidated, not 
feel that they are second class citizens--that they are in 
there; they know the work; they have a future. And we have to 
continue it.
    I mean, the loss of the appropriation, to me, on so many 
different levels as an American, but just to be specific in 
terms of early childhood, it would be disastrous.
    I forgot your other question. Is there another----
    Ms. Roybal-Allard. About private--the content, the----
    Ms. Harrison. No. I have a real-life example. I don't know 
how much time we have, but I have a 9-year-old grandson, and he 
has a laptop. And we have loaded it with all the Ready To Learn 
stuff. But, you know, when your grandson visits the 
grandparents, they are like sort of not the same thing. And he 
came over, and he had something that looked like ``Grand Theft 
Auto'' on his laptop. And it turned out it was racing cars, but 
in order to go to the next level, he needed our credit card. 
That is the content. We immediately took it down and put back 
``Sid the Science Kid.''
    Ms. DeLauro. I hope he is coming back again. That is what 
happens to grandparents.
    Ms. Harrison. But these kids are bombarded in commercial 
television. And, oh, do I have time for one more example or no?
    Mr. Cole. Yes.
    Ms. DeLauro. Yes.

                      MISSION DRIVEN PUBLIC MEDIA

    Ms. Harrison. All right. Cleveland, Ideastream, such an 
incredible station. And what they realized, because they have 
business partnerships, the whole community--they are a very, 
very poor area, old Polish town--and they go to the clinic. And 
these kids are sitting there waiting sometimes for hours to see 
the doctors with their families. And what is on television? The 
same commercial stuff, selling, selling, selling. And these 
parents have nothing. And so what Ideastream is, they came in. 
They gave the clinic laptops. They loaded it up with all of the 
PBS content. They have a continuous loop, and now they have a 
relationship with those parents and those kids. And there are 
so many stories like this that get lost when you talk about 
``defund public broadcasting.'' It is about people, their 
lives, and their families.
    Mr. Cole. With that, based on order of arrival, we will go 
to my good friend from Wisconsin, Mr. Pocan.
    Mr. Pocan. Thank you, Mr. Chairman.
    And thank you for being here. I really appreciate it. First 
of all, let me just say as a quick thank you for the newest 
Muppet, Julia, the Muppet with autism. Someone with two nephews 
who are autistic and obviously a growing population, that is 
part of, again, why we so appreciate what you all do and 
looking forward to Julia, more presence and seeing her more 
often.
    Just real quickly, on private content, it is not just the 
credit card. There may be 500 channels, but that means the 
``Kardashians'' and ``Honey Boo Boo'' and Ozzy Osbourne and a 
whole lot of other shows that I don't know if I would quite put 
in the same category as PBS, but it is just interesting.

                     SUPPORT FOR RURAL COMMUNITIES

    I want to follow up on a question that Ms. DeLauro asked 
about the rural population. My district is very, very rural. 
Wisconsin is very rural. Twenty percent of the people who watch 
PBS don't have cable or satellite. So they are actually getting 
it over the air. If you could just talk a little bit more about 
that and just that impact to the rural communities because they 
don't have other options, and I think, really, PBS is filling 
in such a great amount of content.
    Ms. Harrison. They are. And I think more and more, we need 
to talk about that. I don't think--and it is easy if you don't 
live in a rural area--to even imagine that you don't have every 
single thing at your fingertips and all the wherewithal to get 
what you need.
    And so, as I said before, $129,000,000 of our appropriation 
goes directly to rural stations, but we also want those rural 
stations to succeed. So we are not just giving them a grant--
which is very, very important--we give them an incentive grant. 
We work with them to see how they can collaborate with other 
stations. So, for example, Cookeville is collaborating with 
WGBH in terms of sharing their expertise or back-office 
expenses.
    Ironically, in this environment of so many channels and so 
much at our fingertips through technology, we forget that 
America is a very, very big place, and there are people who 
don't have everything 24 hours a day, and they are our kids 
too.
    I mean, I would like to say when we did--when we are doing 
American Graduate, these are our kids. They are all our kids. 
And, now, especially, with a focus but finally on the opioid 
crisis and the impact on rural communities, and there is a lot 
of pride in rural communities. Recent studiesshow that it is 
one of the most entrepreneurial areas because they really have 
to think about their wherewithal. Maybe it comes out of that 
whole farming ethic. But the appropriation is so critical to so 
many of these stations across the country. And I try to visit 
as many as possible so I can bring back something more beyond 
the brochure, real-life examples.
    Mr. Pocan. I might just mention too, we also don't have 
real broadband in a lot of those areas.
    Ms. Harrison. No cable, broadband.
    Mr. Pocan. You don't have that for access. And there was 
just a study in Wisconsin by a University of Wisconsin 
professor, and, also, they think that government doesn't 
connect to rural areas across the board from their State and 
Federal Government. So it is really--this is one of those 
things that to try to get across the air.

                     VETERANS CONTENT AND SERVICES

    The other thing is, in Wisconsin, we did this Veterans 
Coming Home project. You want to talk a little bit about that, 
how we are serving veterans through PBS?
    Ms. Harrison. I just have to thank Wisconsin, really. What 
happened is, 8 years ago, Wisconsin public television, they had 
a lot of veterans who were living in the area from the Vietnam 
war. And they decided that and acknowledged that these veterans 
never ever were welcomed home. They were more than not welcomed 
home; they were vilified. And so, decades later, they just took 
on an amazing initiative. They contacted all of the Vietnam 
veterans they could and their families. They had this event at 
Lambeau Field. They called it LZ, Landing Zone, Lambeau Field, 
75,000 people, but it didn't stop there. So they told the 
stories. They researched the stories. They worked with the 
Wisconsin historical society and veterans organizations.
    And I met some of these people. In fact, in my office along 
the hall, we have big blown-up photos of these veterans from 
decades ago, and now, of course, they are quite old.
    So they didn't want it to be just the one-off: We told the 
story; we welcomed them home. We started looking at the 
veterans that are coming back, these young men and women, from 
Iraq and Afghanistan. And we wanted to take what Wisconsin did 
and start with Wisconsin and do a digital first initiative, and 
we called it Veterans Coming Home. And that has now expanded.
    PBS has their veterans initiative, and it is national 
content. We do documentaries. We work with Bob Woodward on 
something called ``Military Medicine,'' which was so 
fascinating because it shows that the gains made on the 
battlefield and what the medics do then translates to civilian 
life. And we are learning so much about these veterans.
    But I am missing the point here. The point of Veterans 
Coming Home, for these newer veterans, are to connect them to 
jobs and to not tell--sometimes we tell stories, and we 
characterize our veterans as these people who are really not 
capable, mentally capable, or able to add anything in a job or 
in life, and nothing could be further from the truth. Many of 
them, some of them, do need the help that they need.
    So many of them--and even those who need the help, they are 
ready. They are trained. They are an asset. This isn't some 
favor that we are doing for them. Any company would benefit 
from hiring a veteran, and this is what is happening with 
Veterans Coming Home, and Wisconsin started it. So thank you.
    Mr. Pocan. Sure. Thank you.
    Mr. Cole. Thank you.
    We will go next to my friend, the gentlelady from 
Massachusetts, Ms. Clark.
    Ms. Clark. Thank you, Chairman Cole and Ranking Member 
DeLauro.
    And thank you for being here today and for your testimony.
    Ms. Harrison. Thank you.

             DEVELOPMENT OF CHILDREN'S EDUCATIONAL CONTENT

    Ms. Clark. I want to talk a little bit about the Ready To 
Learn grants and at WGBH, home of the classic ``Arthur.'' You 
know, they are using those grants to continue to create and 
develop new programming, including ``Ruff Ruffman show,'' 
really a STEM-based program for youngest kids 4 to 8. Also, 
``Molly of Denali'' is--sounds awesome--based in Alaska, also 
aimed at children 4 to 8 and really focusing on science and 
social studies.
    And they are also using these grants for parent engagement 
activities. One of them has been the Tech Goes Home, which is 
really bringing technology, developmental apps, speaking of 
your grandchild's iPad, to some of our most vulnerable 
families. And I wonder if you can talk about--as you develop 
your programming across the country, what is the science behind 
it----
    Ms. Harrison. Yes.
    Ms. Clark [continuing]. And what sort of evidence-based 
research goes into developing these programs?
    Ms. Harrison. Thank you for your question. And, also, we 
are very appreciative of the work that WGBH does and the 
stations in serving New England.
    WGBH has been a pioneer in education and as a producing 
station and also in terms of PBS LearningMedia. So it is a real 
focus for them. And as I said before in terms of the 
appropriation and forward funding, because this children's 
content requires that it meet the highest standard and 
especially now as we are looking at how children learn in a 
digital age, everything has changed. So we want to be where the 
child is. And in terms of STEM subjects, when--as kids go 
through high school, that is where America overall is very, 
very weak.
    So this is a priority. Our content--you mentioned Ruff 
Ruffman, what we--what we do with a content is--I am sorry--
connect with something that is--first of all, it has got to be 
engaging and entertaining in order for the child to even learn. 
So, through the PBS KIDS 24/7 network, we have all of this 
content that is based on years of evaluation. But what we are 
also doing is supplementing the content that you can get on 
television, online, with interactive games because we have the 
studies that show, whether it is the STEM subjects, whether it 
is literacy, kids want to interact and participate with media. 
And CPB is going to be funding that next iteration.
    We just launched the--with PBS, the 24/7 KIDS channel, but 
now we are adding the next level of interactive play. And that 
is where this is going. It is research-based, but that is part 
of our grant with Ready To Learn. And we have to show, how do 
you know? And we can prove that these children, when they start 
and after they are evaluated, that the content makes a 
difference.
    It is so rewarding because it tells you: if you make an 
investment early on, you are not doing triage at age 16 or 17. 
And Boston is one of the leaders in this. Jon Abbott is 
devoted, working with chief State school officers, and we work 
very closely with GBH.
    The other thing that GBH does is they collaborate with 
rural stations, and they share their knowledge. And that is why 
this system really makes sense. It is big stations, small 
stations, public, private. It works. It is one of the things 
that actually are working.

                      MISSION DRIVEN PUBLIC MEDIA

    Ms. Clark. Do you think it is a safe assumption--I have 
heard some say that the private market would fill this gap if 
CPB did not exist, was not funded?
    Ms. Harrison. The focus of business--and I ran a company--
is to make a profit. If you do good along the way, that is 
fine, but the focus is to make a profit. And if you are not 
mission-focused, then--and you are focused on profit, you will 
find ways to cut corners. Research is expensive. We go over 
this over and over again. It is required. The content takes a 
long time to develop. They are studying children. They are 
investing in the long term because look at what we did with 
``Mister Rogers' Neighborhood.'' So incredible, absolutely, if 
you watch it now, it still has great value. But it doesn't 
speak to today's child and the things that today's children are 
facing. So, based on research, evaluation, measurement, we now 
have ``Daniel Tiger's Neighborhood,'' which takes Mr. Rogers 
into this child's modern environment.
    The private sector hasn't done this. In fact, YouTube said 
to--and this is all in the open, and it is perfectly 
legitimate, because that is their mission, to return money to 
their shareholders, whoever--that the focus with our children's 
content is to bring the parents in, to sell to the parents and 
then keep the kids on a trajectory. And that is great. That is 
great. But what is even greater is public media, so----
    Ms. Clark. Thank you.
    Mr. Cole. When my friend talks about business, her 
Republican genes start showing here.
    Now I want to go to my good friend from California, Ms. 
Lee.
    Ms. Lee. Thank you very much.
    Good to see you. And let me thank you for your testimony 
and also for your passion in doing your job. It is clear that 
it is not just a job for you, but this really is about public 
service. So thank you very much.
    Ms. Harrison. Thank you.

                       DIVERSITY IN PUBLIC MEDIA

    Ms. Lee. I can't help but remember our beloved Gwen Ifill 
today, who was the face of ``NewsHour'' on PBS, and she brought 
the news in a very professional, factual, and unbiased fashion. 
And as an African-American woman, I just have to say, she was a 
role model and she really demonstrated PBS' commitment to 
diversity and to excellence. And so, as we talk about--and what 
we are talking about today is, unfortunately, privatizing a 
public broadcasting company or corporation. You know, I can't 
help but think of Gwen and all the other phenomenal individuals 
who work for PBS, who have broken through and really could 
relate to the entire country, and so this is something that I 
am shocked by.
    But I guess I shouldn't be because, you know, fundamental 
to our democracy is a free media, and this is another move by 
the Trump administration to shut down the free media. That is 
my personal opinion. OK? And I have to just preface this by--
well, end this by saying, you know, I can't help but think of 
Steve Bannon's comments about deconstructing the administrative 
state. Well, here is a good example of what that means. And so 
I am just, quite frankly, very shocked but not surprised.

                    UNIVERSAL ACCESS TO PUBLIC MEDIA

    The fact that PBS is free and accessible to 95 percent of 
the United States population is quite remarkable. If it were 
privatized, that would not be the case.
    And I want to just ask you what would happen--and I want to 
cite KQED in my own district. And I am very proud of what KQED 
is doing. And let me just quote you a couple of statistics: 
serves more than 775,000 individuals on their website, 
4,000,000 views a day. The station receives about $4,000,000 
annually from the Federal Government but leverages those 
dollars, mind you--now, this is private sector money, 
foundation funds, leverages those dollars to invest in programs 
like the San Francisco Homeless Project, California Counts 
Collaborative, and our innovation lab. All these programs are 
vital to my constituents, to the entire bay area, and to people 
who work at the station.
    So, if the Federal Government were not involved in public 
broadcasting, and if it were strictly privatized, what impact 
would it have on these programs that are extremely necessary, 
especially with the huge budget cuts now that are taking place 
across the board?
    Ms. Harrison. Well, you are absolutely right. And thank you 
for that question. There is no way--all of our studies show, as 
dedicated as supporters of KQED are--and they are, and this 
speaks to the connection that public media stations have with 
their community as they serve their community--they could not 
make up the Federal appropriation, and you would then see 
really the deconstruction of the quality of content. The 
mission would be watered down. I would be particularly 
concerned about early childhood education but also about 
journalism.
    And it reminds me, talking about Gwen, who was a very, very 
good friend--and she and Judy were such incredible partners--
and Judy Woodruff calls PBS ``NewsHour'' news without the 
noise. And they are actually enjoying an increase in viewers, 
and as is NPR in terms of listeners.
    And what we do in terms of looking at an informed America 
more and more, despite or because of a myriad of different 
choices, is a code of editorial integrity to stay focused on 
our mission; are we meeting our mission? And that is the heart 
and soul of public media.
    And, also, we have to prove to all of you and to Congress 
and the American people that we are stewarding this money in 
ways that are of benefit to them.
    And I used to say that, you know, this is at a cost of 
$1.35 per taxpayer, equivalent to a cup of coffee, but then I 
came to Starbucks. So it is like a cup of coffee at a rural gas 
station but better--never mind. That metaphor, I have got to 
work on it a little bit.
    But I also want you to know that we have had a commitment 
to diversity and innovation and telling America's story, a 
wonderful story, through the voices of very diverse filmmakers 
and perspectives, and that is who we are. Thank you.
    Ms. Lee. Thank you.

                      SERVICE TO RURAL COMMUNITIES

    Mr. Cole. I thank the gentlelady.
    I want to pick up on one of her points, actually, because I 
think she makes it very well, but--and you have made this, Ms. 
Harrison, a number of times as well. Honestly, the more rural 
and the poorer your community is, the more important role this 
mechanism plays. It is important in every place, but I think 
there is, sometimes, an attitude that it is just sort of 
upscale, you know, how many people watch this or that 
particular? But if you really look--in my State, OETA, Oklahoma 
Educational Television, has like 2,000,000 viewers in a week, 
you know, a State of about 3,500,000 people. And there are 
parts that, you know, literally nobody else reaches.

                        HIGH QUALITY JOURNALISM

    And if you wanted to look at the best quality for--we talk 
a lot about national journalism, and to be fair, there are lots 
of shows on national, you know, public affairs, no shortage of 
them. But if you get in any particular State, usually, the best 
broadcasting on what is happening at your State capital, your 
local--is almost always on public television. It is usually the 
most informed; it is usually the most in depth. And it is 
certainly the case in my State.
    I say that with no--I mean, you know, how many fires do you 
need to watch, I mean, but you really do need to know what is 
happening with the State budget.

                        MULTIPLATFORM INNOVATION

    Anyway, let me get back to another area. Because, again, we 
think of this as traditional media, but you have touched on 
this, again, several points, but I want you to focus on it. 
Give the committee some idea, with the explosion of different 
sorts of platforms and technologies, what you are doing at PBS 
to sort of broaden your traditional reach and get into new 
markets, if you will.
    Ms. Harrison. Well, we don't--one of the things we don't 
want to do is just chase new, shiny objects. So we want a 
combination. People are accessing media in so many different 
ways now. So we want our content on mobile. We want it online. 
We want it on platforms. But we also realize that broadcast is 
essential. So it is not either/or.
    But what we are doing--and especially to connect, I think, 
to a younger generation if we are starting with preschool, and 
they are already on platforms, different kind of platforms with 
their iPads--is ensuring that our content is available in 
different forms.
    And my first--my best example is ``Frontline.'' So they are 
broadcast. So what they have done is take their same high-
quality, editorial standards for digital. So it is sort of a 
tease in a way.
    If you really don't have a lot of time, but you are 
interested in what ``Frontline'' is looking at, you can get 
this on your iPhone; you can look at it, but you can also then 
go back and get the longer form. And so we are looking at all 
kinds of ways to get our content. It is not really so much 
about the technology because that is going to continue to 
change. It is ensuring that we have high-quality content, 
whether it is on a cell phone, whether it is on an iPad, 
wherever it is. And PBS is looking at this especially in their 
children's area and for a lot of--the long-form documentaries 
are still something you want to watch, for the most part. You 
want it accessible. A lot of people are streamed to 
``Downton,'' but you want that screen. So we are trying to 
serve the American people, as I said earlier, in ways that they 
want to access and also participate with media. And along with 
this goes transparency. So, now, because of our content and 
technology, you can find out, well, where did that idea come--
that fact, where did that information come from? And I just 
think that what we are doing in a very responsible way is 
helping to strengthen our civil society and, I hope, spark 
curiosity.

                       PUBLIC PRIVATE PARTNERSHIP

    Mr. Cole. Let me ask you--I only have only about a minute 
left. And you have touched on this as well, but I want to go 
back and hit it again. I was not here. Talk a little bit about 
the leveraging effect of the public investment versus private 
contribution.
    Ms. Harrison. In terms of what stations do with the Federal 
appropriation?
    Mr. Cole. Well, how they multiply it, frankly, with viewer 
support, corporate support, you name it.
    Ms. Harrison. They get a base grant from CPB, and then they 
get another grant that is tied to the non-Federal funding that 
they raise. And when they do that, that ensures--they are 
already in the community, but when you go into the community, 
and you are raising money, you are listening to people. And 
people tell you, ``well, we like this,'' or ``we need this,'' 
or ``we need something else.'' They leverage this money. Our 
average is six times the original investment of the Federal 
appropriations. That is a lot. And for rural stations, as I 
said before, they don't--they get a much larger percentage, and 
we work with them and minority stations.
    And you might say, well, how do you then know, if they are 
not raising an enormous amount of non-Federal funds from the 
community, what are they leveraging? Well, they are leveraging 
volunteer time. And I like to think that we are still a little 
bit the people that de Tocqueville looked at and said, you 
know, that the American people, volunteerism is our DNA. And 
that is a critical part of this leveraging. It is volunteer 
time. It is people who care. It is very important financial 
resources. But in the cases where they just don't have that 
donor base, they have the support of the community.

                        LOCAL CONTENT PRODUCTION

    Mr. Cole. Well, and I have seen this--and if my ranking 
member would indulge me, because I will move immediately to 
her, for just 1 second----
    Ms. DeLauro. That is fine. Take your time.
    Mr. Cole [continuing]. Just to make a point. You know, this 
also turns into content as well. Because, you know, as you 
mention with Wisconsin, for instance, but, you know, in 
Oklahoma, we had an incredible nine-part series on Oklahomans 
in space. We have had more astronauts than any other State and 
a lot of people that played critical roles at NASA and things 
like that, which is unusual given how small the State is. It is 
a way outside. Well, nobody nationally is going to focus on 
that, but I guarantee you that it sparks a lot of interest and 
lights a lot of ambitions. And that is replicated time and time 
and time again. No commercial----
    Ms. Harrison. No.
    Mr. Cole [continuing]. You know, operation would ever come 
do that. And, frankly, no national one would focus in on that 
small an area. So you sort of replicate some of the great seed 
work that you guys do. You see these amazing local productions.
    I remember watching on Nebraska television a special on the 
trial of Standing Bear, which is a very important figure in 
Native-American history, first person to be declared a human 
being that was Native-American by a court. Now, that was 
produced in Nebraska about a really important figure in Ponca 
history. So, again, probably wouldn't have been covered by 
anybody else.
    Anyway, my good friend has indulged me. I want to move 
immediately to her for a second round--or a third round.
    Ms. DeLauro. Well, I am happy to indulge you, Mr. Chairman, 
because, in fact, I think you hit on something that--you know, 
what the impact in terms of Native-American communities this 
would have. And no one knows better than the chairman about 
this, is that, really, the digital divide is very profound in 
these communities. And, you know, the tribal radio is often the 
only source of information. It is also a place where one can 
immerse themselves in their culture and their traditions and so 
forth.

                             CIVIL SOCIETY

    I think something that you said earlier--I don't think you 
were here, Mr. Chairman. I think--it was a quote from President 
Bush. And it was, ``the soft bigotry of low expectations.'' 
That is a profound statement.
    Ms. Harrison. Yes.
    Ms. DeLauro. I think that is so pervasive today, and it is 
happening through our institutions, our government, and what is 
the result of that is an angry Nation and a Nation that is 
feeling that there is no respect for who they are and that 
their dignity and their worth is being challenged in our 
society today, which leads to all kinds of disruption in terms 
of what your goal is in enriching civil society or helping us 
to create a more civil society, which is what I believe that 
the Corporation is all about.

                      IMPACT OF INCREASED FUNDING

    I have a kind of a strange question, given the atmosphere, 
and then I do want to make a comment, if I can, about your 
American Graduate program and jobs in a digital economy. I want 
to make that.
    But we have all heard today the value of lifesaving public 
services, early childhood education, and--but you have 
requested, again, here, seventh and eighth consecutive years at 
a level that is flat funding, flat funding. In adjusting for 
inflation, the Corporation's budget has actually been reduced 
by 10 percent since 2010. So I would like to know what the 
Corporation and public media would do if, even in this austere 
budget environment, what would you do if the appropriation were 
doubled?
    Ms. Harrison. Thank you. Thank you for that question. What 
would I do? OK. One of the things I would start doing 
immediately is I would expand American Graduate and ensure that 
we could really increase the number of kids who are just 
struggling and really give them the training they need to get a 
good job.
    The other thing I would do--and I am just going to sort of 
do bullet points here--I would have a 24/7 history channel. Not 
the History Channel we have now, which is referred to as the 
Hitler Channel, because that is all they talk about, but a 
place where you could get local history, and it would be 
accessible just the way we have our PBS KIDS channel, whenever 
you wanted to access it. And it would also be online as well.
    We have got to start telling the story of our history so 
that these kids coming up understand what they are connected to 
and why it matters, because I think it was Robert Dallek, who 
said this democracy is so fragile, and we have to know how we 
got here and the struggles it took to get here and what does it 
take to keep it strong and vibrant.
    I would increase Ready To Learn. We know it works. This 
works. We don't have to prove it anymore. So we would--we need 
to reach more kids. We are reaching millions and millions of 
kids now, but there are even more.
    I think we have to continue our veterans initiative. 
Unfortunately, as we have more young men and women coming back, 
and they paid their dues to our society, and we need to make 
sure that they are not just waiting for what they deserve. They 
are not looking for a handout.
    I actually had a list, but I don't know--in this multi-
thing here--and then we would also continue what we are doing 
with minority and diverse filmmakers. We want more voices. We 
know the success of ``StoryCorps.'' And why is ``StoryCorps'' 
successful? We did ``StoryCorps Griot,'' and it was stories 
from men and women who were in the civil rights movement but 
also in World War II. And for the first time they are talking 
to a friend or they are talking to a relative, and that it then 
goes into the Library of Congress. And as people listen to 
these stories, there is that connected humanity. So the stories 
are very different, but at the end of the day, they are all the 
same. I would do more of that.
    I would invest more into covering international journalism. 
Right now, NPR has 17, bureaus, more than any other commercial 
media organization. And last year, unfortunately, David Gilkey, 
a very talented video journalist and his fellow journalist 
Afghani Zabihullah Tamanna were killed while covering a story. 
So we--CPB has now provided a scholarship to encourage new 
journalists. But we need to know about our world. We need more 
journalists, not fewer journalists.
    And it would be children. It would be history, more 
history. We are working with Candice Millard, and she wrote 
these amazing biographies of Garfield and the young Winston 
Churchill, right after the Boer war--don't let me digress, or 
this will be 2 hours--and also Teddy Roosevelt. And she talked 
about what public media means to you, a person to her, at 
different stages of your life and how these stories of these 
great men and women--it is not the events. It is what they--
their character, and what can we learn?
    I would like to have a leadership channel so our young 
people can just understand, what does courage mean? What does 
commitment mean? What does perseverance mean? What is grit? We 
see it with some of these potential dropouts, grit, and they 
have nothing, and then they go on. And we see others just fall 
by the wayside. So I will be happy to put this in an organized 
plea and come back----
    Ms. DeLauro. Please.
    Ms. Harrison [continuing]. And make a real presentation.
    Mr. Cole. Now we will go to my good friend from Maryland, 
Mr. Harris.

                      MISSION DRIVEN PUBLIC MEDIA

    Mr. Harris. Thank you very much. And I apologize for 
getting here a little late. This is a very busy time in 
Washington. A little controversial, as you might imagine--
certainly controversial.
    Anyway, I will be very, very brief. You know, I--in a time 
of shrinking resources, you know, the question--and the 
question, really, should be raised in every part of the 
government, is, you know, is what this organization that we 
fund, any organization that we fund, I don't care whether it is 
the Department of Defense, whether it is Department of Navy, 
where I was, you know, is it fulfilling a role that needs to be 
fulfilled? Has the role changed over the years? Can it be 
supplanted by outside resources so that, you know, I am--you 
know, I do question--and I think you have to develop a 
rationale, and I think that is what you are trying to say 
today--is you know, the average U.S. consumer gets 189 channels 
now.
    Now, when CPB was formed in 1967, I was 10 years old. We 
had a black-and-white TV. We had ABC, NBC, CBS. We had channel 
9 and channel 11 in New York. I grew up in New York. We had 
five channels. Now you have 189 channels. So the marketplace is 
very different. So, at the outset, you know, that has to be 
addressed. I know there is content that needs to be delivered. 
The question is, you know, who can deliver it? Can it be 
delivered by one of those other 189 channels, or is it 
something that, you know, should--should--where public funding 
should continue at the level in which it has?

                         EDITORIAL INDEPENDENCE

    But most particularly, what I am concerned about--I 
understand that, as journalists, you want to--you know, you 
have to have some independence, whatever. But when you produce 
shows like ``Kumu Hina,'' almost a third of a million-dollar 
investment; ``Baby Mama High,'' $50,000--but, you know, $50,000 
pays for the health care for 10 individuals on the Affordable 
Care Act--it begs the question that, is there sensitivity, that 
we have to--I have to respond to people in my district who say, 
you know, given what ``Kumu Hina'' is about, my district 
doesn't care whether CPB produces that. And, in fact, they 
would resent if I was publicly funding that.
    Similarly, with ``Baby Mama High.'' You know, apparently, I 
read the summary here. I haven't seen it. I should probably see 
it. But, then again, I am not sure I want to watch something 
that says that, you know, someone shouldn't get married; it is 
actually better to just stay a single mother with two children 
instead of getting married. It begs the question of there are a 
lot of wonderful things you can do, but when you wander into--
and I understand, you know, the First Amendment rights 
everybody has, whatever, but when it is public funding, I just 
question whether somebody is wondering what the effect of that 
is going to be, and when is the breaking point going to be 
when--you know, when people like me from my district say, you 
know what, just can't fund it anymore. I can't explain to my--
the people in my district why CPB invested $302,000 in ``Kumu 
Hina.''
    So you give me the explanation how I go to my--if you 
could--how I go to my constituents and say that was a good 
investment of their tax dollars. I am in a highly Republican 
conservative district.
    Ms. Harrison. Right. I am--Maryland Public Television is, 
really, an entity that focuses on the environment, a lot of 
their local content on the Chesapeake Bay, on education. And 
earlier we talked about the proliferation of all of these 
channels, and there will probably be even more channels, and so 
much of this is behind a paywall. I have subscriptions to 
Amazon and to Netflix, and I have a very high cable bill. So I 
am aware of what is out there.
    In terms of public media and the documentaries we do, the 
work of Ken Burns or Dr. Henry Gates, I would say, in the 
aggregate, it brings people together.
    We were just talking about the historian Candice Millard, 
and we have done two of her books now, one on President 
Garfield and the other one on Teddy Roosevelt. I think if you 
look at the wealth of the content, that it is by far so 
impactful.
    Now, somebody might watch, for example, ``Half the Sky,'' 
which was done by Independent Lens, and object to certain 
things in there. But what was the bottom line with that series? 
It really was instrumental in raising people's awareness about 
the scourge of trafficking in persons, and it really had an 
impact in this country. Always think of something that is 
international, and it is right here in the United States.
    So I would say maybe we don't get it right 100 percent of 
the time, but I am willing to bet we get it right 90 percent, 
whether we are talking about children's education, 
documentaries, news, and information.

                          EDITORIAL INTEGRITY

    And in terms of journalism, we have a high editorial code 
focused on transparency and integrity. Do we miss it sometimes? 
Of course. We are not perfect. Nothing man does is perfect, but 
the reason that I think and I know that we deserve the 
appropriation--and Winston Churchill said, ``deserve 
victory''--is because we can prove we make a difference in the 
lives of Americans, not just the 1 percent, but a majority of 
Americans who can't afford to have that cable bill, who can't 
afford the so-called market solutions.
    So I don't know if I can convince you, but we are mission-
focused, and my goal is to stick to that mission. And for 
$1.35--and I realize it is a lot of money when you are looking 
at an entire budget. And you guys all have a very tough job, 
and especially now; what are the needs of our country? But at 
some point, we have to say that we are going to lose if we know 
the cost of everything and the value of nothing.
    Mr. Cole. We will go now to my good friend from California, 
Ms. Roybal-Allard.

                       DIVERSITY IN PUBLIC MEDIA

    Ms. Roybal-Allard. Ms. Harrison, I couldn't agree more that 
telling the story of our history, how we are all connected to 
each other, and the value of each segment of our society and 
what they have contributed is critical in bringing us together 
as a country and as Americans. So I want to thank you for your 
commitment as president of CPB to the National Minority 
Consortia.
    Ensuring that public media reflects diversity and 
inclusivity in this content and outreach to audiences is really 
important to meeting that goal. For example, Latino Public 
Broadcasting, under the National Minority Consortia, produces 
media that portrays the richness of the Hispanic experience. 
That is also true for other minority groups--that is produced 
by the National Black Programming Consortium; Vision Media 
Maker, which highlights Native Americans; the Center for Asian 
American Media and Pacific Islanders. How is the CPB uniquely 
equipped through the National Minority Consortium to represent 
the perspectives and constituencies in a way that might 
otherwise be neglected by the commercial media?
    Ms. Harrison. Well, I think media right now--I mean, we 
know that media, commercial media, really has to focus on the 
bottom line, and that is--that is--I was in business, and that 
is what they have to do. They have to have a return on 
investment.
    Our mission is a return on investment that accrues to 
people in terms of education, in terms of knowledge. We just 
had--if I can veer off a little bit here. I met with four-star 
retired General Stanley McChrystal, and he was talking to us 
about why he supports public media. And he said: ``A country 
can't be strong unless we are smart.'' And we want a strong 
defense and a strong defense militarily. I have a grandson who 
is right now going through Special Forces. But we also want to 
make sure that we have that civic--civil society knowledge 
infrastructure, that our citizens are aware and strong.
    And we need to tell the stories of all Americans. Americans 
need to see themselves as part of the solution to the 
challenges we have. We have a new generation coming up. We want 
them to be connected to these solutions.
    And that is why I think, over a period of 50 years, we 
haven't embraced the status quo in any way, or we wouldn't be 
here today. We are valuable and viable and depended upon by a 
majority of Americans. When I say that, Americans of all 
backgrounds: economic, race. And we are very proud. We have our 
Diversity and Innovation Fund, and we interpret diversity writ 
large. It is diversity of point of view, diversity of 
backgrounds, geographic. There are so many things that can 
divide us today. And by becoming America's storyteller, we 
unite people. But that is our goal. It is not something that 
happens immediately.
    And especially right now, I think we have a very divided 
America economically, politically. It is not good for the 
country. And that is not a political statement, by the way.
    Ms. Roybal-Allard. It is an accurate statement. Thank you.

                          DIVERSITY OF CONTENT

    Mr. Cole. Next go to my good friend, also from California, 
Ms. Lee.
    Ms. Lee. Thank you very much.
    Let me, first, to my colleague Dr. Harris just mention a 
couple of things. First of all, with regard to ``Baby Mama 
High'' and ``Kumu Hina,'' well, my constituents may like that, 
and your--my constituents may not like a lot of the programming 
that your constituents like. The point is, in America, I 
thought we had a free press, and I thought the First Amendment 
ruled, and I thought that it is ok to disagree or agree. And, 
yes, we have a duty as taxpayers to participate in our First 
Amendment rights. We don't all have to agree or disagree on 
everything.
    And I think that is the beauty of PBS and NPR, that, you 
know, my constituents may like some of the programming. They 
may not like some of the programming. And Dr. Harris' 
constituents may like some of his--their programming and may 
not like mine.
    So this is a democracy, and in a democracy, we have to 
commit our resources to continue this democracy. And we are 
certainly at a very defining moment, and it is very fragile 
right now.
    And so this zeroing out of PBS and NPR, once again, goes--
and flies in the face of our democratic principles. Hart 
Research poll: 73 percent of the voters across the political 
spectrum oppose eliminating funding for public television, and 
that is 70 percent of voters who voted for President Trump.

                     IMPORTANCE OF FEDERAL FUNDING

    Now, if PBS were to be privatized, no Federal funding, what 
would happen to PBS? Because I know how the private sector 
works. I am a former businessperson myself. You have to be able 
to leverage resources. If you can't come to the table with 
public funding, then the corporate sector and the private 
sector walks away. They say: You can't leverage what we are 
going to invest.
    So what in the world is going on, and how in the world 
would you survive with no public funding, or would you?
    Ms. Harrison. We wouldn't. And it wouldn't be public media. 
It wouldn't be America's public, mission-focused media. There 
wouldn't be these checks and balances, the stewardship.
    PBS--I will go back, again, to what I said earlier. When 
this construct was created 50 years ago, in its own way, it was 
brilliant with all of the checks and balances. We don't just 
give out grants. The stations then have to respond and report. 
We have an Office of Inspector General who does audits of the 
stations. We have to report back to Congress. It is--I like to 
think of it as a virtuous circle because, at every step along 
the way, we have to prove that we are still of benefit to the 
American people in specific ways.
    And it runs the gamut from preschool to lifelong learning. 
It is just--maybe I have to come up with a better way of really 
defining the benefits received and the benefits that are also 
leveraged in the community.
    Ms. Lee. But if it were privatized, where would the 
accountability be? How would the free press operate?
    Ms. Harrison. It wouldn't. Privatizing public media is 
almost an oxymoron. If we want to have a vibrant public media 
service--let me give you an example. I guess I haven't been 
using this. I apologize. Oh, that is much better. OK.

                        STRENGTHENING DEMOCRACY

    So about 6 months ago--we frequently have international 
visitors--we had a delegation from Ukraine. And these are the 
most incredible people, and they said: ``We want what you have. 
We want an independent, public media service for the Ukrainian 
people.''
    They are inundated by Russia today. Total propaganda.
    Well, how can we help you?
    ``Well, what we want is content, like `Eyes on the Prize.' 
We want Ken Burns. We want to be able to show our people, to 
translate it, into how--what a democracy looks like. How do you 
fight for it? We want the civil rights history.''
    And so some of the people who went to Ukraine are here 
today. I think Michael Levy and Steve Bass, from Oregon Public 
Broadcasting, and Steven Altman and sat down and spent 2 days 
helping them figure out how they were going to put this 
together under great, let's say, political challenges. And, in 
fact, we wound up giving them some content.
    But we are viewed by the rest of the world who pays--their 
citizens pay far more. I think Norway is the highest, with $135 
a person. This partnership we have, it isn't a handout. It is a 
partnership. And this is what we say. It is the entrepreneurial 
spirit of America. It is what makes capitalism great. And it is 
working, and it is admired.
    And are there glitches along the way? Of course, there are. 
And we have ombudsmen. NPR has one. PBS has one. And believe 
me, we hear from people. When they don't like something, the 
stations hear it immediately, and they don't get ignored.
    I just think that the idea that the marketplace is going to 
take care of public media really means--we may as well be 
honest, it is the elimination of----
    Ms. Lee. Yes, so public media would be no more.
    Ms. Harrison. It would be no more.
    Ms. Lee. It would be private, corporate media, 
deconstructing the public sector and the administrative sector. 
That is really too bad.
    Mr. Cole. The chair just wants to make the point that the 
First Amendment is clearly not dead on this committee. So we 
have fair, full, and vigorous debate.
    I really don't have any more questions, but we still have a 
little bit of time. I know my ranking member wants to make a 
point. I will probably make a closing point myself, but I also 
want to make sure if anybody has something in particular, they 
want to make that point. But I want to go first to the ranking 
member.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And many thanks. This has been one of the most enlightening 
hearings that we have had. And it is not just this year, 
because we haven't had a lot of hearings, but overall. And it 
is too bad it has taken 10 years for you to be back here. As 
the chairman said, we are not going to go down that road again.
    Ms. Harrison. That is ok. Every 10 years is ok.

                         WORKFORCE DEVELOPMENT

    Ms. DeLauro. OK with you? OK. All right. But I want to 
pursue with you a bit the American Graduate program----
    Ms. Harrison. Yes.
    Ms. DeLauro [continuing]. That you have mentioned, because 
I have been sitting here taken with that. And I understood 
that--what you were doing in terms of the dropout rate. But let 
me--and I don't know if you have had the opportunity to see 
what the Markle Foundation, the report that they just issued 
not that many months ago. It is about jobs in the digital age. 
And they found, in terms of their research, that 70 percent--
and this goes to value and equal dignity for all Americans--
including the 70 percent without a college degree--without a 
college degree--in the United States, who are eager to 
demonstrate the skills they have and to learn new skills. And 
they have--there is a program that's been developed in Colorado 
called Skillful.
    In any case, I make the point that we are a Nation today 
that has a population nationwide that does not--and shows that 
their economic success is attached to that, the economic 
success, quite frankly, in my view, of the Nation.
    Further, the Center for Budget and Policy Priorities says 
poverty-reduction programs help adults lacking college degrees 
the most. Nearly 9 in 10 working-aged adults lifted above the 
poverty line lacked a college degree. I am focused on the 
college degree or courses or opportunities for individuals who 
make up this segment of our country.
    And we can talk about this offline or so forth, but I 
believe--and I don't know if you think there is a role for 
public broadcasting to do what you were doing with dealing with 
high school dropouts, connecting them, and looking at how we 
either can provide connections with regard to employment, 
training, et cetera, through your medium.
    Ms. Harrison. Yes. And thank you for that question. I had a 
very long conversation with Congresswoman Roby about how--how 
do I say this? We almost have decided that you must go from 
high school to college, that anything else is a complete 
failure or not worthy. And that is doing a disservice to a lot 
of young people who should have the opportunity to go to 
college but, just as importantly, have the opportunity to 
understand how they are going to make a living, how they are 
going to work, how to get trained. How do you--just basic stuff 
even--show up in the workforce; what is appropriate? And so we 
are doing this. That is the next iteration if we can find the 
wherewithal.
    American Graduate has inspired a lot of foundations to give 
directly to local stations, because they believe in this; they 
know this is essential, helping these young people, who are 
bright, but they really need this kind of real training. And I 
know job training has had a very bad reputation in the past, 
but this involves digital knowledge, a lot of different things.
    So, yes, I should say, my short answer on that is, yes, 
that is where we see it going. Because I think it would be a 
disservice to say, we are very proud. We worked with 1,700 
organizations. We helped the high school graduation go up, and 
let's declare victory. That is only the beginning of the story. 
So is there life after high school?
    Ms. DeLauro. Well, that is really my point, is that we have 
so traditionally been bound by getting a 4-year liberal college 
education, and it is probably my view that we have enough 
history majors and English majors, you know, for a very, very 
long time.
    Ms. Harrison. Uh-oh, the chairman is looking at you.
    Ms. DeLauro. He and I are both history majors. So, in any 
case, what I am saying is that the opportunity to connect with 
the kinds of skills that allow people to develop their own--to 
realize their own dreams and their aspirations whether--you 
know, I think is so critical. And I just see--if I can, I would 
love to--and you can do on your own, but I am going to speak to 
Zoe Baird at the Markle Foundation----
    Ms. Harrison. I appreciate that.
    Ms. DeLauro [continuing]. Because I would love for the two 
of you to sit down and think about the scope of your medium and 
its ability to change--to help to change people's lives. And 
the way you have done, in early childhood education and these 
other areas, what you are doing with veterans and so forth, I 
think that there is an enormous role for CPB to engage in this 
and this effort in a very highly professional, competent way 
that can do nothing but assist the people.
    I am going to--we can talk further.
    Ms. Harrison. No, thank you. This is very timely, because 
tonight a group of general managers from various parts of the 
country who have been involved in American Graduate and who 
have--are doing in their State--Virginia is one of them--they 
are coming in to look at this next iteration and what we can do 
in a measurable way----
    Ms. DeLauro. Measurable.
    Ms. Harrison [continuing]. And not take up too much----
    Ms. DeLauro. Absolutely measurable. And thank you----
    I am sorry, Mr. Chairman--but I can't thank you enough for 
your testimony today.
    Ms. Harrison. Thank you.
    Mr. Cole. Having abused the time myself, I am going to be 
lenient.
    Ms. DeLauro. Thank you.
    Mr. Cole. I am going to go to Mr. Harris for the last 
question.
    Mr. Harris. Thank you. I didn't abuse my 5 minutes before.
    Mr. Cole. You certainly didn't. I was placing the blame on 
myself.

                          DIVERSITY OF CONTENT

    Mr. Harris. Let me follow up--and I'm sorry, you know, my 
dear colleague from California isn't here--when she talks about 
the free press. But we are not talking about a free press here; 
we are talking about a government-funded press.
    Now, I am not--I am making no comparisons that you can 
compare to Norway, but, look, no comparison. You can go look at 
Russian TV and Pravda. They get government funds too. I am not 
going to make a comparison. ``Pravda,'' by the way, means ``the 
truth'' in Russian. Yeah, right. So let's separate free--what 
we are talking about today is government funding. And I applaud 
the gentlelady from Connecticut talking about the need to 
advance education. But, Ms. Harrison, agenda is not education. 
What do I mean by ``agenda''? I gave you a couple of examples.
    Let me read from the description of an MPT program. It must 
be MPT, because it was called ``The New Black.'' It says, 
quote--and this is from their website, and I am going to get to 
the agenda issue--it says: ``This film documents the political 
race for marriage equality in Maryland from the perspectives of 
LGBTQ African Americans, their supporters, and those who are 
against marriage equality.''
    I know a lot of people who don't like the term ``marriage 
equality'' because they don't believe anything is equal to 
marriage. But this public broadcasting station chose a 
politically charged term and then compared those who are for it 
with someone who is against marriage equality. Words have 
meanings. You are a journalist. This is biased. I don't have to 
see it to know it is biased. I just read the description. This 
is not education. This is agenda.

                           EDITORIAL FIREWALL

    I beg you, if you come for government funding, you must 
remove as many vestiges of political agenda as you can, because 
I don't want an ad running against me that says I--that says I 
voted for funding a film that inspires a tomboyish young girl 
to claim her place as leader of an all-male hula troupe. I can 
see the ad. That is from ``Kumu Hina.'' That is from the 
description on the station. I beg you, please, remove the 
agenda from education.
    And I don't care. It could be agenda on either end of the 
spectrum. This has to be neutral content so that when somebody 
uses the term ``marriage equality''--and believe me, I am 
particularly sensitive--and you know, in Maryland, that was a 
very close issue. That fight was within 1 percent on the 
ballot, and people who claim to be free press with no ax to 
grind who use the words of one side or the other take a side. 
That is all I can say.
    You know, if you come for public funding----
    Ms. Harrison. Yes.
    Mr. Harris [continuing]. And claim free press, it is 
government-funded press, and my citizens will resent some of 
the agenda that has been there for--and look, 98--you are 
absolutely right: 98, 99 percent of the time, you get it right. 
The 1 percent poisons the well. And I will yield to you, you 
know, for response and then yield back my time.
    Mr. Cole. Surely.
    Ms. Harrison. Well, first of all, I would like to say I 
take your point. We are tasked with two things: to provide a 
firewall of independence for content providers and also to 
ensure balance and objectivity. And these are sometimes two 
clashing objectives.
    Now, I think overall we have done pretty well. But what I 
would like to do is come and sit down with you, if you will 
allow me, after--not today, please--and talk about your very 
good point. And in terms of how we serve all the people and--
but also, for us--when I came here, I tell you: it wasn't easy. 
I had been co-chair of the National Republican Committee, and I 
had a very hard time. I was asked at my hearing, how could you 
possibly run the Corporation for Public Broadcasting if you ran 
the Republican Party? I said well, I hope I am an American 
first. And that is what I have tried to do for 11 years, right 
down the middle.
    And for the most part, with this great team here, we have 
done that. We care about the mission. We care about our 
vulnerability, and we care about all of you too, and we care 
about our stewardship. It means everything to me.
    I have our CFO here, who has made sure we have clean audits 
for the last--not 50, but 11 years. So I appreciate your 
question, and I just don't want to give you a shallow response. 
So let's talk.
    Mr. Harris. Thank you.

                       Chairman Closing Statement

    Mr. Cole. Well, that is a good note to end on, I think, in 
many ways.
    But at one point in your testimony, when you weren't sure 
about the mike and you pulled it closer, my chief clerk leaned 
over and said, ``I can hear her ok.'' I said, ``Yeah, she is 
from New York; you can always hear her ok.''
    But I want to thank my friend for her testimony. I 
appreciate it greatly. I think you have been forthright and 
certainly have been helpful to this committee. And we do have 
tough decisions ahead of us. We don't know yet what our top 
line in this subcommittee is going to be. And, you know, to 
govern is to choose, and we will have some tough choices, I 
have no doubt, to make. But I think you make your case very 
well.
    Ms. Harrison. Thank you.
    Mr. Cole. And I think you do your job very well. And having 
known you before you were in that job, I was absolutely 
confident that you would tame all the lions left and right that 
you would face in what is a high-profile and, frankly, very 
demanding position. I think more than most you are under 
scrutiny and the organization you lead is under scrutiny 
because, as my good friend from Maryland says, these are public 
dollars, and that scrutiny is very, very appropriate and 
questions from all sides are very, very appropriate.
    And I appreciate, particularly, you making the case about 
the importance of a firewall and the funding issue in terms of 
maintaining that independence. You know, it was actually 
President Ford who recommended a 5-year advanced funding just 
because there has always been fears about this, in fact that, 
while there are certainly legitimate concerns expressed from 
the left or the right about this or that, I think if you look 
over a 50-year history, it is a pretty impressive, you know, 
record of enriching the content of public dialogue, opening 
doors to communities that don't often have these kind of 
opportunities, and living within what is by any measure at the 
Federal level a comparatively modest budget, which you managed 
to leverage and multiply many times over, which says something 
about the work that you do there. Because if Americans are 
willing to support you with their checks, large and small, and 
corporations who are notoriously shy of any sort of being 
pulled into politics, left or right, are willing to do that, it 
suggests to me that you have done your mission, a mission that 
Congress asked you to do over many decades very, very well.
    So, again, it was a great personal pleasure to have you 
here. I thank the members of the committee, and we stand 
adjourned.
    Ms. Harrison. Thank you very, very much. I am glad you 
moved it from the Ides of March.

                                         Wednesday, March 29, 2017.

              U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                WITNESS

DR. THOMAS PRICE, SECRETARY, U.S. DEPARTMENT OF HEALTH AND HUMAN 
    SERVICES
    Mr. Cole. Good morning, Mr. Secretary. It is genuinely my 
pleasure to welcome you to the Subcommittee on Labor, Health 
and Human Services, and Education. We are looking forward to 
hearing your testimony.
    Mr. Secretary, your responsibilities are many. Your 
department is responsible for ensuring proper payments of 
Medicare and Medicaid dollars, for overseeing biomedical 
research that can save millions of lives, for helping families 
break the cycle of poverty, and protecting our Nation against 
bioterror and pandemic events.
    The cuts proposed in the budget blueprint this month are 
extensive and span the reach of your agency. I believe there is 
always fat that can be trimmed and priorities that can be 
reordered. And I will ask you some questions this morning about 
whether this budget leaves America sufficiently prepared to 
respond to a pandemic, a new disease like Zika or a 
bioterrorism event. I will ask questions about how you will 
fulfill your mission of enhancing the health and well-being of 
Americans at these levels of funding. And I will ask how you 
will work to solve some of the challenges in your agency, 
including those related to the Indian Health Service.
    And ultimately, this subcommittee needs to know in detail 
what cuts you propose and what missions you are either 
downgrading or eliminating. I know some of these details will 
be forthcoming in the weeks ahead, but we look forward to 
hearing what you are able to share with us today, and we 
recognize there are limitations in that regard.
    As a reminder, the subcommittee and our witness will abide 
by the 5-minute rule so that everybody will have a chance to 
get their questions asked and answered.
    And now I am going to go off script for a minute. I want to 
begin, also just welcome you here as our former colleague of 12 
years, and not only have the privilege of serving with you 
obviously in Congress, but in the same conference and on your 
committee which you chaired.
    And I couldn't have been more pleased with your selection 
by the President. I think you are not only a very good person 
and extraordinarily well-qualified for this job, I have no 
doubt you are going to do a brilliant job for the American 
people during your tenure at Health and Human Services.
    And having worked with you on the Budget Committee, I know 
you know how to balance a budget and bring it into budget and 
make the tough decisions that have to be made for the country 
going forward. And, you know, we achieved that balance in the 
budgets that you crafted, in some cases I think with 
appropriate balance between entitlement spending and 
discretionary spending. And I think that is probably one of 
this committee's chief concerns.
    I think the President is absolutely correct that we need to 
spend more on defense. I don't have any doubt about it at all. 
And I think he is absolutely correct as well that it needs to 
be done in a fiscally responsible way, with offsetting 
reductions elsewhere in the budget.
    Where we would disagree--and I cut the administration 
considerable latitude, because it has had very little time to 
craft a budget. We are operating off a skinny budget. We may 
see something different in May, and we may see something 
different in the years ahead. But, in my personal view, these 
are focused too tightly on nondefense discretionary offsets and 
particularly with respect to your agency.
    I take considerable pride in the fact--and I know my 
colleagues on both sides of the aisle do--that in the late 
1990s and early part of the 21st century, Congress, a 
Republican Congress, frankly, but with Democratic support, was 
able to double the budget at NIH. And our predecessor, Speaker 
Gingrich, deserves considerable credit, and Mr. Porter, as my 
good friend, the ranking member of both the full committee and 
the subcommittee, often point out. They did a tremendous job, I 
think, for the American people.
    We then had about a dozen years of flat funding. And I take 
considerable pride that it was a Republican House and Senate 
again in 2016 that restarted the cycle of increasing funding at 
the NIH. And when I say flat funding, I know my colleagues 
would be the first to point out flat funding means reduced 
funding, because you obviously lose on account of inflation. I 
can give you the numbers in terms of the number of grants for 
research we were funding in 2003 versus what we were funding in 
2015. We went down from one in three to one in six, and that 
was a lot of good science, I think, left on the table.
    So I am pleased that we were able to restart that, what I 
call a virtuous cycle in 2016. I take considerable pride, 
honestly, that it was again a Republican Senate and Republican 
House that did that, but, again, with the support of our 
friends on the other side of the aisle. And we did that again 
in the 2017 budget, which I am very hopeful you will get to 
operate without a continuing resolution before the end of next 
month.
    And you will see there will be another very substantial 
increase for the National Institute of Health, and also for the 
Centers for Disease Control. And you have heard me say this 
before, but I really believe it, these two institutions in 
particular, and there are lots of good things in your budget, 
but these two in particular are every bit as important for the 
national defense and national security of the American people 
as the Pentagon is, because, frankly, you are much more likely 
to die in a pandemic than you are a terrorist attack. So 
maintaining the ability to respond to terrorist attacks, to 
respond to unexpected things like Ebola and Zika are 
extraordinarily important for the country, and I know you see 
it that way as well.
    Again, you are in a tough position. You have to make tough 
decisions, and I respect that. But this committee and certainly 
me personally will be very hesitant about looking at cuts of 
the nature that we are talking about and, frankly, pretty 
insistent on finding a way in the total budget to not only 
maintain the offsets that the President wants to, but spread 
them more broadly across the full budget, but do it in ways 
that we can continue this investment in what I think is really 
cutting-edge and important biomedical research, and certainly 
at the Centers for Disease Control what is literally the front 
line of defense. I would much rather fight Ebola in West Africa 
than west Dallas. And I think we need to recognize the 
extraordinary contributions that were made by that agency and 
the NIH, working together, in that particular fight.
    So I say that out there just up front, because we will have 
some differences, but I want to make it clear they are not 
differences in the basic thrust of what the President is trying 
to do. It is just doing what Congress is supposed to do and 
trying to think maybe more broadly across the entire budget, as 
I know you have done before--I have seen you do it--and try to 
make sure that we prioritize what is genuinely important. And 
defense is genuinely important. These things are part of the 
defense of the country and its development too.
    So I really look forward to our discussion. I know it will 
be thoughtful. I know you will make good decisions on behalf of 
the American people going forward, because I know who you are 
and I have had the opportunity to serve with you. And this 
committee looks forward to working with you fully and openly 
and transparently. We had an excellent relationship with your 
predecessor, and Secretary Burwell is someone I think very 
highly of, but I know we will have an excellent relationship 
with you. And, again, I know how well you will serve the 
American people.
    So this committee, Republican and Democrat alike, looks 
forward to working with you to achieve that common goal, and I 
know that is the President's goal as well. And this is the 
beginning of a process, and I hope we will get to an end of a 
process where all of us can take a great deal of satisfaction 
that we have achieved the objectives that I know we all share 
and, frankly, discharge the duties that we are all obligated to 
discharge.
    And with that, I want to turn to my good friend, the 
ranking member from Connecticut, for any opening remarks she 
cares to make.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And welcome, Mr. Secretary. Welcome to the subcommittee and 
your first appropriations hearing. Certainly not welcome to the 
Congress, which is a place that you know well.
    We meet during perilous times for the future of health care 
in our country. With the threat of rising premiums, rising 
deductibles, and the uninsured, Americans were protected last 
week when Speaker Ryan pulled a bill from the floor that would 
have repealed the Affordable Care Act. The fate of their health 
care really now lies in your administration's hands.
    I have been deeply disturbed by President Trump's recent 
threats to sabotage health insurance for the millions of 
Americans that rely on the Affordable Care Act every day. And 
last week, from the Oval Office, he said, and I quote: ``The 
best thing we can do, politically speaking, is let ObamaCare 
explode,'' end quote. On February 27, he told the National 
Governors Association, again I quote: ``Let it be a disaster, 
because we can blame the Democrats. Politically, it would be a 
great solution.''
    I find this speech to be insulting to the millions of 
workers, children, and older Americans whose futures are on the 
line. The health care of the American people is not a political 
bargaining chip. The idea that the President of the United 
States would intentionally undermine the health and the 
financial security of millions of Americans for personal 
political gain, in my view, is malicious.
    Mr. Secretary, I hope that you will assure us today that 
you intend to use your position to strengthen the individual 
marketplace that is used by millions of Americans instead of 
sabotaging it for any political gain. I hope you will tell us 
today that you concur with Speaker Ryan when he says that the 
Affordable Care Act is the law of the land and that there will 
be no further attempts to repeal it, but, rather, take a look 
at the ways in which we can improve and strengthen the 
Affordable Care Act.
    Moving from the failed repeal of the Affordable Care Act to 
the budget proposal. I think you know what my response is on 
the budget proposal. Unfortunately, I do not have anything 
complimentary to say about your budget request. In fact, I 
think it is a disaster that will have literal life-and-death 
consequences for American families.
    $15,000,000,000 in cuts to HHS is untenable. Much like 
Speaker Ryan's healthcare bill that failed last week, the Trump 
administration's budget request for the Department of Health 
and Human Services would eliminate critical resources and 
programs for low-income and working families. It would also 
decimate the National Institutes of Health, the world's 
foremost biomedical research institution, severe negative 
consequences for public health departments across our country.
    To be clear, President Trump is proposing to cut NIH 
funding by $6,000,000,000. This is really an understatement, 
since we just saw that the administration wants to cut an 
additional $1.200,000,000 from NIH in 2017 as well. And I hope 
you will tell us whether or not you agree or disagree with that 
additional cut. Cutting billions from NIH would be devastating. 
Cancer research, Alzheimer's research, HIV/AIDS research, as 
well as research to prevent any cure of any other disease that 
is causing misery for millions of Americans and their families. 
Make no mistake, this cut will turn back the clock on 
lifesaving biomedical research that you know and I know and the 
chairman knows and everyone on this committee knows has the 
power to save lives.
    Mr. Secretary, we need to know today do you agree that we 
should cut $6,000,000,000 from the NIH? And I just might add 
that it is $6,000,000,000 below what you voted for in the 
Omnibus last December. We are choosing to hamper our progress 
as a Nation. We are choosing to ravage our medical community.
    President Trump is also proposing to eliminate the Low 
Income Home Energy Assistance Program, LIHEAP, which allocates 
$3.400,000,000 each year to help pay heating and cooling bills 
for nearly 7 million low-income households. Earlier this week, 
I heard from constituents who depend on LIHEAP. Let me just 
quote this to you.
    This was in Derby, Connecticut. This is a news report. 
``Tears flowed, anguish creased faces and pleas for help filled 
the room. They came from people like Amanda Diaz, who works 40 
hours a week while taking care of two young children and a sick 
mother; Crisann Keeney, a former nurse left disabled; Ebony 
Gattison, who recently graduated from a Griffin Hospital 
training program.'' ``These programs are vital,'' Amanda Diaz 
said. She said: ``People like me don't just stay home. I work. 
I have a 5-year-old daughter who has asthma and my mom has 
lupus.'' Diaz said the minimal heating assistance she received 
probably kept her daughter and mother from getting sick last 
winter. Ms. Keeney said, and I quote, ``How does this 
government think we can just cast people aside?'' A disabled 
former nurse, she wiped tears from her eyes and she said, 
``They are putting numbers down, but we are talking about 
humans.'' These are the words of folks. They rely on this 
program to keep their kids healthy, to keep their families 
safe.
    And President Trump is also proposing to eliminate the 
Community Service Block Grant Program, CSBG, a critical program 
that connects people with job training, nutrition programs, 
LIHEAP, and more. He would propose slashing funding for the 
Centers for Disease Control, which gives to State public health 
departments, drastically reduces surveillance, epidemiology, 
laboratory testing, as well as immunizations and emergency 
preparedness activities in the States. And I was pleased to 
read in your testimony about your commitment to emergency 
preparedness and how we need to foster that effort.
    In each of these cases, President Trump is proposing to 
eliminate programs that help low-income working class families, 
often the same families that put their faith in him during last 
year's campaign, or he is proposing to cut programs like the 
NIH, the CDC, that benefit all Americans. And at the same time, 
he is preparing to introduce a massive tax cut for corporations 
and millionaires, just as he did in the failed healthcare bill 
last week.
    For decades, Republicans have advocated massive cuts to 
health and education funding, such as with H.R. 1, the very 
first thing that Republicans did when they took the majority, 
which proposed cutting the NIH by $1.600,000,000 and the CDC by 
10 percent. Unfortunately, President Trump's budget is finally 
showing the destructive impact that those cuts would have on 
our communities: Cuts to medical research, cuts to public 
health departments, cuts to home heating and cooling for low-
income families, cuts to Meals on Wheels for older Americans, 
cuts to nurses' training, cuts to family caregivers, cuts to 
family planning service, and the list goes on.
    My sincere hope is that President Trump's budget is dead on 
arrival. This budget is cynical, it is vindictive, and it will 
cause real harm to millions of American families.
    Mr. Secretary, I look forward to finding out whether you 
support these reckless cuts. I sincerely and truly hope not. 
Additionally, I have read your testimony and I know that you do 
not have all the numbers yet.
    And I would ask the chairman if we could have the Secretary 
return in May to testify when we know the full extent of this 
budget when it comes around to May.
    I thank you, and I look forward to your testimony and to 
our discussion.
    Mr. Cole. I thank the gentlelady.
    We have the privilege this morning of having my good 
friend, the ranking member of the full committee, here as well. 
And just for the record, I want to say I was very privileged 
last night to be with her when she received a lifetime award 
from Alzheimer's Association for the distinguished work she has 
done over the course of her career. We have some of those folks 
associated with that effort here, and we thank you for your 
good work as advocates and we certainly thank you for honoring 
our colleague and our dear friend.
    And, with that, the gentlelady is recognized for whatever 
remarks she cares to make.
    Mrs. Lowey. Now, you are being so very gracious, but I 
think we should tell the group that I was honored to be honored 
with you, my friend. And I also want to say----
    Mr. Cole. I was kind of hoping you would bring it up.
    Mrs. Lowey. And I do want to say, because I was glad you 
referenced it in your opening remarks, I was part of this 
committee when a Republican, John Porter, doubled the money for 
the NIH. And I know of Chairman Cole's commitment to 
Alzheimer's, to the whole range of diseases on which we focus 
our efforts and find cures and prevent the terrible pain that 
these illnesses cause.
    So I also remember, Mr. Chairman, when we used to say there 
are Democrats, Republicans, and appropriators. And we have to 
get our work done. So I am very optimistic that at the end of 
this process, we will make major changes to the budget, the 
skinny budgets that have been submitted to us.
    So, with that, my friend, I want to join you in welcoming 
our guest today, Secretary Price.
    This really is a strange hearing. You come before us with 
a, quote, a skinny budget that doesn't contain many numbers, 
and the few clear details would have catastrophic results for 
Americans.
    Here is what we know about President Trump's budget: The 
NIH would be cut by as much as $5,800,000,000, resulting in 
3,000 to 5,000 fewer annual research grants; nursing training 
programs would be eliminated; without LIHEAP, 6.8 million 
elderly and vulnerable Americans would be left without heating 
assistance in the winter, including assistance in the scorching 
summer heat; and the Department of Health and Human Services 
would be cut by 18 percent, putting critical priorities at 
risk.
    The 18 percent cut to HHS could endanger biosecurity, 
medical research, mental health counseling, substance abuse, 
early childhood development, combatting disease and epidemics, 
vaccine development--I don't think I have enough time to list 
all the cuts, but you know how serious they are. There are no 
two ways about it, it is just not possible to make an 18 
percent cut without decimating investments that Americans rely 
on.
    So we should be honest with the American people. President 
Trump's budget plans are nothing more than a broken promise, 
while special interest loopholes remain intact. If you are 
working hard every day and still can't make ends meet, you are 
out of luck in Trump's America.
    You also come before us days after TrumpCare crashed and 
burned, with policy proposals constantly changing in an effort 
to appear he is the right wing in its final days. I am not 
certain that any person in this room, perhaps including you, 
Mr. Secretary, could articulate the Trump administration policy 
on health care other than repealing the Affordable Care Act and 
taking health care away from 24 million people.
    I certainly hope, Mr. Secretary, that last week's failure 
of TrumpCare has made clear that the American people want the 
ACA to be strengthened. And I think, working together, 
Democrats and Republicans, if we look at it with open eyes, we 
can strengthen our healthcare system, especially in light of 
the news overnight that Republicans are back at trying to 
repeal the bill. I don't understand that. Instead of working 
together to improve, to strengthen the Affordable Care Act, 
without a plan in place, there is talk of repealing it again.
    And I want to make it very clear that we will call out any 
attempt by your department to undermine Americans' health 
coverage. So I hope you are not inclined to seek a, quote, 
death-by-a-thousand-cuts approach to decimate the ACA.
    So I really do look forward to hearing from you about the 
administration's plans for the department which you lead. I 
also hope this will not be your only visit, and that you will 
return to testify on the full budget when it is released in 
May. So, again, I thank you for appearing before us.
    I thank the chairman for having this hearing. And I do hope 
we can work together as we move forward, Democrats and 
Republicans, for the people of this country. For those who are 
here talking to us about the impact of Alzheimer's, for all 
those who have really suffered, we can make the bill better. 
And rather than tear up the ACA, let's work together to 
strengthen it, to improve it.
    Thank you very much.
    Mr. Cole. I thank the gentlelady.
    And now I am pleased to recognize my good friend, our 
distinguished Secretary of Health and Human Services. Again, 
Secretary, thank you for coming here before us, and we look 
forward to hearing whatever testimony you care to give.
    Secretary Price. Thank you so much, Mr. Chairman, Chairman 
Cole and Ranking Member DeLauro, Ranking Member Lowey, thank 
you so much for the opportunity to be with you and discuss the 
President's budget blueprint for the Department of Health and 
Human Services for fiscal year 2018.
    Since I was sworn in last month as Secretary, I have had 
the opportunity to meet many of the incredible employees 
working at the Department's headquarters right across the 
street and at many of our agencies literally around the 
country. I have been continually impressed with the myriad ways 
that HHS supports local communities in times of emergency, 
often in ways that the American people never know about.
    When California's Oroville Dam risked breaching in 
February, HHS was ready with its expertise and assistance in 
preparedness to meet the health needs of that community. And 
when a natural disaster strikes, local authorities rely on HHS 
data to know which households in their community were energy-
dependent and in need of assistance. This kind of Federal 
support rarely makes headlines, but for the farmer who lives 
miles from any first responder and downstream of a distressed 
dam or for the snowed-in senior citizen who requires 
supplemental oxygen, HHS can be a lifesaver.
    Two weeks ago, the President released his America First 
budget blueprint for 2018 discretionary spending. The 
administration requests $69,000,000,000 for discretionary 
spending at HHS, prioritizing critical programs and proposing 
the elimination of programs that are duplicative or 
ineffective. The blueprint makes strategic investments that 
will let us respond more efficiently to public health 
emergencies, empower Americans to make the best decisions for 
their healthcare needs, and prevent waste, fraud, and abuse 
across the Department, particularly within Medicare and 
Medicaid.
    The vision for HHS has only been laid out in broad strokes, 
since specific decisions on programs and account levels are 
still under consideration. Those details, as well as proposals 
on mandatory spending, will be included in the President's full 
2018 budget proposal, which is expected in mid-May.
    There are three priorities that I would like to highlight 
today: Our Nation's mental health and substance abuse crisis, 
resources for emergency preparedness and response, and the 
fight to end childhood obesity.
    Drug overdoses have risen steadily over the past couple of 
decades, largely thanks to the misuse of opioids, and they are 
now at epidemic levels. A staggering 52,000 Americans died of 
overdose in 2015, and drugs are now the leading cause of death 
from injury in America. I know this issue has hit home in many 
of your districts and your communities. As a physician and as 
an American, it breaks my heart to see a deadly epidemic rage 
across our land. And as Secretary of Health and Human Services, 
it is my responsibility to ensure we are tackling it with all 
resources available.
    The budget blueprint reflects this commitment, and HHS is 
investing efforts to combat opioid misuse, increase 
availability of treatment, and reduce deaths from overdoses. 
Those investments include continuing the $500,000,000 in 
funding provided by the 21st Century Cures Act.
    Many Americans are struggling also with substance abuse. 
They also suffer from mental illness. The administration plans 
on continued investment in high priority mental health issues, 
including suicide prevention, serious mental illness, and 
children's mental health.
    Another critical function of the Department is emergency 
preparedness. HHS Office of the Assistant Secretary for 
Preparedness and Response coordinates the prevention of, 
preparation for, and response to public health emergencies and 
disasters, which can range from outbreak of infectious disease 
to chemical and biological threats. The President's fiscal year 
2018 budget proposes to reform key emergency programs and 
create a new Federal emergency response fund, which will allow 
HHS to rapidly respond to public health threats.
    With support from this subcommittee, HHS has played a key 
role in fighting the Zika virus, promoting vaccine development, 
advancing diagnostics, and providing resources for pregnant 
women. The Department continues to closely monitor the Zika 
situation, especially as we enter another mosquito season in 
the southern United States. At the same time, HHS is monitoring 
and preparing for a range of threats, including viruses abroad, 
like the H7N9 avian flu virus in China.
    The final priority I would like to raise is the problem of 
childhood obesity. Nearly 20 percent of America's 
schoolchildren are obese, leaving them at higher risk for 
having chronic health conditions and diseases. And we owe it to 
them and their families to do better. And I look forward to 
working with you to augment the Department's worthy efforts in 
this area.
    I want to thank again the chairman and ranking member and 
the members of this committee for the opportunity to testify 
today and for your continued support of the Department. It is 
an incredible privilege for me to serve the American people as 
the Secretary of Health and Human Services, and I appreciate 
the opportunity to be here today, and I look forward to our 
conversation.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cole. Mr. Secretary, whoever helped you with your 
opening remarks, keep them, because they were with 13 seconds 
and, man, it was really good.
    Let me begin, Mr. Secretary. As you know, the National 
Institutes of Health is the primary funder of basic biomedical 
research in the country. This research is the foundation upon 
which all treatments and cures are based. The NIH also supports 
transnational and clinical research on campuses at over 2,500 
research institutions across the country. Discoveries by NIH-
funded researchers since its inception have resulted in new 
treatments and cures for diseases and have greatly extended the 
life expectancy and quality of life for Americans.
    Congress has provided significant and steady increases in 
funding for the NIH to help bring researchers closer to finding 
cures for diseases like cancer and Alzheimer's. I am extremely 
concerned about the potential impact of the 18-percent cut the 
administration has proposed at the NIH.
    Would you please describe how your proposed budget would 
enable the United States to maintain the biomedical research 
enterprise and continue progress in developing new treatments 
and cures within this funding level?
    Secretary Price. I appreciate the chairman's perspective, 
and I share your commendation for NIH. I have had the privilege 
of visiting many of the staff divisions and operating divisions 
within the Department. And I had a visit with NIH and was 
incredibly impressed, with the work that they do.
    NIH, as you know, is part of a large department. It 
comprises over a third of the discretionary budget at the 
Department of Health and Human Services. The funding level that 
is proposed of $25,000,000,000 remains over a third of the 
entire proposed budget for the Department.
    I was struck by the need for efficiencies and decreasing 
duplication and the like within our entire department, but I 
was struck by one thing at NIH, and that is that about 30 
percent of the grant money that goes out is used for indirect 
expenses, which, as you know, means that that money goes for 
something other than the research that is being done. And I 
think what the budget is trying to do, being the first step in 
this process, is trying to bring focus to the kinds of things 
that we ought to be able to do to get a greater, bigger bang 
for our buck, if you will.
    The research that is done at NIH, as you know, is 
incredibly important, and I support that and want to make 
certain that young scientists and scientists who have been 
there for a long time know how much we value the work that they 
do and want them to be able to continue. So our goal is to 
fashion a budget that focuses on the things that work, that 
tries to decrease the areas where there are either duplications 
or redundancies or waste, and whether or not we can, indeed, 
get a larger return for the investment of the American taxpayer 
in this area, which is so vitally important.
    Mr. Cole. We look forward to working with you to find ways 
to stretch those dollars further as well. So we will be 
interested in your input as we go along and you learn more on 
that.
    Recent experiences with Zika and Ebola and other diseases 
highlight the importance of our investment in public health 
preparedness to protect Americans from biological threats, both 
naturally occurring and man-made. New threats can emerge at any 
time. For example, the number of H7N9 influenza virus 
infections have skyrocketed in China. And if the virus becomes 
more easily transmittable, we could see an outbreak of a 
particularly deadly flu strain in our own country.
    Congress recognizes the importance of public health and 
preparedness. In fiscal year 2016, we provided additional 
funding for the CDC preparedness activities, Project BioShield 
and BARDA. We intend to continue these investments in fiscal 
year 2017. The fiscal year 2018 budget blueprint request does 
not include much detail on the administration's plan to support 
public health and preparedness against biological threats.
    Please describe how you intend to maintain and enhance our 
preparedness with the top-line funding you are proposing right 
now for your total agency.
    Secretary Price. Thank you, Mr. Chairman. And in my opening 
remarks, I mentioned emergency preparedness and response is one 
of the absolute priorities. This is an area where, as you know, 
the American people simply expect us to do our job and do it 
well so that they can rest assured at night that they are safe.
    I have been incredibly impressed with the people at the 
Department who are in the preparedness and response area. I get 
a briefing almost daily on the work that they are doing, an 
update on the H7N9 situation in China. And thankfully, we 
haven't seen a transmission from an avian source to humans at 
this point. So our goal is to make certain that the resources 
are available so that we can accomplish the mission, that is, 
to keep the American people safe.
    Mr. Cole. I appreciate that. And just before I yield to my 
good friend, the ranking member, as you present the fuller 
budget later, please take into account--CDC plays an incredibly 
important role. We always focus on NIH. This ability to respond 
and protect, you know, is, again, every bit as important as our 
ability to protect our fellow citizens against terrorists. So 
it is very important that that agency remain robustly funded, 
because, sadly, on your watch, we can almost guarantee there 
will be a pandemic, there will be something. That is just going 
to happen. So this is a place not to be penny wise and pound 
foolish.
    So, with that admonition, I want to yield to my good 
friend, the gentlelady from Connecticut.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Mr. Secretary, I am just going to ask a bunch of questions. 
And because I just have 5 minutes, what I would like to do is 
to be able to get a yes or no answer on these questions.
    Will the administration commit to defending and continuing 
the cost-sharing efforts for low-income consumers? The 
administration has done that so far, despite the House lawsuit 
against doing so. Will you commit to defending and continuing 
these payments, yes or no?
    Secretary Price. Ranking Member, as you know, the day that 
I was sworn, it changed from House v. Burwell to House v. 
Price. So I am a party to that lawsuit, and I am not able to 
comment.
    Ms. DeLauro. The clock is running out for insurers to make 
decisions for 2018. Will the administration make a decision 
before the next court deadline of May 21, if not sooner?
    Secretary Price. I am not able to comment.
    Ms. DeLauro. Do you agree that should the administration 
reject many cost-sharing payments, as it has done for the past 
3 years and a half, insurers will drop out of the market and 
raise premiums because of your decision?
    Secretary Price. As I said, I am not--I am a party to that 
suit.
    Ms. DeLauro. Well, but you are not a party to whether or 
not whether it will--if the cost sharing stops--that is a 
judgment question--will premiums go up and will insurers drop 
out of the market?
    Secretary Price. This side of the question is incredibly 
important, because premiums have risen. And it is the 
commitment of this administration to make certain that we are 
able to bring down costs for the American consumer so that they 
are able to afford the kind of coverage----
    Ms. DeLauro. The question is about the cost-sharing 
opportunities, and will that drive up the costs?
    Secretary Price. That is what I am not able to comment on.
    Ms. DeLauro. OK. Let me then move to, will you uphold the 
laws of the land even though you oppose?
    Secretary Price. That is my sworn oath, yes.
    Ms. DeLauro. Does that include enforcing the individual 
mandate, yes or no? Yes or no?
    Secretary Price. So long as the law is on the books, we at 
the Department are obliged to uphold the law.
    Ms. DeLauro. Are you aware the cost of not enforcing the 
individual mandate, CBO estimated in December that without the 
mandate premiums would jump by 20 percent. Will you work to 
avoid such premium hikes by enforcing the current law?
    Secretary Price. I think CBO puts a whole lot of stock in 
the individual mandate, and we would suggest that the proof 
isn't there to suggest that the individual mandate actually----
    Ms. DeLauro. Will you work to avoid such premium hikes by 
enforcing the current law?
    Secretary Price. Beg your pardon?
    Ms. DeLauro. Will you work to avoid premium hikes, as has 
been projected by CBO, by enforcing the current law? Yes or no?
    Secretary Price. Ranking Member, I would suggest to you 
that current law is increasing premiums. And what we are trying 
to do, what the commitment of the administration is is to make 
certain that every single American has access to affordable 
coverage.
    Ms. DeLauro. The Office of the Inspector General is 
investigating HHS's halting of advertising during open 
enrollment in January. Do you intend to halt advertising again 
this year, yes or no?
    Secretary Price. I haven't had any discussions about that. 
That was done prior to my arrival.
    Ms. DeLauro. Will you maintain or expand the level of 
funding and activity provided during the 2017 open enrollment?
    Secretary Price. What we are committed to is making certain 
that the American people have access to affordable coverage.
    Ms. DeLauro. Will you maintain or expand the funding for 
the Marketplace Call Center, Data Services Hub, and Navigators? 
Yes or no?
    Secretary Price. Those questions actually depend on the 
outcome of this process, where this is the first step in the 
appropriations process. So we will see what resources----
    Ms. DeLauro. No. There is a judgment call about whether or 
not this is--where the decision was made to cut off the 
advertising during the open enrollment period in January but 
that cut off people's information about whether or not they 
should enroll or not. So will you continue that effort to 
disallow advertising to let people know about enrollment?
    Secretary Price. That happened before my arrival.
    Ms. DeLauro. But what will you do?
    Secretary Price. As I said, we are committed to making 
certain that every American has access to affordable coverage.
    Ms. DeLauro. So you will continue to do the advertising? 
You will do advertising?
    Secretary Price. We are committed to making certain that 
the American people have access to coverage.
    Ms. DeLauro. You will do advertising?
    Secretary Price. I wouldn't commit to any specific entity 
because----
    Ms. DeLauro. OK.
    Secretary Price [continuing]. Many of these things are 
allegedly increasing----
    Ms. DeLauro. That is what we are concerned about. That is 
what we are concerned about, Mr. Secretary.
    Let me talk about, the past 4 years, every eligible person, 
every corner of the Nation has at least one insurance company 
offering a number of health plans. That was because the 
Secretary of HHS worked with insurance companies, Governors, 
State Insurance Commissioners, to ensure access. Have you 
engaged with these key partners to date?
    Secretary Price. Absolutely. We have met with many insurers 
across this country. And what they tell us is that they are 
extremely concerned about the exchange market and the 
individual marketplace, telling us that they aren't certain, 
given the current construct of the law, how they are going to 
be able to continue to provide coverage for folks. And that is 
what we are concerned about. That is why we believe that it is 
imperative that we move in a direction that allows individuals 
the greatest opportunity to have choices in the coverage that 
they receive.
    Ms. DeLauro. Right. Does that include a public option, Mr. 
Chairman?
    Secretary Price. I think that what we need to do is to make 
certain that, again, every single American has access to the 
kind of coverage that they want and that it is affordable. The 
sad point is that the current law is making it so that it is 
unaffordable for so many Americans.
    Ms. DeLauro. I would assume by your conversation that there 
will continue to be an attempt, unlike what Mr. Ryan has said, 
or Speaker Ryan said, about looking at repealing the Affordable 
Care Act rather than looking at strengthening and improving it.
    Mr. Cole. You can answer.
    Secretary Price. Is that a question?
    Ms. DeLauro. Yeah. Repeal or strengthen and improve?
    Secretary Price. As I say, the Department, the 
administration is committed to making certain that the American 
people have access to affordable coverage.
    Ms. DeLauro. But does that include repeal?
    Mr. Cole. The gentlelady's time has expired.
    Ms. DeLauro. I understand, Mr. Chairman.
    Secretary Price. We believe that the current law has harmed 
many individuals.
    Ms. DeLauro. So you will continue to move at repeal, is 
what I gain from that conversation.
    Thank you very much, Mr. Chairman.
    Mr. Cole. Thank you.
    I know the demands on the ranking member's time are always 
great, so I want to move obviously to her for whatever 
questions she cares to put.
    Mrs. Lowey. Thank you very much, Mr. Chairman.
    I do have some additional yes-or-no questions for you. Does 
the Trump administration believe women should pay more for 
health insurance than men?
    Secretary Price. What we believe is that individuals ought 
to be able to have access to the kind of coverage that they 
select for themselves and for their families, not that the 
government forces them to buy.
    Mrs. Lowey. Would you say yes or no when you are comparing 
men and women?
    Secretary Price. I don't believe that is a yes-or-no 
question. Again, what we believe is that you as a woman, and my 
wife as a woman, ought to be able to select the kind of 
coverage that they want, not that the government forces them to 
buy.
    Mrs. Lowey. OK. I will get to the next question.
    Does the Trump administration believe maternity care should 
be a covered benefit under Federal law?
    Secretary Price. Again, individuals ought to be able to 
select the kind of coverage that they want, not that the 
government forces them to buy.
    Mrs. Lowey. How about preexisting conditions, does the 
administration believe Federal law should prohibit price 
changes or allow people to be denied coverage based on a 
preexisting condition?
    Secretary Price. The President has been really clear about 
this, as have I, and that is that nobody ought to be priced out 
of the market because of a preexisting illness or injury. And 
it is absolutely imperative that we have a system that works 
for patients. A system that doesn't work for patients is not a 
system that works at all.
    Mrs. Lowey. I will move on, because I am not sure that I 
understand that. Maybe we can have further discussions.
    I would like to talk to you about Title X family planning. 
As you know, Title X-funded healthcare providers serve more 
than 4 million low-income women and men every year, offering 
contraceptive counseling and services, screening for STDs, HIV/
AIDS, screening for cervical and breast cancer, health 
education, primary healthcare services. Two-thirds of Title X 
patients have incomes below the Federal poverty level. Sixty 
percent of women who receive healthcare services from a Title 
X-funded clinic consider it their primary provider. In my home 
State of New York, more than 300,000 women and men are served 
each year by Title X providers. In your State of Georgia, 
almost 100,000 women and men are served each year by Title X 
providers.
    Mr. Secretary, does your fiscal year 2018 budget maintain 
funding for the Title X family planning program?
    Secretary Price. These areas are really important because 
oftentimes, as you mention, it is an individual's only line of 
opportunity to gain access to the kind of care that they need. 
And one of the priorities of this administration and of this 
budget is to make certain that direct services, healthcare 
services, are a priority.
    Mrs. Lowey. So is funding for Title X providers included in 
your budget?
    Secretary Price. Well, we're having ongoing conversations, 
and I appreciate your input and look forward to having those 
conversations. The large specific budget will come out, as I 
mentioned in my opening remarks.
    Mrs. Lowey. I do look forward to that. And I hope that we 
can agree on the funding of this program, because I am not sure 
I got an answer to this question. Are you eliminating funding 
for Title X family planning services? Are you hesitant to tell 
this committee whether you want to cut funding for Title X 
family planning? Or can we have a real discussion, 
understanding that New York, Georgia, many other places, men 
and women depend on this for their healthcare services?
    Secretary Price. Well, I hope we have a real discussion and 
conversation. And, as I mentioned, the specifics of the budget 
for fiscal year 2018 will come out in I believe it is mid-May.
    Mrs. Lowey. OK. I have a minute left.
    As you very well know, health insurance companies are 
required to cover contraceptive services without a copay. Will 
you commit to ensuring that policy continues while you are 
Secretary of HHS? Are women going to have to return to paying 
out of pocket for contraceptives?
    Secretary Price. This is, again, one of those areas where 
we believe that individuals ought to have access to the kind of 
coverage that they want, not that the government forces them to 
buy. And so we look forward to continuing the conversations, 
but to making certain that the American people have choices in 
the kind of coverage that they receive.
    Mrs. Lowey. But if they choose to have these services 
covered, will you support it?
    Secretary Price. If they choose to have those services 
covered, absolutely. That is the kind of program that we 
envision, and it is one where individuals are able to select 
the kind of coverage that they want, not one that Washington 
thinks is best for them. That is one of the problems that we 
believe has occurred with the current system.
    Mrs. Lowey. It is clear that we have a lot of discussions 
ahead of us, because I think maybe, maybe it would be good for 
you to visit the Title X services that are being provided in 
the clinics in Georgia. And you can come to New York. We can 
have a tour too.
    Secretary Price. I look forward to that visit. And I would 
just say to the gentlelady that I visited many Title X 
facilities in my capacity, not just as a physician, but as a 
Member of Congress, and know the importance. As I have said, of 
those entities oftentimes being the only avenue, the only venue 
for care for many individuals across our land.
    Mrs. Lowey. I really appreciate that.
    And as I close, I do hope you can have that discussion with 
both Democrats and Republicans, and that we understand how 
important these services are for people who couldn't afford to 
go other places to get those services. Thank you.
    Secretary Price. Thank you.
    Mrs. Lowey. Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    I want to go next to my good friend, the distinguished 
chairman of the Subcommittee on Energy and Water of the 
Appropriations Committee, Mr. Simpson from Idaho.
    Mr. Simpson. Thank you, Chairman.
    Thank you for being here today, Secretary Price. I want to 
congratulate the President on selecting you as chairman of HHS. 
Oftentimes Secretaries, you have sometimes Secretaries 
appointed to various positions, and we have all seen it, where 
they are experts on policy and don't know politics, and others 
that know politics but don't know policy. You are one who knows 
both of those. And so I look forward to working with you, and I 
know that you will do a tremendous job at HHS.
    I get confused easily and by a lot of the questions that 
get answered and opening statements and those kind of things. I 
have got a few yes-or-no questions for you also.
    Do you want or believe that all Americans ought to have 
access, access to affordable health care, regardless if they 
choose to purchase it or not?
    Secretary Price. Yes.
    Mr. Simpson. Do you believe that healthcare consumers ought 
to have choices in healthcare coverage options?
    Secretary Price. Absolutely.
    Mr. Simpson. Do you believe that Americans are smart enough 
to determine what is in their own best interests, if given 
choices, without the Federal Government mandating what is in 
their best interests?
    Secretary Price. I do.
    Mr. Simpson. Thank you. I think we are on the same page.
    Now to something really important, a little parochial 
question. The CDC, NIH, and Indian Health Services all have 
dental divisions headed by dental directors. Unfortunately, 
HRSA has not followed suit, and the last administration 
downgraded the chief dental officer to senior dental adviser. 
There is bipartisan support on this committee and we have put 
in report language the last two appropriations, I believe, to 
restore the HRSA chief dental officer position.
    Will you work with me and other members of this committee 
to restore this physician so we can appropriately prioritize 
oral health?
    Secretary Price. Yes. I know your passion for this, and it 
comes from your history as a practicing dentist. And I have 
asked folks to look into that and see. I don't see any reason 
why we ought not--I am happy to work with you, but I don't see 
any reason why we ought not be able to accomplish that.
    Mr. Simpson. I appreciate that. Thank you.
    It has been mentioned several times here, and as you know, 
having been a Member of Congress, NIH is very important to this 
committee and it is very important to Congress and stuff. And 
we will look at the funding levels that come up. They do 
vitally important work. In fact, it is not only the work that 
they do, but they, with their biomedical research advances, 
they positively contribute to the economy. Last year's 
$2,000,000,000 increase saw an increase of 27,122 jobs and more 
than $4,000,000,000 in economic activity. So we all know the 
importance of NIH.
    In the skinny budget--and this is kind of the difficult 
part, that we can only talk really about the skinny budget and 
not the full budget that comes out, so it is kind of a strange 
time--the budget mentions a reorganization of NIH. Is that a 
reorganization in structure of NIH or a reorganization, as you 
mentioned earlier, of priorities and funding priorities and how 
we fund things? And if what you are looking at is trying to get 
more money into the actual research, I think that is important 
and that is something that this committee would support.
    Secretary Price. Yes. I think it is both. Obviously, we 
haven't made a presupposition about what the end point is in 
all of this, understanding and appreciating that NIH is a 
massive organization that does incredible work. But as I 
mentioned previously I think to the chairman, is that, again, I 
was struck by the indirect--the amount of money. Thirty percent 
of the money that goes out for grants is on indirect costs, 
which, as you said, isn't for the specific research itself.
    We ought to be looking at that. That is an amount that 
actually would cover much more than the reduction that is being 
proposed. So if, in fact, there are greater efficiencies that 
can be had and to save money so that you can actually provide 
more grants for individuals to be able to study all sorts of 
array of diseases and challenges that we have. They do 
incredible work and we need to support it.
    Mr. Simpson. And I appreciate that. One of the things I 
have complained about over several years, I have told people 
that NIH is probably the best kept secret in Washington, DC. 
The good news is they do great work; the bad news is it is kind 
of a secret once you get outside of Washington, DC and outside 
of the medical community. And a lot of the research they do is 
in extramural grants out to universities and hospitals and 
those types of things. And when they discover something, it is, 
you know, Johns Hopkins University did this and stuff. What the 
taxpayers don't know, it is their tax dollars that went through 
a grant to Johns Hopkins to discover that.
    And somehow, we have got to get the message out of the work 
that NIH does to the average taxpayer. Because when the average 
taxpayer sees what is being done with their tax dollars, I 
think they will be very supportive of what is going on at NIH.
    Secretary Price. I appreciate you saying that, because that 
has been one of my charges to folks at the Department is, we 
have got to be trumpeting what it is we do, because the 
American people need to know that their tax dollars are being 
spent wisely. And so whether it is in preparedness and response 
or whether it is in discoveries, we need to make certain that 
the American people know of the incredible work that is being 
done on their behalf.
    Mr. Simpson. Thank you.
    Secretary Price. Thank you.
    Mr. Cole. With that, we will move to my good friend, the 
gentlelady from California, Ms. Roybal-Allard.
    Ms. Roybal-Allard. Welcome, Mr. Secretary.
    Secretary Price. Thank you.
    Ms. Roybal-Allard. Mr. Secretary, as was mentioned, your 
Labor HHS budget summary recommends a reorganization of the 
National Institutes of Health. This includes a proposal to 
consolidate the agency for healthcare research and quality into 
IRH. At the same time, the President proposes nearly 20 percent 
reduction in NIH's budget, making it nearly impossible for NIH 
to fulfill its own core mission, let alone the mission of 
another agency.
    I strongly believe that AHRQ's research portfolio is an 
essential part of the health research continuum, because it is 
the only Federal agency whose entire mission is to generate 
evidence on how to improve healthcare quality, facilitate 
access to care, and control healthcare costs.
    Given its important mission, how will your Department 
operationalize moving AHRQ into NIH, and do you plan to make it 
an institute or a center within NIH, or is this simply a way to 
eliminate AHRQ?
    Secretary Price. I appreciate the question, because, as you 
know, this is the first step in this process and I would love 
to have your feedback on this. But we envision the opportunity 
for the NIH to assume the duties, the important duties of AHRQ, 
and then to decrease or reduce or eliminate the duplication and 
redundancies.
    Clearly, some of the kinds of things that are being done at 
NIH are also being done at AHRQ. And so we look forward to the 
opportunity to fold AHRQ into NIH and gain those efficiencies, 
but also make certain that we are continuing to fulfill the 
mission.
    Ms. Roybal-Allard. Well, I am very concerned that AHRQ's 
important health services research portfolio would take a back 
seat to basic science and clinical research within NIH, 
especially when funding decisions are being made within a 
shrinking NIH budget.
    But my other big concern about subsuming AHRQ into NIH is 
the long tradition of Congress being hands-off when it comes to 
directing research within NIH. Because in the case of AHRQ, 
Congress absolutely should be directing health services 
research, since the Federal Government is paying for such a 
large percentage of health care in this country. So I really 
hope that you take a look at it, because--and I repeat--it is 
the only agency that has the sole mission of looking at health 
research, what are the safest and more accessible and 
affordable ways to provide that.
    Secretary Price. Yes. And I appreciate that. And in my 
visit to NIH--and I suspect that many of the members of the 
committee have been there--I was really struck by the fact--and 
I knew this, but to walk the halls, you gain a different 
appreciation. That down one hall is where the research, the 
scientific research is being done and the scientists, the 
clinical scientists are working, and then on an adjacent hall 
is where patients are being seen, inpatients are being seen and 
cared for.
    So that is where we believe that there are some significant 
redundancies within the system itself. And obviously, what we 
want is to make certain that the clinical perspective is gained 
as well, and much of that is occurring currently at NIH.
    Ms. Roybal-Allard. Will there be a specific institute or 
center within NIH? Will it have its own----
    Secretary Price. We haven't answered that question yet, and 
that is part of the reorganization. But I look forward to your 
perspective and input.
    Ms. Roybal-Allard. I am extremely concerned about your 
proposal to eliminate $403,000,000, approximately one-half of 
the Title VII and Title VIII health professions and nursing 
training programs' current operating budget. In today's 
increasingly diverse population, HRSA Title VII health 
professions training programs have been invaluable as a tool in 
creating the pipeline of minority primary care professionals 
who overwhelmingly return to practice in diverse and 
underserved areas.
    Additionally, over five decades of the Title VIII workforce 
programs have played a critical roll in both bolstering nursing 
education as well as building the supply and distribution of 
qualified nurses for all healthcare settings, particularly in 
rural and underserved areas.
    Your budget favors scholarships and loan programs for 
addressing shortages. While these are successful programs, do 
you have any compelling evidence that scholarship and loan 
repayment programs also build minority student pipelines, 
support retention, and enhance the diversity of the health 
workforce with the same success that Title VII programs have 
shown?
    Secretary Price. The workforce issues are really pivotal. 
As you know, we have the wrong trend in terms of workforce, not 
just for nurses but other healthcare providers across the 
country.
    Ms. Roybal-Allard. I was hoping for either a yes or no 
answer here.
    Secretary Price. One of the things that we believe are 
important is to focus on those areas where there is a service 
component to the payment back of the loan or the moneys being 
provided for education, and that is where we have tried to put 
the focus and the resources.
    Ms. Roybal-Allard. But do you have evidence that they have 
the same success----
    Mr. Cole. The gentlelady's time has expired.
    Ms. Roybal-Allard [continuing]. As Title VII?
    Secretary Price. We believe that there is significant 
success in that area, yes, ma'am.
    Ms. Roybal-Allard. OK. I would like to see that.
    Secretary Price. Thank you.
    Mr. Cole. I now move to my good friend, the distinguished 
vice chairman of the subcommittee, the gentleman from Arkansas, 
Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman.
    And I thank our witness this morning. And I join the chorus 
of people, particularly those with strong opinions on this side 
of the dais, as we celebrate the appointment of Dr. Price as 
Secretary of Health and Human Services. We are very, very proud 
of you and look forward to your service.
    Now, Mr. Secretary, I was pleased in your opening statement 
when you dedicated a portion of it to a problem that continues 
to challenge our country, and that is this opioid epidemic, a 
priority for this committee and specifically this subcommittee, 
and I know it is an issue that you and I have talked a lot 
about in your service in the House. And I am pleased, again, 
that, in your opening statement, that you are committed to 
doing whatever is necessary within the constraints of our 
budget and these sorts of things that we are going to do 
something about this.
    As you mentioned in your statement, Cures, the Cures Act 
put $500,000,000 to combat the opioid epidemic as part of that 
endeavor. Can you give us an update, kind of do a little deeper 
dive on how we are utilizing those funds, and what the plans 
are of the agency to direct these funds so that we get specific 
outcomes, where we can actually move the needle on something 
that seems to be moving away from us?
    Secretary Price. And I thank you for the question because, 
as I mentioned, there were 52,000 overdose deaths last year and 
33,000 opioid-related deaths. Just a scourge that knows no 
bounds or no limits. Every one of us know a family that has 
been just harmed significantly, or communities that have been 
harmed by this crisis.
    I hope that the committee members know that the President 
today, this morning, I believe, is signing and having a 
ceremony to put in place or to identify a task force, a 
commission for opioid abuse and drug addiction, and I am 
pleased to be able to have the opportunity to serve on that.
    The 21st Century Cures was, I think, a remarkable 
commitment, evidence of a commitment by this Congress to 
identify the challenges that we face and put resources, put 
hard resources behind it. The grants that will be going out in 
April.
    And we will work over the next number of months and make 
certain what we are trying to do is identify those States and 
areas that are having success in their treatment. How can we 
put the greatest amount of resources in an area that will 
demonstrate and will have the greatest amount of success in 
return?
    That is the process that we are on. They haven't gone out 
yet, but it is a work in progress.
    Mr. Womack. As you know, the knee-jerk reaction of the 
Congress is throw money at the problem. And sometimes we throw 
money at the problem without any real specific idea as to how 
it is going to be utilized.
    And there are many examples across the Federal Government 
spectrum where money is just not--money is important, money 
drives a lot of things. But at the end of the day, because of 
constrained budgets, we need to make sure we are targeting the 
money to the things that actually will work.
    And so I am pleased to hear you say that you are looking at 
State programs, those that have had some beneficial results, as 
a potential model for how a lot of this money is going to be 
utilized. That is good.
    We doubled down our efforts when we passed the 
Comprehensive Addiction and Recovery Act. Section 303 of that 
act requires that practitioners and office-based opioid 
addiction treatment settings have the capacity to provide all 
FDA-approved opioid medications, either directing or by 
referral. How will HHS implement this requirement to ensure 
patients are provided with the range of options?
    Secretary Price. This is an another important area. And as 
you mentioned, we have got to make certain that where the 
resources are going they can actually be utilized in a way that 
will benefit the end user, the patient.
    I have shared with the Department one of my perspectives, 
and that is we need to be thinking about people and patients in 
partnerships. And the partnership that is so important in this 
is to identify those areas in States, and local communities. 
Who are actually able to accomplish the goal and the mission of 
mitigating the problem, getting people who have been hooked in 
this devastating challenge, provide treatment that increases 
the likelihood of them being able to conquer this challenge.
    Mr. Womack. Mr. Chairman, as you know, I am on the Defense 
Subcommittee, and I have a European Command brief that I need 
to get to, so I won't be here for a second round of 
questioning. But I do thank you for the time. And I appreciate 
the service of Dr. Price, wish him the very best, as I do the 
Atlanta Braves.
    Secretary Price. Yes, sir. Thank you.
    Mr. Cole. We do miss the ``Go Braves'' after every Pledge 
of Allegiance that we get at Republican Conferences we used to 
hear, but your fellow Georgians are much more muted than you 
were, Mr. Secretary.
    With that, I want to go to my good friend, the gentlelady 
from California, Ms. Lee, to recognize her.
    Ms. Lee. Thank you very much. Good morning.
    Secretary Price. Good morning.
    Ms. Lee. Thank you for being here. And of course I want to 
congratulate you and just say a couple of things before I ask 
you a couple questions.
    As I look at your budget and the deep cuts which 
disproportionately impact the poor, low income, middle income, 
people of color, really impact everyone except the very wealthy 
in our country, I see once again, and I just have to say this, 
Mr. Secretary, I see what Steve Bannon meant when he talked 
about deconstructing the administrative state.
    As Secretary of an agency that millions of people rely on, 
it boggles my mind to know that you and your agency support 
this kind of a budget. It appears that you want, and your 
agency wants to actually deconstruct the department that you 
are leading.
    The Affordable Care Act is the law of the land. The 
President, however, cynically said that it was going to explode 
on its own. And I am concerned that your agency, through this 
budget and its policies, really are trying to make it explode 
by some of these cuts.
    So a couple of questions. First, and again, you can answer 
these yes or no because they are pretty straightforward, are 
you planning to narrow the essential benefits that insurers are 
required to cover under the Affordable Care Act, given it is 
the law of the land?
    Secretary Price. Look, as I mentioned before, what our goal 
is and mission is, is to make certain that every American has 
access to affordable coverage. And whatever we can do to make 
that happen, we think is vital.
    Ms. Lee. That is an essential benefit under the law of the 
land. Do you believe that insurers are required to cover 
pregnancy, maternity, and newborn care?
    Secretary Price. As I mentioned before, what we believe is 
that it is important for every single American to be able to 
choose the kind of coverage that they want as opposed to have 
the government force them to buy what the government believes 
is best for them.
    Ms. Lee. But this is the law of the land, Mr. Secretary. Do 
you believe that----
    Secretary Price. I also said, we will enforce the law of 
the land.
    Ms. Lee. OK. Then you are going to make sure that these----
    Secretary Price. Carry out the law of the land.
    Ms. Lee [continuing]. Essential benefits are covered.
    Insurers should be required to cover mental health 
services?
    Secretary Price. If it is aspirational. We believe, again, 
that every American ought to be able to purchase the kind of 
coverage----
    Ms. Lee. It is not. It is the law of the land, Mr. 
Secretary. It is not aspirational.
    Secretary Price. It depends on what your question is. If 
your question is what is the law, then we are committed to 
carrying out the law of the land.
    Ms. Lee. The law of the land. OK.
    And also insurers in terms of being required to cover 
prescription drugs. That is the law of the land. Do you believe 
that insurers should cover prescription drugs?
    Secretary Price. We are committed to fulfilling the oath--I 
am committed to fulfilling the oath that I took, which is to 
carry out the law of the land.
    Ms. Lee. Thank you, Mr. Secretary.
    Now let me ask you about the cuts as it relates to HIV and 
AIDS, the overall budget. As you know, we have got a huge 
problem in America and throughout the world, and we are making 
some progress in a bipartisan way through PEPFAR, through Ryan 
White, through the Minority AIDS Initiative. Yet your budget 
cuts about $350 million from that.
    So I guess I just have to ask you, do you really believe 
that we need to continue in a bipartisan way to address the 
HIV/AIDS crises, both here and abroad, as we have done in the 
past?
    Secretary Price. Yeah, this is one of those, as you well 
know, one of the great success stories, Ryan White, which 
started I think in 1990, and we have seen incredible progress 
in the detection and treatment of HIV/AIDS. It is why we 
believe and will continue to make as a priority the direct 
services, direct care services in the Ryan White area.
    Ms. Lee. Mr. Secretary, though, do you agree with the 
proposed cuts in your budget to HIV and AIDS?
    Secretary Price. As I said, what we endeavor to do and what 
we will make as a priority is those direct services, whether it 
is through community health centers, whether it is through the 
Ryan White program, or other.
    Ms. Lee. So you agree to the cuts to the Minority AIDS 
Initiative, Ryan White, and all the other programs based on the 
$350 million cuts that you proposed.
    Secretary Price. As I said, what we believe--and I am not 
sure where that number is coming from. The final numbers will 
be out in May. The specific priority that we have, as I say, is 
for direct services through community health centers and 
through the Ryan White program.
    Ms. Lee. One of the issues we addressed in the Affordable 
Care Act were the issues as it relates to health equity as it 
relates to communities of color. Now, in your budget you 
propose an $11 million budget for the Office of Minority 
Health, which is focused on improving health outcomes for 
minority communities, low-income families, and minority health 
training, minority health institutions. And with this $11 
million cut--again, it is included as part of the Affordable 
Care Act, health equity--so how does this justify upholding the 
Affordable Care Act, the law of the land with this cut?
    Secretary Price. We are absolutely committed to looking at 
health disparities and the challenge that exists there. I have 
been incredibly struck by, even in metropolitan areas, I used 
to represent a district outside of Atlanta, and in Atlanta 
there is a ZIP Code that has----
    Ms. Lee. Mr. Secretary, with an $11 million cut how can you 
say that?
    Secretary Price. As I say, what we are trying to do is to 
make as a priority the community health centers, the kinds of 
direct services available to individuals, and find efficiencies 
in the system, it is a tough budgetary time. But our goal is to 
make certain that we concentrate on those individuals and have 
as a focus higher health outcomes for them.
    Ms. Lee. You can't do that with an $11 million cut, Mr. 
Secretary. And again going back to the Affordable Care Act, 
this is the law of the land, the Office of Minority Health and 
expanding the initiatives under health equity.
    Secretary Price. I think what I would say in response to 
that is that, as I think Mr. Womack said, we tend in this town 
measure oftentimes the wrong things. And I would suggest that 
the amount of resources going into a problem, without measuring 
the outcomes. You mentioned yourself that the outcomes, the 
health disparities dictate that the outcomes aren't as we 
believe they ought to be. Yet we continue to believe that 
simply throwing money at the problem is the solution.
    We believe that it is important to look at that, identify 
what the metrics are, what we are actually measuring, what is 
the data, and then move forward----
    Ms. Lee. The data shows it is beginning to work.
    Mr. Cole. The gentlelady's time has expired.
    Ms. Lee. Thank you, Mr. Chairman.
    Mr. Cole. You are welcome.
    The chair reminds all of us, himself included, that we are 
trying to enforce the 5-minute rule here so that everybody can 
ask their questions and the Secretary has ample opportunity to 
provide a response.
    So with that, on the basis of order of arrival, Mr. 
Moolenaar is recognized.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    And, Mr. Secretary, welcome, and also congratulations. And 
I just reflect that your lifetime of service as a physician, as 
a public servant, and now in this role, I really believe you 
are at an important place to make a contribution to moving our 
country forward. So thank you for serving, and it is great to 
see you again.
    Secretary Price. Thanks.
    Mr. Moolenaar. I had a few questions. First, I wanted to 
talk with you a little bit about some of the Medicaid managed 
care issues. And perhaps you may be aware that in some States 
outstanding payments to Medicaid managed care organizations 
exceed $3 billion.
    In fact, there is one example of an individual managed care 
organization carrying unpaid receivables approaching, even 
exceeding $500 million by States, and they have received little 
of their allocated Federal match dollars. And I am becoming 
worried that the instability this creates puts managed care 
organizations, Medicaid providers, and most importantly, 
millions of Medicaid beneficiaries relying on these benefits at 
risk.
    I just wondered if you could comment if the Department has 
any plans or any tools in the toolbox to address this issue.
    Secretary Price. I appreciate the question, because this is 
really important. As a formerly practicing physician, if I 
didn't know whether or not that income stream was going to be 
continuing, it wasn't clear to me whether I could continue to 
care for patients. And that is the challenge that you 
identified, whether it is hospitals or physicians or other 
providers.
    So having been there a short time, but we are going to put 
significant focus on how these payment streams can be much more 
predictable, much more certain. You can't ask these folks to 
lay out there, stand out there for years at a time and not have 
some resolution. So we are committed to working through that 
process.
    Mr. Moolenaar. Thank you. Just as a quick follow-up on 
that, one of the issues that has been raised is the Social 
Security Act has an anti-factoring provision that prohibits 
Medicaid payments to anyone other than a provider. And what 
this does is prohibits MCOs from assigning their Medicaid 
receivables to lenders who are not considered providers.
    I didn't know if there is anything that can be done to 
clarify some of the anti-factoring provisions so that some of 
these providers can access capital when States are having 
difficulty making payments.
    Secretary Price. I am not familiar with that specific item, 
but we are happy to work with you and see if there is a 
solution there.
    Mr. Moolenaar. OK. Thank you.
    And then I appreciated your comments on the emergency 
response fund. I wondered if you could offer some more 
information. Would you as the Secretary manage that fund?
    Secretary Price. To what fund do you----
    Mr. Moolenaar. The Federal emergency response fund.
    Secretary Price. That is the new task force?
    Mr. Moolenaar. Yes.
    Secretary Price. Yes, we would be controlling over that and 
determine exactly what level and what kind of resources would 
be appropriate for that fund. But that is a work in progress as 
well and we would love to have your feedback.
    Mr. Moolenaar. OK. And then I also wondered your thoughts 
on BARDA and the development of medical countermeasures at HHS. 
Do you believe BARDA is going to have the resources it needs to 
continue its mission moving forward?
    Secretary Price. This is really important because this has 
to do with whether or not we are prepared in the event of a 
potential bioterror attack. And the focus that we believe is 
important is to make certain that it is a priority and that we 
have the resources available to accomplish the mission to keep 
the American people safe in the event.
    Mr. Moolenaar. OK. Thank you.
    Then one last question on poison control. I know in 
Michigan we have a poison control center. People can call the 
center. And Michigan received over 70,000 calls from citizens, 
hospitals, healthcare providers, pharmacists, nurses, EMS 
providers, the opioid situation, where people need to 
understand quickly how to respond. In the past, my 
understanding is they were funded at $18.8 million. Will you 
continue or do you envision continuing this kind of a structure 
or this kind of funding for poison control centers?
    Secretary Price. We are working through the funding for all 
levels, especially in the area of opioid abuse and overdose. 
The numbers are staggering, as you well know. And as I 
mentioned before, we have all seen remarkable challenges in our 
communities far and wide.
    So whether the greatest resource or the greatest venue for 
making certain that individuals are able to be resuscitated 
from a potential overdose, whether that is poison center 
control or elsewhere, we want to make sure we are doing the 
kinds of things that will affect the patient.
    Mr. Moolenaar. Well, again, thank you, Mr. Secretary, and I 
look forward to working with you moving forward.
    Secretary Price. Thank you so much.
    Mr. Cole. We next go to a new member of the committee, good 
friend, the gentleman from Wisconsin, Mr. Pocan.
    Mr. Pocan. Thank you, Mr. Chairman. I appreciate it.
    And welcome, Secretary Price. It was great to work with you 
on the Budget Committee.
    Let me just try to follow up from a question Ms. DeLauro 
asked at the end and the time kind of ran out. So last week 
President Trump said that if the repeal failed that the 
Affordable Care Act was the law of the land and he was going to 
move on. This week it looks like there are more attempts to 
repeal the Affordable Care Act. What is the position of the 
administration at this point? Is it to repeal the Affordable 
Care Act?
    Secretary Price. The position is that we find ourselves 
right now in a position where the current system is not 
working.
    Mr. Pocan. OK, I got that answer before from you. I guess 
the question specifically, Mr. Secretary, is he said he was 
going to move on last week. This week it looks like they are 
still trying to do a repeal. Is it just that--are they not 
moving on like the answer was last week or is it that you are 
trying to still repeal the law?
    Secretary Price. We have to fix the problem. There is a 
huge challenge out there for folks. We have one third of the 
counties that only have one insurer, five States with only one 
insurer.
    Mr. Pocan. So the administration is still trying to repeal.
    So let me ask you this. Maybe this is a better way of 
asking it.
    Secretary Price. What we are trying to do is to make sure 
that individuals have access to coverage and care.
    Mr. Pocan. Sure. So in your opinion, last week the failure 
of TrumpCare, was it due to the Democrats not voting for it, 
which we were never consulted, which was one tweet? Was it due 
to the Tea Party, which was another tweet? Or was it due to 18 
percent of the public supporting it? What was the reason? Why 
did it fail last week, in your assessment?
    Secretary Price. Well, I will let others make their 
conclusions about that. What our Department is focused on is to 
make certain that American people have access to care and 
coverage so that they have the highest quality----
    Mr. Pocan. So you don't know necessarily why it failed last 
week? I understand if you don't. I got you. I was just curious 
if you had an insight perhaps, being on the inside of it.
    NIH, I think you are going to hear it from many of us, 
very, very important in my State of Wisconsin. There was a 
document yesterday that got some press, it looks like it came 
from OMB, suggesting in the 2017 budget to cut NIH, I think, 
$1.2 billion. Was your office consulted on this document?
    Secretary Price. There were conversations at a staff level 
about that document coming forward. I don't know if there were 
conversations about the specific reduction in there.
    Mr. Pocan. OK. Are you supportive of the $1.2 billion cut 
in NIH in the 2017 budget?
    Secretary Price. As I mentioned before, I think what we 
need to do is to identify savings so that we can provide the 
greatest amount of bang for the buck for the American people, 
and I support the priorities of the budget.
    Mr. Pocan. So you support this document?
    Secretary Price. I support the priorities of the budget.
    Mr. Pocan. In this specific document for 2017?
    Secretary Price. That is a work in progress as well, as you 
know.
    Mr. Pocan. Although, I think we have got until the 28th of 
April, which I believe also turns out to be, ironically, the 
100th day of the Trump administration. So hopefully we don't 
have a shutdown on that date.
    On NIH, another question, you voted for the 21st Century 
Cures Act where we finally put some additional money in NIH, So 
I know you were supportive of that, correct, when you were in 
Congress. Now there looks like a $5.8 billion cut for 2018, I 
guess, maybe on top of the $1.2 billion in 2017 that you are 
supporting.
    Our problem is you just mentioned the overhead and indirect 
costs, I guess, indirect costs. What are some of those costs 
that are the indirect costs, the 30 percent that you are trying 
to address?
    Secretary Price. When a grant is awarded--30 percent of 
those moneys go for the facility, they may go for 
administration, they may go for all sorts of things at the 
either university or study center, research center, that don't 
have to deal with the specific research being done.
    Mr. Pocan. If I could, I would love to offer an invitation 
as well to come to Wisconsin. You might want to wait another 
month or so until the weather gets better. But I am sure 
Senator Johnson and Senator Baldwin would welcome this invite 
as well.
    We are studying right now with a lot of NIH money 
everything from flu viruses to Zika, diabetes, heart disease, 
colon and lung cancer, skin replacement, Ebola, opioid abuse, 
everything. We are doing a lot of work because we have a world 
class research university.
    Also you mentioned the need for new researchers. I think, 
when I have talked to folks around some of these costs, they 
are afraid no matter what they are going to see less money 
going for the very cures that we just voted for, you and I, in 
the 21st Century Cures Act. So I would just like to extend that 
invitation, if you get a chance, because we have got some 
amazing stuff happening in Wisconsin, and I would love for you 
to see that firsthand.
    Secretary Price. Good cheese as well.
    Mr. Pocan. Amazing cheese as well.
    Drug importation. I talked to you a little on the phone 
yesterday about this. So, again, the President said that he was 
going to remove barriers for entries into the country, and 
talked about other concerns he had around the high cost of 
prescription drugs.
    I guess if you look at the prices of drugs in other 
countries, and Ireland in particular is one that I looked at 
very closely, in Canada, for example, you can pay $257 for an 
arthritis drug that in America costs $1,126 and it is 28 times 
cheaper in Ireland for the same drug. Do you think that is fair 
for the American people?
    Secretary Price. Well, I think you have to get to the root 
causes of why the costs are up. And the President is committed 
to this, as you well know. He said on multiple occasions that 
he looks forward to working with Democrats and Republicans.
    Mr. Pocan. And I guess, specifically, what is your 
Department doing, from negotiating drug prices or other issues, 
what is your Department doing to try to address those concerns 
the President brought up?
    Secretary Price. We are in the process, with the White 
House, of formulating a strategy to address that. As I said, 
the President has on multiple occasions voiced his commitment 
to making certain that we do as a Nation have a strategy to 
bring those prices down.
    Mr. Pocan. I would volunteer to be one Democrat to try to 
help on this side if you are looking for some advice and 
suggestions along the way.
    Secretary Price. There are a lot of folks on both sides of 
the aisle who have concerns about this, as you well know.
    Mr. Pocan. Thank you very much.
    Secretary Price. Thank you.
    Mr. Cole. Just so the gentleman knows, the 28th of April is 
also the chairman's birthday. And I am certain that my 
colleagues on both sides of the aisle and the President will 
not allow that to happen on my birthday.
    Ms. DeLauro. Maybe they want you to take a holiday for that 
day, Mr. Chairman.
    Mr. Cole. Absolutely.
    I now go to my good friend, the gentleman from Maryland, 
who has considerable expertise in these areas because of his 
professional background. The gentleman is recognized.
    Mr. Harris. Thank you very much, Mr. Chairman.
    And, Doctor, it is good to see you.
    Secretary Price. Good to see you, Doctor.
    Mr. Harris. It is good to be calling the Secretary of HHS 
doctor. We finally have someone who truly understands health 
policy in a way that is difficult to do if you haven't 
delivered care to patients.
    Let me just dispense very quickly with something about the 
American Health Care Act, the CBO scoring. A lot of it is 
unintelligible, but they assumed all regulations stay in place. 
I mean, they assumed only the statutory change. Is that 
correct?
    Secretary Price. They just were scoring the first--that 
first piece of legislation.
    Mr. Harris. Right. And in fact the Secretary--and we know 
because there are thousands of times in the ACA that it said 
the Secretary shall, the Secretary will, whatever--that you 
have--you do have--and this could be a very short yes or no--
you do have the ability to make regulatory changes that would 
dramatically lower the costs of insurance for Americans.
    Secretary Price. Fourteen hundred and forty-two times the 
ACA said the Secretary shall or the Secretary may.
    Mr. Harris. And the CBO took no account of that at all in 
their scoring.
    Secretary Price. I don't know their methodology, but I 
don't believe so.
    Mr. Harris. Right. That is what I thought.
    OK. Let me get over to the NIH. Obviously, we are all very 
interested in the NIH. But you bring up the issue of indirect 
costs, which is interesting. I have had NIH grants. I know how 
it is done. Are you aware that when the American Lung 
Association issues a grant, research grant to a researcher at 
Hopkins or somewhere else, they pay no indirect costs? They 
don't allow them? The American Heart Association, maximum 10 
percent. Alzheimer's Association, we have people in the room, 
10 percent. Bill and Melinda Gates Foundation, 10 percent. That 
is it. Robert Wood Johnson Foundation, they are really 
generous, 12 percent.
    And yet the NIH, on taxpayer dollars, are allowing grants 
to go out at much, much higher indirect costs. You don't have 
to answer. I would just make the comment it is very interesting 
that the private sector doesn't hold these indirect costs to be 
so valuable as to pay them, but when the taxpayer dollar's 
involved somehow we do.
    And you are right, the indirect cost total for last year 
was $6.4 billion. Actually, if we just issued our grants with 
American Lung Association rules we could actually fund more 
research than we do now with the President's skinny budget 
proposal of a $5.8 billion cut.
    Anyway, let me move on, because you are also in charge of 
the Medicaid program in HHS, and Medicaid is a broken system. 
Anybody who is in the practice of medicine knows Medicaid is a 
totally broken system. In fact, you are aware, I assume, of the 
Oregon experiment paper published in the New England Journal of 
Medicine 2013, this is the premier medical journal, that showed 
that actually when you enrolled people in these Medicaid 
expansions, that one in Oregon, on a lottery basis, randomized 
is great, you couldn't design a study that well, showed that 
there was actually no difference in outcome with diabetes, 
hypertension. It was pretty stunning, actually. It actually 
testified as to how broken our concept of Medicaid as a 
solution for the American people is.
    Beyond that, if you go to the OMB website, I guess it is 
called the paymentaccuracy.gov, it shows that the improper 
payments in the Medicaid program last year on total payments of 
$346 billion were $36 billion, $36 billion of improper payments 
in a program that scientifically has shown doesn't even help 
people very--it really doesn't help their health outcome very 
much. And Medicare similarly, $41 billion improper payments.
    We were promised when the Affordable Care Act was passed, 
and I always remember this: Oh, part of the payment is we are 
going to eliminate waste, fraud, and abuse in Medicare. Last 
year we had $41 billion in Medicare.
    As Secretary, do you commit to us that as we commit funds 
to the Department that the Department is going to take a real 
hard look at how we--just between those two programs it is $77 
billion--I am sorry, it is--if you include Medicare, yeah, it 
is $77 billion, if you put Medicare Advantage in there it is 
$90 billion--commit to us that you are going to take a real 
hard look at those issues?
    Secretary Price. Absolutely. It is one of our priorities, 
is to try to find the waste and abuse that exists. And in fact, 
as you well know, in the Medicare program, for every dollar 
that is spent on trying to detect fraud and abuse there is a 
$12 return on every single dollar that is spent. So this is an 
area where we believe there is some significant savings that 
can be had.
    Mr. Harris. It seems like a good idea.
    And just finally, I just hope that you over on the FDA 
side, the menu labeling rule is an issue, it is a constant 
issue, please take a look at it. Small-business owners come to 
me every day with issues.
    So thank you very much. I yield back, Mr. Chairman.
    Mr. Cole. I thank the gentleman. And again just want to 
remind the gentleman I too am a doctor, I am just not the kind 
of doctor that can help you.
    With that, I want to go to the gentlelady from 
Massachusetts. Before I do, I want to say she may be the 
smartest member of this committee, because she was kind enough 
to send me two extra tickets to the President's inauguration. 
So probably in higher demand in Oklahoma than Massachusetts, 
but the gesture was very much appreciated.
    Ms. Clark. We are always pleased to help you. And thank 
you, Mr. Chairman, thank you, Ranking Member DeLauro, thank 
you, Mr. Price, for being here with us today. Thank you for 
your call. I am sorry I was unable to connect with you before 
this hearing, but I appreciate it.
    Secretary, a topic that keeps coming up, and I share your 
characterization of the scourge of this opiate crisis as 
heartbreaking. That is what it is. The families in my district, 
across this country, this is an issue that doesn't care if it 
is a red State, blue State, what level of education attainment 
you have, how much money is in your bank account, it is an 
equal opportunity killer.
    But it also ties into the Affordable Care Act and the 
mandates because, as you know, addiction treatment was one of 
the 10 essential benefits that were covered by the Affordable 
Care Act, that mandated that insurance companies cover 
treatment. And what has that meant? That has meant this 
provision has helped 2.8 million people with drug use disorders 
get the treatment that they need.
    And if we repeal that provision, that would take out at 
least $5.5 billion annually from the treatment of low-income 
people with mental and substance abuse disorders. The number 
that you used of 52,000 overdoses is even higher than the 
numbers that I have seen of 32,000 deaths a year from 
overdoses. This is a staggering impact on our country.
    Will you support mandated coverage for addiction treatment?
    Secretary Price. Just to clarify, the 52,000 is deaths from 
all overdoses, not just opioids, and then 33,000 or 32,000 from 
opioids. And the numbers are--I mean, it is an upward spike. 
This hasn't been flat, it is an awful scourge.
    Ms. Clark. That is right.
    Secretary Price. This is remarkably important, is to make 
certain that we have treatment available for folks, and that is 
why we are going to make it a priority.
    I am struck, however, by the 20 million individuals who 
don't have any coverage at all through the ACA, and I believe 
that there are reasons for that. They either took the penalty 
or asked for a waiver.
    And I would suggest, respectfully, that we ought to look at 
why that is. Why is it that 20 million Americans say, ``No 
thanks, I don't want that coverage,'' even though it is 
mandated, even though there is a penalty for it?
    So I would hope that we could work together and fashion a 
program that would attract those individuals to get the kind of 
coverage that they want for themselves and for their families.
    Ms. Clark. And I would be delighted to work with you on 
that. But I would like to know specifically, do you support a 
mandate for insurance coverage for treatment?
    Secretary Price. What I believe and what we believe is that 
every single American needs access to the kind of coverage that 
they want for themselves.
    Ms. Clark. But do you support mandating it? That is the law 
under the ACA. Do you support that mandate?
    Secretary Price. We support the ability for every single 
American to have access to the kind of coverage that they want.
    Ms. Clark. Can you answer me specifically, yes or no, do 
you support a mandate that insurance companies cover addiction 
treatment?
    Secretary Price. It is not a yes-or-no question, as I 
mentioned to one of the----
    Ms. Clark. It actually is.
    Secretary Price. No, because the answer to is that we 
believe that it is absolutely vital that every single American 
have access to the coverage that they want for themselves, not 
what the government forces them to buy.
    Ms. Clark. So I am going to take that as a no, because you 
either support a mandate or you don't. And there are certainly 
ways that we can increase coverage.
    But if you don't support a mandate and you are concerned 
about people who even with mandated coverage have chosen not to 
avail themselves of treatment, how would you answer the 
question to the families at home who are ravaged by opiate 
addiction that at that point in time then they will go out and 
seek from a menu item of insurance treatment and try and buy 
themselves coverage? Is that what you envision?
    Secretary Price. There are certainly other ways to provide 
coverage and care for folks that don't require the Federal 
Government to dictate to people what they must purchase.
    Ms. Clark. So do you see the mandate for addiction 
treatment coverage as dictating to people what they must buy? 
Do you see those as equivalencies? That is a yes or no. Do you 
see that as an equivalency?
    Secretary Price. No, that is not a yes or no. When the 
Federal Government decides exactly what coverage you must 
purchase, then it is deciding what coverage you may not 
purchase.
    Ms. Clark. So you would see that the mandate that we have 
under the current Affordable Care to insurance companies that 
they cover addiction treatment, that that is somehow limiting 
people's options. Is that right?
    Secretary Price. As I said, what we believe is that every 
single American needs to have the opportunity and be able to 
afford the kind of coverage that they seek for themselves and 
for their families.
    Ms. Clark. So will you protect access and Medicaid funding 
levels to ensure that those people do not lose their access to 
substance abuse disorder treatment?
    Secretary Price. Substance abuse and addiction treatment is 
absolutely a priority. But as you heard from Dr. Harris, the 
Medicaid program is woefully broken. When I talk to my former 
colleagues as a physician, they tell me that it is virtually 
impossible for them to care for individuals in the Medicaid 
system.
    You have a third of the physicians in this country who 
ought to be caring for Medicaid patients, but don't. And it is 
not because they don't want to see them, it is because the 
system is terribly broken and making it so that they can't.
    Ms. Clark. Well, I don't see how we are going to improve 
that system.
    I do want to ask you one more question.
    Mr. Cole. The gentlelady's time has expired.
    Ms. Clark. All right. I will get you on the second round. 
Thank you.
    Mr. Cole. I thank the gentlelady.
    Next we go to the gentlelady from the State of Washington, 
Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    And thank you for being here.
    Secretary Price. Good to see you.
    Ms. Herrera Beutler. Great to see you. And thank you for 
all your work. I can only imagine, even with your background as 
a physician and your background in Congress and caring for 
folks, it has to be a bit a like drinking from a fire hose. We 
appreciate it very much.
    Secretary Price. Thank you.
    Ms. Herrera Beutler. A couple things. You know, every year 
about four million women in the U.S. give birth, and more than 
three million breast-feed their infants. Nearly all of these 
women take a medication or receive a vaccine while pregnant or 
breast-feeding, or it is recommended. Pregnant women with 
chronic conditions such as asthma, epilepsy, diabetes, 
hypertension, and depression are faced with very difficult 
decisions, whether to take a medication that they have no 
information or background on or whether just to fight through 
whatever their condition is.
    I worked with a number of folks to get included in the 21st 
Century Cures bill language around a task force at NIH, asking 
them to examine the gaps in knowledge around safe medications 
for pregnant and nursing women, and the National Institute of 
Child and Health Development has already begun implementing 
this task force. Expectant moms and their healthcare providers 
need more data and information in order to make informed 
treatment decisions, and they need it yesterday.
    I just wanted to bring this to your attention and ask for 
your help in prioritizing this as we move forward.
    Secretary Price. Absolutely. This is one of those areas 
where people assume that the data exists, but in fact it 
doesn't, and the kinds of studies that are so necessary to make 
certain that moms and families know that something is either 
safe or not so that they can make an informed decision.
    Ms. Herrera Beutler. Thank you.
    On to a different one. Every year thousands of Americans 
donate a kidney or a portion of their lung or liver or pancreas 
or intestine to save the lives of a family member, friends, or 
even total strangers. Organ donation does save lives. And I 
have introduced the Living Donor Protection Act with 
Congressman Nadler.
    And it was remarkable to me, as I sat and listened through 
some of these statistics, there are about 118,000 people on the 
transplant wait list, 99,000 of them need a kidney. And 
everybody has two kidneys--well, almost everybody has two 
kidneys. It is one of those things that we could--right now I 
think it is about 1 in 12--or 12 people die a day waiting for 
that. Every 10 minutes we add people to that list.
    And this is something that we are having--part of the 
reason we introduced the Living Donor Protection Act was 
because what we have seen in some instances is insurance 
companies will discriminate against someone who has given an 
organ when they don't realize in order to give an organ you 
have to be the creme de la creme, the most healthy, tiptop. 
Everything has to be working well before you would be even 
allowed to be considered. Yet companies will discriminate 
against them.
    So we are trying to get some of those things fixed and 
addressed, but I wanted to raise it to you. What I was looking 
at, some of the numbers I have seen, kidney disease is the 
ninth leading cause of death, in front of breast cancer and 
prostate cancer. In fact, 26 million Americans have it. Most of 
them don't even know.
    So this is going to be a real challenge in our future. We 
want to encourage those folks who can donate to do so. I just 
wanted to raise that to your level as well.
    Secretary Price. Thank you.
    Ms. Herrera Beutler. One more thing, since I have a few 
more moments, and I am going to read it fast. Given the 
unprecedented advances in genetic testing and screens and the 
rapid and widespread application across medicine, which is both 
exciting and terrifying, I am concerned that folks we represent 
will be receiving genetic and genomic tests, like prenatal 
cell-free DNA screenings, without the appropriate pre- and 
post-genetic counseling.
    Oftentimes these tests can mean different things. Even 
though they are advertised as one thing, the information that 
is given out isn't always given out accurately with all the 
drawbacks.
    And I wanted to ask, and I have a bill on this, but I 
wanted to ask your view on this issue and the importance of 
making sure there are accurate genetic counselors to ensure 
that patients and physicians get the benefits of this genetic 
and genomic testing or screening and they are aware of the 
pitfalls, because people make decisions based on these tests.
    Secretary Price. It is really important, and it is 
important that the individuals conveying the information are 
knowledgeable, because sometimes there are specific answers 
that can be provided about the risks or the consequences of the 
results of the test, sometimes there is not. And you need to be 
able to treat that with compassion and knowledge as well.
    Ms. Herrera Beutler. Absolutely. Well, with that, I will 
yield back the balance of my time.
    Mr. Cole. Wow. You win gold stars. And you always do.
    Again, just in order of arrival, to make sure everybody has 
an opportunity for a round of questioning, my good friend, the 
gentleman from Tennessee, is recognized for his questions.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    And, Secretary Price, I know you will appreciate this, 
having been a great Member of this austere body. I was delayed 
this morning because I was asked to preside as Speaker pro tem 
at the last moment. So I apologize for being here a little bit 
later.
    But let me echo the plaudits of the people on this dais 
when I say congratulations on your appointment as Secretary. 
Thank you for your service not only in this House, but to the 
administration and to our country. It is a very difficult time 
in this Nation and health care is a very complex issue. You 
have got my full support. And again, profound thanks, sir.
    Secretary Price. Thank you.
    Mr. Fleischmann. If I may begin, I actually have a 
nonappropriations question to start off with, and it is 
regarding an issue for Federal drug testing programs, sir.
    The Department of Transportation requires trucking 
companies to follow HHS guidelines when screening truck drivers 
for drug use. It is my understanding that SAMHSA has been 
working on developing guidelines for hair testing as a 
federally accepted method for several years, and Congress 
strongly endorsed an accelerated development of these 
guidelines in the FAST Act. It has been over a year, and SAMHSA 
still has not produced these guidelines.
    I wanted to make sure that you were aware of this, sir, as 
the completion of these guidelines will greatly improve truck 
safety; and secondly, would like to know if you might have any 
insight as to when we might expect them to be completed.
    Secretary Price. I appreciate the question, and I learned 
of this yesterday. I wasn't aware that that work was going on, 
and I appreciate the focus on it. We are looking into that, and 
I will get back to you on the specifics of when you might 
anticipate an answer.
    Mr. Fleischmann. Thank you, sir.
    Earlier, you were kind enough to answer a question for my 
dear friend and colleague Mr. Moolenaar, but I would just like 
to revisit that, if I may.
    Mr. Secretary, as you know, HHS leads Federal preparedness 
and response activities for public health emergencies, 
including the development, stockpiling, and distribution of 
medical countermeasures like vaccines and treatments for 
national security threats.
    For the last decade, the Biomedical Advanced Research and 
Development Authority, BARDA, and Project BioShield SRF, have 
successfully partnered with biopharmaceutical manufacturers to 
develop and stockpile products to protect Americans from the 
most urgent threats we face, like anthrax, smallpox, Ebola, and 
now Zika. Funding for BARDA and BioShield has been consistently 
supported by members on both sides of this committee for more 
than a decade. I am glad to see that you have been a longtime 
supporter of BARDA's critical mission.
    Unfortunately, the previous administration, I would argue, 
did not prioritize BARDA and the development of medical 
countermeasures at HHS. Can you commit to ensuring BARDA has 
the resources it needs to continue this critical mission moving 
forward, sir?
    Secretary Price. This is an absolute priority, to make 
certain, as I mentioned before, the American people expect us 
to be prepared and be able to respond in the event of a 
challenge, especially in bioterror areas. So it is an absolute 
priority of the Department.
    Mr. Fleischmann. Thank you, sir.
    My final question, Secretary Price, the National Academy of 
Sciences reported there is a declining number of research 
grants awarded to early investigators, a rise in the age of 
grant recipients, and a suggestion that there may be a research 
brain drain. Last year, more than twice as many RO1s, the NIH 
leading grant, are awarded to principal investigators who are 
over 65 than those who are under 36. This is a total reversal 
from only 15 years ago.
    Currently, the NIH RO1 grant applications work against 
young scientists because they don't have the preliminary data 
to support their application. Young researchers cannot get the 
preliminary data without significant funding, creating a catch-
22 for the young investigators.
    With these concerns in mind, do you have any input on how 
we can empower and encourage the next generation of researchers 
to keep their talents going toward American scientific 
innovation?
    Secretary Price. This is really imperative because there 
has been a flip in terms of the age of the grantee, and we need 
to get to the bottom of that. I don't have an answer as to why 
that has occurred, but we are looking at that and will continue 
to look at that so that we can indeed address it. Because these 
young scientists, we want them to remain here and be able to 
use their talents for the benefit of all.
    Mr. Fleischmann. Thank you, Mr. Secretary. I believe my 
time is up. Again, I wish you every success in your endeavors, 
sir.
    Mr. Cole. I thank the gentleman.
    The chair has an announcement. The Secretary has a hard 
stop at noon. He has another meeting that I know he has to 
attend. So I want to guarantee him.
    You are free to get up if we are in the middle of a 
question, but I won't let that happen. But I know he has to go 
at noon. So in deference, to try and get in as many people as 
possible, we are going to move to a 2-minute question, if we 
may, and I am going to ask folks to adhere to that.
    The one exception I will make is we have a member that was 
here, and if they get back then they will get their 5 minutes 
in the same way all of us had an opportunity to ask 5 minutes. 
And I think I am actually next up, right? OK. So my 2 minutes, 
and I will hold myself to this, Mr. Secretary.
    Number one, thank you very much for taking the time 
yesterday to meet with Chairman Calvert and myself about the 
Indian Health Service. Not our direct responsibility on this 
subcommittee, but it is part of your Department. I do sit on 
the subcommittee at Interior that my friend Mr. Calvert chairs, 
and that is important here too.
    As you are aware, American Indians, Alaska Natives continue 
to live with health disparities greater than any other racial 
or ethnic group, with a life expectancy literally 4-1/2 years 
less than other Americans. In fact, in some States like 
Montana, American Indian men have a life expectancy of 20 years 
less than their white counterparts.
    I know you haven't had an opportunity to flesh out your 
budget here, but I want to know how you expect your budget 
request, hopefully, to help the Indian Health Service and other 
HHS operating divisions to address health disparities in Indian 
country.
    Secretary Price. I thank the chairman, and you have been 
such a champion on this. This is one of those areas where, as I 
learn more and more, it is readily apparent to me that the 
kinds of work that we must do has to increase in the Indian 
Health Service to make certain that we decrease those 
disparities, but also are looking at the things that actually 
mean something, that is the outcomes.
    I was struck yesterday during our meeting with the graph 
that you all shared with the per capita amount of resources, 
Federal tax resources that are going to the Indian Health 
Service as compared to Medicare, Medicaid, and other Federal 
health programs. And it is just very clear to me that this 
needs to be a focus. It is a focus. It is a priority of the 
Department to make certain that we move in a positive way to 
address the real challenges that are in the Indian community.
    Mr. Cole. I thank the gentleman, and I look forward to 
working with him on that issue.
    With that, I go to my good friend, the ranking member.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Secretary, quick, because I only have 2 minutes. Yes-
or-no answers.
    Do you support the elimination of LIHEAP, yes or no? Move. 
I don't have time. Do you support the elimination of LIHEAP?
    Secretary Price. The responsibility of the Department is to 
make certain----
    Ms. DeLauro. Do you support the elimination of LIHEAP, yes 
or no?
    Secretary Price. The responsibility of the Department is to 
make certain that the needs of the American people are met.
    Ms. DeLauro. So you support the elimination of LIHEAP.
    Elimination of CSBG, yes or no?
    Secretary Price. What we are trying to do is to identify 
those areas----
    Ms. DeLauro. Yes or no, elimination of Community Services 
Block Grant?
    Secretary Price [continuing]. And that there are other--
where there are partnerships that might be available to----
    Ms. DeLauro. No. OK.
    NIH. The $1.2 billion Mr. Pocan spoke about, do you support 
that? If your staff was looking at it, you must have been 
involved in that decision to go an additional $1.2 billion in a 
cut to the NIH in 2017. In 2018, do you support the $6 billion 
cut to the NIH?
    Secretary Price. I think it has been very clear in the 
remarks that have been had both by me and by others on the 
panel or by others on the committee----
    Ms. DeLauro. It is a $6 billion cut to the NIH. Do you 
support it or no?
    Secretary Price. If there are efficiencies to be gained at 
NIH----
    Ms. DeLauro. So you support a $6 billion cut in the NIH.
    Let me just ask you three or four other questions here. 
Have you divested yourself of all health care-related 
investments, yes or no?
    Secretary Price. As I said to the confirmation committee as 
we moved through that process.
    Ms. DeLauro. Yes or no?
    Secretary Price. And the answer is yes.
    Ms. DeLauro. Thank you.
    Have you fulfilled the terms of the ethics agreement worked 
out with the Office of Government Ethics?
    Secretary Price. Yes.
    Ms. DeLauro. OK. Will you send the subcommittee a letter 
attesting to fulfilling all the elements of your ethics 
agreement?
    Secretary Price. All of that is publicly available.
    Ms. DeLauro. OK. Can we get a copy of that?
    Secretary Price. All publicly available.
    Ms. DeLauro. So we will get it on our own.
    Just in my last 17 seconds, it would appear, Mr. Secretary, 
that one fact, for all those who want to talk about the opioid 
crisis, that in fact if you voted to repeal the Affordable Care 
Act you would have voted to make the opioid crisis worse in 
this Nation.
    You don't believe in insurers covering maternity care, 
pregnancy, newborn care, mental health services, and substance 
abuse treatment, all of which come out of your Department. Mr. 
Secretary, I think you are at the top of doing what Ms. Lee has 
talked about, deconstructing an agency and dismantling health 
care in this country.
    Secretary Price. I would respectfully dispute that 
characterization.
    Ms. DeLauro. I am sure you would.
    Mr. Cole. I want to now go to the gentlelady from Alabama. 
She has a full 5 minutes because this is her first opportunity 
to ask questions to the Secretary.
    The gentlelady is recognized.
    Mrs. Roby. Thank you, Mr. Chairman.
    Hi. So glad to have you here.
    Secretary Price. Good to see you.
    Mrs. Roby. Proud to call you Mr. Secretary.
    Secretary Price. Thank you.
    Mrs. Roby. We are real glad to have you in front of us 
today.
    I want to talk to you about wage index. Hospitals in 
Alabama are facing some acute financial pressure because of 
this healthcare disparity created by this specific Medicare 
regulation and it is adversely impacting Alabama.
    The wage index doesn't get a lot of attention, although it 
should. It is a serious problem for a large number of States, 
and it needs to be addressed. It was created to account for 
geographic differences in wages, and many, including myself, 
believe that it is broken. Hospitals in my home State have been 
punished for operating efficiently, receiving one of the lowest 
Medicare reimbursements in the country because of the flawed 
wage index system.
    So it creates this disparity that effectively punishes 
efficient hospitals in most rural States. In many of these 
States, these hospitals have seen the area wage index levels 
rapidly decreasing over the years, reducing the Medicare 
reimbursements in order to subsidize increases to hospitals in 
a handful of States.
    So, Secretary Price, I really just want to hear from you 
about whether or not you would be willing to work with us to 
repeal this wage index and replace it with a more accurate and 
fair system that would help us relieve some of these financial 
pressures that are placed on so many hospitals, including the 
ones in the great State of Alabama.
    Secretary Price. Yeah, this is really important. As I 
mentioned to another questioner that there are folks who are 
providing care that aren't able to provide care for folks not 
just in the Medicaid program, but in the Medicare program as 
well. And oftentimes it is because of programs, policies, 
formulas that have outlived their usefulness. It is a 
demonstration of the lack of ability of the Federal Government 
to be nimble and flexible, and respond to changes in the market 
so that the patients can be cared for in a better way.
    So we are absolutely committed to working with you and 
others to try to identify the most flexible, the most effective 
way to provide treatment for the patients of not just Alabama, 
but the entire Nation.
    Mrs. Roby. Well, and I appreciate the work of the hospital 
association at the national level, but certainly in our State 
as well, the work that they have done to try to draw some more 
attention to this issue. So I am grateful for any opportunity 
to work with you.
    I understand that this is not going to be necessarily a 
partisan issue as much as it is an issue amongst the States 
because there are winners and losers. And I believe in 
fairness, and I think that there are people that are--States, 
particularly rural States, that are being unnecessarily on the 
losing end of this.
    Just real quickly, I have spoken about in this committee 
many times the achievements of pre-K in my State. So I just 
want to touch on it really quickly. I guess I can skip through 
some of this because my time is running out.
    But can you describe for us in as much detail as you can 
how the President's fiscal year 2018 budget proposal can ensure 
that a new competition will take place under the Preschool 
Development Grants program and your plan for that competition? 
How will the Department support improved collaboration and 
coordination amongst early childhood programs at the State and 
local level through the Preschool Development Grants program to 
better serve low-income kids and families?
    Secretary Price. This is really important as well, and this 
is a work in progress. We look forward to working with you on 
making certain that the resources are there and available.
    There are programs that are effective, there are some that 
aren't effective, and we need to make certain that we are 
providing the resources for those that are indeed effective, 
and that is a commitment that we have.
    Mrs. Roby. Great. Thank you so much.
    Thank you, Mr. Chairman. Good to see you. I yield back.
    Mr. Cole. Thank you for yielding back the extra time.
    The gentlelady from California, Ms. Roybal-Allard, is 
recognized for 2 minutes.
    Ms. Roybal-Allard. Thank you. Given the 2-minute timeline, 
I have redrafted my question so that you can answer it yes or 
no. And this has to do with lead poisoning and the Prevention 
and Public Health Fund.
    The ongoing Flint water crisis and the Exide contamination 
in my own district underscore the severity of public health 
crises posed by lead poisoning in many communities across the 
country. According to the best estimates available, lead 
poisoning impacts approximately half a million U.S. children 
age 1 to 5.
    CDC's National Center for Environmental Health currently 
receives $50 million for lead poisoning made possible by the 
Prevention and Public Health Fund. CDC uses this relatively 
small amount to fund 29 States, D.C., and 5 U.S. cities to 
conduct lead poisoning prevention activities. However, if 
efforts to eliminate the Prevention Fund through ACA repeal are 
successful, CDC would lose 12 percent of their annual budget, 
including all of the lead poisoning prevention funds.
    Given the serious impact of lead poisoning on our children, 
will you protect the Prevention and Public Health Fund and 
expand the CDC's Lead Poisoning Prevention Program to all 50 
States, D.C., and the territories?
    Secretary Price. We need to make sure that we address the 
issue without a doubt. As Flint demonstrated, we need to make 
sure that water is safe to be consumed by the American people, 
and the role that CDC has is significant in that area.
    Ms. Roybal-Allard. But will you protect the Prevention 
Fund? Just a simple yes or no. And I have one more question, 
and I have 28--or now 26 seconds to ask it.
    Secretary Price. I suggest that whatever way we are able to 
accomplish the goal and the mission to keep the American people 
safe in this area, we will do that.
    Ms. Roybal-Allard. OK. Will you ensure that the CDC has 
sufficient resources to maintain its critical surveillance and 
prevention activities across the country and around the globe?
    Secretary Price. That is an absolute commitment that we 
have and a goal.
    Ms. Roybal-Allard. Is that a yes?
    Secretary Price. It is our commitment to make certain that 
the CDC can accomplish its core mission.
    Ms. Roybal-Allard. OK. I am afraid it is not a satisfactory 
answer.
    Mr. Cole. With that, we will go to my good friend, the 
gentleman from Maryland. He is recognized for 2 minutes.
    Mr. Harris. Thank you very much.
    And again, a pleasure having you here in front of the 
committee, Dr. Price.
    I am going to go back to the Medicaid issue because it is a 
huge issue. It is the most rapidly growing portion of the 
mandatory side of our budget, as you know. And, you know, again 
that Oregon study published in the New England Journal, 
researchers from Harvard and MIT, those are the two researchers 
that did the study, showed that there was just no outcome 
difference whether someone is on Medicaid.
    In fact, I will read you the letter, because sometimes, you 
know, they publish these and the New England Journal publishes 
letters to the authors. The letter published in the New England 
Journal said--there were four letters. This is from a professor 
at the University of Southern California L.A. Remember these 
assignments were based on lottery, whether or not they got into 
the program or not.
    His conclusion was awarding lottery winners the equivalence 
of cash price prizes worth $6,600 per year--because that is 
what you got, you got $6,600 worth of Medicaid--rather than 
Medicaid might have improved their health outcomes and well-
being even more.
    And if you go into the data in the study, there are only 
four things that they showed a significant difference, is with 
less than 30 percent improvement, cholesterol screening, just 
having a screening, pap smear, mammogram if you are over 50, 
and a PSA test. Added together, that is $200 worth of value. We 
paid $6,600.
    I mean, the fact of the matter is, are you going to--is one 
thing we should put on the table is actually looking at whether 
or not we should allow the people who we put on the Medicaid 
system access to perhaps considering private insurance as an 
alternative?
    Secretary Price. It is an important policy question because 
the Medicaid program, we believe, is broken. There are 
individuals in our society who absolutely need to have coverage 
and care. But if we are not accomplishing, if we are not 
measuring the right things, if all we are looking at is the 
Medicaid program and saying this is how much money we are 
putting into it but not measuring the kind of care that is 
being provided and whether or not folks are actually improving 
their health status within that program, then we are not doing 
a service to the folks that are providing the resources. And we 
are certainly not doing a service to those that are receiving 
the care.
    Mr. Harris. Thank you very much. I yield back.
    Mr. Cole. The gentlelady from California is recognized for 
probably the last 2 minutes.
    Ms. Lee. Thank you, Mr. Chairman. I am going to be very 
quick so my colleagues can----
    Mr. Cole. If we can, then I will.
    Ms. Lee. Thank you, Mr. Chairman.
    As you move, Mr. Secretary, to deconstruct your agency, do 
you support an increase of more than $54 billion for the 
Pentagon by paying for it through cuts at your agency, Health 
and Human Services?
    Secretary Price. I think that it is important to address 
the premise of the question.
    Ms. Lee. No, no, no. Mr. Secretary, just yes or no.
    Secretary Price. No, I am Secretary of Health and Human 
Services and I am charged with a Department of incredibly 
committed people.
    Ms. Lee. So your answer is no, You don't support----
    Secretary Price. What I have the opportunity to work with 
are 76,000 individuals who are as dedicated as they are to 
their mission.
    Ms. Lee. No, Mr. Secretary, do you support increasing the 
military budget by over $54 billion by cuts at your agency?
    Secretary Price. Deconstructing the Department is not a 
goal.
    Ms. Lee. So you don't support it by paying for the increase 
in the Pentagon budget. You don't support the cuts in your 
agency to pay for the $54 billion.
    Secretary Price. I am Secretary of Health and Human 
Services. And if you would like to ask a question about Health 
and Human Services, I would be pleased to answer.
    Ms. Lee. OK. Mr. Secretary, also as you move to deconstruct 
your agency, do you really believe--or do you believe that low-
income people deserve the same access to quality health care as 
upper-income individuals? The same quality health care?
    Secretary Price. That has been an absolute priority of mine 
since the day I entered public--no, since the day I went to 
medical school, is that every single American needs to have 
access to the highest quality of care. And I must take issue 
with you again. It is not the goal of this Secretary to 
deconstruct the Department.
    Ms. Lee. Mr. Secretary, your budget is deconstructing your 
agency by the billions----
    Secretary Price. This Department affects every single 
American, and it is my responsibility to make certain that we 
provide the services in the most effective manner.
    Ms. Lee. But, Mr. Secretary, your budget does not say that. 
It is a road map to deconstructing the entire agency which you 
head.
    Thank you, and I yield my time.
    Mr. Cole. The gentlelady is recognized for what really will 
be the last question.
    Ms. Clark. Thank you very much, Mr. Chairman.
    I want to go back to the budget in the opioid line item. It 
says in your budget there is an increase of $500 million from 
fiscal year 2016. So I want to be clear, that is level funding 
that you are proposing for fiscal year 2018 because we already 
have $500 million in there.
    Secretary Price. I think the $500 million is the $500 
million from the Cures Act. Yes, ma'am.
    Ms. Clark. That is right. So there is no increase, it is 
just level funding. That is correct.
    I want to follow up on the question about the defense 
funding and NIH. As we look at the Alzheimer's folks who are 
here, and we know the scourge that Alzheimer's is, and that it 
is taking one out of five Medicare dollars, why with whatever 
inefficiencies may be at NIH, and we can have a long discussion 
about how we fund our universities and the research partners 
they are and what indirect costs really go to, why would you 
decrease the budget overall?
    Secretary Price. Well, as I mentioned before I believe to 
others, this is a tough budget year. There is no doubt about 
it. And this is an opportunity to----
    Ms. Clark. It returns $60 billion into our economy, never 
mind the good that it can do as far as a win for patients, a 
win for science, and a win for our bottom line.
    Secretary Price. It is an opportunity to focus on those 
kinds of things that will allow us to accomplish the core 
mission and to actually get greater dollars, more dollars to 
the research that must be done in order for us to remain at the 
forefront of----
    Ms. Clark. My final question is Mr. Severino is now the 
head of the Office for Civil Rights for HHS. He opposes the 
implementation of section 1557 of the ACA, which prohibits 
discrimination based on race, color, national origin, age, 
disability, or sex in federally funded programs. Do you support 
those prohibitions on discrimination in health care?
    Secretary Price. As I have said before, we will uphold the 
law of the land.
    Ms. Clark. Thank you.
    Mr. Cole. I thank the panel. I am very appreciative, Mr. 
Secretary, of your time and, frankly, your accessibility to 
members of the committee, your outreach to us before your 
testimony, your willingness to meet. I know a number of my 
colleagues, certainly including me, have had the opportunity to 
sit down with you and your staff. I very much appreciate the 
accessibility as we work together to try and solve our common 
problems.
    And again, I think I express the sentiment for this 
committee, certainly for me, you were a tremendous appointment 
by the President. We know you are going to do a brilliant job 
for the American people. And we look forward to working with 
you every step of the way.
    Secretary Price. Thank you, Mr. Chairman and the committee.
    Mr. Cole. Thank you, Mr. Secretary.
    The hearing is adjourned.
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  
    

                                            Tuesday, April 4, 2017.

          EXAMINING FEDERAL SUPPORT FOR JOB TRAINING PROGRAMS

                               WITNESSES

ZOE BAIRD, CEO AND PRESIDENT, MARKLE FOUNDATION
DOUGLAS J. BESHAROV, PROFESSOR, UNIVERSITY OF MARYLAND SCHOOL OF PUBLIC 
    POLICY; SENIOR FELLOW, ATLANTIC COUNCIL
DEMETRA SMITH NIGHTINGALE, INSTITUTE FELLOW, URBAN INSTITUTE
    Mr. Cole. Good morning.
    It is my pleasure to welcome our witnesses today to the 
Subcommittee on Labor, Health and Human Services, and Education 
to discuss job training programs at the Department of Labor. 
And we look forward, obviously, to hearing all your testimony.
    But before I go any further, I want to recognize my friend 
from Tennessee for the purpose of a quick introduction he 
wanted to make.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    I am privileged to represent the people of the Third 
District of Tennessee. And, as you know, most Members of 
Congress are able to nominate people to our great military 
academies. And this is my seventh year in Congress.
    We have a young man with us today who I was privileged to 
nominate to the United States Air Force Academy, and he was the 
wing commander. The significance of that is: number one in his 
class at the Air Force Academy. And this is Mark Caldwell.
    Ms. DeLauro. Mark, wow.
    [Applause.]
    Mr. Fleischmann. He is from Chattanooga, which is my 
hometown. And he has actually taken his commission in the 
United States Marine Corps, which I found out you can do. So 
the Commandant of the Marine Corps is especially pleased to 
have him; he has told me that.
    But it is good to be with us. And he is going to actually 
shadow me today, and I told him, no better place to come than 
this great subcommittee.
    Thank you.
    Mr. Cole. Man, this is suck-up central this morning. I tell 
you.
    But, with that, let me resume my opening remarks.
    Each year, the Federal Government invests over 
$4,000,000,000 across multiple job training programs at 
Department of Labor with the goal of helping participants 
acquire the knowledge and skills that they need to succeed in 
the labor market, yet millions of Americans continue to 
struggle to find good-paying jobs.
    At the same time, according to current BLS data, there are 
over 5\1/2\ million job openings across the country. We must 
look closely at the results of our Federal investments in job 
training programs so that we can make wise choices moving 
forward about how to maximize the effectiveness of limited 
taxpayer resources.
    I look forward to hearing from our witnesses about what 
works in the job training programs and what barriers exist to 
achieving greater outcomes. And I hope to learn more about how 
this committee can help to improve and better target 
investments in workforce training to ensure that participants 
have access to better jobs and, frankly, that businesses have 
access to employees with skills needed to compete in the global 
market.
    Today, I am pleased to welcome the following witnesses:
    Douglas Besharov is a professor of public policy at the 
University of Maryland and a senior fellow at the Atlantic 
Council. He has conducted several extensive research on 
government policy related to poverty, welfare, children and 
families, and workforce development.
    In 2011, he edited a research volume that assessed job 
training programs authorized under the Workforce Investment 
Act. The book included extensive research and analysis on job 
training programs authorized under the Workforce Investment 
Act, focusing more specifically on program implementation, 
management, and evaluation.
    Demetra Nightingale is a fellow at the Urban Institute. Her 
research focuses on social, economic, and labor policy issues, 
particularly workforce development, job training, and income 
security. Prior to that, she served 5 years as the Chief 
Evaluation Officer at the Department of Labor, leading an 
evidence-based clearinghouse and integrating program evaluation 
activities with performance management to improve program 
results and operational efficiency.
    She is also a professional lecturer at George Washington 
University, teaching graduate courses in program evaluation, 
which integrates evaluation and performance management in the 
context of evidence-based policy.
    Zoe Baird is president and CEO of the Markle Foundation. 
The Markle Foundation leverages information technology to drive 
solutions to some of the Nation's most pressing problems in the 
areas of health, the economy, and national security.
    The foundation's Skillful pilot initiative in Colorado and 
the greater Phoenix area provides a set of online and offline 
tools to connect middle-skill job seekers--those with a high 
school diploma and some college experience but not a 4-year 
degree--with employers, educators, and community coaches so 
they can advance their careers. Skillful focuses on the key 
skills and training needed for each job rather than on degrees 
or certificates.
    As a reminder to the subcommittee members and our 
witnesses, we will abide by the 5-minute rule so that everyone 
will have a chance to present their testimony and ask 
questions.
    I would now like to yield to my good friend, the ranking 
member, the gentlelady from Connecticut.
    Ms. DeLauro. Thank you very much, Mr. Chairman. Thank you 
so much for holding this hearing this morning.
    And I would like to welcome our witnesses and say thank you 
for being here today. I look forward to hearing from each of 
you about what you know works in training our workforce for the 
jobs of the 21st century and what we can do better.
    And, today, we will have the pleasure of hearing about how 
the Markle Foundation is preparing workers for jobs in the 
digital economy through the Skillful initiative, Demetra 
Nightingale's findings on what works in job training, and Doug 
Besharov's perspective on the Workforce Innovation and 
Opportunity Act.
    If you might, just a point of personal privilege. I would 
like to welcome my dear friend Zoe Baird here today. She joined 
Markle as its president in 1998 but after an illustrious career 
as a lawyer and as a public policy expert. And, Mr. Chairman, 
you will appreciate this; she lived in New Haven, Connecticut, 
as well.
    The biggest issue of our time is that too many families are 
not making enough to live on. They are in jobs that just don't 
pay them enough. And, too often, they lack the skills and 
experience to access better jobs and earn family-sustaining 
wages. We need to enact policy that ensures that everyone can 
benefit from economic recovery and that everyone has the 
training they need to get good jobs with fair wages.
    I do not believe the popular national view that wage 
stagnation in America today is the inevitable result of 
globalization and technology. To quote the Nobel Prize-winning 
economist Joseph Stiglitz, ``Inequality is not inevitable; it 
is a choice we make.'' So we need to stop making bad choices. 
We need to rewrite the rules so that workers benefit from a 
growing economy. And job training and workforce development are 
critical areas.
    The advantage for workers with more than a high school 
diploma is clear, but we need to shift our thinking so that we 
do not only focus on degrees but, rather, on in-demand skills 
and credentials that help people get good jobs with fair wages.
    In many cases, work-based learning and apprenticeship 
programs are equipping workers with lucrative skills. 
Innovative approaches like boot camps are also showing promise. 
But while we promote these programs, I do want to issue a word 
of warning against predatory practices of for-profit 
institutions. Our government needs to do more to rout out bad 
actors.
    According to Mathematica, findings from a rigorous national 
evaluation of services provided at American Job Centers through 
the Adult and Dislocated Worker programs show that, quote, 
``intensive services, staff assistance with finding and keeping 
a job not only help people find a job but also lead to higher 
earnings.''
    The fact is, by 2020, two out of three jobs will require 
education and training beyond the high school level. It is up 
to us to use our resources to meet this need. We cannot be 
caught mid-stride. It is critical for our competitiveness, for 
our leadership in global innovation to have a pipeline of 
skilled workers. That means we need to have a public workforce 
development system that adapts to businesses' changing needs.
    The Federal Government has long played a key role in 
helping American workers learn and grow through workforce 
development and connecting businesses with talent. Most 
recently, Congress enacted the bipartisan Workforce Innovation 
and Opportunity Act of 2014, the law that oversees more than a 
dozen programs serving 15 million Americans each year. These 
changes enable programs to better meet the needs of job 
seekers, of workers, and employers.
    Through this subcommittee, we have been able to make 
important investments in job training that we know work. In 
2016, we included an increase of $86,000,000 for State job 
training programs under WIOA, for a total of $2,700,000,000, 
and invested $90,000,000 for the first ever Federal 
appropriation to expand the apprenticeship model throughout the 
country.
    The 2017 budget, at the moment, the Senate has put in 
$100,000,000 for this program; the House has put in zero. My 
hope is that, when it is all sorted out and worked out, that we 
will have, I dare say, at least level funding of this program, 
but I would like to see us have more funding for the program.
    A recent U.S. Conference of Mayors report found for every 
dollar spent through WIOA State grants there is a $1.72 return 
on investment from Federal taxes on wages and savings on TANF.
    Apprenticeships have a solid return on investment. Nearly 9 
out of 10 apprentices are employed after completing their 
programs, with an average starting wage of over $60,000. 
However, at 450,000, the current number of apprenticeships 
represents only a sliver of the labor force. To be at the same 
level as Great Britain, we would need six times--six times--as 
many apprentices. We would need 16 times the apprentices to be 
on par with Germany.
    So our outlook on workforce development is by no means 
rosy. There are many opportunities we are missing. When 
compared to 2010, workforce programs have actually been cut by 
18 percent, adjusting for inflation. To make matters worse, the 
administration's budget proposes to cut workforce programs by 
an estimated 35 percent. This would decimate job training 
programs, hamper our progress in more ways than one. American 
workers would be boxed out of the middle class and would lose 
out on advancement, while globally our competitiveness would 
suffer serious consequences.
    If we were serious about job training, we would be making 
investments like we did through the TAACCCT program, which 
provided $2,000,000,000 to more than half of all community 
colleges. That program has supported partnerships with 2,500 
employers in all 50 States, served more than 400,000 
participants, who have earned 240,000 in-demand credentials to 
date.
    We can't turn our back on providing the unemployed and 
underemployed citizens with the services that they need to find 
a job. These are the people that we were elected to represent.
    The chairman has heard me say this many times, but I think 
it bears repeating: You cannot do more with less; you can only 
do less with less. When the future of American jobs and wages 
are on the line, we should all be invested in doing more. We 
need to look to the future to where the Federal Government can 
play a role. If we are serious about expanding evidence-based 
programs, we need to do more than just scratch the surface.
    The challenges are great, which is why our conversation 
today is so critical. So I look forward to your testimony this 
morning.
    Thank you.
    Mr. Cole. I thank the gentlelady.
    Before we go to our witnesses, I certainly want to go to 
the ranking member of the full committee, partly out of just 
respect for her rank and importance, but mostly because she is 
more faithful in her attendance on this subcommittee than any 
other of the members.
    So, with that, I want to recognize the gentlelady from New 
York.
    Mrs. Lowey. And I want to thank Chairman Cole for your kind 
words and for your leadership on this committee and my good 
friend, Ranking Member DeLauro, for holding this very important 
hearing.
    And I want to thank all our distinguished panelists for 
joining us here today.
    For most of our history, the ability to learn a skill has 
been the ticket to the middle class. With nearly 6 million jobs 
open nationwide--6 million jobs open nationwide--it should be a 
priority of our government to invest in apprenticeships and 
other job training programs that allow hardworking Americans to 
gain the skills to have a fair shot at the American Dream.
    Unfortunately, the Trump administration does not appear to 
share this attitude. Its budget framework would result in 
slashing workforce innovation and opportunity grants to States 
by as much as 35 percent, which would result in the loss of 
training services for 2.7 million Americans, including more 
than 450,000 New Yorkers. These cuts would close the door on 
Americans who are learning the skills to earn a better life. 
Sadly, this is just another broken promise by the Trump 
administration.
    We know that evidence-based training, including initiatives 
that match workers to good and open jobs, can be a great 
success. And I have seen this in my district. I was proud to 
help secure a $9,800,000 U.S. Department of Labor grant to fund 
the workforce academy that trains workers with skills to match 
open jobs in health care and information technology.
    I was really surprised to learn in my many meetings with 
employers in my district that there are thousands, just in my 
district, of unfilled positions in health care and IT thousands 
of jobs, and they can't find people with the skills to take 
that job. With the right tools and the use of public-private 
partnerships, such as the workforce academy, we can fill these 
positions, create jobs, and strengthen the economy.
    Rather than put these investments on the chopping block, I 
think it is time to--and I know we can--work together to 
support job training programs that are making a difference in 
our community.
    Thank you, Mr. Chairman.
    Mr. Cole. I thank the gentlelady.
    And now let's go to our witnesses, if we could.
    Mr. Besharov, we will start with you.
    Mr. Besharov. Thank you very much, Mr. Chairman, Ranking 
Member DeLauro, and members of the subcommittee. Thank you for 
allowing me to testify.
    The chairman has already indicated my affiliations. Let me 
just say that I work at the Atlantic Council, as well as teach 
at the University of Maryland, and at the Atlantic Council we 
work on international competitiveness. And as some of your 
remarks indicate, job training is not just about helping people 
find jobs here; it is making our whole country stronger and 
more vibrant, so there are strong connections.
    My testimony is long and has a lot of footnotes. Apologies 
for being an academic. I want to make three points, and I am 
going to make them kind of quickly so that we can go on with 
the panel.
    A number of you mentioned skills mismatch. I know you are 
familiar with that. I want to focus on skills deficit, which is 
to say: what our workforce doesn't know and what it needs to 
know.
    For decades, the American labor force was the most highly 
trained in the world. There is now a study that is conducted 
regularly by the OECD on the qualities of and knowledge of the 
American workforce. We are slipping down. Our older workers are 
still towards the top. Our younger workers, 19 to 26, are at 
the bottom of the skills level worldwide. They are our future 
workforce. And so, when we worry about skills mismatch, it is 
not just the people who have worked hard for 30 and 40 years 
and now see the economy shifting under them; we have a 
population of very needy people.
    Now, maybe this ought to be a subcommittee on K-12, because 
all the people I am talking about went to school at least for a 
while. But the programs that you supervise are now inheriting 
these people, and they need help in many ways.
    In my testimony, I also describe the mixed evidence about 
existing job training programs. And let me just say, some work, 
some don't work, some work very well. On average, they are not 
doing what we need to do. Let me say that again: On average, we 
do not have a system that fills the needs that we all know 
exist.
    And the results--you see it in the newspapers--we have a 
discouraged labor force; we have people dropping out of the 
labor force; we have people turning--formerly middle-class 
people who have had good jobs turning to drugs and other 
unhealthy behaviors; we know that death rates among this group, 
the prime part of working Americans, are going up. It feels a 
little bit like Russia when you get right down to it. We are 
doing a project on this, and the problems we face are almost as 
large in a demographic point of view.
    I want to tell you about two programs I have visited 
recently, and I want to emphasize that they were in nonprofit 
agencies. Because I don't think the problem is for-profit 
versus nonprofit. I think the problem is supervision, 
management, and incentives.
    I went to this program, and, on one floor, there was a 
program for mainly women who wanted to go from being practical 
nurses to registered nurses. And they--I am sorry, from 
practical--yeah, to registered nurses. Now, the important thing 
about this is they were--the difference in income is $20,000 to 
about $45,000.
    These women spent a year in this program, and they saw 
their incomes go up by $15,000, $18,000. It was almost 
automatic. Don't drop out; you are going to get one of these 
jobs because they are in high demand.
    Not easy. Had to take a year. Many of them had to find 
money for support because, of course, they are in classes so 
they have to not work. Many of them had problems at home 
because their boyfriends or husbands didn't want them becoming 
empowered in this way, but that is another story; ask me about 
it. But they thought it was worth it to get $15,000 more a 
year.
    On another floor, there was a program for auto mechanics. 
The men came in making $9.50 an hour. A year later, they went 
out making $9.50 an hour. The program was out of touch with the 
market that was needed. But they had taken out their loans and 
there were much higher child-support arrears, so they came out 
of that program much worse than they went in.
    I think the challenge for all of us is to build a system 
that makes more of the first kind of program than the second 
kind of program.
    I am happy to take your questions. In my testimony, I talk 
about the fact that I think there should be some supervision 
from government, but we have to get the incentives right for 
public, for private, and nonprofit agencies to work here so 
that they are constantly retooling for the needs of the 
workforce.
    Thank you very much.
    [The information follows:]
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  
    Mr. Cole. I thank the gentleman.
    Ms. Baird, you are recognized for your opening remarks.
    Ms. Baird. Thank you, Mr. Chairman and Ranking Member 
DeLauro. Thank you very much to the full subcommittee for 
having me here today.
    You know, I grew up near Seattle, and my father was a labor 
union official. And I remember, as a little girl, going into 
the union hall and seeing the men retrained when they were in 
between jobs. When they lost a job or they were in between 
assignments, they would come in and get retrained.
    And if you all think back to your parents, in our parents' 
day and before that, most people worked for the same employer 
for their whole career. So if you worked at GE or GM or at an 
auto repair shop, when the tools changed, when the needs 
changed, you were retrained by your employer.
    Today, very few people have the benefit of being retrained 
in the union hall or by their employer. People have 7 to 10 
jobs in their career.
    And if you think back--you are a historian, Mr. Chairman. 
If you think back 100 years ago, when we made this dramatic 
shift from the agricultural economy to the industrial economy, 
we invented the systems, we invented the infrastructure, the 
institutions that people needed to enable them to make that 
shift. We invented the high school. It didn't exist in the 
agricultural economy.
    So, today, we have this challenge of an even more rapid, 
equally disruptive transition from an industrial economy to a 
digital economy, where people have found that the skills that 
they had in jobs, the jobs that they had, have been transformed 
dramatically by automation. They are going to be transformed 
even more by artificial intelligence as we go forward. And we 
haven't really thought about--as my colleague said, we haven't 
really thought about what are the systems people need in order 
to succeed.
    We know that particularly the almost 70 percent of 
Americans who don't have a college diploma, a 4-year college 
diploma, have been thrown off by this economy, but they really 
don't know what the new system is that they can feel part of to 
enable them to see themselves in the digital economy.
    I think this subcommittee all believes that skills are a 
key to this and getting people skills are a key to this. And 
even in a time when people were so divided, in October of last 
year, when we had a completely divided electorate, we did a 
poll with Pew, and we found that 87 percent of Americans 
believed they needed to get skills throughout the course of a 
lifetime in order to have a decent career. Eighty-seven percent 
felt it was essential or important. And that shows us that the 
American people recognize the skills agenda, they know they 
need to get new skills, and they know that it is a lifelong 
process of learning and retraining.
    We also found, though, that 72 percent of Americans 
believed it was their personal responsibility. People feel 
alone; they do not feel supported. Only 35 percent said the 
Federal Government could help them.
    So part of what the subcommittee ought to grapple with is 
what is the role for the Federal Government to enable people to 
become part of the digital economy, and how does that become 
part of the broader possibilities we have now by strong 
businesses, strong nonprofit institutions, strong State and 
local government, which we didn't have, necessarily, when we 
made the transition to the industrial economy.
    So we have tried to see if we could figure out how to 
create the skills-based labor market in Skillful, which we have 
talked about. And we start with the businesses. We got almost 
90 State and local--or small and medium-size businesses in 
Colorado, our first State, to engage with us to identify the 
skills needed.
    We have gotten the workforce centers engaged. Their coaches 
have been critical. We have found that if people have a 
workforce center coach they are much more likely to succeed in 
getting onto a new career path or getting a new job or new 
training.
    We have been working with the educators. LinkedIn is one of 
our partners and has been creating new tools, like the Training 
Finder, to help people find the good training that fits with 
the needs of the businesses. Microsoft is a partner. We have 
the Governor of Colorado all in. And we hope to expand this 
effort to other States because it is beginning to demonstrate 
some real success.
    I have limited time left. I have a number of suggestions 
for particular programs in my testimony. If you will give me 
another minute here, let me just comment on a couple.
    Mr. Cole. We are prepared to be generous to you but not to 
the members of the committee, so----
    Ms. Baird. OK. Well, I won't over extend that, but I 
appreciate it.
    I just want to say that the workforce boards, the local 
workforce boards, are critical to creating strategies that 
appreciate the needs here, and there is a lot you can do to 
help them understand that.
    Professional development for coaches is critical. We have 
done a number of training programs with coaches. We have 
brought them new digital tools. They have a SkillfulCoach.com, 
which is both the State workforce centers, Goodwill, and United 
Way. And they can use a sort of Yelp-like feature to find the 
best technology tools to help job seekers see what the jobs 
look like. We have taken them to LinkedIn and trained them in 
LinkedIn tools. So professional development has really been 
critical for the coaches.
    Connecting in the workforce centers the business side with 
the coaching side for job seekers has proven to be really 
important. We need more funding for training that is tied to 
business needs, business-articulated needs.
    We also need, though, more robust Labor Department data, 
because every small and medium-size business can't do what we 
took people through in Colorado, trying to take an advanced 
manufacturing job or an IT track or a healthcare track and 
figure out what those new position descriptions should look 
like that are based on skills and not based on seat time in an 
educational institution, which just hasn't been working for 
most Americans.
    We also need data transparency. The Federal Government can 
do a tremendous amount if it develops more data, making it 
available, like when we saw weather data used to create all 
kinds of private-sector businesses, including ones that have 
been critical to agriculture. I am sure you are aware of that, 
Mr. Chairman, in your own State, that some of the tools that 
are now available by Monsanto and others for farmers to know 
when to plant crops, what the weather is going to be like in 
anticipation of how they provide fertilizer and everything else 
has come off of Federal Government data. We need that in the 
labor arena, and it really is not robust enough, and it is not 
kept up to date.
    We obviously need more investment in career and technical 
education and apprenticeships. And I would urge the 
subcommittee to look at ways that employers can be incented to 
both train workers more and to deploy these other kinds of 
programs, to work with their local community colleges on career 
and technical ed, to work with apprenticeship programs and seek 
out apprentices.
    So I personally am very optimistic that we have the 
opportunity to transform our labor market so that it serves the 
almost 70 percent of Americans who don't have a 4-year college 
diploma and many of those who do who still can't find good 
jobs. But I think that this committee has a very significant 
responsibility to think about where the Federal Government's 
investments can enable people not to feel on their own but to 
feel that, indeed, the Federal Government is a partner of 
theirs in finding a good future.
    Thank you.
    [The information follows:]
    
          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Mr. Cole. Thank you.
    Dr. Nightingale, you are recognized for any remarks you 
care to make.
    Ms. Nightingale. Thank you very much. And, Chairman Cole, 
Ranking Member DeLauro, and members of the subcommittee, thank 
you so much for allowing me to speak with you today based on 
research and evaluations that have been conducted by me and by 
others over the years and my recent experience as Chief 
Evaluation Officer at the U. S. Department of Labor.
    I must say also my comments are my own. I am not 
representing the Urban Institute or the Labor Department or 
George Washington University.
    I am going to focus on two questions: one, what works in 
job training--again, I am also an optimist--and how might the 
system change under WIOA.
    The Nation's workforce development system is a partnership, 
as you know, of Federal, State, and local governments charged 
with providing employment-related services to both workers and 
businesses through more than 2,000 local offices around the 
country, career centers. And the system operates a free labor 
exchange nationwide, offering job search and job matching 
services and providing access to a range of services, including 
training. As you know, the goal is to help anyone find a job, 
but they are especially focused on the unemployed, the 
underemployed, dislocated workers, and veterans.
    Since established by Congress in 1933, the workforce 
development system has also regularly been called upon to 
mobilize during periods of economic recessions, in areas where 
there is a lot of economic dislocation and high unemployment, 
and sometimes to administer public jobs when it was necessary 
and authorized by Congress; and to retrain workers, like the 
ones that we have heard about already, whose regular 
occupations and industries have disappeared; and to help 
communities that are affected by disasters. So job training is 
just one of many activities that the system provides.
    So what works in job training? I have four points.
    First, training that is connected to work has the most 
positive evidence. Not all training is the same, and not all 
training is effective. The most effective job training is that 
which is connected directly to work, rather than standalone 
training without the link to work. Several evaluations are 
finding positive impacts from work-based models such as 
Registered Apprenticeship, sectoral and career pathway 
training, on-the-job training where employers receive a subsidy 
for a portion of the wages.
    The second point is that counseling and coaching and 
customer-focused career services are important based especially 
on some recent studies. Veterans, for example, especially 
women, who receive assistance from specialized staff in the 
local offices have better employment outcomes than veterans who 
get just general services. Trainees who receive assistance when 
they are trying to make decisions about what training to go 
into do better than those who are just left on their own to 
make their choices.
    And interim results, as Ranking Member DeLauro mentioned, 
from the WIA Gold Standard strongly suggest that those 
individuals who have access to staff-supported services, 
coaching and counseling, intensive services, do better than 
those who just get core services.
    The third point is that comprehensive and integrated models 
work well for youth. We have a number of evaluations that have 
been done for youth. Sometimes the findings are not as positive 
as for adults, but we are beginning to learn more. Youth 
programs with the most positive outcomes are those that have 
comprehensive, integrated services, including education, 
occupational training, counseling, and support services. And 
there are a number of them in my testimony.
    The fourth point is that public investment in training 
appears to fill an important gap, because most training in the 
U.S. is conducted by the private sector, but much of that 
training goes to the midlevel and higher-level employees. So 
the public sector can step in where the private sector does not 
provide as many trainings.
    There are seven ways that one might expect the law to 
improve the system; I am not going to go into all of them. But 
it is much more demand-driven, which is what we would say from 
the research makes sense. Second, WIOA allows more flexibility 
to the State and local governments in service delivery. Third, 
WIOA calls for aligning education, economic development, voc 
rehab, and employment services, along with joint planning and 
reporting. Fourth, the performance accountability system we 
already heard about is much improved. Hopefully, there will be 
improved data. And, finally, a point that is very important is 
that WIOA emphasizes evaluation and evidence to continue to 
build evidence about what works.
    Thank you, and I am happy to answer any questions.
    [The information follows:]
    
    
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Mr. Cole. I want to thank all of you for your testimony and 
thoughtful points that you made.
    Let me begin and pick up actually on something Dr. 
Nightingale mentioned but you all touched on in different ways. 
And I would like to just address this to all three of you, but 
we will start with you, Dr. Nightingale.
    Incentivizing the private sector to make these investments 
is an interesting challenge. And we give tax credits for 
research and development. We have made those permanent 
recently. I don't know why we don't do the same thing where 
workers are concerned.
    My dad was a career Air Force guy, but he was a very 
skilled technician. He worked on airplanes. And then when he 
left, he went to a work to an air depot, largest one in the 
world; continued to do that in Federal employment. All along 
the line, he got training. I mean, they would have breaks and--
because new aircraft were coming or technology changed. He 
started in a prop Air Force and ended in a supersonic jet Air 
Force, and the skills to maintain different planes were very 
different.
    So, you know, they understood the incentive in both the Air 
Force and then the civilian defense establishment of constant 
training. What do we do to get other employers to do exactly 
the same thing, just to invest back in their own people?
    Ms. Nightingale. Well, I would say, you know, we know from 
the research that the majority of the training in the U.S. is 
done by the private sector but that it is not targeted to the 
lower-skilled workers. So there could be incentives.
    We have a range of tax credits for hiring certain workers, 
depending on the economic cycle that we are in. Sometimes 
employers are interested in that, and sometimes they are not. I 
think emphasizing apprenticeships is a way to encourage the 
partnership between the public sector and the private sector to 
invest more in training.
    As Ranking Member DeLauro said, some of the newer research 
that has been done by researchers at Case Western and the 
Department of Commerce are estimating that the return on 
investment from Registered Apprenticeship, which usually will 
be at the lower ends in the job market, pay off to the 
employers within a year or two.
    So we think that there are ways--certainly, other countries 
over the years have had training taxes, a tax pool or a tax 
fund that employers would pay into. But, you know, I think that 
there is more that we could do with tax credits, but it should 
be targeted at the lower end, which is where the businesses are 
not investing now.
    Mr. Cole. Ms. Baird.
    Ms. Baird. You make a critical point, because if employers 
aren't invested in this, the training won't lead to great jobs 
for people and won't achieve any of our objectives.
    You are also probably familiar with the research that has 
shown that almost half of the Nation's employers say they can't 
find the skilled workers they need. So people are aware of the 
problem and are feeling really constrained in their growth 
because they can't find the workers they need.
    I think tax incentives are very much something to look at, 
but I also think that you should consider the possibility of 
using industry associations in communities to provide some of 
the support that employers need.
    If we are going to shift particularly small and medium-size 
businesses, who, as we all know, are the job creators, as I 
said--that is where most new jobs come from. If we are going to 
shift their capacity to hire people based on skills, they are 
going to need support.
    And their local trade associations are a great place to 
start. So, in Colorado, we are working with the Colorado 
Advanced Manufacturing Association. They brought in the 
employers that we worked with and provided support to identify 
the skills that are needed for the jobs.
    And you might say, ``Well, why would employers want to work 
together? They are competing with each other for the same 
jobs.'' But, in fact, most employers recognize that if there is 
a skilled workforce everyone benefits, and they will hire each 
other's workers, but the overall workforce will be stronger.
    In addition, government data is really important for 
businesses to engage more, because they need to know what 
skills the workforce has. They need much more transparency into 
what the educational programs provide. There have been some 
efforts in the country to require--and the State legislatures 
to require educators to make transparent what kinds of jobs 
people go into after they have gone through their programs. We 
need much more transparency like that for job seekers as well 
as for businesses. But for businesses, it will help them know 
which programs to look to to get the workers that they need.
    So there is a great deal that we can do. And I would 
encourage you to think about it in terms of what are the things 
that will cause tipping points in the system. And I think these 
are some of the ones that will.
    Mr. Cole. Mr. Besharov.
    Mr. Besharov. So everyone has made valid points. Let me try 
to take it a slightly different place.
    The question first is, why are these businesses not 
investing as much as they used to in your day? And the reason 
is your dad today would be looking around at other firms to get 
a job and a better paid job. So most economists who look at 
this say the incentive for firms to invest in their own people 
is lower today than it was in the past. Because unless it is a 
very firm-specific skill--how to take apart this particular 
piece of equipment--the more training you give someone, the 
more that person has other opportunities someplace else.
    And that is why, when we talk about the public getting 
involved here, it is to deal with this problem of the lower 
incentive--not a zero incentive, just a lower incentive for 
businesses to be involved.
    The second thing I would say is globalization, for whatever 
else we want to say, puts a damper on the desire of firms to 
train our own people. There are some jobs no American will 
take. We are talking about immigration. So that is 27 percent 
of all American doctors--27 percent of all American doctors 
born and trained abroad. A higher percentage of American nurses 
born and trained abroad. Now, there is a skills mismatch for 
you.
    And that is because we have, in this country--this is 
another problem I want to bring up--a ``wrong pocket problem.'' 
We need our one set of government agencies to train folks; we 
need to invest in medical schools. I am taking an example at 
the extreme. We don't do that. We don't train our people for 
those kinds of jobs, and we have to import them. Think about 
that for IBM and GE and so forth.
    So then the question is, how do you deal with this? How do 
you fix this? If you subsidized the firms the way we are trying 
to do, the first problem you have is you end up buying out all 
the training they are already doing, which is to say they will 
substitute. ``Oh, yes, we will follow this grant, we will file 
for this.'' And we will end up--the Federal Government will end 
up paying for the training that they were already going to 
provide. So you have to get over that hump, as well.
    I think that is why the big movement is what your public 
opinion poll showed. I think the workers----
    Mr. Cole. I am going to have to be strict on me, or I won't 
be able to be strict on anybody else. So, with that, we will 
come back to this topic, but thank you very much.
    The gentlelady from Connecticut is recognized.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And thank all of you.
    Ms. Baird, based on your experience with Skillful, that 
program, you have built a body of knowledge on how to engage 
businesses, what the workforce staff need to be successful and 
place workers in these in-demand jobs.
    I think the issue that Dr. Nightingale made about who is 
being trained is an upper level. From your testimony, we are 
looking at 70 percent of people in the U.S. who do not have a 
college degree. So how do we craft our training to deal with 
this 70 percent? You have a model.
    Let me just ask about--we do business here at the Federal 
level. What should the Federal Government be doing? What is the 
role that we should play?
    I will mention that TAACCCT program, because that got to 
precisely what you were saying. It brought industry and 
community colleges together to develop a curricula that would 
meet their needs. That occurred from 2011 to 2014, with 
$2,000,000,000--$500,000,000 a year--of mandatory dollars. It 
no longer exists. It was not authorized, and we are not quite 
sure where we are going further in how we try to proceed along 
that way.
    Should the Federal Government be playing a role?
    Second, programs that we should be taking to scale. What is 
it where we should put our investment, when we are looking at 
what people talk about here as limited resources? What is best 
to achieve the goal that you have all laid out here, getting at 
those folks with low skills, no college degree, and nowhere to 
go?
    Ms. Baird. Thank you.
    I think it is really important for this committee to 
recognize that for decades we have been telling people, ``Go to 
college, get a 4-year college degree, and you will succeed,'' 
and that for decades has not worked.
    So it is great for people who can get a college degree, and 
it is obviously important that we continue to have a broadly 
educated society, including at the top end. But let's just 
recognize that 70 percent of Americans, almost 70 percent of 
Americans, do not have a college diploma. That has been true 
for decades. So we have been giving them the wrong message.
    But what we can do is to take the resources that we are now 
using and to expand the programs that are acceptable for using 
those resources and to base it not on seat time but on skills 
developed. And if you did just that, the Federal Government 
could be transformative.
    There is much more that needs to be done at the Federal 
level, but if you took the programs for veterans, the Pell 
Grants, the full range of programs that exist and programs like 
the one you mentioned that actually matched employers with 
community colleges, and if the spending of the Federal 
Government was supercharged around this notion that almost 70 
percent of Americans need the entree into the digital economy--
it is urgent. They are feeling despair, and they feel the 
Federal Government is not their partner. And these programs can 
be used to make the Federal Government their partner.
    In addition, the investments in workforce centers that the 
Federal Government makes is critical. That investment ought to 
be focused on making sure that people really understand what 
the growth jobs are in their local communities. Through 
workforce board strategies, it ought to be focused on 
professional development so that the coaches and workforce 
centers are able to use the multiplicity of online tools that 
exist, are able to get access to the best data and information.
    And, in addition, if you have an infrastructure bill, that 
is a place to really look at the training equation. And I 
haven't really heard this discussed much, but we don't today 
have the trained workforce to do the jobs that an 
infrastructure bill would require, let alone the jobs that 
would be needed thereafter as that falls off for people.
    Ms. DeLauro. Tell me, how important was the existence of a 
public structure, the American Job Centers, to Skillful's 
success in Colorado?
    Ms. Baird. In Colorado, both the commitment of the State 
government and the Federal job centers was essential. The fact 
that--I mean, we worked from the bottom up with the coaches as 
well as more broadly, and the fact that those job centers 
existed has been critical.
    Ms. DeLauro. Uh-huh. So if we expanded that model and 
worked in conjunction with a business, industry, et cetera, 
that we could strengthen that, and that would add to the 
ability to take a program like yours----
    Ms. Baird. Right. The Colorado Workforce Development 
Council was really essential, and that integration is really 
important.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Mr. Cole. And thank you.
    Obviously, the demands on the ranking member of the full 
committee are always great, so we always go to her next. She 
may not be able to stay, so the gentlelady is recognized.
    Mrs. Lowey. Thank you very much.
    And I thank you for your testimony.
    I have been a real supporter of apprenticeship programs and 
community colleges, as I mentioned before, because especially 
our hospitals find thousands of jobs that they can fill.
    I don't think I heard and I don't think I read in your 
testimony any reference to vocational education in high school. 
I know we would love everyone to go to college, and every 
parent wants their child to be a doctor or a lawyer, not a 
Congressperson, but----
    Mr. Cole. Especially these days.
    Mrs. Lowey [continuing]. I find it interesting that none of 
you mentioned voc ed programs in high school.
    I know when I talk to a plumber who comes to the house, not 
every youngster has to go to college, even though their parents 
would like them to. And they are having a terrible time, 
whether it is electricians or plumbers, et cetera. And, boy, 
their hourly wage is pretty high.
    Could you comment on that? Do you know successful voc ed 
programs? Could you comment further on apprenticeship programs 
following up on the voc ed----
    Mr. Besharov. So I am a graduate of a vocational high 
school.
    Mrs. Lowey. Where?
    Mr. Besharov. Brooklyn Tech.
    Mrs. Lowey. I went to Bronx Science, but it wasn't a voc 
ed--
    Mr. Besharov. No.
    Mrs. Lowey [continuing]. And neither was Brooklyn Tech.
    Mr. Besharov. Well, we had shop and we had all these other 
things.
    Mrs. Lowey. Well, so did we, but----
    Mr. Besharov. It is a challenge. If you go to some of the 
communities that we are most worried about and you tell them 
that the future for their children is a blue-collar job, they 
are not real happy. So, at the local level, there is a 
challenge for getting school systems to expand voc ed. And it 
is just a real challenge. It is going to require some education 
to say that a lot of plumbers make more money than a lot of 
lawyers.
    So I think that is the challenge. And probably we didn't 
talk about it too much because of your committee's 
jurisdiction, but it is important.
    But I see that Demetra wants to say something.
    Ms. Nightingale. In the interest of time, I skipped over a 
really important piece. Because we do have some very positive 
evidence from career academies, which you also mention. And 
those can run the whole gamut of occupations and industries.
    And we are continuing to test, doing rigorous 
demonstrations to see if new models of career academies, in 
fact, also are showing positive impacts for the young people 
who are going into them.
    So there is a model that could be expanded in its career 
academies, which you also mentioned.
    Mrs. Lowey. But can you tell us more about the career 
academies? Where is it working, and how does it function?
    Ms. Nightingale. Yes. And the other example, which is in 
the trades area, is YouthBuild. And we have some positive 
evidence coming out of rigorous evaluations of the positive 
earnings impact and employment impact for young people who are 
going through YouthBuild, which is all in trades.
    So the career academies, where they have worked with 
particular occupations, whether it has been in manufacturing, 
finance, some in technology, health care over the years, at the 
Labor Department they are currently evaluating several models 
that partner with high schools and training institutions to 
continue after high school, if necessary, to move into those 
occupations.
    So there are reports, and I would be happy to send you some 
material from those.
    Mrs. Lowey. I really would--yes?
    Ms. Baird. I was just going to add very briefly, I agree 
that Youth Build is a model really worth looking at. And they 
are looking also at how to move from construction to digital 
economy jobs, which I think is important.
    In addition, in Colorado, they have begun an apprenticeship 
program based on the Swiss model, and it is very, very 
interesting. The employers are committing to take apprentices 
for 3 years, a 3-year commitment. And the students are in high 
school part of the week, in job part of the week, and then they 
go into the community college for the other part of their 
training as they move out of high school.
    And it really is looking very promising. And there are some 
companies, like Pinnacle Insurance, which has taken 20 
apprentices. You know, so some companies are really throwing 
themselves into this as a way of trying to see if they can find 
an alternative career path for young people.
    And the more we have these kinds of programs and the more 
we are able to make the data transparent--again, the Labor 
Department data being really important--the more we will be 
able to create equal dignity and respect for these other 
pathways, to the point being made about how much money people 
can make on these other pathways.
    Mrs. Lowey. Thank you.
    And thank you, Mr. Chairman. Maybe we will take a field 
trip to Colorado.
    Ms. Baird. Great.
    Mr. Cole. There are worse places to go.
    With that, based on the order of arrival, the gentleman 
from Tennessee is next up.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    And I wish to thank this distinguished panel today for 
coming before us.
    A few years ago, I realized that our great State, 
Tennessee, was booming. We were attracting new businesses. We 
were retaining businesses. It was growing rapidly. And I heard 
time and time again from employers that we have hundreds, if 
not thousands, of jobs to fill, and we can't fill them. So I 
sat down with my staff, and I said, how do we address this in 
terms of workforce development?
    And it was one of the most important endeavors, I think, I 
have taken on in my congressional career. And I have some 
questions in that regard, but a few things that I think we all 
can learn from:
    First and foremost, I think when we go into a vocational 
school, I think it is important to recognize the men and women 
who have these outstanding skill sets.
    I sat with a gentleman after he showed me how to change 
rotors and change oil, and I told him that I was just so 
impressed with his skill level. And he told me--he was in his 
20s--no one had ever taken the time to tell him that he was 
special and that he had a great skill. But he did, and he does.
    And these schools have 90-plus percentage employment 
success. So I think it starts then. And, as Members, we go back 
and we talk at their graduations and things like that. So make 
sure that we give the proper praise to these men and women 
because their skill set is so important.
    The other thing we need to do is get everyone in the room. 
We got business leaders, civic leaders, yes, even labor leaders 
to come into the room and sit and talk. There were competing 
employers--I think you have touched on that--that sat at the 
table. They wanted result-based workforce development. We had a 
great dialogue. I think it was so critically important.
    Recently, we had Microsoft come into my district, and I had 
one ask for them. I said, come into the inner city in 
Chattanooga, because we have a large underserved inner city. We 
went to the Howard high school, which is a tremendous high 
school in Chattanooga, traditionally an African American 
school, in the inner city. The potential there was just 
incredible. The community knows that. Microsoft knows that now.
    Then we went to see second-graders at another inner-city 
school, and guess what? They were teaching me how to code. 
Computer science literacy is so, so important.
    So it is all of the above, getting everybody in the room, 
leaving politics, I think, at the door. That is so important. 
But we have a long way to go, and I am solicitous of your 
thoughts as to how we can get there. Because those jobs are 
there and need to be filled.
    With that and in the interest of time, I am going to ask a 
couple of questions, if I may.
    While improvements made by WIOA attempt to better focus the 
workforce development dollars, it is clear that other programs 
within the Departments of Education and Labor are meeting 
workforce needs. What can be done to better target funds to 
ensure programs adequately address the skills gap by preparing 
individuals for the jobs that are actually available in their 
region?
    I am going to ask you that question, and then in the 
interest of time I have one question, so I ask for a relatively 
brief response.
    Mr. Besharov. Well, I think key to that is the job centers, 
as we have talked about before, but they have to be energized. 
And I think there is a tendency for those job centers to not 
get the incentives that they ought to have to be aggressive 
about this.
    And so I may be the only one on this panel--I am not sure--
who thinks that you could have a pay-for-performance approach 
to those job centers. Let them get a reward for doing a better 
job. Let's think about the way we run the whole rest of our 
economy and give them the benefits if they do better placing 
young people--or older people.
    Ms. Baird. One thing we haven't talked about much but you 
may relate to is the potential for improving the efficiency of 
these centers, the coaches, the interface with business, 
through data and technology. They really are not as equipped as 
they should be to use knowledge through data and to use 
technology to provide services. So you find people coming in 
looking for online courses they can take to get certificates, 
and you don't have the online capacity to search for that as a 
career coach.
    The other thing I would encourage you to think about is, 
when you go back to your district, if you are the convener of 
businesses, the trainers, the job centers in your community, 
and you get them to create a skills outcome-based strategy for 
the community, you could have a tremendous impact and cause the 
leadership to develop. And if everyone on this subcommittee did 
that, it would get noticed.
    Ms. Nightingale. If I could just add one point, that the 
WIOA really does call for improving data and the quality of 
data for decisionmaking. And this will include consumer tools, 
hopefully, that are currently being developed to allow 
consumers to make better decisions about the results of 
different training providers, because some training providers, 
as we have said, are good, and some may not be as good.
    So one way to improve the connection between the training 
and the jobs is to up the quality of all training. And by using 
data labor market information, that is one way to do it.
    The WIOA also is calling for----
    Mr. Cole. We are going to have to hold there.
    Ms. Nightingale [continuing]. Continuing Federal funding 
for the longitudinal data systems, which could make a 
difference.
    Mr. Cole. Thank you very much.
    We will go next to my good friend, the gentlelady from 
California, Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And thank you very much for being here.
    Much of your testimony really supports what I am being told 
by businesses in my own district that say they can't find 
workers and many times have to train somebody in order to fill 
certain jobs.
    Before I ask my question, I just want to go back to the 
point that was made about parents being unhappy to hear that 
their children don't need to go to college, that there are 
other jobs where they can make more money. And I think that, in 
order to address that issue, we really need to look at it from 
a historical perspective and why it is that parents feel that 
way.
    Now, I was born and raised in a poor, working-class, 
minority district. And even going back to my parents, when they 
were in school and when I was in school--elementary, high 
school--we were never told that we should go to college. Most 
of the kids in the community that I grew up in were put into 
shop and made to feel less and they were failures.
    And so the thinking, then, of a lot of parents was that if 
your son or daughter went into one of the areas of skilled--
shop, secretarial--that they were then failures and that the 
only way their children could be successful was if they went to 
college. And so I think that is the kind of stigma that we are 
dealing with.
    And even when we are talking here about these workers and 
being able to get them trained to go into these trades, we are 
referring to them as low-skilled workers. And I think something 
that has to change is that we have to elevate those workers--
maybe they have a degree in, you know, whatever it is that the 
area of expertise is--and stop talking about it in terms of 
low-skilled workers going into the trades, but to elevate it so 
that there is a sense of pride in not only the person who gets 
that training but in the family themselves to be able to say, 
yes, my son, my daughter, they are plumbers or whatever, the 
same way that you would do if they say you graduated from 
college.
    And, quite frankly, you can graduate with a B.A. Or a B.S. 
And have no skills whatsoever to get a job. But if you are a 
plumber or you have training in electricity, you are much more 
employable than somebody with just a B.A.
    The question that I have, Dr. Besharov and Ms. Baird, is 
that you spoke about the decline in skills mastery among our 
country's adult population. And, as you know, while other 
nations are consistently improving their adult basic education 
levels, Americans have stagnated in their literacy, numeracy, 
and technological problem-solving skills. And in spite of this, 
the administration's skinny budget is silent on adult education 
programming, or title II.
    I am trying to skip through this because I have a lack of 
time here, but one of the things that concerns me is that there 
is a proposal of a 14-percent cut to the Department of 
Education, which could devastate the reduction in services that 
are likely. Thus, we have discussed opportunities for workers 
who have a high school education but no post-secondary 
education, but many of my constituents don't even have that.
    What is the value of the Federal Government investing in 
adult basic education? And in order to maintain America's 
global competitiveness, what improvements do you recommend at 
the Federal level for adult basic education?
    Mr. Besharov. Wow. And I have 51 seconds.
    First of all, I concur with everything you said about 
families and college and blue-collar. It is a giant problem. 
And for that, we are going to have to have a much larger public 
education program about where opportunity is in this country.
    As I tried to suggest, our labor force problems start in K-
12. And what we are talking about are people who go through 
elementary and secondary schools without the skills that young 
people used to get 20, 30 years ago. And there are many 
explanations for that. If I had more than 13 seconds, I would 
start with parents, because it is a family problem as well as a 
social problem.
    The Obama administration spent billions of dollars trying 
to improve the school systems of this country; the Bush 
administration before, and going all the way back to President 
Reagan and before that.
    I don't think we know the answers. If you notice, all of us 
here say, ``It is promising,'' ``This might work.'' And I think 
that is the way we should approach these issues, keeping an 
open mind.
    Now, I want--and to be very direct, one of the issues we 
have in Latino communities is so many people are not 
authorized, that it is extremely difficult to persuade them to 
go to college, because there are no white-collar jobs if they 
are not legally in this country.
    So the issues are layer on layer on layer. And I encourage 
you to think about these things--and I know there is politics 
in this building and have to be, but sometimes the solution is 
over here even though the problem is over here.
    Mr. Cole. Thank you. We don't allow politics on this 
subcommittee. Don't worry about it.
    Now I want to go to my good friend from Maryland for a 
minute, Dr. Harris.
    Mr. Harris. Thank you very much.
    It is a fascinating subject, and I find I agree so much 
with what has been said, particularly about, you know, the need 
for vocational training, and we kind of de-emphasize it.
    And, look, I am obviously the benefit of college education, 
but, you know, Professor, you actually bring up a good point; 
we import a lot of physicians. And yet I know a lot of people 
who could have gotten into medical school, would have made 
great doctors. And you know, actually, the predictability of 
who makes a good physician and who doesn't, you know, it 
doesn't correlate with the MCAT that much.
    But let me go back to something that you say in your 
testimony, which I think is very important and I would like all 
the panel to comment on, which is, you know, the horse is kind 
of out of the barn on a lot of these people. And why do I say 
that?
    Back when I was in Maryland and we talked about class-size 
reduction, you know, we brought up the Tennessee STAR study. 
Fascinating study. Shows that if you can't read by the third 
grade and you don't do well in algebra in the eighth grade, you 
are behind, because you haven't learned--think about it. I 
mean, we are talking about adult education, but if someone 
can't read well, you know, this is a problem.
    And it originates in K through 12. It actually originates 
in K through 8. If you can't process mathematically because you 
never had an algebra course and didn't learn, you know--and, 
you know, everybody hated algebra because it made you think, 
actually. It actually trained your brain how to think.
    And, you know, we talk about, well, the solution is 
community college. I talk to my community college presidents, 
who say the problem is everybody needs remedial--you know, not 
everybody--half the people need remedial education just in 
order to attend the college. Our failure begins way before, you 
know, the job training programs.
    So how do we reverse what is--and, again, Professor, your 
point, you know, 50 to 64-year-olds, yeah, they--on that PIAAC 
measure or whatever, however you pronounce it, they do well. 
Yeah, because when they went to school, you actually had to 
know, you know, what two plus two was, and you had to do 
algebra, and you had to read, you actually had to read.
    How do we do it? I mean, how do we go back to give people--
I am talking about the future generation, not the 50-year-old 
who now has to be retrained. But how do we prepare our young 
people for a lifetime of having to retrain themselves and 
acquiring these very basic skills, which I think you acquire, 
actually, in grade school? I think the foundation is in grade 
school, and our grade schools are failing.
    You know in our State, if you go to a Baltimore City public 
school, sorry. You know, you can create all the job training 
programs down the line, but you are not going to do as well as 
someone who goes to school in--fill in the blank--Japan or 
someplace in the United States.
    If the panel could comment just on that aspect. What do we 
do in grade school?
    Ms. Baird. I will jump in first.
    I think it is really important not to consider it to be 
either/or. There is no question that we want our K-12 system to 
work better, but I went to a school in rural Washington State 
which wasn't so hot, and my dad said to me when I was in high 
school, ``You better learn to type in case you need to work.'' 
A lot of sexism in that comment, but I won't go further. And I 
figured it out afterward, you know?
    And I think we need to appreciate that we can't wait until 
we fix the K-12 system to provide the right opportunities for 
people who are coming out of high school. So we are very 
focused on that middle-skill individual who has a high school 
diploma, maybe some college but no college diploma.
    But we have also gotten off--with this notion everyone 
should go to college and get a 4-year bachelor's degree, we 
have also gotten off of investing adequately in really good 
career and technical education.
    And let me just close with a description of what these jobs 
look like. These jobs are not just welders and electricians and 
plumbers, as we have talked about. These jobs are ultrasound 
technicians, radiology technicians. These jobs are computer 
user-support specialists, software quality assurance.
    You know, these are great jobs with great titles and great 
career paths, because if you get into these jobs, then we can 
maintain additional skills training thereafter. We have an 
example on a video we did, which you could look at on our 
website, a 3-minute video we did with Microsoft, which shows a 
female FedEx truck driver----
    Mr. Harris. If we could just--I would just like to hear 
from the other two folks on the panel.
    Ms. Baird. I am sorry. OK.
    Mr. Harris. Thank you.
    Ms. Nightingale. If I could just say--I am talking about 
individuals who come out of high school, because that is what I 
do most of my research on--we have some positive information 
from research on the importance of new instructional models 
that combine education--and maybe remedial education, but basic 
education--with occupational training in the community 
colleges. So that is one way.
    And then other things at the community-college level: 
accelerating the programs. Because what happens is a lot of 
people don't make it through the training programs either 
because they need remediation or because it is going to take 
too long.
    And so we have some good research coming out about the 
importance of those kinds of models.
    Mr. Besharov. If I could, one sentence--I know the time is 
up.
    We need to energize this system. And I think the only way 
to do it is not through top-down regulations but through the 
market. And I just think that we have to let job training 
providers make a big profit if they are successful and not pay 
them if they are unsuccessful.
    It is surprising, who does well in this world. You find 
someone and you say, wow, by every test you didn't make it, and 
they often do well. So I think we should unleash the market on 
helping these people.
    Mr. Cole. Again, based on order of arrival, we go to the 
gentleman from Wisconsin, Mr. Pocan.
    Mr. Pocan. Great. Thank you, Mr. Chairman.
    And thank you to the panel.
    There are a couple areas I would like to try to get to, so 
I will try to go fairly quickly. Ms. Nightingale and Ms. Baird 
both mentioned, kind of, the connection to work with training. 
And a couple questions around that.
    One, some of my colleagues and I are working on a project 
around the future of work and the future of labor and the 
fissured workplace. And there was an article recently by David 
Weil, President Obama's Wage and Hour Administrator, that made 
the case that worker training has been hurt by this explosion 
in these independent contractors, permanent temps, and the 
creative staffing arrangements that we are seeing.
    I think we were told by the Department of Labor last year 
that in five industries alone there are about 30 million people 
that are independent contractors, but they think there could be 
70 million people, actually, who are independent contractors 
right now. So this is making it even more difficult when it 
comes to job training.
    Could you just address that, especially in relation to the 
comments you made?
    Ms. Nightingale. Yes. That is a great point, because the 
nature of the relationship between employees and employers is 
clearly changing.
    And one thing that is happening, as I said, much of the 
training in the U.S. is employer-provided or at least based on 
the employment relationship between worker. So when you break 
that relationship, which is happening in a lot of places, 
whether it is through fissured arrangements within an industry 
or having contingent workers who are contractors, it eliminates 
that opportunity that previously would have been available 
through the workplace.
    And on top of that, there are other things that also break 
away, like paid benefits, paid leave, the group health 
insurance, as well as the training. So it is the combination of 
things that means, as a public policy, we need to be 
considering new ways to define those benefits that previously 
had only and primarily been provided through the employer-
employee relationship.
    Ms. Baird. We did a survey with the Future of Work 
Initiative that Senator Mark Warner and Mitch Daniels are 
leading, and it was published in Time magazine, and it was a 
survey of employers on this question. And we found that well 
over 60 percent of employers prefer to hire full-time workers, 
and they are going to part-time independent contractors often 
because they can't find the skills they need.
    So I think the problem we are talking about here is one 
where employers will be on the same side with people who want 
good, long-term jobs with all the benefits that were referred 
to. Employers want people that know their business, who will 
stick with them, and who they can retrain on the hard skills if 
they have the soft skills.
    Mr. Pocan. Let me do a followup on that. Because you 
mentioned your father's involvement with labor, and, you know, 
I come from a labor background. And, you know, we had a recent 
fight back in the legislature to make Wisconsin a right-to-work 
State. And it was interesting, it was a coalition of 400 
private-sector contractors came out against the change. And a 
large part of that was the apprenticeship programs that came 
from organized labor. They had great job training coming from 
the union and private sector in partnership through the 
apprenticeship programs.
    And could you just address that, with the changing nature 
of labor, what has happened to that area?
    Ms. Nightingale. Certainly, there is a lot of good evidence 
about the importance of Registered Apprenticeship. And 
Wisconsin is a leader in the Nation on apprenticeship. We know 
that a lot of businesses will use apprenticeship, whether it is 
formal Registered Apprenticeship or their own informal 
apprenticeship.
    There are some real advantages to the Registered 
Apprenticeship concept, which would be: portability of the 
credentials across States; usually, there is union partnership 
in making sure that the standards meet that journeyperson 
level; there is agreement upfront about what the wages are 
going to be during apprenticeship and then wage progression 
afterwards.
    And so that connection to, sort of, worker rights and 
worker standards as well as collective bargaining, I think, is 
an important part of what comes with the Registered 
Apprenticeship.
    Ms. Baird. In our poll with Pew, we found that 45 percent 
of the people that we were surveying about their view of the 
state of jobs and job training felt that the decline in unions 
had hurt workers. And we think that a lot of that has to do 
with the fact that people saw that there were apprenticeship 
programs and union job training programs before that don't 
exist.
    My own personal view is that the union should have a new 
line of business, which is to spread those programs to people 
who aren't members of the unions, because they really are 
excellent programs, by and large.
    Mr. Pocan. That is happening. My union in Minneapolis--5 
seconds--just became an officially registered community college 
in their apprenticeship program.
    Thank you.
    Ms. Baird. Very interesting.
    Mr. Cole. I thank the gentleman.
    The gentleman from Arkansas is recognized.
    Mr. Womack. Thank you.
    Thanks to the panel. So many questions, so little time.
    I have a couple of theories. One--and I think Professor 
Besharov touched upon it briefly in his testimony, or in one of 
his responses, and that is the stigma associated with 
vocational-type education, particularly down in the lower 
grades.
    And I also have a theory that, in some cases, our K-12 
education system is not really doing a very good job of helping 
with coping skills, you know, just how do you perform in a 
working environment.
    And another theory of mine is that we duped an entire 
generation of people into thinking their only pathway to 
success was to get a 4-year degree and good times will happen. 
I just believe that.
    So here are my questions. What is the role of the Federal 
Government right now, in your opinion, very briefly, in helping 
people develop the skills necessary to move the economy and the 
jobs that are present today that don't necessarily require an 
academic degree of some type, a professional-type degree? What 
is our role?
    Mr. Besharov. Limited. I mean, it is really important to 
say, we are 330 million people. It is a continental country we 
are in. And I hate to say this, but there are a lot of people 
doing a lot of things, many things very good. And so you can 
only do a certain amount here.
    Also, the job market, as we speak, is changing. You know, 
we wouldn't have had this conversation 5 years ago. Uber had 
just started; now it is whatever-thousand drivers and so forth 
and so on. So I think what the Federal Government has to do is, 
as they say in sports, keep its knees a little loose. It has to 
go with change. It has to facilitate change at the local level.
    Some of the advantages of WIOA are that it moves more of 
that decisionmaking to the State level and to the local level. 
So I would encourage saying we don't have all the answers here. 
What we want to do is maximize the framework so that local 
people make decisions for local conditions.
    Mr. Womack. I am glad to hear you say that.
    So can I also assume that you would believe that industry 
has a role in this entire process? I.e., if an industry 
requires robotics, if that is a key part of what their 
manufacturing process is all about, shouldn't we have that 
technology down in some of these grades where we are teaching 
some of these skill sets? Not, you know, first-generation 
stuff, but I am talking about the stuff that is out there 
today, the highest-quality-type machinery, shouldn't we have 
that down there in the teaching areas?
    Mr. Besharov. Yes, but if you determine what it should be 
here, by the time you finish holding hearings, do legislation--
--
    Mr. Womack. I get that is not a good idea. Totally 
understand that.
    Mr. Besharov. So you have to create a system where someone 
at the county level--your program says, we have to do this. 
You, I think--I hate to say this--you have to facilitate the 
localities to do the right thing.
    It is not just--I don't want to be wishy-washy here. It is 
not give them full freedom. I mean, if we gave the localities 
full freedom, they would steal us blind. So that is not the 
point. The point is, though, creating a system that encourages 
accountability but risk-taking at the local level.
    Mr. Womack. I have another question, more of the academic 
sort, and that is: I think there is a point in time in a young 
person's educational curriculum--personally, I think it is 
around the eighth grade, but I am no expert--that we ought to 
be able, with some degree of certainty, be able to channel an 
individual maybe away from that college pathway and maybe 
direct them more to something that would be very beneficial to 
them and profit handsomely from it if we put them on some kind 
of a career and technical path.
    What is that grade? Where should we be able to determine 
when a young person is more predisposed to industry and less 
predisposed to college?
    Ms. Baird. I can't tell you when the grade is, but I can 
tell you, when someone is applying for funding to go to school, 
if they can't use it for an innovative program that is going to 
connect them with a job, if they can't use it for career and 
technical education, they can only use it for seat time in a 
community college or a 4-year college, then they are going to 
make the decision to opt for seat time.
    And that is where you are finding people opting out of 
education altogether, because they don't want to spend the 
money on something that they can't see leading to a good job 
and a good career, but they don't want--they don't to get the 
loans and have the debt, but they don't know where else to go 
either.
    So I think that is a critical point in time for Federal 
Government intervention, to examine the interventions we are 
making.
    Mr. Womack. I am out of time. Thank you.
    Mr. Cole. My friend has more confidence in our ability to 
influence eighth graders than I do.
    With that, we will go to my good friend from Massachusetts, 
Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman, Ranking Member DeLauro.
    And thank you to all the panelists for being here today.
    I have a question for all of you.
    Last year, I was proud to be the lead Democratic sponsor, 
with G.T. Thompson on the Republican side, for a bill that 
passed the House overwhelmingly that really looked at the 
Perkins Career and Technical Education Program and put in what 
we thought were some important reforms. But it stalled out in 
the Senate, mainly over concerns on the Secretary of 
Education's role.
    And I think it did a lot of the things Dr. Nightingale 
referred to: these links to work, making sure we had private 
and public collaboration from the application process right 
through a needs assessment, and really worked on reducing what 
we still see as a leftover stigma that we have been referring 
to many times today, to show this is a great career path and 
really can help link our students with a job market and a 
flourishing career.
    So my question for all of you, as we look at some of the 
concerns that we found in the Senate, is: Do you think--and I 
know, Mr. Besharov, you have talked about, you know, some role, 
limited role. But do you think that the Secretary should have 
the ability to require measurement of program outcomes, 
alignment with local market needs, and racial equity for 
programs that are asking for Federal funds?
    Mr. Besharov. Go ahead.
    Ms. Nightingale. If I could answer that, certainly, WIOA 
provides the framework for doing that, with alignment and 
strategic planning by both the workforce development system and 
the education system, which can include Perkins, as well, as 
well as adult education.
    And part of that, I think, depends on having the 
appropriate performance metrics so that you can do that and, 
also, picking up on Ms. Baird's point, having up-to-date 
information on labor market trends so that that third piece of 
what you talked about, aligning to needs, is based on the best 
available data. And the Federal Government, I think, can play 
that role.
    If the metrics are correct and if the data are available 
and if the agencies can actually coordinate and develop the 
strategic plans, then they also can be held accountable for 
those results. So it is a combination of having the right data 
and the right metrics to do that.
    Ms. Clark. Great. Thank you.
    Ms. Baird. I would agree that your effort is a really 
critical tool and that if you can align the metrics with career 
outcomes as well as educational outcomes that that will make a 
tremendous difference in Perkins Act effectiveness and also the 
ambition to connect educational institutions and employers.
    I believe that needs to be done systemically, not just one-
off, one educator with one employer, because that will never be 
scaleable. But if a community, through the direction in the 
various Federal programs, has a collaborative like we do in 
Skillful, where you have the businesses, the workforce centers, 
the educators all creating a system in a State, that that is 
really essential for transformation at scale.
    Ms. Clark. And do you see it as an appropriate role for the 
Secretary of Education, to make those requirements, if we are 
using the right metrics, to have that requirement lie with the 
Secretary?
    Ms. Baird. Yes, I think so, because these programs exist, 
the Federal investment is being made, and if it is not made 
with an ambition for the program that we think is going to be 
of value to the workforce, then we are not fulfilling the 
responsibility of the Federal Government.
    Ms. Clark. Mr. Besharov.
    Mr. Besharov. Well, I think, for me, we have heard three 
times people say ``the right metrics.''
    Ms. Clark. Right.
    Mr. Besharov. And you have heard me suggest this a number 
of times: The metrics change every year. And one of the 
problems is, when you establish metrics from Washington, it is 
extremely difficult to change them yearly, even every 5 years. 
So, yes, there should be metrics, but the right metrics, to me, 
are going to have to be much more creative.
    I talked to a workforce development person last week, and 
he told me that they spent 2 years working on the regulations 
to implement the reporting requirements under WIOA. He said he 
has done nothing but that for 2 years. And I am saying to 
myself, oh, I want to know what you are counting and all, but I 
wish you had spent some of that time improving your programs.
    So it is a balance. And I don't know anything about that 
legislation and where it was, but I would pass for, you know, a 
lot less data but more flexible data.
    Ms. Clark. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    We will next go to my other good friend from California, 
Ms. Lee.
    Ms. Lee. Thank you very much, Mr. Chairman.
    Mr. Chairman, may I have a moment of personal privilege to 
introduce somebody?
    Mr. Cole. You certainly may.
    Ms. Lee. One of the individuals--or the individual who 
really is responsible for my being here as a Member of Congress 
is Chloe Drew, who works for Markle Foundation. But, also, I 
just want to say what a wonderful role model she is for young 
women. And she left California to go on to bigger and better 
things, but she is still someone who I love dearly.
    And it is so good to see you here today, Chloe.
    Ms. Clark. She came from Massachusetts.
    Ms. Lee. And from Massachusetts, that is right. Born in 
Massachusetts and family lives in Massachusetts. So we claim 
her.
    So thank you. And it is good to see the work that you are 
doing now in continuing to, you know, really fight for social 
justice for everyone.
    And, Mr. Chairman, I just want to preface my comments by 
using my own personal reference as a student in high school. My 
family was determined I was going to college, and the school 
was determined I wasn't. And so they continued to insist that I 
take nonacademic courses. And, of course, my mother, being a 
rebel that she was, said, no, no, no, she is going to take 
academic courses.
    But, also, my mother said, ``But you better take typing,'' 
she said, ``because you better have a skill.'' So I won all the 
typing contests, and, lo and behold, typing is what got me this 
far, through college, as a single mom taking care of two kids.
    And I share that because the importance of learning a skill 
and having a skill and vocational education in high school, 
regardless of what path you go into, is extremely important. 
And as a person of color and as a young girl--and, many times, 
now, still, young girls and people of color, students of color 
are still, you know, trapped and not given the opportunities to 
go into vocational ed or college track programs and should be 
offered both and should be told that both are valuable and you 
need to know how to work even if you want to go to school.
    But getting a vocational education is incredible in itself, 
because you can, as Congresswoman Roybal-Allard said, get a 
good-paying job and take care of your family.
    And so one of the sectors that we are working on as a 
member of the Black Caucus is TECH 2020, which is the tech 
sector. And by 2020 there will be 1.4 million new tech jobs. 
Seventy percent of these jobs will go unfilled. And a large 
percentage of these jobs don't require a college degree.
    And so Congressman Fleischmann and I, we are trying to 
figure out a strategy to bring forth something for a 
$250,000,000 grant program for computer science for all. And I 
want to get your take on how you see moving into the tech 
sector for young people in high school.
    Because, again, looking at the diversity and inclusion 
issues, very few people of color are in the tech sector. And I 
represent the Bay Area, and Silicon Valley is next-door, and my 
constituents can't even get jobs there for a lot of reasons, 
and they are highly qualified to do that.
    Ms. Nightingale. I would just second your concern. And I 
also grew up in Massachusetts, and as a junior in high school, 
I always did very well on math and science in my testing. And 
the guidance counselor said, oh, you probably should be a 
teacher or a journalist, which are fine occupations, but I had 
wanted to do something more technical, but I was discouraged. 
Eventually, I made it.
    But we know that introducing young females as early as a 
possible to STEM and technology occupations can make a 
difference and that some of the research that has been done 
shows that when you ask young people, whether they are males or 
females of any race, at very young ages they are optimistic 
about they are future. It is somewhere around middle school 
when it changes, and especially for young girls. Their horizons 
sort of narrow unless they have the coaching, the support, and 
the exposure necessary through tech programs, STEM programs, 
gender equity studies, and the career pathways that are open.
    And so having more introduction of those technological 
jobs, which Ms. Baird has also talked about, can make a 
difference for young people who otherwise may not have 
opportunities on their horizon.
    Ms. Baird. I want to thank you for the reference to the 
magnificent Chloe Drew, from whom we have both benefited, and 
just comment that, as you think about this really excellent 
program, also think about the challenge that it is for people 
to see themselves in these jobs. Even if they get some of that 
training, they learn to code in elementary school or something, 
it is still hard for people to think of themselves in jobs that 
their parents or their neighbors don't do.
    So the social media companies that are in your district 
could be enormously valuable in using those platforms. You 
know, 95 percent of people under 24 or something like that--my 
numbers aren't exactly right--have a smartphone. And everyone 
with a smartphone should be able to get a smart career. And 
they ought to be able to see what these careers look like as 
they are playing with their smartphone and see people who are 
doing these jobs.
    So we have a lot of new tools that can complement this and 
have people of color, you know, as kids are playing with their 
smartphones, have them see other people of color, other women 
in advanced manufacturing, working as an ultrasound technician, 
doing IT-path jobs. And then I think they can relate to it and 
really capitalize on the education.
    Mr. Besharov. I seem to always have 30 seconds, which is 
all right.
    There is a provision in WIOA, which I think had bipartisan 
support, which allowed States to spend up to 5 percent of their 
funds on pay-for-performance contracts. And these are contracts 
I keep going back to; I am a Johnny One Note on this. These are 
contracts that say to the training providers, if you don't 
succeed, we don't pay you.
    Now, that had bipartisan support. It had strong support 
from the Obama administration, had strong support from at least 
some Republicans in the House and the Senate. That money is 
available at the State level to encourage the kind of risk-
taking that you need to do in this. Otherwise, the system is--
the young people you are talking about have to take out loans, 
and if it doesn't work, they bear the risk.
    So this provision, which had bipartisan support, is 
something that I hope many people around the country will look 
at.
    Ms. Lee. What is that? WIA? What was that?
    Mr. Besharov. The Workforce Investment----
    Ms. Lee. Oh, Workforce Investment--oh, ok. Gotcha.
    Mr. Besharov. The new--I am sorry. WIOA and WIA.
    Ms. Lee. Yeah. Gotcha. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Besharov. If your staff wants, I will be glad to send 
some material.
    Ms. Lee. Thank you.
    Mr. Cole. Just so that we can try to get another full round 
in, we will move to 2 minutes now, so we will try to get as 
many people as we can to ask a question. And let me start with 
myself.
    I am not asking you to pick losers, but we always have to 
make decisions around here, so I am asking you to pick some 
winners. If you looked at the Federal programs that we have, 
knowing that they all can be improved, but if you had to pick 
out two, three, whatever, that you thought were particularly 
effective, that, you know, if we had extra money we should 
double down on, you know, I would like you to point us in that 
direction.
    I am going to start with you, Dr. Nightingale, because 
obviously you have great expertise in this area.
    Ms. Nightingale. Well, what many people have already said, 
I think, Registered Apprenticeship would be near the top of the 
list. There is a lot of good evidence on that. There is also 
good evidence on YouthBuild. And there is good evidence for 
continuing to invest in Job Corps.
    So I think all of those provide opportunities for combining 
skills, education, and support services, which we think are the 
critical ingredients.
    Mr. Cole. Thank you.
    Ms. Baird.
    Ms. Baird. I am not the same degree of expert on the 
Federal programs, but I would say that, as the systems work on 
the ground, the people who are needed, there is much greater 
need for labor data, good labor skills data. And the workforce 
centers and the coaches that they provide are of enormous value 
in the system.
    Ms. Nightingale. Yes.
    Mr. Cole. Thank you.
    Dr. Besharov.
    Mr. Besharov. Well, if you asked any 10 economists who look 
at these programs, I think at least 9 of them would say that 
the--I am going in the other direction--the Displaced Worker 
Program is in trouble. And you ought to take a real good look 
at it, decide whether it can be fixed and, if not, be quite 
creative.
    I don't think--and I will stand to be corrected here--I 
don't think there is an evaluation that is widely trusted that 
finds the program effective.
    Mr. Cole. Thank you.
    We will go to the ranking member next.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    What I want to do is to see where we go from here.
    Dr. Nightingale, you have talked about some programs you 
think that we ought to build on.
    Ms. Baird, you have talked about programs--or the efforts 
you think that we ought to make.
    How do we marry what you are doing in Colorado to what is 
already as part of the Department of Labor and training 
programs?
    I want to get back to the digital economy, in this sense, 
because that is what we are trying to do. And where in that 
space can what you are doing with a digital economy and 
training people--do boot camps fit in here----
    Ms. Baird. Absolutely.
    Ms. DeLauro [continuing]. With the coding? And should we 
then be engaged in this kind of an effort?
    What I am trying to do is to get the two of you married 
here to figuring out what we have, what is working, what is not 
working, and what we believe we need to do in order to move 
forward.
    So I am going to let--well, I have only 50 seconds here to 
go.
    Ms. Nightingale. I will just start and just take----
    Mr. Cole. We will give you a little extra time.
    Ms. DeLauro. OK. Thank you.
    Ms. Nightingale. I will just take a minute.
    I think that the WIOA framework is there to allow it to be 
done. And, unlike WIA, where there had to be a sequence of 
services before you could get to training, there is an 
opportunity to develop, support, and fund more creative and a 
wider range of training programs, including the kinds that you 
were talking about there.
    So what I think a major Federal role--and many of you have 
asked, sort of, what is the Federal role. I totally agree with 
data, that is what I spend my life on, but also on technical 
assistance, so that the Federal role should provide, sort of, 
the guidance and the information to let more places know about 
the innovative programs.
    Ms. DeLauro. And that includes the coaches that----
    Ms. Nightingale. Yes.
    Ms. DeLauro [continuing]. Ms. Baird just talked about and 
the kind of technical assistance that they ought to have----
    Ms. Nightingale. And the employer partnership.
    Ms. DeLauro [continuing]. And the business engagement, as 
well----
    Ms. Nightingale. Yes.
    Ms. DeLauro [continuing]. In that effort to develop the 
tools.
    Yes?
    Ms. Baird. Yeah, I think if you encourage, in the way only 
you can, the data transparency that we are talking about, you 
will have better labor data on where the growth jobs are, you 
will have better Labor Department data--I mean, O*NET has the 
foundation for this but really needs to have much more dynamic, 
current data. And so, if you invest there, you will have better 
data on not just the growth jobs but the skills that are needed 
for these jobs, which will enable employers to search for 
people based on skills, not on the barriers of the bachelor's 
degree. And it enables the educators to understand what they 
should train to, and that is also missing in the system.
    Then, better data transparency on what the outcomes are of 
programs will show that a lot of the boot camps and other 
innovative online education programs--the Starbucks College 
Achievement Plan grew out of our work, which is an ASU online 
program for people who work at Starbucks. And, you know, these 
things, if they can demonstrate what they deliver, then there 
will be investment in them, people will find them, will get 
into better career paths.
    Ms. DeLauro. And help those 70 percent of the people who 
don't have a degree.
    Ms. Baird. Absolutely. Right.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    Since, again, we did have some people leave, we are going 
to give everybody an extra minute or 2, so if you need to go to 
3 or 4--that way, we will be able to get everybody done.
    So, with that, my good friend from Maryland is recognized.
    Mr. Harris. Thank you very much.
    And, Professor Besharov, you are not going to be the only 
Johnny One Note around here. I am going to return--and I 
learned a new word today, ``numeracy.'' I don't even know if I 
am pronouncing it right. But, you know, in your testimony here, 
it is, you know, ``the ability to access, use, interpret, and 
communicate mathematical information and ideas in order to 
engage in and manage the mathematical demands of a range of 
situations in adult life.''
    Well, I will tell you, I am always struck that, you know, 
you go into McDonald's and the person behind the register can't 
make change. They literally can't make change. For heaven's 
sake, they are in high school, and if they don't have a machine 
in front of them that tells them, you know, how to subtract and 
add, they can't do it.
    So I am going to return again--because, you know, I am very 
worried that, you know, this PIAAC measure says the U.S. ranks 
21st out of 23 in numeracy. I mean, literally, our children 
coming out of grade school and high school don't have the 
mathematical skills to engage in the workforce. I assume that 
the, you know, PIAAC decide these are things that are important 
to engage in the workforce.
    So we are going to have Secretary DeVos--you know, this is 
an interesting subcommittee because we now have labor; we also 
have the Secretary of Education is going to come in. This 
Secretary of Education has taken a lot of heat for actually 
implying that our public school systems don't really do too 
good a job and that maybe they need a little reform. Boy, this 
PIAAC measure indicates, yes, our public school system is, in 
fact, not doing a very good job, and I would offer that maybe 
they do need a little bit of reform.
    Where does the failing public school system fit into our 
desire to be a leading participant in a 21st-century, global 
economy with an employee base that has the skill sets necessary 
to have the flexibility in the 21st century? I mean, I have to 
believe that it starts way at the beginning.
    So I am going to ask you one more time, because I don't 
think you quite answered it last time, where does the K through 
8 public school system fit into this?
    And, in fact, should we reward those that don't--I mean, we 
send billions of Federal dollars to public schools that can't 
teach someone to add and subtract.
    Mr. Besharov. So let me start, and let me start at 50,000 
feet.
    OK. So our country is in a period of transition. Our 
demographics are changing as we speak. The percentage of 
single-parent households is very high. I heard what you said, 
but the answer--I was raised by a single mother and a 
grandmother, and I can tell you, things were tight. It would 
have been nice to have another adult in the house. I am not 
going to call him a man, but it would have been nice to have 
someone else there. It is more difficult. So we have a 
demographic problem.
    These kids come to schools that are unprepared in many 
ways. Many of the schools look just like the schools I went to 
more years ago than I want admit. They have to go through some 
process of modernization that we haven't seen yet. And, my 
goodness, we have spent a lot of money on it. If the answer 
were just money, you would hear more people say, ``More 
money.'' Some change has to happen.
    But I want to say for this, for the workforce investment, I 
don't want us to leave this hearing thinking that after high 
school these kids are hopeless. Somebody else can decide if 
they are hopeless, and we should not be doing that. We should 
be creating a system that says, everyone gets another shot--
another shot, a third shot, as many shots as you want.
    But we need a different system for paying for it. We need 
to have a system that creates incentives and benefits for the 
people who will invest in these young people. And that is what 
I have been trying to encourage, is some of it is in the law, 
some of it just takes a little creative thinking.
    But I hope we don't leave this conversation by saying that 
these kids who have not done well K-12 will never do well. I 
don't think that is true.
    Ms. Baird. I think it is really important, as I said before 
and as the professor said, to focus on both K-12 and also 
appreciate that there is a second chance for those who haven't 
done well in K through 12.
    And I would point you, for an example, to Delaware, which 
won the Race to the Top, you know, I think twice, I mean, was 
extremely successful in the efforts to look at its traditional 
educational programs and create reform but also has a pathways 
project that is taking kids in high schools and getting them 
into these alternative pathways to work that looks like it is 
also extremely promising. So I think we need to look at both.
    Mr. Cole. With that, we will go to Ms. Roybal-Allard.
    Ms. Roybal-Allard. I have a question for both Dr. Smith 
Nightingale and for Dr. Besharov, and it has to do with Job 
Corps.
    An economic cost-benefit study of the Job Corps program 
from 2008 found that it was the only Federal training program 
that increased earnings for youth ages 16 to 24 who experienced 
serious barriers to employment. And, to date, 87 percent of Job 
Corps graduates are able to find a job, go on to higher 
education, or enlist in the military. And according to a 
Mathematica Policy Research study, even among lower-performing 
Job Corps centers, students experienced improvements in their 
future financial earnings.
    Dr. Smith Nightingale, the President's skinny budget 
recommends closing Job Corps centers that do a poor job 
educating and preparing students for jobs. Is there value in 
helping these centers to improve, or are there other viable 
alternatives for the high-needs constituency that Job Corps 
serves?
    And I am just going to quickly ask Dr. Besharov the 
question that I have for him.
    In your written testimony, you suggest that there are 
opportunities for innovation within Job Corps. What models 
would you recommend to strengthen the program?
    Ms. Nightingale. Thank you.
    Certainly, Job Corps has been evaluated a lot, and, you 
know, there is some good evidence of the importance, as you 
said. It is also true that not all of the Job Corps centers 
perform at the same level. I am always the one that says we 
should go for performance improvements, and there should be 
sort of a strategy for improvement before considering other 
repercussions because of poor performance. And that is built 
into the program as well.
    I think that some of the innovative approaches also coming 
out of the evaluation findings are saying it works particularly 
well for the older group of students that are in Job Corps. And 
so some of the innovative demonstrations that are being tested 
right now are trying more to integrate the education and--basic 
education with occupational training for the younger cohort of 
participants in Job Corps.
    So I would say, improve and keep testing innovative ways to 
show how to improve the program models that are out there and 
linking them as close as possible to occupations that are in 
demand.
    Mr. Besharov. Quickly--I think I am right about this--I am 
told by people I trust that the Job Corps model is extremely 
difficult to apply to young mothers. The Job Corps model is a 
residential experience far away from your children. And so, if 
you are asking me where to look to make it relevant to the 
contemporary world we live in, not 50 years ago, it is to ask 
the question, has it changed as our populations have changed?
    As I said, I am not sure about this, but people I trust 
have told me that this is a glaring problem. And you can think 
about--as soon as I say it, right? It is a residential program. 
Either grandma or grandpa has to take the kids or a young 
mother is not going in this program.
    Ms. Roybal-Allard. Thank you.
    Mr. Cole. The gentlelady from California, Ms. Lee.
    Ms. Lee. Well, I just have to follow up by saying that I 
know for a fact, in my area, at Treasure Island, the Job Corps 
program serves many, many young people who never would have had 
those opportunities, whether they have children or not. And so 
I don't think it is either/or. But I think in no way should we 
cut Job Corps centers because of this population of kids who 
would not have those opportunities.
    Mr. Besharov. That is right. I hope I didn't sound as if I 
was saying that. I was asked what we could do to improve the 
program, and what I said was, take a good, hard look at whether 
it can serve single mothers. That is all I----
    Ms. Lee. OK. Well, that is good. That means expanding them 
and not cutting the budget.
    Ms. DeLauro. Would the gentlelady yield?
    Ms. Lee. Yeah.
    Ms. DeLauro. Just very, very quickly.
    In fact, the Job Corps centers, like the one in Iowa, has 
Head Start as a part of it, in addition to which, if we wanted 
to do something to make it more meaningful, then maybe what we 
would do is expand the opportunity for Head Start at the Job 
Corps sites.
    Thank you.
    Ms. Lee. Yeah. And that is the point, in terms of expanding 
opportunities, by opposing the severe budget cuts that are in 
this Trump budget. When you look at the Department of Labor, 
there is a 21-percent cut, which decreases Federal support for 
training, employment service formula grants, all of the efforts 
we are talking about here now. I don't know how we are going to 
do them with this Trump budget that we are faced with.
    And not only with regard to job training, Department of 
Labor, but when you look at SNAP cuts, when you look at 
housing, when you look at all of the other very severe budget 
cuts, what I am concerned about and what I would like to hear 
from you is, just in terms of our safety net programs that are 
being cut, what is that going to do to our job training 
programs, people who oftentimes need the safety net to get 
through the job training program so they can go on and get a 
job?
    Ms. Nightingale. If I could just add that, I think that you 
raise some excellent points. And, in fact, some new research 
from the Institute for Women's Policy Research that looked at 
support services, which range from income supports but also 
transportation, child care, family emergency situations, other 
kinds of issues, clothes and things--those are the kinds of 
supports that are needed in order to participate and finish 
training programs and then also successfully enter the labor 
market.
    So those kinds of supports, whether it is coming from SNAP 
as income support or from social services programs with child 
care, community services, community block grant services that 
go down to the local level, all of those, where we have 
evidence that those are important ingredients for support, 
particularly for women, but not just for women, men as well. 
Especially transportation, that is a huge need for support 
services that does come out of those other programs, as well as 
the workforce investment system.
    Ms. Lee. Yeah.
    Mr. Chairman, I think, once again, this subcommittee, you 
know, we can accept these cuts or not. And I think the 
testimony we are hearing really demonstrates that the budget 
that has been presented, at least in the skinny budget, is 
really going to take us in the wrong direction, if we are 
really concerned about vocational training, job training, and 
helping people lift themselves out of poverty into the middle 
class. I mean, this is pretty bad, if you ask me.
    Mr. Cole. Well----
    Ms. Lee. But thank you very much for your testimony.
    Mr. Cole. Thank you. And, as always, my friend makes a good 
point, but I always like to remind my friends, I don't think 
President Obama's budget ever got a single favorable vote on 
the floor, and, you know, I suspect a proposal is a long way 
from reality. But we will see, because we are still in that 
process, and it is certainly appropriate to make the point.
    And, with that, I am going to go to the ranking member next 
for any final comments or questions she wanted to pose.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    We didn't get much of a chance to talk about dislocated 
workers, what it is that we can do about them, because there is 
mixed information about them. But we need to be thinking about 
them. We cannot turn our backs on them.
    We didn't get to talk about women and the 
underrepresentation in apprenticeships and the--actually, you 
have one in four Hispanic women, 24 percent, and close to one 
in five black women, 18 percent, who work full-time and earn 
less than $400 per week. And they are woefully underrepresented 
in apprenticeships programs. They make up nearly half of the 
workforce. So how do you provide that kind of economic 
opportunity?
    We didn't get a chance, honestly, to talk about whether we 
should be frightened or not frightened by automation and where 
that may take us in the future.
    And we just barely touched the issue of support services 
that, in fact, could assist people in being able to take 
advantage of training programs.
    But I will tell you what I am really--I am encouraged, I am 
not discouraged by; it is how we have changed direction at the 
Department of Labor in a number of the programs that can 
effectively provide skills training. And I am very, very 
excited about the opportunity to take this new effort based on 
research and data and not anecdotal that says that we have an 
ability to--I want to know where in Ms. Baird's process the 
Federal Government can be engaged and how we can help you do 
what you do.
    Because I think we are on to something about a digital 
economy and looking forward and not allowing those 70 percent 
of the people to feel that they are invisible, that they are 
not there, no one cares about what their lives are about. And I 
think it is important that the Federal Government step up and 
that there ought to be unbelievable conversations with us on 
what the programs are that are working and what the new 
opportunities are for the future--it is a new economy; it has 
to be regarded as an industrial revolution--and where we go 
from here.
    And without the collaboration of Federal and private, yes, 
and local efforts, we are not going to be able to bridge that 
gap. A lot of questions unanswered yet, but I think the 
conversation begins.
    So I thank you very, very much, all of you, for being here 
today.
    Mr. Cole. Well, as always, my friend and colleague makes a 
great point, that we need more hearings.
    Ms. DeLauro. Amen.
    Mr. Cole. We try to be robust. We have picked up the pace. 
But to paraphrase my friend, Mr. Womack, so many questions, so 
little time; so many topics, so few hearings.
    But, you know, this has been a very valuable hearing. And, 
you know, I hope you gathered from the questions here, the 
focus really from every member here was, how do we make these 
things work better? It wasn't getting rid of this or cutting 
this. It was, you know, what are the smart things we could do 
to stretch the dollars we have and refocus, if we need to, to 
places that make a difference.
    And you have, all three, helped us understand that issue 
with much more clarity than I think we had coming into it. But 
it is a topic we ought to revisit. I actually agree very much 
with my friend. It is a big, complex topic, and it is an area 
that we just haven't done as well as we could. Was it my friend 
from Maryland who--you know, we all know this needs to start a 
lot earlier than it does. And we didn't get a chance to talk 
about how to push some of these programs down, frankly, in 
terms of age scale. And I thought my friend made a very good 
point.
    And I appreciate, particularly, your observation about 
single moms and Job Corps. You know, the minute you say it, you 
go, ``Yeah.'' So that is something we do need to think about, 
because, as I think the testimony showed, we see Job Corps as a 
good program and one that has benefited a lot of people, but, 
you know, here is one where our changing demographics--maybe we 
haven't been thinking about this nearly enough in terms of that 
particular segment of our population.
    But I again would just conclude by thanking all of you for 
giving us your time and your expertise and your talent. And we 
will be calling on you, I am sure, again in the future, and 
please keep the lines open, because it is extremely helpful to 
this committee as it tries to wrestle with the decisions that 
are in front of it.
    So, with that, I declare the hearing closed.


        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       [all]
</pre></body></html>
